<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-22]
[From the U.S. Government Printing Office]


                                                  S. Hrg. 109-22, Pt. 7
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1042

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2006 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                       MARCH 16, APRIL 4, 7, 2005


         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

21-108 PDF                       WASHINGTON : 2005 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  
























                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                    JEFF SESSIONS, Alabama, Chairman

JAMES M. INHOFE, Oklahoma            BILL NELSON, Florida
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
LINDSEY O. GRAHAM, South Carolina    JACK REED, Rhode Island
JOHN CORNYN, Texas                   E. BENJAMIN NELSON, Nebraska
JOHN THUNE, South Dakota             MARK DAYTON, Minnesota

                                  (ii)


















                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
              National Security Space Policy and Programs
                             march 16, 2005

                                                                   Page

Teets, Hon. Peter B., Acting Secretary of the Air Force..........     7
Cartwright, Gen. James E., USMC, Commander, United States 
  Strategic Command..............................................    16
Lord, Gen. Lance W., USAF, Commander, United States Air Force 
  Space Command..................................................    33
Dodgen, LTG Larry J., USA, Commander, United States Army Space 
  and Missile Defense Command....................................    37

              Strategic Forces and Nuclear Weapons Issues
                             april 4, 2005

Cartwright, Gen. James E., USMC, Commander, United States 
  Strategic Command..............................................    85
Brooks, Hon. Linton F., Administrator, National Nuclear Security 
  Administration, and Under Secretary of Energy..................    95

                   Ballistic Missile Defense Programs
                             april 7, 2005

Wynne, Hon. Michael W., Acting Under Secretary of Defense for 
  Acquisition, Technology, and Logistics.........................   133
Cartwright, Gen. James E., USMC, Commander, United States 
  Strategic Command..............................................   137
Duma, David W., Acting Director, Operational Test and Evaluation, 
  Department of Defense..........................................   144
Obering, Lt. Gen. Henry A., III, USAF, Director, Missile Defense 
  Agency.........................................................   150

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

                              ----------                              


                       WEDNESDAY, MARCH 16, 2005

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

              NATIONAL SECURITY SPACE POLICY AND PROGRAMS

    The Subcommittee met, pursuant to notice, at 3:04 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, Inhofe, and 
Bill Nelson.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: William C. Greenwalt, 
professional staff member; Robert M. Soofer, professional staff 
member; and Kristine L. Svinicki, professional staff member.
    Minority staff member present: Madelyn R. Creedon, minority 
counsel.
    Staff assistants present: Andrew W. Florell and Catherine 
E. Sendak.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; Bob Taylor and Matt Zabel, 
assistants to Senator Thune; and William K. Sutey, assistant to 
Senator Bill Nelson.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. Gentlemen, you may take your seats. The 
hearing will come to order.
    We meet today to receive testimony on military space 
programs and policies of the Department of Defense (DOD). I'm--
Senator Nelson has not joined us yet. I expect him to join us. 
He'd be the ranking member on this subcommittee. I'm somewhat 
new to space issues. He has had a long-time interest in that, 
and he'll be an excellent participant in these discussions.
    I'm pleased to welcome today's witnesses, who, 
collectively, represent the views of the DOD on military space, 
policy, and programs.
    Our first witness, the Honorable Peter B. Teets, Acting 
Secretary of the Air Force, holds a number of other job titles 
relevant to today's hearing--a number, really--Under Secretary 
of the Air Force, Director of the National Reconnaissance 
Office (NRO), and the DOD Executive Agent for Space. Mr. 
Secretary, I understand you may be leaving us before too long, 
and I want to take this moment to express my appreciation, and 
that of this Senate and this committee, for your tremendous 
service to America, your commitment to this country. You've won 
respect across the aisle, you've won the respect of people 
throughout the DOD who care about these important issues.
    Thank you.
    Secretary Teets. I thank you very much, Senator. That's 
very kind of you to say, and I have enjoyed my association with 
this committee and with Congress. Thank you very much, sir.
    Senator Sessions. You've put America first, and you've 
always tried to do it the right way, and I believe you've 
achieved tremendous success at that.
    Our other witnesses include General James E. Cartwright, 
Commander of the U.S. Strategic Command (STRATCOM)--General 
Cartwright, good to to have you with us; General Lance Lord, 
Commander of Air Force Space Command; Lieutenant General Larry 
Dodgen, Commander of U.S. Army Space and Missile Defense 
Command; and Deputy Chief of Naval Operations for Warfare 
Requirements and Programs, Admiral Joseph Sestak, Jr. We're 
delighted to have you here.
    I thank all of you for your service to our Nation in this 
important area of our Nation's defense and for the commitment 
you've given to making our Nation unsurpassed in issues 
relating to space.
    It goes without saying that U.S. military space 
capabilities are, today, second to none. A lot of hard work, 
ingenuity, and national treasure has gone into obtaining this 
capability, and it has paid dividends in recent military 
conflicts. It is also fair to say that potential adversaries 
have come to realize the importance of space for the United 
States military and many of its allies. It is not unreasonable 
for us to assume that they will try to exploit our 
vulnerabilities in this area.
    During last year's space hearing, this Subcommittee, under 
the leadership of Senator Allard, emphasized space acquisition 
and management issues. It was noted that the present generation 
of military space systems are being modernized in virtually 
every mission area: strategic missile warning, assured 
communications, navigation, and intelligence and surveillance. 
Unfortunately, virtually every modernization program has 
suffered substantial problems with regard to cost, schedule, 
and technical performance, so we want to hear from the 
witnesses whether these programs are back on track, how we can 
get them back on track, where the deficiencies exist, and what 
we need to do, collectively, to move forward using the 
resources at hand.
    Beyond a review of individual programs, I've asked the 
witnesses to address recent and emerging presidential guidance 
on a number of important space policy issues. Within the last 
couple of years, the White House has promulgated policies on 
space transportation, commercial remote sensing, space-based 
positioning, navigation and timing, and, as I understand, is 
about to issue an overarching national space policy document to 
update the 1996 guidance on U.S. military and civilian space 
programs.
    In addition, the DOD has issued several directives on 
military space policy, and the Air Force has recently published 
the Doctrine for Counterspace Operations. This rich trove of 
policy documentation serves as a backdrop for our examination 
of important policy issues that could potentially shape the 
acquisition of future military space systems and capabilities. 
I'd like to highlight a couple of such issues.
    The first and foremost policy question concerns the means 
by which the U.S. achieves and maintains freedom of action in 
space while denying such freedom of action to our potential 
adversaries. This question becomes more pressing as U.S. 
dependence on space assets continues to grow, while the 
potential vulnerability of these assets to attack increases due 
to the counterspace capabilities of potential adversaries. As 
Secretary Teets previously stated, the mission of space control 
has not been at the forefront of military thinking, because our 
people haven't yet been put at risk by an adversary using space 
capabilities. That will change. It is these sorts of events 
that the Space Commission members had in mind when they warned 
about the possibilities of a space Pearl Harbor. I believe we 
not only need to think about the mission and implications of 
space control, it is fundamentally irresponsible for us not to 
do so. I think you're right, Secretary Teets, in that regard.
    I remember, Secretary Rumsfeld was asked about space and 
the militarization of space, perhaps at his first hearing, and 
he said, ``Senator, we've had war on land, we've had war on the 
water, we've had war in the air, and we will have war in 
space.'' I think that was a true statement. We wish it weren't 
so, but that's the nature of warfare over the centuries, and I 
think he was correct and honest in that assessment.
    So, I think we can't be squeamish about discussing the 
importance of space to our Nation's defense, and the importance 
that that capability not be placed in jeopardy.
    A second policy issue concerns the way we think about 
military space and warfare. During the Cold War, space systems 
were used primarily to help maintain strategic stability, 
balance of power, and mutually-assured destruction between the 
two superpowers. Today, space supports the warfighter in this 
new paradigm, as we are all aware of the infusion of space 
capabilities into virtually all aspects of U.S. military 
operations. It would be useful, therefore, to ask whether 
current approaches to providing space support to the warfighter 
are working, using Afghanistan and Iraq as examples, or whether 
there are ways space assets can be made more responsive to the 
operational needs of the warfighter. I think Lieutenant General 
Dodgen might have some thoughts on this, and General 
Cartwright, and others.
    Well, those are some of the thoughts that I would have for 
us today. There are a lot of things that I look forward to 
acquainting myself with.
    I am, as I said, before you arrived, Senator Nelson, glad 
to have you as our ranking member. I know you've had long 
association with these issues, and have much insight into them.
    I'm also delighted to be joined by Senator Jim Inhofe, who 
has, for many years, fully understood the importance of these 
issues, and has been a champion for them.
    Senator Nelson?

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Thank you, Mr. Chairman.
    There are many issues to be discussed, and not much time, 
so I will truncate my comments. Let's talk about the Space-
Based Infrared Radar System (SBIRS), let's talk about the 
Evolved Expendable Lauch Vehicles (EELVs), and let's talk about 
advanced extremely high frequency (AEHF) and Transformational 
Satellites (TSATs). I'd also like to hear about a vision for 
space.
    In conclusion, I just want to thank Secretary Teets for his 
long, distinguished, public-service, both in the private 
sector, as well as the public sector.
    Thank you.
    Secretary Teets. Thank you very much, Senator.
    Senator Sessions. Thank you.
    Mr. Secretary, sort of to follow up on that; in your 
prepared statement, you noted that it is a policy--I'll tell 
you what----
    Senator Inhofe. I really do, and I just would be very 
brief.
    Senator Sessions. Yes, go ahead. Jim would like some 
opening comments.
    Senator Inhofe. Yes, one of the reasons I came down----
    Senator Sessions. If you would want to take my time----
    Senator Inhofe. That's very nice of you, Mr. Chairman.
    Senator Sessions.--in terms of----
    Senator Inhofe. No.
    Senator Sessions.--asking questions, please do that, too.
    Senator Inhofe. I didn't know whether they were going to 
have opening statements or not.
    I only would hope that we could address some things--I've 
long felt that the future is in controlling space. We have, 
historically, controlled space, but not to the degree that--to 
a greater degree than we do today, because we have so many 
others that are getting in on this. It was--you quoted, Mr. 
Chairman, the Space Commission's report, and specifically they 
said, ``An attack on elements of the U.S. space system during a 
crisis or conflict should not be considered an improbable 
act.''
    Now, you stop and think about that statement. That's pretty 
strong, and these people know what they're talking about. They 
say the types of attacks could include, but not be limited to, 
jamming of the signal links between satellites and ground 
stations; permanently/temporarily degrading satellites with 
lasers; degrading or destroying satellites or ground systems 
with electromagnetic pulse attacks; conducting cyber attacks to 
disrupt computer systems; and to control satellite functions; 
and to collect, analyze, and distribute information. They came 
out with a lot of other specific things.
    I guess, General Lord and Secretary Teets, what are we 
doing to counter these advances--I mean, these concerns that I 
have right now, and to ensure that we are going to be able to 
maintain the space capability, relative to other nations right 
now? Where do you see that we are?
    Secretary Teets. Sir, I think, at this point in time, we 
have taken some strong action to make certain that we, indeed, 
can have freedom of action in space. We know more today than we 
have ever about what else is up in orbit around us. We have 
started to implement some change that would allow us to provide 
some defense against attack, although we are still very 
vulnerable. If I had one strong worry to relay to this 
committee, it would be exactly that, that we do have 
significant vulnerability.
    Now, I know this is an open hearing, and I don't want to go 
into the details of our vulnerabilities, because--for obvious 
reasons.
    But we have an aggressive research and development program 
underway. We recognize the fact that there may come a point in 
time, in the not too far distant future, when it's going to be 
necessary for us to deny an adversary their use of space. As a 
result, I think we are moving in the right direction, but we 
have a ways to go in this whole arena of space control.
    Senator Inhofe. Should we be doing more than we're 
currently doing, or are you satisfied--and you, too, General 
Lord--with what the budget is providing, in terms of 
counterspace operations?
    Secretary Teets. I think that--and then I'll let General 
Lord take it--but my own view is that we are moving ahead at a 
proper pace. We are doing research and development. I think 
we'll see an increase in the amount of resource applied to 
space control over the course of the next few years.
    General Lord. Senator, let me add to that. I think Mr. 
Teets is accurate. As we put together forces to present to 
General Cartwright to meet his global responsibilities with 
space, we're focusing in the space-control area, particularly 
on space surveillance, which is really being able, as you said, 
to understand the environment of space, who's out there, who's 
operating, and our mixture of our ground-based, our optical, 
and radar sensors to be able to discriminate effects in space. 
Because what we have to be able to do is decide, is this an 
enemy action, perhaps, or is this something that may naturally 
occur in the phenomenon of space? We have to be able to 
discriminate that. So we're pushing hard on that--in that area, 
with space situational awareness.
    We're taking actions in what we call defensive 
counterspace, which is to harden our links and nodes to make 
sure we understand what's--the links that go from--for Global 
Positioning System (GPS), for example, as we talk from the 
ground station to the satellite and back, to make sure those 
are protected, et cetera. So we have a tactical view of that 
with our troops who work in 14th Air Force in Vandenberg and 
work at Schriever Air Force Base, to really do what we have--we 
call a defensive counterspace mindset to kind of think about 
this all the time. If we do have an upset in a computer, we 
don't assume, right from the beginning, that this is something 
that naturally occurred, we kind of take a more defensive look 
at that, rule out all the possibilities, and then solve the 
problem and move on. So we're generating, not only our system 
capabilities, but our human and professional development so 
that we have people that really understand the medium we're 
operating in.
    Senator Inhofe. Well, and one more thing, Mr. Chairman, I'm 
trying to find a hole in the schedule this week to give my 
third 1-hour China speech. In that speech, I'll read a little 
bit about, in here, what I'm going to say.
    China is not only looking to build blue-water navy to 
control the sea lanes, but also develop undersea mines and 
missile capabilities to deter the potential disruption of its 
energy supplies from potential threats, including the U.S. 
Navy, especially in the case of a conflict with Taiwan. The 
weapons China is investing in include cruise missiles, 
submarines, long-range target-acquisition systems--
specifically, cutting-edge satellites, unmanned aerial 
vehicles, and advanced Su-30s and Su-35s, which, according to a 
very heroic statement that was made in 1998 by the now-Chief of 
the Air Force, is really better than our best strike vehicles. 
This is--the logical progression of this is to try to reach for 
space superiority.
    Is there anything that you can say specifically about your 
concern over what China is doing that can be said in an open 
session? For anyone who wants to respond.
    Secretary Teets. I'd be happy to take a first stab at that, 
if you'd like. I think that you are ringing the right bell with 
the statements that you have made there. I do have a concern 
about the push that China has on space technology.
    Now, of particular concern to me is this issue of the 
European Union starting to forget about any kind of 
International Traffic in Arms Regulations (ITAR) and just move 
forward to transfer technology to--European space technology to 
China. I think it's a huge concern. I think the administration 
is dealing with it as strongly as they can, in a diplomatic 
way. But I heartily encourage that, because I think transfer of 
European space technology to China will give them a significant 
jump in their capability.
    Senator Inhofe. I think that's right. That's another part 
of my speech, the attitudinal change of the European Union in 
terms of what they're willing to share with China.
    Any other comments on that?
    General Cartwright. I would just add that, as we look, and 
given the forum that we're in, to the capabilities that we have 
in space, the capabilities we plan to put in space, that we 
make sure we understand what the critical nodes are, and that 
we start to design in, at the front end, the survivability and 
the assuredness of those nodes. That can be a layered approach, 
much as we've done with, say, missile defense or something like 
that but look at that and architect it in at the front end. 
That's a lot of the work that we're trying to sit down, between 
STRATCOM and Air Force Space Command, to take a look at this at 
the front end; don't try to engineer it in at the back end.
    Senator Inhofe. That's a good point. A good point.
    Senator Sessions. Jim----
    Senator Inhofe. All right, thank you very much----
    Senator Sessions.--thank you.
    Senator Inhofe.--Mr. Chairman, for allowing me to jump in 
there.
    Senator Sessions. I'm glad you had that opportunity, and I 
know you care about this deeply.
    I forgot to give our panelists an opportunity to make a 
opening statement.
    Secretary Teets, if you or any other members of the panel 
would like to share some thoughts with us, I think it would be 
appropriate that you do so and kind of lay any--give us any 
perspectives that you feel we should be aware of.

 STATEMENT OF HON. PETER B. TEETS, ACTING SECRETARY OF THE AIR 
                             FORCE

    Secretary Teets. Thank you, sir. I'd be happy to take a few 
moments, if I may.
    Mr. Chairman and Senator Nelson, let me say that, as you 
made your opening statements, you mentioned that I have spent 
about 3\1/2\ years now with multiple hats on. I have been the 
Under Secretary of the Air Force and the Director of the NRO 
and DOD's Executive Agent for Space, and I feel really strongly 
that these positions should continue to be vested in a single 
individual, because it gives an opportunity, really, to have 
some singular management of national security space programs 
that can provide the continuity while maximizing the 
cooperation between military and Intelligence Community space.
    Just as an example of what I mean, I would just relate to 
you that recently we decided to relocate the Space Radar 
Program Office to the Washington, DC, area, and establish it as 
a joint office. This'll ensure both the Intelligence Community 
and the warfighting community that their needs will be met as 
we move toward fielding this kind of a vital capability. The 
role consolidation is vital to creating the daily executive-
level focus needed to tackle the complex national security 
space issues, and I urge that this tri-hatted position be 
maintained.
    Now, from that perspective, I want to also thank this 
committee and, frankly, the entire Congress, for your support 
of national security space. I've had the opportunity to testify 
before this subcommittee on several occasions now, and we 
really do appreciate the strong push that you're giving to 
national security space.
    Quickly, going through a few of our priorities, I would 
like to mention that our first priority is mission success, 
both in operations and in acquisition. I would be forthright 
with you and tell you that we have not yet solved all of our 
acquisition problems, and we have recently announced another 
difficulty with the Space-Based Infrared System (SBIRS)-High 
program. We expect a Nunn-McCurdy notification, for sure. I've 
written to the appropriate people in that regard. I think it's 
possible that we'll have a Nunn-McCurdy breach; that is to say, 
a 25-percent exceedance of the annual production--or, excuse 
me, the average unit production cost for the three production 
geostationary satellites.
    Now, SBIRS-High is a troubled program. It's been troubled 
from the outset. It was a program created in the 1990s, and it 
was not well formed. I would simply say to you that we have, 
subsequent to that time, changed our space policy, acquisition 
policy, and we have found ways to improve that situation. But 
we are, at this point in time, still suffering from the effects 
of a program that was not funded properly, it was not scoped 
properly, it was not set up with proper incentives to the 
contractor, and we continue to bear the legacy of that initial 
formation.
    At the National Reconnaissance Office, I'll just say we're 
in a similar kind of a situation with a major program there 
known as the Future Imagery Architecture. I'll leave it at that 
for the sake of this hearing.
    Now, we will, in fact, be able to bring space power to bear 
in warfighting and intelligence-gathering. By doing so, we will 
maximize the leverage that we can get from joint operations. 
The Space Radar Program that I mentioned earlier will be formed 
well. It will be founded upon the acquisition principles that 
we have learned over these last few years.
    But mission success in space does begin with mission 
success in space lift. I would point out that the last two 
Titan IV launch vehicles are scheduled to launch this year, 
marking the end of an era.
    Another era ended in February, when the last Atlas III 
placed an NRO payload into orbit, the 75th consecutive 
successful Atlas launch.
    Our EELV, the Atlas V, and the Delta IV carry on our proud 
space-launch tradition and ensure our access to space. As we 
continue our transition away from legacy launch systems, our 
strategy is to maximize mission success by maintaining two 
families of launch vehicles. They are the best ever, but we 
cannot afford to risk grounding critical national security 
payloads because we relied on a single rocket fleet with a 
single design.
    Once our space systems are on orbit, space professionals 
use them to provide situational awareness, continuous 
communication, and other critical services to combatant 
commanders, senior leaders, and front-line troops. Our nation's 
warriors and intelligence professionals make extensive use of 
space capabilities.
    Now, last year, Congress directed us to address the 
technology and affordability challenges of this space-based 
radar system that I mentioned earlier, and also look at the 
transformational communications satellite programs in a 
meaningful way. We have restructured both programs to address 
your concerns.
    As I mentioned earlier, we fundamentally restructured the 
space-based radar program, now called Space Radar. We are 
developing a space demonstration that will address technical 
and operational risks, validate costs and technology maturity, 
and exercise the concept of operations that would be employed 
in the operational vehicle. This demonstration would take place 
in fiscal year 2008.
    We're also moving ahead on modernizing military satellite 
communications systems through incremental acquisition of our 
planned transformational communications architecture. Our first 
step will be fielding the Wideband Gapfiller system to be 
launched inside of a year from now, followed by the Mobile User 
Objective System, currently being developed by the Navy, AEHF 
Satellites being produced by the Air Force, and then TSAT.
    The first TSAT launch was purposely delayed in the fiscal 
year 2006 cycle to allow time for laser communications 
technology to mature and for us to further develop the front-
end processor necessary for making this truly an Internet in 
the sky. We remain on a path to deliver a transformational 
communication capability to the warfighter as soon as 
technology readiness levels and our budget permit.
    Another of our top priorities, and the one that will enable 
success in all the other priorities, is to strengthen our team 
of space professionals--government, civilian, military, and 
industry professionals from across the DOD and the Intelligence 
Community. Space professionals around the world apply space 
power for our Nation. We are working with the Services and the 
national agencies to synchronize their respective space-cadre 
strategies and to implement our space human-capital resources 
strategy.
    The next top national security space priority is to 
continue to integrate space capabilities for national 
intelligence, warfighting, and homeland security. We expanded 
this priority from the 2004 version to emphasize our homeland 
security contributions. Space systems assist in tracking 
illicit material and hazardous cargo, contribute to border 
security, and have the potential to do even more.
    With respect to this type of integration, I believe a 
single individual holding all three space leadership roles is 
the right organizational construct to ensure our national and 
military space systems complement one another to improve our 
total security. Fully integrated national security space 
capabilities enhance decisionmaking and warfighting 
capabilities at all levels.
    The next priority is to produce innovative solutions for 
the most challenging national security problems. We must 
sustain a solid foundation of science and technology to create 
innovative solutions. To that end, we've put together a science 
and technology council, consisting of Air Force Research 
Laboratory participation, Naval Research Laboratory, NRO, 
Advanced Systems and Technology--and in a forum of that nature, 
we invite National Aeronautics and Space Administration (NASA) 
in to participate with us, as well, so that we can properly 
leverage each others technology developments as we go forward.
    My final top priority is to ensure freedom of action in 
space. America's dependence on space is well known, and any 
enemy will try to negate our advantage. We're pursuing improved 
space situational awareness to accurately characterize the 
space environment, distinguish malfunctions from attacks, and 
prevent collisions in space. In addition, we are developing the 
ability to protect our satellites and the capabilities they 
provide. This is a military and economic imperative for our 
Nation.
    Because we rely so heavily on space capabilities, we must 
be prepared, when directed, to confront adversaries on the high 
ground of space. Our intent is to use diplomatic or other 
nonlethal means to preclude hostile use of space. But if these 
measures fail, we reserve the right, under international law, 
to take defensive action against an adversary's space 
capability.
    For example, the Air Force's counter-communications system 
will achieve initial operating capability this year. It is a 
ground-based, transportable asset intended to disrupt an 
adversary's satellite communications, but its effects are 
temporary and reversible.
    I'm proud of our national security space accomplishments. 
We improved our space-system capabilities on and off the 
battlefield, and we are modernizing every major space program 
while sustaining existing constellations. I'm highly optimistic 
about national-security space's future.
    I sincerely do appreciate your commitment to helping us 
deliver these vital capabilities. With your ongoing support, 
we'll continue to develop, produce, launch, and operate 
critical space systems for this great nation.
    Thank you, again, for your support.
    [The prepared statement of Secretary Teets follows:]
               Prepared Statement by Hon. Peter B. Teets
                              introduction
    It is my distinct honor to appear before the committee today to 
discuss our National Security Space activities as Under Secretary of 
the Air Force, Director of the National Reconnaissance Office (NRO), 
and Department of Defense (DOD) Executive Agent for Space. I am further 
honored to be joined by the Service leads of our National Security 
Space activities: General James Cartwright, Commander of United States 
Strategic Command (USSTRATCOM); General Lance Lord, Commander of Air 
Force Space Command (AFSPC); Lieutenant General Larry Dodgen, 
Commanding General, Army Space and Missile Defense Command; and Vice 
Admiral Joseph Sestak, Deputy Chief of Naval Operations, Warfare 
Requirements and Programs (N6/N7). Our appearance here, together, 
underscores the importance of unity of effort in our National Security 
Space endeavors.
    I began these remarks by listing my three titles because the 
consolidation of responsibilities across National Security Space in one 
person has been a hallmark of my tenure. As you recall, the 2001 
Commission to Assess the United States National Security Space 
Management and Organization (Space Commission) strongly recommended 
such a consolidation to create daily, senior focus that is needed to 
tackle the complex issues facing our National Security Space efforts. I 
believe the Space Commission got it right, and we should continue on 
this path.
    One of the advantages I have enjoyed over the past 3-plus years has 
been the ability to manage programs across both the open and classified 
space portfolios. I feel strongly that these positions should continue 
to be consolidated under a single individual. There are a number of 
reasons why. First, a single manager across all of the National 
Security Space programs provides a continuity and focus to the overall 
National Security Space program that could not exist otherwise. Second, 
a single manager provides for the best coordinated, most cost-effective 
and efficiently managed program, maximizing the leverage between both 
military and Intelligence Community (IC) space. Third, a single office 
simplifies the chain of command, harmonizing both the IC and the DOD 
efforts in space under a single, accountable authority, ensuring the 
needed cooperation and coordination occurs. This is especially 
important as we consider the need to improve planning, development, 
acquisition, and management of our space capabilities, including the 
industrial base, as our space capabilities also have a tremendous 
economic and social impact.
    Another advantage has been the ability to focus the efforts of the 
broad space team. As in previous years, I have worked with leaders from 
organizations across the National Security Space community to review 
and revise our priorities. As we studied where we are and where we are 
headed in National Security Space, we found that the 2004 priorities 
were still sound, so with a few refinements we carried the same 
priorities into 2005. Our 2005 priorities are: (1) achieving mission 
success in operations and acquisition; (2) developing and maintaining a 
team of space professionals; (3) integrating space capabilities for 
national intelligence, warfighting, and homeland security; (4) 
producing innovative solutions for the most challenging national 
security problems; and (5) ensuring freedom of action in space. These 
five equal priorities are supported in the fiscal year 2006 budget for 
our defense and intelligence space programs, and I will now discuss 
each of these priorities in detail.
         achieve mission success in operations and acquisition
    My first priority is mission success in operations and acquisition. 
Our success in space operations enables the American way of war. We 
have brought space to bear in warfighting and intelligence gathering 
and our Nation cannot do without it.
    Space systems provide global access unhindered by geographic or 
political boundaries, unrestricted by surface or air defenses. When 
integrated with airborne and surface sensors, or when acting alone, our 
systems provide critical intelligence, surveillance, and reconnaissance 
(ISR) information to national decisionmakers and combatant commanders. 
They monitor the global environment and produce weather forecasting 
data for battle planners; carry global communications to and from 
theater; warn our national leaders and deployed forces of incoming 
missiles; and send precise navigation and timing signals to troops on 
the ground, ships at sea, aircraft in flight, and weapons en route to 
targets. These space capabilities facilitated the tremendous successes 
our joint warfighters achieved during major combat operations in 
Afghanistan and Iraq, remain critical components of the joint team 
around the world, and will enable continued success in the global war 
on terrorism and future conflicts.
    As recognized in the Space Transportation Policy recently signed by 
the President, mission success in space begins with mission success in 
spacelift. We have a string of successes with 40 successful National 
Security Space launches in a row.
    Within the last few months I visited space professionals at Cape 
Canaveral Air Force Station, Florida and Vandenberg Air Force Base, 
California to kick off the processing of the last Titan-IV launch 
vehicles in our fleet. These Titan IVs are scheduled to launch this 
year, marking the end of an era. Another era ended this past February, 
when the last Atlas-III placed an NRO payload in orbit--the 75th 
consecutive successful launch for an Atlas launch vehicle.
    We now have our Evolved Expendable Launch Vehicles (EELVs), the 
Atlas-V and Delta-IV, to carry on our proud space launch tradition and 
ensure our access to space. Eight launches have now been flown, four 
from each provider, with a ninth launch planned in early March for a 
commercial satellite. Building on our initial successful EELV launches, 
we continue our transition from heritage launch systems to two 
modernized families of vehicles that cover the range of our National 
Security Space needs. Our strategy is to ensure mission success by 
maintaining two families of rockets, at least through this decade. 
These launch vehicles are the best ever, but we cannot now afford to 
risk grounding critical national security payloads because we relied on 
a single rocket fleet with a single design.
    In December 2004, we conducted a demonstration flight of the first 
Delta-IV Heavy Lift Vehicle (HLV). The flight met its primary 
demonstration objectives; however, an early shutdown of the first stage 
common booster cores left one of its payloads at a lower-than-planned 
orbit. We are thoroughly examining the cause of the shutdown and will 
make the changes necessary to ensure mission success in the vital heavy 
lift regime.
    Through the remainder of this fiscal year we plan to launch six 
more payloads. A new Global Positioning System (GPS) Block IIR-M 
satellite will sustain the GPS constellation and increase the number of 
military code capable satellites. Four NRO launches will strengthen our 
space-based reconnaissance capabilities. Our last Defense Support 
Program satellite will sustain our strategic missile warning 
capabilities.
Support to Global War on Terrorism and Other Operations
    Our space systems and space professionals provide innovative and 
unique support to U.S. and coalition military and intelligence 
operations worldwide. They provide situation awareness, continuous 
communication, and other critical services to combatant commanders, 
senior-level decisionmakers, and fielded forces.
    Our warriors make extensive use of our space capabilities. As an 
example, just before a special operations mission in Iraq, we received 
a request for critical space support. We used multiple systems to 
complete time-sensitive collections against the target area. 
Immediately upon the final collection, we passed the last crucial bit 
of data to the mission planners. They used the updated target area 
characteristics for planning safe entry and exit routes around 
significant obstacles. The special operation succeeded with zero loss 
of life.
    Fielded forces rely on the precision navigation standard from GPS, 
but space professionals also provide GPS-enhanced theater support 
(GETS) that improves signal quality and accuracy. GETS allows combatant 
commanders to make the best use of high quality targeting data.
    In addition to warfighting applications, space systems provided key 
geospatial information to support civil authorities responding to the 
Florida hurricanes, wildfires in California and Alaska, and oil spills 
along the east coast of the United States. Humanitarian missions 
responding to the Indian Ocean tsunami also benefited from space 
systems.
Space Acquisition Programs
    We are equally committed to mission success in acquisitions, and 
are taking positive steps to improve our acquisition processes. Late 
last year, we updated our space acquisition policies for both the DOD 
and NRO, bringing them into close alignment. The policies codify best 
practices such as Independent Technology Readiness Assessments and 
Independent Cost Assessments. We are committed to fully funding our 
programs as they enter their preliminary design phase (Key Decision 
Point B), and to demonstrating technology maturity in a relevant 
environment before we settle on a complete design (Key Decision Point 
C).
    In addition to strengthening our acquisition policies, we completed 
a follow-up to our comprehensive, independent study of space 
acquisition. Headed by Tom Young, the Young Panel reported good 
progress in our reforms, and urged us to continue our hard work. The 
panel recommended we continue our efforts to provide program managers 
an adequate management reserve. A sufficient reserve gives a program 
manager the flexibility to address problems in a timely manner; in 
contrast, lack of a reserve may drive the need to restructure the 
program--and often to reprogram funds. A delay of 8 to 10 months 
typically accompanies a formal reprogramming action, during which we 
suffer additional schedule erosion and increased costs. The Young Panel 
found that the cost of resolving a problem could grow by 300 percent as 
a result of this delay. Adequate margin under the program manager's 
control would address these issues and save time and money. We 
recognize the difficulty of budgeting for a reserve, but I believe the 
benefits of flexibility and ability to mitigate cost growth argue in 
favor of adequate reserves.
    Last year, Congress reduced our SBR and TSAT budget requests, 
directing us to spend more time addressing the technology and 
affordability challenges facing both programs. Our message to Congress 
this year: we heard you and we have restructured both programs in a way 
that addresses your concerns.
    We fundamentally restructured the Space-Based Radar program, which 
we now simply call the ``Space Radar'' program. Space Radar will be the 
single space radar effort for the Nation, and provide the deep look, 
all-weather, day and night surveillance and reconnaissance capabilities 
required by both the IC and joint warfighters. As part of an integrated 
ISR network, Space Radar will provide critical information with an 
affordable architecture by leveraging horizontal integration and 
advanced technology. To address our current technological and 
operational risks, we are developing a space demonstration that will 
work with other ground and air radar programs. With the demonstration, 
we will validate Space Radar costs and technology maturity as well as 
demonstrate the Concept of Operations and user utility. This will 
culminate in an operational Space Radar initial launch in 2015.
    We are also moving ahead on acquisition of military satellite 
communication systems through an incremental acquisition of our planned 
Transformational Communications Architecture. Our first step will be to 
field the Wideband Gapfiller System--the first of which is scheduled to 
launch later this year. We will follow this with the Mobile User 
Objective System (MUOS), Advanced Extremely High Frequency (AEHF) 
satellites, and TSAT.
    MUOS and the AEHF system are both high priorities for the joint 
force; for example, the Navy looks forward to these systems' 
contributions to their ForceNet. MUOS, the new DOD narrowband tactical 
communications program, continues within budget and on schedule for 
initial operational capability in 2010. It is the common denominator 
for command and control providing the capability to communicate from 
tactical to theater levels, to allies and coalition partners, and 
between DOD and non-DOD agencies. The AEHF program will provide 
survivable, protected satellite communications for strategic and 
tactical users. We added about $1 billion in fiscal year 2006 through 
fiscal year 2009, and are working closely with the National Security 
Agency to resolve problems surrounding government-furnished 
cryptographic equipment. We are proceeding with a three-satellite AEHF 
constellation, and we retain the option for a fourth spacecraft.
    The first launch of TSAT was delayed from fiscal year 2012 to 
fiscal year 2013, giving us more time to bring the laser communication 
technology to maturity. TSAT remains as important as ever to every 
Service and all combatant commanders, as ultimately their requirements 
(higher capacity communications, Communications ``On-The-Move,'' and 
ISR platform integration) will not be satisfied by the currently 
planned WGS, MUOS, and AEHF constellations. For example, as the Army 
implements modularity and dispersed operations, effective command and 
control of ground forces becomes increasingly reliant on beyond line-
of-sight systems. TSAT will provide the ability to communicate while on 
the move, with the coverage and capacity needed to implement net-
centric warfare concepts across geographically separated areas. We 
remain on a path to deliver a transformational communication capability 
to the warfighter as soon as technology maturity and our budget permit.
    We continue to come to grips with the Space-Based Infrared System 
(SBIRS). We delivered our first Highly Elliptical Orbit payload in 
August 2004, and are on track for delivering our second payload in June 
of this year. Also, our Signal Processing Assembly and Single Board 
Computer problems have been resolved. A more rigorous management 
approach has been instituted, with increased government oversight. We 
added more testing at earlier integration levels to allow us to quickly 
address any new technical problems. When fielded, SBIRS will provide 
unprecedented missile warning, missile defense, technical intelligence, 
and battlespace characterization to the warfighter. We continue to give 
SBIRS our highest attention.
    GPS modernization continues to be a priority, not just for DOD but 
for civil users of GPS as well. The Air Force is planning to launch 
eight of the modernized GPS IIR-M satellites. Each of these satellites 
offers greater protection against jamming threats, along with new 
signals for our military and civil users. We continue procuring the 
next generation of GPS satellites, GPS-IIF, and remain committed to 
developing and fielding GPS-III and its advanced anti-jamming 
capabilities.
           develop and maintain a team of space professionals
    My second priority is to develop and maintain a team of Space 
Professionals. We have great people in the space business and I am 
dedicated to providing them the tools and training they need to 
succeed. Our space professionals achieve and maintain our advantage as 
the world's leading space faring nation. Comprising a unique mix of 
government civilian, military, and industry professionals from across 
the DOD and IC, they are space power's most crucial element. We are 
developing well-educated, motivated, and competent people who are 
skilled in the unique demands of the space medium. Today they are 
deployed with our forces around the world and in place in the U.S., 
employing their skills, and advancing space power for our Nation.
    We are working with the Services and National Agencies to 
synchronize their respective space cadre strategies. Additionally, we 
continue implementing our Space Human Capital Resources Strategy. On 
December 15, 2004, we delivered to the Senate and House of 
Representatives Armed Services Committees an implementation plan for 
this strategy. This plan includes specific goals and metrics, and a 
schedule for achieving those goals. Implementing our strategy will 
foster a challenging and productive work environment; encourage and 
support individual career development; and build a system that 
attracts, develops, and retains a talented and diverse team of 
professionals able to meet future space challenges.
    Over the last year, the Air Force established the National Security 
Space Institute (NSSI) to develop space professionals' ability to 
harness space systems for warfighting effects and combat support. NSSI 
courses cover military space systems, space warfare concepts, space 
tactics and space acquisition. In 2004, the NSSI taught more than 2,500 
in-residence students from the Army, Navy, Air Force, and national 
agencies, including Active Duty, Reserves, National Guard, and 
Government civilians.
 integrate space capabilities for national intelligence, warfighting, 
                         and homeland security
    My third priority is to continue to integrate space capabilities 
for national intelligence, warfighting, and homeland security. We 
expanded this priority from the 2004 version, to emphasize our 
contributions to homeland security. For example, space systems assist 
in tracking illicit material and hazardous cargoes, and contribute to 
border security. But our Nation's security begins overseas, including 
areas where we do not have forces on the ground. In those areas, space 
systems can provide our eyes and ears. We are committed to bringing all 
our space systems to bear in support of warfighting and intelligence 
needs at home and abroad. Fully integrated National Security Space 
capabilities will enhance decisionmaking and warfighting capabilities 
at all levels.
    The integration of our space forces is being done across the DOD 
and IC. For example, USSTRATCOM has established a Joint Functional 
Component Command for Space and Global Strike, which will improve 
integration of space capabilities. In fiscal year 2004, the NRO trained 
over 4,600 personnel, more than one-third of whom were deployed or 
deploying U.S. military personnel, on the latest techniques to fully 
exploit space systems and capabilities to support combat operations.
    Our ongoing activities in support of the global war on terrorism 
highlight the fact that space capabilities have become increasingly 
integrated in our national intelligence and warfighting operations. As 
mentioned, we are pursuing additional integration by addressing 
intelligence and warfighter needs in the Nation's next-generation Space 
Radar program. We have forged an agreement between the Secretary of 
Defense (SECDEF) and the Director of Central Intelligence (DCI) to 
ensure the multi-mission needs, requirements, and capabilities will be 
satisfied for both communities. In response to this agreement, I have 
restructured the Space Radar Program Office and relocated it to the 
Washington, DC, area to improve stakeholder interaction and 
collaboration.
produce innovative solutions for the most challenging national security 
                                problems
    My fourth priority is to produce innovative solutions for the most 
challenging national security problems. To counter proliferation of 
weapons of mass destruction (WMDs), detect emerging terrorist 
organizations, secure our economic institutions, and defend our 
homeland, we are fielding space capabilities targeted against a variety 
of threats. We are working specifically on three needs: Detection, to 
locate and investigate WMD activity, terrorist threats, missile 
launches, and so forth; Communication, to deliver actionable 
information to those in harm's way and those who need to make timely 
decisions; and Action, to prevent adversaries from harming us here or 
abroad. We must sustain a solid foundation of science and technology 
(S&T) to create innovative solutions.
    We recently published the DOD Space S&T Strategy, and at our Fall 
summit we focused on our four S&T vectors: (a) Next Generation Launch 
Capability; (b) Operationally responsive, low-cost 500 kg or less 
satellites and launch capability to support warfighter and intelligence 
needs; (c) Assured freedom of action in space; and (d) Integrated 
Persistent ISR. We will use these operational vectors to help align 
programs, focus the Department's space S&T investment, and adjust S&T 
portfolio priorities as needed. We will continue to refine and review 
these vectors, and ensure our DOD and IC efforts are synchronized.
    We explore many new ideas through Joint Experimentation, which also 
provides a venue for rapid prototyping of emerging technologies. In 
August 2004, emerging space capabilities were integrated into the Air 
Force's Joint Expeditionary Forces Experiment. This experiment focused 
on Battle Management Command and Control improvements, to advance 
network-centric operations. In this experiment, the Satellite 
Interference Response System (SIRS) demonstrated the potential for a 
deployable defensive counterspace capability to detect, characterize, 
and roughly geolocate interference or jamming of satellite 
communications links. The information was reported to the Combined Air 
and Space Operations Center (CAOC), where planners developed options to 
mitigate the interference. SIRS gave the CAOC the capability to rapidly 
react to potential satellite jamming to protect critical space 
capabilities.
    In another recent example of rapid prototyping, NRO engineers 
developed a tool that enables U.S. personnel deployed to Iraq and 
Afghanistan to access intelligence information computers in the 
theater. This tool provided our forces efficient and rapid availability 
to mission critical information. While the Tactical Satellite (TACSAT) 
program is more traditional, we are also using it to explore small 
satellite technologies and assess their military applications. The 
Naval Research Lab hopes to launch TACSAT-1 this summer, and Air Force 
Research Lab (AFRL) will continue to develop the technology with annual 
TACSAT launches.
    A promising area of innovation is our work to develop Operationally 
Responsive Space (ORS) to increase the responsiveness, flexibility, and 
affordability of our space capabilities. The joint Air Force/Defense 
Advanced Research Projects Agency (DARPA) Falcon program remains 
focused on providing low-cost ($5 million per launch vehicle excluding 
payload and payload integration) responsive space launch for small 
payloads (<1,000 lbs. to low earth orbit) with a first demonstration 
scheduled this year. AFSPC and AFRL are also working on the Affordable 
Responsive Spacelift Sub-Scale Demonstrator (ARES), which will develop 
a quarter-scale demonstration of a hybrid vehicle with a reusable first 
stage and an expendable second stage. The goal of ARES is to reduce 
medium lift costs by three to six times and enable turn-around times of 
24-48 hours between launches.
    Ultimately, how we employ both rapid launch and small satellites 
falls under a concept we call Joint Warfighting Space (JWS). JWS is 
focused on providing dedicated, responsive space capabilities and 
effects to the Joint Force Commander in support of national security 
objectives. The DOD Office of Force Transformation, DARPA, and the Air 
Force are enthusiastic about the potential of JWS. The combined efforts 
of these initiatives--operationally responsive launch vehicle and 
satellite development--will transform the delivery of space-based 
capabilities.
    One of the most innovative initiatives we are pursuing calls for 
exploiting a region we refer to as ``Near Space,'' which includes 
altitudes from about 65,000 to 325,000 feet. Using platforms somewhat 
similar to weather balloons or blimps, we can realize many of the same 
benefits space provides--persistence, large field of regard and 
relative immunity from threat--while enjoying the relative ease of 
access and lower costs typically associated with aircraft. ``Near 
Space'' platforms are not intended to replace air or space, but will 
provide additional capability--such as over the horizon communication 
and ISR--fully integrated with air and space platforms. AFSPC has 
conducted a series of ``Near Space'' demonstrations and the results are 
extremely encouraging.
    What we want National Security Space to provide to our national 
leaders and combatant commanders is simple to state, hard to achieve, 
and has not changed from last year. We call it ``transparency''--the 
ability to see everything and know everything, while simultaneously 
denying our adversaries both the ability to do the same and the 
knowledge that such capabilities are being used against them. We are 
constantly working to ensure our S&T efforts result in our ability to 
always be one step, or more, ahead of our adversaries--to see first, 
understand first, and act first.
                   ensure freedom of action in space
    My final priority is to ensure freedom of action in space. 
America's dependence on space capabilities continues to grow. Our 
reliance on space has not gone unnoticed by our adversaries. We have 
been and will continue to be challenged in space and we must be ready 
to protect our capabilities. Our adversary's attempted denial of our 
Global Positioning System through jamming during Operation Iraqi 
Freedom is an indication of our need to protect our space capabilities 
in the future. To answer this and other emerging threats we will 
maintain robust capabilities for assured launch, since freedom of 
action in space begins with the ability to get into orbit. In addition, 
we will develop the ability to protect our space assets and, if 
necessary, prevent potential adversaries from using space in a manner 
hostile to our national interests. Protecting our satellites and the 
capabilities they provide is both a military and economic imperative 
for the well being of our Nation.
Improved space situation awareness
    The first step in protecting our space capabilities is improving 
our Space Situation Awareness (SSA). With SSA we can accurately 
characterize the space environment, distinguish a malfunction from an 
attack, and reliably prevent collisions in space. We are implementing a 
three-phased approach to improve space situation awareness, involving 
sensors, data fusion, and operating concepts. We are also sustaining 
and upgrading sensors to keep the Space Surveillance Network healthy, 
and developing and fielding new ground and space based sensors. 
Wargames such as Schriever III, conducted this February, emphasized the 
importance of a robust and fully integrated SSA architecture. We 
continue to develop the Rapid Attack Identification, Detection, and 
Reporting System (Spiral 1)--with the potential to provide radio 
frequency interference detection and geolocation for satellite 
communications, and detection and characterization tools for 
interference at our ground sites--and the Single Integrated Space 
Picture (SISP) to provide visibility of theater MILSATCOM support.
Development of space control systems
    Because we rely so heavily on space capabilities, we must be 
prepared, when directed, to confront our adversaries on the ``high 
ground'' of space. We continue to develop a range of capabilities to 
meet current and future potential threats. Our intent is to preclude 
hostile use of space through diplomatic or other non-lethal means, and 
if such measures fail, we reserve the right under international law to 
take military action against an adversary's space capability in self-
defense. To that end we have fielded the ground-based Counter 
Communications System (CCS), scheduled to achieve full operational 
capability this year. CCS is ground-based, transportable, and intended 
to disrupt adversary satellite-based communications in a temporary and 
reversible manner.
                               conclusion
    I am proud of the accomplishments we have made in National Security 
Space through my tenure over these past 3-plus years. We took several 
disparate organizations and integrated them in a way that better serves 
our Nation. At the same time, we demonstrated and improved the 
capabilities our space systems provide on and off the battlefield.
    National Security Space remains a work in progress. We are 
modernizing every major space system and providing new or enhanced 
capabilities, while sustaining existing constellations that provide 
critical capabilities to joint warfighters. The complex technologies 
involved with all of our space systems, the small quantities of 
critical satellites, and the inability to repair them on-orbit requires 
significant upfront investment and attention to practices that are more 
demanding than in other acquisitions. As long as we continue to expect 
our space systems to provide asymmetric advantages, even after years 
on-orbit, then we must build systems that are on the leading edge of 
technology. We are working to minimize difficulties; but as we continue 
to push the technological envelope, challenging situations will always 
be part of the equation. I remain highly optimistic about National 
Security Space's future.
    As stated by the Space Commission and last year's National 
Commission on Terrorist Attacks Upon the United States (the 9/11 
Commission), our capabilities--in this case our National Security Space 
capabilities--must be viewed as an integrated whole. Because the 
military and intelligence elements in space comprise a national 
security capability, we should keep the functions that oversee them 
integrated. That is why I strongly recommend that a single individual 
continue to hold the dual positions of Under Secretary of the Air Force 
and Director of the NRO, as well as the responsibility as DOD Executive 
Agent for Space.
    I appreciate the continued support Congress and this committee have 
given to help deliver these vital capabilities, and I look forward to 
working with you as we continue to develop, produce, launch, and 
operate critical space systems that deliver vital capabilities to this 
great Nation.

    Senator Sessions. Thank you, Mr. Teets. That's a good 
overall view of where we are. Thank you for your work in 
helping us be in the strong position we are today.
    General Cartwright, did you or any of the others want to 
make an opening statement? We'd be glad to do that.

STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    General Cartwright. Mr. Chairman, I've submitted my 
statement for the record. I think, given the time and the 
challenges we have today, I'll stand ready for your questions.
    [The prepared statements of General Cartwright and General 
Lord follow:]
          Prepared Statement by Gen. James E. Cartwright, USMC
    Mr. Chairman and members of the subcommittee: This is my first 
opportunity to appear before you as Commander of the United States 
Strategic Command (USSTRATCOM). Thank you for the time you've given me 
to discuss the missions assigned to us as we continue to prosecute the 
global war on terror and take on the challenge of combating weapons of 
mass destruction.
    My prepared remarks cover USSTRATCOM's role in the challenging 21st 
century environment and plans for addressing those challenges with 
capabilities to serve our Nation's needs in war and in peace.
                  the 21st century global environment
    Global interdependence--economic, political, and social--combined 
with near instantaneous global connectivity, is a trademark of the new 
century. It also heightens the importance of strong links between U.S. 
strategic objectives and regional operations. U.S. strategic objectives 
have profound influence on individuals, regions, nations, and non-state 
actors and networks. The tight linkage between U.S. strategic 
objectives and the conduct of regional operations is evident in our 
operations in Afghanistan and Iraq, and more recently in Asia in the 
aftermath of the tsunami. In Afghanistan, the strategic objective to 
combat global terrorism guided, as well as constrained, our regional 
decisions. The regional operations in Iraq are clearly influencing 
cultural, economic, and security considerations around the globe.
    Our adversaries are using asymmetric approaches; exploiting social, 
political, and economic vulnerabilities to avoid confronting superior 
U.S. forces head on. We continue to see increases in the speed and 
deceptive scale of proliferation of potential weapons of mass 
destruction, including delivery and concealment capabilities. We see 
adversaries who would use improvised explosive devices (IEDs) and 
suicide bombs against their own people and infrastructure, as well as 
against deployed multinational forces. These adversaries have easy 
access to the same global technology base we do, and can exploit the 
same communication and information resources as the American public. 
They have proven they are an intelligent and adaptable enemy.
    All operations, while regional in execution, have global 
consequence and therefore require a global perspective. Regional 
combatant commanders, who are responsible and accountable for 
conducting combat and peacekeeping operations in their areas of 
responsibility (AORs), have long depended upon support provided from 
outside their AORs. Much of that support, which in the past was 
provided on an ad hoc basis, has now been codified in the Unified 
Command Plan as a USSTRATCOM global responsibility. We are positioning 
USSTRATCOM to advance a distinctly global and strategic perspective on 
current and emerging capabilities necessary to deter threats to our way 
of life, particularly those threats involving weapons of mass 
destruction. USSTRATCOM will enable combatant commanders regional 
operations through realization of a comprehensive set of global mission 
capabilities, soundly integrated to achieve more effective and 
efficient execution.
    We look upon this responsibility as both an exciting challenge and 
a solemn obligation to the regional combatant commanders, the American 
men and women who serve in their AORs, and to the American people.
                            global enablers
    21st century operations are fundamentally different from those of 
the last century. Combat operations are being conducted in rapidly 
changing circumstances, shifting from humanitarian operations to 
intense firefights within a few hundred yards of each other with little 
or no warning. This dynamic nature is matched by a varying composition 
of assisting partners. We must be ready to conduct integrated, 
distributed operations using global and regional military forces. In 
many situations, these forces will be augmented by other U.S. 
Government personnel, coalition and commercial partners, and possibly, 
nongovernmental organizations. To plan and effectively execute these 
types of distributed, agile, and integrated operations, the regional 
combatant commands increasingly rely on multiple capabilities the 
global commands must support or provide.
    The Unified Command Plan expands USSTRATCOM responsibilities 
through the assignment of global mission areas that span levels of 
authority, cross regional boundaries, and intersect with various 
national and international agencies. USSTRATCOM's missions are:

        <bullet> Global deterrence;
        <bullet> Global support from space-based operations;
        <bullet> Global intelligence, surveillance, and reconnaissance;
        <bullet> Global strike;
        <bullet> Global information and network operations;
        <bullet> Global command and control;
        <bullet> Global integrated missile defense coordination; and
        <bullet> Globally combating weapons of mass destruction.

    Achieving the full potential of these missions is contingent upon 
identifying the right capabilities mix and sustaining our global reach 
through space. However, without the context of advanced situational 
awareness and the power of collaboration, even the best tools may be 
insufficient to deter and defeat a determined adversary. We are placing 
an emphasis on the following global enablers:
The New Triad
    USSTRATCOM supports The New Triad concept; a strategic way ahead in 
pursuit of a more diverse set of offensive and defensive warfighting 
capabilities. We are active participants in all three legs of The New 
Triad: offensive nuclear and non-nuclear strike (including nonkinetic), 
passive and active defenses, and a defense infrastructure capable of 
building and sustaining all offensive and defensive elements, including 
the critical support areas of command, control, and intelligence.
    Coupled with improved collaboration and shared global awareness, 
The New Triad concept will enable more precisely tailored global strike 
operations. With a full spectrum of nuclear, conventional, and 
nonkinetic options available, regional combatant commanders will be 
enabled to achieve specific local effects against high value targets in 
the context of the strategic objective.
    While we are confident in our ability to support effective global 
strike operations today, we must continue to evolve that capability to 
meet the demands of an uncertain tomorrow. For example, I intend to 
conduct experiments to better understand the value of weapon accuracy 
within a range of stressing environments. If modeling and testing 
confirm the value of such capability, this may lead to new thoughts on 
the balance between nuclear and conventional strike alternatives.
    The new responsibilities assigned to USSTRATCOM have required the 
command to broaden its Cold War focus from deterring nuclear or large-
scale conventional aggression to becoming a major contributor to the 
much broader defense strategy. Nuclear weapons, however, continue to be 
important, particularly for assuring allies and friends of U.S. 
security commitments, dissuading arms competition, deterring hostile 
leaders who are willing to accept great risk and cost, and for holding 
at risk those targets that cannot be addressed by other means. As 
steward of the Nation's strategic nuclear deterrent, we have two 
specific areas of focus--rationalizing our nuclear forces, and 
providing for a relevant nuclear stockpile in the context of The New 
Triad. USSTRATCOM's first priority will continue to be the maintenance 
of the absolute security, safety, and surety of the stockpile. At the 
same time we will continue to evaluate and provide a range of options, 
both nuclear and non-nuclear, relevant to the threat and military 
operations.
    The New Triad concept presents an opportunity to reduce our 
reliance on nuclear weapons through the evaluation of alternative 
weapons, defensive capabilities, and associated risk. It is our intent 
to have the upcoming Quadrennial Defense Review address nuclear issues 
and the associated infrastructure to determine transformation 
requirements for our nuclear capabilities in the 21st century. We will 
look at rationalizing our nuclear forces as an element of the overall 
force structure and the proper tailoring of nuclear effects as part of 
the broad spectrum of national power. These assessments will be 
important to future operational planning as well as future budget 
plans.
    Finally, The New Triad concept provides a framework in which to 
establish a new dialogue on the future role for nuclear weapons in our 
national strategy. The challenging security and threat environment of 
the 21st century signals the need for an informed national level 
discussion to hear the voices of government leaders, military, 
academia, and the public if we are to effectively establish a long-term 
nuclear investment plan.
Space
    The importance of the space mission to our national security cannot 
be overstated. The U.S. economy, our quality of life, and our Nation's 
defense are all linked to our freedom of action in space. For example, 
satellites are at the heart of routine financial activities such as 
simple automatic teller machine operations or complicated international 
currency and stock market transactions. The telecommunication industry 
is heavily vested in space. Commercial airliners, container ships, 
trains, trucks, police, fire departments, and ambulances have also 
become highly dependent upon space-based global positioning systems to 
enhance their ability to safely deliver people, goods, and services. 
The fact is, our dependency on space increases every day--a fact not 
lost on our adversaries. This growing national dependence on space-
based and space-enabled capabilities establishes a true imperative to 
protect our space assets and our ability to operate freely in and from 
space.
    We currently enjoy an asymmetric advantage in space, but our 
adversaries are gaining on us. Our space support infrastructure is 
aging and, in some instances, on the verge of becoming obsolete. We 
will continue to face additional challenges as other nations exploit 
new technologies and capabilities in attempts to bridge the gap between 
them and us.
    The space environment itself is also rapidly changing. For example, 
the number of objects-in-orbit increases every month, while the size of 
those objects decreases. This is challenging our space surveillance 
technology, developed in the latter half of the 20th century, because 
it was not designed to detect or track the current magnitude of new, 
smaller objects, including micro-satellites. This increases the chances 
of collisions, which threatens our manned spaceflight program; opens 
the door for unwarned action against U.S. satellites by adversaries; 
and limits our ability to protect our space assets.
    We must do a better job of leveraging the capabilities of our space 
assets--in DOD, national, and commercial systems. We must also maintain 
the ability to protect our own space assets and capabilities, both 
actively and passively, while denying our adversaries the military use 
of space--at the time and place of our choosing.
    In order to bring these elements of space control together, our 
near-term plan is to work with the various space programs to identify 
potential gaps and make sure existing information and applications are 
available and provided to authorized users on a global network. This 
plan will serve as the basis for a concept of operations to exploit 
information from our space assets, providing space situational 
awareness to the regional combatant commands.
Distributed Operations
    For distributed, integrated operations, dominant situational 
awareness is an imperative--globally, regionally, and locally. It must 
exist across the full breadth and depth of operations, from planning 
and combat through post-conflict reconstruction and ultimately, 
peacetime.
    For our forces to effectively employ collaborative capabilities and 
capitalize upon situational awareness, we must enable them to create 
pictures of the battlespace tailored to their specific needs--what we 
refer to as User Defined Operating Pictures. It is USSTRATCOM's job to 
provide the global capabilities to enhance situational awareness, 
facilitate collaborative planning, and provide a basic User Defined 
Operating Picture capability for all of the combatant commands.
    Many of the capabilities required for agile, distributed operations 
will be facilitated by space and enabled by a global information 
environment with ubiquitous, assured access to information, when and 
where any combatant commander needs it. To achieve this vision, the old 
mantra to provide information on a ``need to know'' basis, must be 
replaced by a ``need to share.'' Critical information that the 
warfighter didn't know existed, and the owner of the information didn't 
know was important, must be made available within a global information 
environment easily accessible to commanders at all levels.
Interdependent Capabilities
    Our action plan for global command and control focuses on ensuring 
the all-source information needed for effective operations is available 
to all theaters. For the global Intelligence, Surveillance, and 
Reconnaissance (ISR) mission, that also means developing integrated and 
persistent systems capable of supporting precision targeting. 
USSTRATCOM has the lead for coordinating global ISR capabilities and 
will be working closely with the regional combatant commanders, Joint 
Forces Command, and the Services to develop the associated strategy.
    The Department's net-centric global information services, currently 
in development, are essential to our global missions. These services 
will connect global and regional applications and improve both 
horizontal and vertical information integration.
    We are developing a prioritized plan for transitioning away from 
stove-piped legacy systems to capabilities that support broader 
information and applications access. Included in this plan are actions 
focused on leveraging existing legacy applications and data by making 
them more broadly accessible. Each user will be allowed the flexibility 
to select from any available data source, anywhere on the network, 
those objects most useful to them at any particular time. Additionally, 
any new data source will be available the moment it comes onto the 
network, rather than requiring a modification to existing systems, as 
is the case today.
    USSTRATCOM is an advocate for net-centricity. Our focus is on:

        <bullet> Capability to enable our ``internet-like'' environment 
        and access to information;
        <bullet> Realization of a high-bandwidth, ubiquitous 
        communications backbone to deliver information with high 
        assurance and low latency; and
        <bullet> Robust information assurance required to defend our 
        networks and our information.

    Creating a collaborative structure is more than just designing and 
disseminating tools--it is also about changing human behavior. Our 
objective is a global, persistent, 24/7 collaborative environment--
comprising people, systems, and tools. Our future structure must 
support real time command and control at both the global and local 
levels as well as enable dynamic, adaptive planning and execution in 
which USSTRATCOM, the regional combatant commanders, and other 
geographically dispersed commanders can plan and execute operations 
together. Our collaborative environment must also provide the 
capability to ``connect all the dots''--enemy dots, friendly dots, 
neutral dots, contextual dots--all the dots that matter--as they 
appear, rather than wait for a post-event analysis when all of the 
different data stores can be opened. With improved collaboration and 
shared awareness, we can more effectively conduct operations using the 
full spectrum of capabilities to achieve desired, focused effects 
against high-value targets.
    In that regard, we are actively assessing the currently available 
collaborative environment and processes and investigating potential 
pilot programs to encourage organizational information sharing to build 
trust in shared information. Fundamental to this issue is the 
establishment of data tagging standards and associated information 
assurance policies.
    With regard to sharing information, we are in some respects 
navigating uncharted waters. While the value of sharing information 
with allies, coalition partners, and other Federal departments and 
agencies is well understood, sharing information with industry or other 
private sources presents proprietary, intellectual property and privacy 
concerns which are not well understood. Such information has the 
potential to be of great value to USSTRATCOM and the regional combatant 
commanders in accomplishing our missions. We will be attentive to the 
actions currently being taken throughout the Federal Government in 
response to Executive Order 13356, ``Strengthening the Sharing of 
Terrorism Information To Protect Americans,'' which may provide us 
valuable insight and guidance in this sensitive area.
                    building an asymmetric advantage
    In addition to our role as steward of the Nation's nuclear 
stockpile and guardian of global deterrence, USSTRATCOM now has the 
responsibility for working across regional boundaries to address 
threats in a global perspective. To achieve the asymmetric advantage we 
desire requires us to build the interdependent, collaborative, 
operational environment we've envisioned. It is our responsibility to 
provide global services and global context to the regional combatant 
commands and their deployed forces so we are collectively a more 
effective force--for warfighting, peace, and all possible combinations 
of both.
New Command Structure
    As the latest step in maturing our approach to fulfilling 
USSTRATCOM's global mission responsibilities we are implementing a new 
command structure. This structure is critical to the asymmetric 
advantage we seek, leveraging essential competencies of associated 
components and key supporting agencies through a distributed, 
collaborative environment.
    Rather than creating additional organizational layers, we are 
bringing existing commands and agencies under our global mission 
umbrella through the establishment of Joint Functional Component 
Commands. These interdependent Joint Functional Component Commands will 
have responsibility for the day-to-day planning and execution of our 
primary mission areas: space and global strike, ISR, network warfare, 
integrated missile defense, and combating weapons of mass destruction.
    USSTRATCOM headquarters retains responsibility for nuclear command 
and control. Additionally, headquarters will provide strategic 
guidance, exercise global command and control, and conduct strategic 
level integrated and synchronized planning to ensure full-spectrum 
mission accomplishment. USSTRATCOM will also advocate for the 
capabilities necessary to accomplish these missions.
    This construct will allow us to leverage key, in-place expertise 
from across the Department of Defense (DOD) and make it readily 
available to all regional combatant commanders. Our vision is for the 
combatant commanders to view any Joint Functional Component Command as 
a means by which to access all of the capabilities resident in the 
USSTRATCOM global mission set. Anytime a combatant commander queries 
one of our component commands, they will establish strategic visibility 
across our entire structure through our collaborative environment. The 
fully integrated response USSTRATCOM provides should offer the 
combatant commander greater situational awareness and more options than 
originally thought available. Specific Joint Functional Component 
Command responsibilities include:

        <bullet> Space and Global Strike. The Commander STRATAF (8th 
        Air Force) will serve as the Joint Functional Component 
        Commander for Space and Global Strike. This component will 
        integrate all elements of military power to conduct, plan, and 
        present global strike effects and also direct the deliberate 
        planning and execution of assigned space operation missions. 
        For plans not aligned with a specific mission set, the Joint 
        Functional Component Command for Space and Global Strike is 
        tasked to work in close coordination with USSTRATCOM 
        headquarters as the lead component responsible for the 
        integration and coordination of capabilities provided by all 
        other Joint Functional Component Commands.
        <bullet> ISR. The Director, Defense Intelligence Agency (DIA) 
        will be dual-hatted to lead the ISR Joint Functional Component 
        Command. This component is responsible for coordinating global 
        intelligence collection to address DOD worldwide operations and 
        national intelligence requirements. It will serve as the 
        epicenter for planning, execution, and assessment of the 
        military's global intelligence, surveillance, and 
        reconnaissance operations; a key enabler to achieving global 
        situational awareness.
        <bullet> Network Warfare. The Director, National Security 
        Agency (NSA) will also be dual-hatted to lead the Network 
        Warfare Joint Functional Component Command. This component will 
        facilitate cooperative engagement with other national entities 
        in computer network defensive and offensive information warfare 
        as part of our global information operations.
          Our coordinated approach to information operations involves 
        two other important supporting commands. The Director, Defense 
        Information Systems Agency also heads the Joint Task Force for 
        Global Network Operations. This organization is responsible for 
        operating and defending our worldwide information networks, a 
        function closely aligned with the efforts of the Joint 
        Functional Component Command for Network Warfare. Additionally, 
        the Commander, Joint Information Operations Center coordinates 
        the non-network related pillars of information operations: 
        psychological operations, electronic warfare, operations 
        security, and military deception. Both the Joint Task Force for 
        Global Network Operations and the Commander, Joint Information 
        Operations Center will be full members of the USSTRATCOM 
        distributed, collaborative environment.
        <bullet> Integrated Missile Defense. The Commander, Army, 
        Space, and Missile Defense Command will head the Integrated 
        Missile Defense Joint Functional Component Command. This 
        component will be responsible for ensuring we meet USSTRATCOM's 
        Unified Command Plan responsibilities for planning, 
        integrating, and coordinating global missile defense operations 
        and support. It will conduct the day-to-day operations of 
        assigned forces; coordinating activities with associated 
        combatant commands, other STRATCOM Joint Functional Components, 
        and the efforts of the Missile Defense Agency. The Joint 
        Functional Component Command for Integrated Missile Defense is 
        a key element of the ``defenses'' leg of The New Triad concept.
        <bullet> Combating Weapons of Mass Destruction. The Secretary 
        of Defense (SECDEF) recently assigned USSTRATCOM responsibility 
        for integrating and synchronizing DOD's efforts for combating 
        weapons of mass destruction. As this initiative is in its very 
        formative stages, we have yet to formalize any specific 
        componency structure. However, we anticipate establishing a 
        formal relationship with the Defense Threat Reduction Agency as 
        an initial starting point.

    This new componency structure is in its infancy and will take 
several months to fully realize. There are detailed issues to work 
through, including the proper distribution of subject matter expertise 
and an assessment of expanding relationships with other U.S. Government 
departments and foreign nations.
    A final element of our evolving organizational structure involves 
developing relationships with the private sector to build upon efforts 
under the Partnership to Defeat Terrorism. This important partnership 
with the private sector supports many of our national objectives and 
crosses into relatively uncharted territory.

        <bullet> Partnership to Defeat Terrorism. The United States has 
        achieved success in the global war on terrorism by attacking 
        terrorist infrastructure, resources, and sanctuaries.

    Nevertheless, our adversaries continue to plan and conduct 
operations driven by their assessment of our vulnerabilities. The main 
vulnerability requiring our constant vigilance is the Nation's economy 
and one need look no further than the economic aftershock attributed to 
the September 11 terrorist attacks to affirm this assertion. The risk 
is accentuated given the global underpinnings of our economic 
structure. Even a small-scale terrorist attack against a lower tier 
provider in a distant land can have wide-ranging and pervasive economic 
implications.
    Given the evolving understanding of terrorists use of global 
processes, the Partnership to Defeat Terrorism was created to intercede 
on behalf of combatant commanders, among others, and positively affect 
outcomes through connections with the private sector. Since November 
2001, the Partnership to Defeat Terrorism has successfully combined 
private sector global processes with other elements of national power 
to help fight global terrorism as part of USSTRATCOM's global mission 
responsibilities. This fruitful relationship with the private sector 
has proven effective on a number of occasions and has garnered the 
support of influential leaders both within and outside government.
    Yet, the Partnership to Defeat Terrorism is somewhat of an ad hoc 
process based on trusted relationships. As such, the value of the 
program is directly related to the availability of the participants. 
USSTRATCOM was recently contacted by a group of people from various 
non-military sectors, advocating the creation of a working group to 
formalize this ad hoc program to begin planning a more permanent 
approach for the long-term.
    On a strategic level, the value of such an effort is the open 
realization that all elements of national power, which have not 
traditionally operated in a synchronized and coordinated role in 
national security, understand the urgent need for their involvement.
    Full realization of the benefits inherent in the distributed, 
interdependent organizational structure described above requires an 
effective collaborative operation. A true collaborative environment 
provides us the asymmetric advantage necessary to deter and defeat the 
agile adversaries we face in the 21st century environment. In the 
future, these skills will take on even greater importance as we broaden 
our partner base within the U.S. Government, with coalition partners, 
commercial partners, academia, and others, including non-government 
organizations.
                   achieving the strategic imperative
    Agile, responsive, distributed operations, enabled by meaningful 
information exchange, shared objectives, and shared situational 
awareness, are key to the successful performance of USSTRATCOM's global 
missions. We have assessed the capability gaps in our global mission 
areas and have developed action plans, working with our partner 
commands, to improve our collective ability to carry out operations at 
all levels.
    USSTRATCOM's strategy is focused on:

        <bullet> Stewardship of the Nation's strategic nuclear 
        deterrent force;
        <bullet> Defending against asymmetric approaches used by our 
        adversaries, including weapons of mass destruction;
        <bullet> Responding effectively in a rapidly changing combat 
        operations environment;
        <bullet> Achieving prompt, predictable, precision operations;
        <bullet> Coordinating with U.S., multinational, interagency, 
        and private sector partners in a collaborative environment;

    Implementing this strategy relies on new and enhanced capabilities, 
including:

        <bullet> Dominant situational awareness;
        <bullet> A ubiquitous, assured, global information environment;
        <bullet> Dynamic, persistent, trustworthy collaborative 
        planning;
        <bullet> User Defined Operating Pictures, using distributed, 
        globally available information; and
        <bullet> A culture that embraces ``need to share'' rather than 
        ``need to know.''

    We are not there yet. Working with our partner commands, we have 
developed plans to improve our global capabilities. We need your 
continued support to deliver the capabilities needed to combat the 
threats of the 21st century. We need your support for:

        <bullet> Pursuit of high capacity, internet-like capability to 
        extend the Global Information Grid to deployed/mobile users 
        worldwide;
        <bullet> Adoption of data tagging standards and information 
        assurance policies to increase government-wide trusted 
        information sharing;
        <bullet> Technology experiments to enhance our understanding of 
        the value of accuracy and stressing environments for current 
        and future weapons.

    Finally, as an element of our role as steward of the Nation's 
strategic nuclear capabilities, we need you to:

        <bullet> Consider a new national dialogue on nuclear policy. 
        This nation is ready for a genuine policy debate on the role of 
        nuclear weapons within the context of the current global 
        environment and the potential offered by The New Triad concept. 
        We must build a long-term nuclear investment plan suited to 
        national security goals.

    USSTRATCOM recognizes what has to be done to be a global command in 
support of the warfighter. We are aggressively moving out on actions to 
ensure USSTRATCOM fulfills our full set of global responsibilities, 
supporting our national security needs in peace and in war.
    Thank you for your continued support.
                                 ______
                                 
             Prepared Statement by Gen. Lance W. Lord, USAF
                              introduction
    Mr. Chairman, Senator Nelson, and the distinguished members of the 
committee, it is my distinct honor and privilege to appear before you 
today and represent the almost 40,000 space and missile professionals 
in Air Force Space Command. I am pleased to serve with and join the 
acting Secretary of the Air Force, the Honorable Pete Teets here today.
    Our Nation has developed the most capable space and air forces the 
world has ever seen. The contributions of our United States Air Force 
have been truly remarkable at a time when our Nation has needed us the 
most. Our great leaders and my fellow generals in the United States Air 
Force are certainly proud of each and every airman as they dedicate 
themselves to the defense of this great Nation. I look forward to 
reporting to you on the strong and confident state of our space and 
missile force, our well documented successes over the last year, our 
priorities for the coming year, and the challenges we are poised to 
tackle.
             proud of our joint team of space professionals
    Modern warfare is not conducted by one Service alone. I am truly 
grateful to my colleagues in the United States Army, Navy, Marine 
Corps, and Coast Guard. I am honored to be joined by the Commander of 
United States Strategic Command, General James ``Hoss'' Cartwright, 
United States Marine Corps. I am also proud to be joined by Lieutenant 
General Larry J. Dodgen, Commanding General, Army Space and Missile 
Defense Command; Vice Admiral Joseph A. Sestak, Deputy Chief of Naval 
Operations, Warfare Requirements, and Programs; and Brigadier General 
Thomas Benes, Director, Strategy and Plans Division, Plans, Policies, 
and Operations Department, Headquarters, U.S. Marine Corps.
    Space capabilities are inherently joint, and we all know you cannot 
go to war and win in the modern era without the battlefield effects 
provided through and from space. Therefore, it is only fitting that we 
appear here together to discuss the importance of defending our Nation 
through space and Intercontinental Ballistic Missile (ICBM) operations. 
Our Air Force Space Command operations project global reach and power 
for all our combatant commanders and their joint warfighters. I applaud 
the effort of this committee to continue our discussions on the 
importance of National Security Space as a joint team. Space 
capabilities significantly impact the flow of national and 
international commerce and we need to understand the significance of 
this from the Main Streets of America to Wall Street.
    I want to express my sincere gratitude to Senator Sessions and 
every member of this committee, for your continued support of military 
space, and the development of our Nation's space capabilities and 
professionals. The commitment and dedication of this committee provides 
critical support to our dedicated space and missile professionals and 
this fact does not go unrecognized in our military circles or by the 
American public.
            support to our nation's global war on terrorism
    I would like to start by briefly describing some of the 
capabilities Air Force Space Command provides daily in defending our 
Nation's interests at home and abroad while protecting the lives of our 
fellow soldiers, sailors, airmen, and marines. The road to space starts 
on both coasts at one of our Nation's two Space Launch bases, where we 
provide services, facilities, and range safety control to conduct 
launches of Department of Defense (DOD), NASA, and other national and 
commercial payloads. Once our payloads reach space, our satellite 
operators provide force-multiplying effects. Space capabilities are no 
longer nice to have, but are now indispensable to how we fight and win 
our Nation's wars.
    Our people and space systems provide critical, in-theater, secure 
communications, warning of ballistic and tactical missile attacks and 
precise navigation for ground, air, and sea operations to name a few. 
From the earliest weather predictions to the latest Battle Damage 
Assessment, our national leadership depends upon space capabilities to 
plan and execute all operations across the spectrum of conflict. Our 
ground based radar and Defense Support Program satellites monitor 
ballistic missile launches protecting our Homeland and our forces 
deployed worldwide.
    In keeping with our 23 year tradition of protecting and projecting 
America's interests in space, Air Force Space Command provides vital 
information on the location of satellites and space debris for the 
Nation, our allies, and the world. America's ICBM team also plays a 
critical role in maintaining world peace and ensuring our Nation's 
steadfast security. Our ICBM forces offer an extraordinarily capable 
and proven strategic deterrent with a readiness rate above 99 percent. 
We owe a debt of gratitude to our ICBM professionals: maintainers, 
operators, security police, and support personnel who serve in the 
northern tier states of our great Nation for everything they do each 
day to ensure our Nation's security.
    Air Force Space Command is truly a ``global command,'' from our 
continental United States (CONUS) based Launch Control and Space 
Operations Centers to our deployed airmen and systems worldwide. Our 
former Secretary of the Air Force, recently said, ``We look at Space 
capabilities like oxygen. If you have it you take it for granted. If 
you don't have it, it's the only thing you want.'' We know you cannot 
survive without oxygen and our armed forces are realizing we cannot 
have success on the battlefield without space. Air Force Space Command 
maintains worldwide vigilance and global awareness around the clock, 
but we also provide tailored combat effects to our theater commanders 
and their joint warfighters.
    During Operation Iraqi Freedom, American forces transformed modern 
warfare and the basic principles of war. Thanks to space and our 
evolving technology, a single bomber aircraft can deliver the same 
effect as hundreds of aircraft during World War II. Space has allowed 
us to advance the principle of maneuverability to an unprecedented 
level by allowing our forces to be faster, more versatile, and quicker 
to react than ever before. Throughout the history of warfare, speed has 
always been the warrior's lifeline. Today, we rely on the speed of 
information and the data flow our space capabilities provide to, and in 
the theater of operations. Over 60 percent of the communications 
flowing into the area of operations at the height of Operation Iraqi 
Freedom traveled through satellites on orbit, and we provided 100 
percent of the secure satellite communications.
    In a matter of minutes, not weeks, hours or days as in past wars, 
commanders are able to find, fix, track, target, and engage adversaries 
while receiving more timely Battle Damage Assessments. The message is 
crystal clear from our comrades in arms, leaders like Lieutenant 
General Lance Smith, the Deputy Commander of United States Central 
Command, who stated, ``You space [professionals] are providing us our 
lifeline. We use it. We take it for granted, but if we ever lost it; 
people would die.'' Lieutenant General William S. Wallace, who was the 
Commander of the Army's V Corps during the height of Operation Iraqi 
Freedom, echoed the importance of our space capabilities when he said, 
the communications provided by our satellites ``were the lifeblood of 
the Division/Brigade in the attack.''
    One of the biggest problems we face as a military is the ability to 
conduct precision attack against moving targets. This problem is even 
more difficult when the weather does not cooperate and our targets are 
what we call ``under cover'' from air, space, sea, and even land assets 
at times. Our forces in the Pacific theater recently took part in an 
exercise to prove we could respond within hours anywhere in the Pacific 
theater in any type of weather condition, day or night to provide 
Admiral Fallon, the Commander of Pacific Command, with relevant combat 
capability. As with any successful exercise, there is an inherent 
capability to help dissuade potential adversaries. During Exercise 
Resultant Fury in November 2004, the target set was four to six mobile 
and drifting sea targets. A combination of our unmanned and manned 
aircraft provided persistent battlespace awareness allowing our Navy F-
18 and Air Force B-52 aircraft to conduct unprecedented precision 
strike through the use of precision-guided munitions using our Global 
Positioning System Satellites on moving targets under significant cloud 
cover at sea.
    This demonstration of all-weather precision strike against mobile 
maritime targets across the vast Pacific Ocean would not be possible 
without integrated teamwork across the air and space community and the 
flawless execution of our joint team members. The Pacific Air Force 
team demonstrated a new capability for the Commander of United States 
Pacific Command and the power of our space forces were heard loud and 
clear.
    Not only are our space and missile capabilities available 24 hours 
a day to deter and defeat our adversaries when our Nation calls, but we 
also make the battlespace safer and more secure for our United States 
forces. Our space capabilities play a major role in the protection of 
our troops engaged in combat.
    Lt. Col. Tony Logue, while serving as the Chief of Space Operations 
at Headquarters, Air Force Special Operations Command, made a 
tremendous impact upon Air Force Special Operation's units assigned 
around the globe. For 2 years, Lt. Col. Logue led the effort to improve 
situation awareness of pilots flying dangerous missions into some of 
the world's most hostile combat environments. He wrote and justified 
with compelling need the requirement for additional Blue Force Tracker 
equipment (a satellite based identifier which allows us to delineate 
friend from foe) in support of Operation Enduring Freedom.
    Upon receipt of the Blue Force Tracker equipment, Lt. Col. Logue 
led a team to Afghanistan to install it and train operators on how to 
use it. His 4 person team completed installations on more than 30 
aircraft in 5 locations, without impacting the high tempo of combat 
operations. Upon his return, he developed and implemented an innovative 
program to add Blue Force Tracker capability to all Air Force Special 
Operations aircraft. His planning and actions ensured all aircraft 
across Air Force Special Operations Command were ready for Operation 
Iraqi Freedom. His efforts resulted in an unprecedented level of 
situation awareness for Special Operations Forces at every level and 
consequently, increased the safety of flight and decreased the chances 
of a fratricide incident.
    Blue Force Trackers are traditionally used with our ground forces 
and through precise and timely integration with our space capabilities 
and space operators on the joint operations team, we are routinely able 
to see through the ``Fog of War.'' Together, we precisely locate our 
forces, preventing fratricide while enabling life-saving support and 
necessary reinforcements when needed. Another tremendous capability 
provided by our space systems is the remarkable amount of time saved in 
locating pilots downed in hostile territory. As the Chief of Staff of 
the Air Force, General John Jumper likes to say, ``Space takes the 
search out of search and rescue.'' By minimizing the time it takes to 
precisely locate our downed air crews, space capabilities allow us to 
save young American lives in harm's way.
    Our space capabilities feed and sustain our day to day stability 
operations in Iraq and Afghanistan while keeping vigilant watch on the 
rest of the world for potential ``hot spots.'' Space allows us to 
quickly switch from stability to battle operations. There's no better 
recent example than our contributions through space systems to Phase IV 
Stability Operations in Iraq. Operation Iraqi Freedom decapitated 
Saddam's regime in record time, but left areas of resistance in the 
Sunni Triangle.
    Operation Vigilant Resolve featured 1,300 marines from the First 
Marine Expeditionary Force in Fallujah, a hotbed of insurgent activity. 
Marines repeatedly called in precision air strikes against individual 
buildings and structures harboring dangerous terrorists and insurgents. 
We used a combination of persistent intelligence, surveillance, and 
reconnaissance assets, on-call strike aircraft, and Global Positioning 
System satellites to create stunning precision strikes against 
individual structures in dense urban areas. The Predator Unmanned 
Aerial Vehicle (UAV) headed a list of high performing systems and I'm 
happy to report to you, the outstanding contributions of the Predator 
UAV were made available through constant secure satellite 
communications.
    On one particular occasion, we targeted a vehicle clearly moving 
weapons between a residence and a small warehouse. US forces were 
watching this activity thanks to a Predator sensor transmitting through 
satellite communications. As we watched, the driver parked the vehicle 
full of weapons under the carport. We put a Hellfire missile over the 
wall of the house and under the carport. We eliminated the threat of 
the weapons with no damage to the house. Members of this distinguished 
committee, this overwhelming warfighting capability is made possible 
thanks to our space forces.
    We are gathering lessons on how best to conduct urban warfare. 
However, we know one thing for sure, we need the persistent battlespace 
awareness, precision guided attack, and secure, reliable communications 
around the globe our space capabilities provide. The use of GPS aided 
Joint Direct Attack Munitions allowed for substantially less collateral 
damage. The unprecedented precision of this weapon worked in Fallujah 
and it is a great model for air and space support to future urban 
warfare.
    We have many successful stories of Air and Space Power working 
together allowing the engagement of targets with dial up precision and 
immediate command and control. This makes our operations in sensitive 
urban areas more humane and less costly to innocent civilians while 
showing our enemies you can't hide from the United States Air and Space 
forces. As you are well aware, our Nation's space capabilities allow us 
to place fewer people in harm's way. Combined with our air, land, and 
sea forces, we provide enhanced lethal effects helping to bring a 
quicker end to hostilities.
    We have embraced our role as a space faring nation and we must 
fully understand and appreciate our responsibilities to our joint 
warfighters in the Army, Navy, Air Force, Marines and in particular our 
Special Operations Forces who bet their lives on our capabilities. 
Space and missile capabilities are as important to our joint 
warfighters as electricity is to our individual homes and businesses.
    There is absolutely no doubt in my mind, our space capabilities 
will continue to perform brilliantly throughout our operations in 
Afghanistan and Iraq, and help our Nation keep an ever vigilant eye on 
our Homeland Defense. The demand for space and missile capabilities is 
at an all time high. We are an integrated part of every major military 
operation being conducted worldwide.
    In addition to being enormously successful warfighters, Air Force 
Space Command also experienced several recent successes in the space 
acquisition business. As the Chairman of the Joint Chiefs of Staff 
testified before the Senate Armed Services Committee last month, he 
stated, ``Today, bandwidth demand exceeds our DOD space systems 
capabilities, and our warfighting requirements continue to increase at 
a very high rate.'' During Operation Iraqi Freedom we were able to 
acquire and make eight times the amount of communication bandwidth 
available to our forward deployed U.S. forces.
    The Space and Missile Systems Center reports 7 successful EELV 
missions and an incredible streak of 40 successful, operational 
launches in a row. We have the healthiest Missile Warning constellation 
ever, and we have taken delivery of the next-generation Space Based 
Infrared System (SBIRS) Highly Elliptical Orbit satellite. We currently 
have 29 Global Positioning System satellites on orbit, certainly 
exceeding the 24 ball constellation requirement. The position, 
navigation, and timing data continuously flowing from the GPS 
constellation has allowed almost 70 percent of munitions used in 
Operation Iraqi Freedom to be precision guided. We are constantly 
working to improve upon our capabilities. We are working within the 
theater of operations to provide the ability to predict GPS accuracy 
and derive time over target, weapon systems implications, and 
probability of kill predictions.
                   air force space command priorities
    The Acting Secretary of the Air Force, the Honorable Pete Teets, 
shared his priorities for National Security Space with this committee 
and Air Force Space Command's priorities are in lock step with our 
National Security Space priorities. I would like to outline my top 
priorities for Air Force Space Command in the coming year. In keeping 
with our command motto, ``Mission First, People Always,'' our overall 
goals for Air Force Space Command remain unchanged. They are:

        <bullet> To Achieve Mission Success in Operations and 
        Acquisitions, and
        <bullet> Provide for the Professional Development of our people 
        while enhancing their Quality of Life

    We fully understand our obligation to organize, train, and equip 
our space and missile forces while our Nation remains engaged in a 
global war against a very dangerous adversary. Therefore, we must 
prioritize our efforts to ensure we are generating the capabilities and 
effects our Nation and warfighters need most.
    Our Priorities for 2005 are:

          1. Ensure Space Superiority and Provide Desired Combat 
        Effects for Joint Warfighting
          2. Maintain a Safe and Secure Strategic Deterrent Capability 
        and Provide Means for Prompt Global Strike
          3. Continue Our Efforts to Develop Cost-Effective Assured 
        Access to Space

    We continually plan the pursuit of necessary, transformational 
capabilities and effects. We work ever diligently to expand and 
maintain effective partnerships throughout the Department of Defense 
and the National Security Space arena to help us in our pursuit of 
innovative solutions and transformational capabilities.
    Air Force Space Command ensures our Nation's warfighters have the 
appropriate capabilities when and where they are needed at any point on 
the planet. We pride ourselves in providing these joint capabilities 
from space. Our space capabilities are used more today than ever before 
in the history of our military. Our Global Positioning System (GPS) 
satellites have become a national resource while providing the greatest 
free utility in the world. The ever-reliable, constant precision 
navigation and timing information from our GPS satellites is used 
worldwide and is intertwined throughout our global economy. An attack 
against this precious resource would be an attack against our way of 
life.
    In our interdependent global society, we travel to the other side 
of the world, and expect our credit cards and phones to work. We expect 
a level of performance in our businesses and an increasing level of 
convenience in our mobile society. We have Marines using GPS 
coordinates to locate and track their position in relationship to the 
enemy. Our military has introduced the world to the concept of 
satellite-aided munitions. Space systems allow bombs to be delivered 
within meters of their desired impact points.
   space superiority and providing desired combat effects for joint 
                              warfighting
    We can no longer expect to send our Service members into combat 
without our space capabilities being challenged. We cannot tell our 
President, or any members of this distinguished body, we don't know if 
our space assets will be attacked. The time for speculation is over. I 
know you are well aware of the numerous attempts during Operation Iraqi 
Freedom by our enemies to jam the signals from our GPS satellites. We 
were extremely fortunate to locate the sources and eliminate the 
rudimentary threat. Given the proliferation of commercial technology 
available today, the future threats to our space systems will be more 
complex and difficult to detect.
    We must prepare to face future threats today. My top priority in 
Air Force Space Command is to ensure Space Superiority. This is at 
times a difficult concept to comprehend. We did not choose saber 
rattling words. We selected doctrinal terms; words we know are well 
understood in the Air Force and throughout the Department of Defense. 
The term Space Superiority is akin to Air Superiority. We would not 
dream of conducting air operations without first establishing and 
ensuring we had Air Superiority. We are not trying to dominate, but we 
must protect and project our interests in the space medium. Our 
reliance on space capabilities has grown as a Nation and as a member of 
a global economy. At the same time our vulnerabilities and the threats 
to our space systems and capabilities have dramatically increased. We 
no longer need to ask if an attack of our space systems will happen, 
but rather when, by what means and from where?
    To better understand the growing threat to our space systems, we 
have conducted a series of high level war games to include the recently 
completed Schriever III space warfare game at Nellis Air Force Base. 
The games are not completely predictive, but they are extremely 
insightful as we pit our space capabilities against capabilities an 
adversary may bring to bear. We use known technologies easily available 
to the rest of the world and combine this with the will to engage our 
space capabilities for advantage. The threats we face are very real and 
dangerous.
    As our dependence on modern space capabilities grows, the need to 
establish and maintain Space Superiority also grows proportionally if 
not exponentially. It is time to proceed with the development of a more 
robust Space Situation Awareness architecture to ensure we adequately 
protect and defend our space capabilities. We all need to subscribe to 
a Defensive Counterspace mindset. We can't leave system anomalies 
uninvestigated. We must carefully track and examine the space 
environment to ensure we have high resolution knowledge of events. 
Finally, to ensure Space Superiority we must field Offensive 
Counterspace capabilities with temporary and reversible effects to deny 
an adversary the ability to exploit the asymmetric advantages space 
provides our Nation's Armed Forces and our global economy. Space 
capabilities provide a lifeline for this Nation. If we ever lost Space 
Superiority it would result in loss of life of our Armed Forces, lost 
economic viability and quite possibly a significant disruption to key 
national security objectives and interests.
             safe and secure strategic deterrent capability
    Maintaining a safe and secure strategic deterrent capability and 
providing our Nation a means for Prompt Global Strike is another top 
priority for Air Force Space Command. We continue to pursue independent 
nuclear (Land Based Strategic Deterrent (LBSD)) and conventional 
(Prompt Global Strike (PGS)) options along separate, but mutually 
supportive developmental paths. We are excited about the work underway 
in our LBSD Mission Area Analysis of Alternatives study. This landmark 
study will help determine the capability set required to fulfill future 
LBSD critical mission needs. We continue to explore a spiral 
acquisition approach to extend the life of the Minuteman III ICBM while 
providing enhanced capability for our national security. We plan to 
complete our Analysis of Alternatives and provide recommendations to 
the Milestone Decision Authority in the Office of the Secretary of 
Defense before the end of this year.
    Space Superiority allows us to provide desired combat effects for 
Joint Warfighting. Space Superiority and maintaining a credible 
strategic deterrent force are the top two Warfighting priorities in our 
command. The United States Air Force's involvement in space started and 
grew from our early ICBM and Intermediate Range Missile programs. Our 
rich past in the development of space and missiles gives power to our 
future.
                 cost-effective assured access to space
    We must continue our efforts to develop Cost-Effective Assured 
Access to space. Responsive launch capabilities have formed the 
foundation of our Nation's space sector for decades and we must 
continue this tradition of excellence with one addition. We must focus 
our attention on providing cost-effective solutions to accessing space.
    The Acting Secretary of the Air Force, the Honorable Pete Teets, 
mentioned the end of an era in our launch vehicles in his testimony. 
The Atlas III performed brilliantly during its final launch last month 
and the final Titan IV vehicles are being processed for their last 
launches later this year. We are closing the books on these very 
capable and reliable boosters, and we are ready to accept the next 
generation of extremely capable and reliable launch assets in the 
Evolved Expendable Launch Vehicle (EELV) with both the medium and heavy 
launch classes. The future of our Nation's space faring status hinges 
on our Assured Access to Space. This administration and the Department 
of Defense is committed to securing this much needed launch capability 
to ensure our Nation continues to lead the world in transportation to 
space for military, commercial, and manned space launches.
                          innovative solutions
    While Air Force Space Command continues to defend the United States 
of America through the day to day control and exploitation of space, we 
provide space power to help achieve national security and Joint 
Warfighting objectives. I can proudly report we are successfully 
accomplishing our assigned missions with an increased focus on 
integrating our capabilities and effects with our air, land, and 
maritime forces. In a world of constant change and new challenges, we 
cannot lose sight of the importance of improving our capabilities and 
the effects we provide our joint warfighters. Our Acting Secretary of 
the Air Force has encouraged us to seek innovative solutions to some of 
our most difficult problems in the national security arena.
                        joint warfighting space
    We are intensifying our focus on providing the warfighter with more 
operationally responsive space capabilities. A major first step for us 
to achieve an Operational Responsive Space capability is our Joint 
Warfighting Space (JWS) concept. JWS will provide dedicated, responsive 
space capabilities and effects to the Joint Force Commander in support 
of warfighting objectives. The JWS concept seeks both immediate and 
near-term initial operating capabilities to meet pressing national 
security needs.
    At first glance, we are very excited about the increase in space 
capabilities available through our Joint Warfighting Space concept. We 
are evaluating responsive launch capabilities to meet requirements in a 
matter of hours. Air Force Space Command is taking the lead in 
integrating small and microsatellites with other operational platforms 
on the ground, in the air, or in near space.
    We are evaluating the ability to dedicate assets to real time 
target location, identification, and tracking, predictive awareness 
during a crisis with a persistent capability available to the Joint 
Force Commander. We are committed to fully investigating the military 
utility of small satellites. At first glance, there is a tremendous 
amount of development time saved by using a common micro or small 
satellite bus (spacecraft structure). We will continue our military 
utility analysis through a series of planned demonstrations, lab 
experimentations, and wargame exercises.
    We have several Near Space demonstrations planned that we believe 
will lead to initial Joint Warfighting Space capability. Joint 
Warfighting Space consists of Near Space and on orbit space assets. We 
continue to work with our partners in the research and development 
community to provide future operational capabilities using the TacSat 
demonstration initiative and the Falcon Space Launch Vehicle which 
recently entered into design phase.
                     operationally responsive space
    A robust Operationally Responsive Space (ORS) program will provide 
us with a rapid reconstitution capability and the ability to swiftly 
augment existing space assets. We continue to work with our partners in 
the research and development community to provide operational utility 
of Small Satellites through our TacSat demonstration program. Payloads 
and spacecraft developed on a quicker timeline, a responsive range and 
associated infrastructure, and an existing responsive launch vehicle 
are the three main components to Operationally Responsive Space.
    We are actively working to advance the technology of our Small 
Launch Vehicles. We certainly have a need throughout the national 
security sector for a more responsive small launch capability. A small 
launch capability could be used for the deployment of a responsive 
space payload or when combined with the Common Aero Vehicle (CAV), a 
near-term conventional Prompt Global Strike capability. The follow-on 
to Small Launch Vehicles is the Affordable Responsive Spacelift 
vehicle. We have an approved way ahead for the Operationally Responsive 
Space Small Scale Affordable Responsive Spacelift Hybrid and plan to 
demonstrate a partially reusable system within the next several years. 
This will be a key demonstration and will definitely move us further 
down the developmental path.
    We are very excited about exploring capabilities in the area known 
as ``Near Space'' at an altitude between 65,000 to 325,000 feet. From 
our preliminary analysis, we believe there's substantial military 
utility in augmenting our current aerospace capabilities with fielded 
capabilities in Near Space. These Near Space platforms are not intended 
to replace air or space assets, but rather to help augment and 
integrate additional capabilities.
    We have already demonstrated military utility in expanding the 
range of Army radios used for contact between ground forces and to 
conduct Close Air Support operations. By using affordable platforms 
like weather balloons, blimps, or air ships, we can help provide much 
needed persistence and direct support to our theater commanders and 
their joint warfighters.
                          common aero vehicle
    As I mentioned earlier, another innovative solution we are 
diligently working to develop is our Common Aero Vehicle (CAV) and the 
Force Application and Launch from CONUS (FALCON) Demonstration Program. 
This is an incredible capability to provide the warfighter with a 
global reach capability against high payoff targets. The CAV matched to 
a responsive launch platform would provide a truly transformational 
capability to anywhere in the world regardless of the level of access. 
The CAV capability could be matched against an anti-access environment 
and still deliver a conventional payload precisely on target within 
minutes of a valid command and control release order. This is the type 
of Prompt Global Strike I have identified as a top priority for our 
space and missile force.
                      modernization and readiness
    We no longer have the challenge of stressing the importance of 
space capabilities. Our senior commanders around the joint community, 
regardless of their service affiliation or background understand, you 
cannot go to war and win without space. The difficult challenge before 
us today, as a Nation and a military, is that we now maintain our 
steadfast readiness in support of our ongoing global war on terrorism. 
To ensure success, we must modernize the very space capabilities and 
assets our armed services and our Nation depend upon.
    Our Global Positioning System satellites have revolutionized modern 
warfare. We are able to provide our warfighters and our national 
leaders unprecedented accuracy and precision strike capabilities 
through the use of our on-orbit assets. We must take all appropriate 
measures to ensure we field a capability that can withstand the robust 
challenges of the future. We need the capabilities provided by the GPS 
III program. A jam resistant, modernized version of the world's 
greatest free utility must be developed and delivered to ensure we have 
the most precise and secure positioning, navigation, and timing 
capability not just for our military forces, but for our Nation and our 
global economy.
    The Transformational Communications Satellite will employ Internet 
Protocol networks and high-bandwidth lasers in space to dramatically 
increase warfighter communications and connectivity. The Air Force (in 
partnership with NASA and the Department of Commerce) continues 
development of the National Polar-Orbiting Operational Environmental 
System, which offers cutting edge meteorological capability.
    We have refocused the Space-Based Radar effort to develop a system 
that meets user needs for both the joint warfighting and intelligence 
communities. We are sending one of our most capable general officers 
and visionary leaders, Brigadier General ``Tom'' Sheridan to head up 
the new Space-Based Radar program office. There is no doubt in my mind, 
restructuring of the Space Radar program office guarantees the right 
leaders will be in position to develop this indispensable capability 
for our Nation.
    Finally, we are turning the corner in the Space-Based Infrared 
System program, a critical warfighter need. The Space-Based Infrared 
System will provide an enormous leap in capability over our aging, but 
very dependable Defense Support Program satellites. Our Defense Support 
Program has been Air Force Space Command's ``Old Ironsides,'' 
extraordinarily dependable and battle proven. Our missile warning 
capabilities have kept soldiers, sailors, airmen, and marines deployed 
around the globe safe from unwarned attack. The next generation Space 
Based Infrared System will continue our proud tradition of providing 
direct support to our joint warfighters worldwide.
    We will continue to develop the necessary capabilities and tighten 
our grip on the space acquisition process. We are already benefiting 
from the initiatives started by the acting Secretary of the Air Force 
over the past several years. We have solidified our requirements 
throughout our major space programs by instituting an urgent and 
compelling need requirements process. This process ensures only 
essential requirements that are both truly needed and funded are added 
to a program in development and will help us avoid ``requirements 
creep'' in our acquisition process.
    I am truly honored and fortunate to serve with Lieutenant General 
Brian Arnold and his team of space professionals at the Space and 
Missile Systems Center in Los Angeles, CA, who are applying the lessons 
learned and making our development and acquisition team even better.
                            challenges ahead
    We are on the right track to addressing the concerns in our space 
acquisition business. We need to ensure technical issues are researched 
and a solid technical risk mitigation plan is created and followed. We 
must ensure our program managers have an adequate management reserve of 
resources to handle developmental problems. We must give our program 
managers the training, tools, and resources to be successful and that's 
clearly a top priority for our Air Force Space Command team.
    How we acquire our space capabilities is distinctly different from 
the acquisition of other Department of Defense capabilities. Because we 
procure small numbers of units, we do not have the ability to reduce 
quantities acquired; therefore, any overruns can only be addressed by 
extending the schedule and ultimately delaying the capability. Almost 
70 percent of our Life Cycle Costs for Space Programs are incurred in 
the development phase alone. Another unique aspect to space is by 
placing our capabilities on orbit it gives us just one shot to be 
successful. We are unable able to take a ``fly, fix, fly'' approach. We 
take a ``test as you fly'' approach. It is absolutely critical to 
understand these profound differences in the acquisition of space 
capabilities when compared to the procurement of other weapons system 
and Department of Defense capabilities. These various factors combine 
to create some tough challenges for us in the future.
    We exist in a global, interdependent economy and we cannot neglect 
how powerful space capabilities have become in our global society. A 
resourceful enemy will look at our centers of gravity and try to attack 
them. Terrorists around the world are not aiming their actions at our 
military alone. They have declared war on our way of life and not 
against our military force in a traditional sense. Our enemies can 
bring crippling destruction to our Nation in a matter of days, or even 
hours, and our space capabilities are not immune to attack. Our 
adversaries understand our growing global dependence on space 
capabilities, and we must be ready to handle any threat to our space 
infrastructure. The strategic challenges we face are different and more 
difficult than past threats.
    Other nations and their militaries understand the importance of our 
space capabilities in how America wages modern war. The threats against 
our space capabilities are building and we must be ready and able to 
face the challenges poised by these evolving threats.
                     space professional development
    During World War II, General George C. Marshall was asked if 
America had a secret weapon to win the war. ``We do indeed,'' he 
replied, ``The best damn kids in the world.'' He was right. Today's 
airmen, soldiers, sailors, and marines are the secret weapons of the 
Latest Greatest Generation. The future of our young space force hinges 
on the development of our most precious and valuable resource; our 
people. We look to the challenges before us with the greatest amount of 
confidence, because we truly have dedicated and highly skilled space 
professionals in place; ready to serve the needs of our Nation. The 
biggest threat to our space capabilities and personnel is complacency. 
We have extraordinarily capable systems and people, but we must 
continue to invest in our future.
    Our Air Force leaders have made ``Developing and Maintaining Our 
Space Professionals'' a top priority for our Nation. Personnel 
knowledgeable on the medium of space and highly skilled in their 
respective fields of operations, developmental engineering, 
acquisition, and research are indispensable to our success today and 
will only grow in importance. The dedicated space professionals I have 
the privilege to serve with are some of the best men and women America 
has to offer. The future of military space is bright and we need to 
make sure we give the next generation the proper development to become 
the space experts for the future.
    I was truly honored and pleased to appear before this committee 
last summer to give you our update on the development of our Nation's 
space professionals. We have made some tremendous strides in 
establishing a Space Professional Development Strategy and I would like 
to thank this committee for your support.
    Space Professional Development must be equally applied across our 
Reserve, Guard, civilian, and active duty personnel (both officer and 
enlisted alike.) Furthermore, this is a national skill set we intend to 
build and it can not be limited to an individual Service or 
governmental agency. Given the overwhelming demand and growing 
importance of our Space Professionals there is one key ingredient to 
our future success: teamwork. The synergistic effects of pooling our 
governmental space expertise together far outweighs the sum of the 
individual parts. The Air National Guard, Air Force Reserve, and our 
civilian professionals are indispensable to our Air Force Space Command 
missions. We will continue to build upon our Space Professional 
Development successes with a strategy for ensuring the development of 
our Space Professionals in our Air Reserve component.
    We have a transcending responsibility as leaders to provide for the 
professional development of our people. Our senior leaders in the 
Department of Defense, Air Force, and Air Reserve component clearly 
understand the commitment this requires. The Space Professional 
Development program is on track and already providing outstanding 
results. We still have some hard work ahead of us, but our dedication 
and energy is well focused on this vital program.
                               conclusion
    Our most recent operations in Afghanistan and Iraq prove our Nation 
relies on capabilities coming from and through space, more than ever 
before. We have many people to thank for the fielded capabilities our 
warfighters are using today to prosecute this dangerous war against 
terrorism. We owe a debt of gratitude to a number of influential 
leaders in the Air Force space and missile community over the years.
    I can only hope our Nation's history will accurately capture the 
incredible leadership of the acting Secretary of the Air Force, the 
Honorable Pete Teets. General Jumper and I have been truly blessed to 
work with such a great American and visionary space leader. There is no 
better example of his legacy than the assistance and leadership he has 
provided Air Force Space Command in the development of our space 
professionals. We understand the significance of developing our space 
professionals, and rest assured we are dedicated to this cause.
    Our Nation cannot rest on the asymmetric advantage we have today in 
space. We must move out and ``Command Our Future'' to make sure we 
continue to provide the world's greatest space and missile capabilities 
to our joint forces operating in harm's way around the globe. We are 
committed to developing our space professionals and I am proud to 
represent Air Force Space Command here today. Once again, I am honored 
to appear here before this distinguished committee.

    Senator Sessions. Senator Nelson?
    Senator Bill Nelson. Do you want me to start questions?
    Senator Sessions. Yes, I----
    Senator Bill Nelson. Okay.
    Senator Sessions.--I let Senator Inhofe take my time.
    Senator Bill Nelson. Well, I don't mind deferring to you.
    Senator Sessions. No, no. Go right ahead.
    Senator Bill Nelson. This is bipartisanship at its best. 
[Laughter.]
    Mr. Secretary, why don't you repeat the administration's 
budgetary proposal for the AEHF and the TSAT.
    Secretary Teets. Okay.
    Senator Bill Nelson. That's AEHF.
    Secretary Teets. Yes. On AEHF, the President's fiscal year 
2006 budget request is for $1,201,000,000. What we are in the 
process of doing is fielding a constellation of three AEHF 
Satellites. We have, with this program, encountered some 
schedule and cost difficulties over the course of this last 
year, generated, in large part, by difficulties in implementing 
the key management system--that is to say, the secure 
communications capability. Very frankly, this was a case of a 
problem in an interface between two major organizations--the 
Air Force developing the AEHF Satellite, and National Security 
Agency (NSA), in providing the requirements for secure 
communication capability. This problem has been dealt with by 
General Hayden, Director of NSA, myself, and General Arnold, 
out at Space and Missiles Center. We have corrected the 
problem. We have put into place a solid plan, and we're 
delivering on it. But it has caused delay and a cost increase 
to the program.
    With respect to TSAT Communications, our budget request is 
$835.8 million. With that money we will bring online an order-
of-magnitude increase in bandwidth capability and, perhaps even 
more importantly, will bring online Internet-access capability. 
This will truly be an Internet in the sky that can service 
warfighters globally. It'll also have the capability for this 
enormously high bandwidth telecommunications so that we can 
transmit imagery, information, and very high-bit-density 
information.
    Senator Bill Nelson. That would be in 2013?
    Secretary Teets. Yes, sir.
    Senator Bill Nelson. No doubt, you've heard of Murphy's 
Law.
    Secretary Teets. I have, indeed.
    Senator Bill Nelson. So how are we not blinded?
    Secretary Teets. The way that I--the way that we have, I'll 
say, banked an off-ramp is that if, at the end of the next year 
to year-and-a-half, in that time frame, if we have not been 
making proper advancement on retiring risk and maturing the 
technology associated with TSAT, we will acquire a fourth AEHF 
Satellite system, and we will field it in a timely way that can 
sustain the capability that exists.
    I might just mention to you that we are right at the 
leading edge of a transformation in communications satellite 
capabilities. If you look at our capabilities today, when we 
launch our Wideband Gapfiller Satellites--and I mean that 
literally within this next year--we will increase our bandwidth 
capability by an order of magnitude. When we then move from 
AEHF and Wideband Gapfiller capabilities to TSAT 
Communications, we will achieve another order of magnitude of 
bandwidth capability. So I think that we are on a solid path. 
We've tried to develop a program plan that recognizes that 
there are some technology risks, and in the event that we run 
into a snag, we have off-ramps.
    Senator Bill Nelson. So the decision point on a fourth AEHF 
would come, you said, in a year to a year-and-a-half.
    Secretary Teets. Yes, sir.
    Senator Bill Nelson. My advice would be that you better 
have it within a year so we are ready for the next budget 
cycle.
    Secretary Teets. I think that----
    Senator Bill Nelson. Because if you wait a year and a half, 
then we've lost 2 years, instead of one.
    Secretary Teets. Yes, sir.
    Senator Bill Nelson. What we don't want to be in is the 
situation where we don't have a fourth AEHF, and now TSAT is 
getting delayed, and suddenly we're blind and we can't hear.
    Secretary Teets. Yes, sir. I concur with what you're 
saying. We will need, by next year's budget cycle, to know, 
with confidence, that TSAT is moving along well, or we should 
bank the coals on TSAT and order another AEHF.
    Senator Bill Nelson. Go ahead, and I'll come back. Well, 
let me just ask one more.
    Senator Sessions. Sure.
    Senator Bill Nelson. When does the fourth AEHF--when does 
it have to be bought before there's a production break?
    Secretary Teets. It depends on how much the first three 
slip, to be honest with you. But if you look at our current 
program plan, which has slipped significantly due to this 
cryptology problem that I mentioned earlier--if we stay on the 
plan that we currently are on, we will need to make that 
decision a year from now to avoid a production break.
    Senator Bill Nelson. My feeling about this is, this is 
something you can't fool around with. You have to have your 
eyes and ears up there in the sky. I know this is a $400-$500 
million item for a fourth satellite, but you think of all the 
gadgets that are going to rely on this stuff being up there, 
that would be awfully rough, to make the wrong decision on 
this.
    Secretary Teets. Yes, sir. I understand what you're saying, 
and I think a prudent plan is in place to exercise that 
potential.
    Senator Sessions. Secretary Teets, you note, in your 
prepared statement, that it is our policy to ``develop the 
ability to protect our space assets and, if necessary, prevent 
potential adversaries from using space.''
    Secretary Teets. Yes, sir.
    Senator Sessions. That would give them an advantage, if 
they can have the same capabilities that we have. You note that 
the Department is developing a range of capabilities to meet 
current and future potential threats. You mentioned, 
specifically, the counter-communications system, which jams 
satellite-based communications. What other capabilities are we 
developing to, in your words, prevent potential adversaries 
from using space?
    Secretary Teets. Sir, those capabilities, other than the 
land-based satellite jammer, are classified kinds of 
activities. We're doing research and development work along 
those lines, but I think it best to not get into details in an 
open hearing.
    Senator Sessions. Well, I would certainly respect that. I 
would just say that that's a real issue of importance to us. 
Could you, any of you, share with us a scenario that would not 
be inappropriate to share in this hearing, where we might need 
to take action to defend our space capabilities or to defend 
against an enemy's space capabilities?
    General Cartwright. A way to approach this is to approach 
it from a holistic approach, the training, the tactics, 
techniques, and procedures and doctrine of our space force, our 
cadre, and making sure that they are trained to, one, 
understand and interpret the data that we have coming back that 
would give us an indication of whether or not we have a space 
event that is somewhat hostile, or could be characterized as 
hostile, is a critical piece of this; designing and protecting 
our infrastructure in a way that it is not susceptible to being 
interfered with. This goes beyond just the intentional regime 
to being able to understand, in space situation awareness, 
what's going on around you, designing your fleet so that you 
have an awareness, not just a kinetic effect, but just 
interference with each other as we put systems up and, is this 
intentional, or isn't it?--and trying to design our systems to 
be able to do that.
    Scenario-wise, the idea that potentially our systems could 
be interfered with in some hostile manner, and making sure that 
we design the system both to realize and understand what's 
going on, and then design the approach that's just layered. 
Just like any other element of warfare, what you'd like to do 
is extend out the decision cycle so that you can start with 
just diplomacy and negotiation, and try to work your way up in 
ratcheting your capabilities.
    I'll turn it over to General Lord but I think a layered 
approach that acknowledges that there are many segments to this 
problem.

STATEMENT OF GEN. LANCE W. LORD, USAF, COMMANDER, UNITED STATES 
                    AIR FORCE SPACE COMMAND

    General Lord. Senator, I think one point to remember is, we 
experienced war in this environment, if you will, in Operation 
Iraqi Freedom, with attempts to jam the GPS from the ground. 
What we were able to do, because of a variety of techniques and 
tactics, work this problem explicitly, and I can----
    Senator Sessions. Could I interrupt just----
    General Lord. Yes, sir.
    Senator Sessions. Would you tell us what would have 
happened--for example, what capabilities we would lose if they 
were to successfully jam them. Maybe not everything can be said 
in this room, but some of the things that are pretty obvious, 
the capabilities that we'd lose if they successfully could have 
jammed our GPS system.
    General Lord. It would have been, really, a serious 
situation without the position, navigation, and timing signals 
available to our forces in conflict and in contact in Operation 
Iraqi Freedom--precision effects, GPS direct attack munitions, 
for example, all the other navigation work that's done, all the 
timing that's done on particular effects in the theater would 
have been negated.
    So, the point being, sir, is, we have to not only have a 
way to protect the capability to deliver that signal, but we 
have to have a stronger signal strength on the satellite to 
transmit to the Earth, so that if somebody tries to jam that, 
then they have to raise their signal, so we can identify that 
and deal with it.
    We had an effective team work with GPS interference in 
navigation tools so that we could identify where the jammers 
were and we could route around that. We let General Cartwright 
know and be able to advise the other folks how to work in that 
environment. Lastly, we were able to employ a tactic called GPS 
Enhanced Theater Support, where we were able to make sure that 
when the GPS satellites broke the horizon and were in view of 
our forces in the theater, they had the most accurate timing 
and information available on the satellite. So they had--we had 
driven all the errors, as much as we could, out of the system 
out, so that the satellites were the most accurate when they 
were in view of the theater. We are able to do that----
    Senator Sessions. Is this the satellite that allows a Joint 
Direct Attack Munition (JDAM) bomb--munition--to be dropped and 
hit within 30 feet of any spot----
    General Lord. Yes, sir.
    Senator Sessions.--consistently----
    General Lord. It's just with the----
    Senator Sessions. Without that satellite capability, the 
``smart munition'' is seriously degraded.
    General Lord. It depends on the munition and how it's 
integrated with the fusing techniques, et cetera, because some 
bombs have an inertial nav system that's inherently accurate, 
but GPS gives them that extra feet of accuracy so that your 
precision effect is really exactly what you want to achieve. 
So, we think that----
    Senator Sessions. What about communications? What kind of 
theater communications depend on satellite and--systems to be 
effective, if you can share----
    General Lord. In Operation Iraqi Freedom, 60 or 80 percent 
of the bandwidth was commercial-leased, and the MILSTAR 
constellation protected communications over our satellite 
constellation that we operate for General Cartwright was really 
the darling of the combat, with the capability to deliver air-
attack orders, ground-maneuver schemes, et cetera, over this 
protected network to provide the combatant commander in the 
theater very accurate communications. So it was a combination 
of both military and civil that worked in that war.
    Senator Sessions. So, without being able to utilize our 
satellites, if those satellites should be taken out or jammed 
in some effective way, our ability to use the GPS system and 
our communications system would be substantially degraded. 
Under our current military doctrine, we depend on both of those 
to be effective. Is that----
    General Lord. Absolutely.
    Senator Sessions.--correct?
    General Lord. You're right, sir.
    Senator Bill Nelson. May I follow up on that?
    Senator Sessions. Yes, please.
    Senator Bill Nelson. With the next generation of the GPS 
satellites, what kind of improved capabilities do they have?
    General Lord. We're working them now, sir, Senator Nelson, 
with our GPS-2RM, which is the first satellite we'll launch in 
the next series, which should go, here, within the next 15 or 
20 days from Patrick. It will have an increased power 
capability and another additional code onboard the satellite. 
We get to GPS-2F, which is another system, and then on to GPS-3 
by the end of this decade and early part of the next decade, 
with more signal strength onboard, more anti-jam capability, to 
do just what we talked about, to be able to push that signal to 
everybody so that it can't be jammed or spoofed.
    Senator Sessions. Secretary Teets, sort of to follow up on 
Senator Inhofe's question, funding for counterspace activities 
in 2005 to defend, I guess, our system--amounts to about $350 
million. Of that amount, approximately 78 percent goes toward 
space situational awareness, 14 percent toward defensive 
counterspace, and 8 percent toward offensive counterspace. 
Compared to the funding for satellite and launch programs, $350 
million does not seem like it does justice to the importance of 
those two areas. Are you--you indicated, I think, earlier, that 
we may be spending more in the future. Do you think--where are 
we on that? Are we spending enough? Do we need to enhance our 
capabilities at a faster rate?
    Secretary Teets. Sir, I think, in balance, we are spending 
the right amount. I think we need to recapitalize our asset 
base. We have, in our constellation of national security space 
satellites, a number of satellites that are now--have been on 
orbit long enough to be able to vote. They were designed for 
perhaps 6-, 8-, 10-year life, and we have some that are now 
over 21 years old. They are performing well, but they won't 
last forever. So, it is important that we have a flow of 
continuing satellites to repopulate the constellation. They are 
expensive, I do agree with that. I recognize they're expensive. 
But, on balance, we recognize, in a growing sense, the need for 
us to focus on this issue of space control, which, in point of 
fact, needs to be informed by better knowledge of space 
situational awareness. We do know there are 10,000 objects 
around the Earth in orbit now, but we don't know an awful lot 
about many of them. We are focusing, as a first priority, learn 
more about what's there so that we can take some action, if 
necessary.
    Then, second, we want to be able to take some smart 
measures to defend ourselves and seal some of the current 
vulnerabilities in our space assets.
    Lastly, then, we have research and development ongoing for 
some capability to deny an adversary their use of space.
    General Cartwright. Could I add just two----
    Senator Sessions. Please do, yes.
    General Cartwright.--two aspects?
    The first is that we have a ground surveillance 
infrastructure that needs to be recapitalized and upgraded, and 
that's part of this program. We have to make sure that we do 
that, because it has a certain capability that gives us wide-
area, large ability to catalogue. We need to improve that so 
we're not looking at areas that are as ambiguous as miles, but 
down to very small areas. The second is a command-and-control 
system that integrates all of this so the warfighter gets the 
benefit of the knowledge of this situational awareness, and it 
gets distributed out. We can't forget those two pieces, because 
they tie back to the user's side of this equation, whether it 
be the warfighter or others, that need to manage the system on 
orbit.
    So, in addition to what's on orbit, there is a ground piece 
of this, and a command-and-control piece that we have to keep 
our eye on.
    Senator Bill Nelson. I'm going to go vote while he 
continues, and then I'll come back and do my questions.
    Senator Sessions. Well, wait just a second.
    Senator Bill Nelson. How much----
    Senator Sessions. My question is, how many votes is this? 
All four votes, isn't it? ``Encourage Senators to stay in 
chamber for all four votes. Time limits will be strictly 
adhered to,'' this memo says. It will be the first time--that 
means it will be more seriously adhered to than normal. 
[Laughter.]
    Senator Bill Nelson. If it's four votes----
    Senator Sessions. Do you think we ought to take a break and 
just come back?
    Senator Bill Nelson. The big chairman is going to call the 
full committee at 4:30.
    Senator Sessions. 4:30?
    Senator Bill Nelson. So----
    Senator Sessions. All right, let's see if we----
    Senator Bill Nelson.--we have a problem.
    Senator Sessions. Yes, we do. Why don't you pick up here--
--
    Senator Bill Nelson. Well, if we have----
    Senator Sessions. You take your time----
    Senator Bill Nelson.--four votes, there's nothing we can do 
about it.
    Senator Sessions. No. It would leave us about 15 minutes, 
about 10 more minutes, I guess.
    Let's take--I'll take a few more minutes, if--and you can 
go or stay. We have 10 more minutes on this vote.
    Senator Bill Nelson. All right. I'll meet you over there.
    Senator Sessions. Gentlemen, just the way we see the 
schedule, this first vote will be a little longer, probably, 
than the others. So, we'll probably have about 8 or 10 minutes. 
Then it'll take us about a 30-minute recess, if you don't 
mind--if any of you have critical things you have to do, we 
would certainly understand if you need to excuse yourself. I--
the other hearing the chairman has is not something that is 
mandatory that we attend.
    I guess, General Dodgen, you think about the guys on the 
ground there, in previous wars we've tried to disrupt 
communications by intercepting the guy on the horseback with 
the note. I think that cost Jeb Stuart some of his reputation. 
[Laughter.]
    Then you have telegraphs we've tried to intercept, pigeons 
and communications. But, I mean, wouldn't it be naive of us to 
think that our capabilities in space are, sort of, religiously 
protected from warfare? Isn't it really true that it is 
critical to our communications system that helps our 
warfighter, and, if we were to lose that, we would be damaged. 
If our enemy had that capability, they would be greatly 
advantaged. Does not that just mean that we just, whether we 
wish to or not, have to consider that soldier that we put on 
the ground in harm's way and how we can provide the best 
communication and protection for them?

STATEMENT OF LTG LARRY J. DODGEN, USA, COMMANDER, UNITED STATES 
             ARMY SPACE AND MISSILE DEFENSE COMMAND

    General Dodgen. Senator, to follow on with the soldier 
aspect of what General Cartwright said, we are rebuilding the 
Army, reshaping the Army, and transforming the Army, and we're 
making it much more responsive and more flexible for a variety 
of missions. It's the future combat system that will be coming 
onboard. We will be totally dependent upon very clear 
situational awareness of, and persistent surveillance of, the 
battlefield. Then we'll be dependent upon communications, very 
capable communications that will allow that persistent 
surveillance to get to every--literally every combat vehicle 
that will be on the terrain. That's why the Army has said, in 
the prioritization drills, that we need to get to TSAT, we need 
to get to that type of capability so that we can bring that 
type of imagery to every combat vehicle, because we'll be 
operating in a much broader area than we ever have before. 
We'll be relying on our combat formations to do more with less 
because of that situational awareness. If we don't have those 
capabilities, then we'll be at some risk of being in places 
where we may have overmatch, and we don't want to fight the war 
that way. We'd much rather fight the war using our weapons 
systems and our joint fires to overmatch in places of our 
desire. So, it's very critical to us, I think, to have the 
surveillance systems to clearly see the entire battlefield. I 
think space systems are very much a vital part of that, given 
terrain features. We need to be free of geography for that. 
Then the communications for that broadband to go down to 
every--literally every combat vehicle on the battlefield will 
be very important to us in the future.
    Senator Sessions. So, even more than today, you expect that 
the ground combat future systems will be dependent on satellite 
and communications and space capabilities, and that disrupting 
that would even have a greater impact on our newly-created and 
newly-designed combat systems than even it would today?
    General Dodgen. Absolutely, Senator. I'm concerned about us 
being denied the capability of space, and I'm concerned about 
growing capabilities that may be in our opponents' hands. Both 
of those things, they're a great concern for the future.
    [The prepared statement of General Dodgen follows:]
             Prepared Statement by LTG Larry J. Dodgen, USA
                              introduction
    Mr. Chairman, Senator Nelson, and distinguished members of the 
subcommittee, it is my distinct honor to appear before you today to 
discuss the Army's use of space as a key enabler to accomplish its 
missions and objectives both now and into the era of the ``Future 
Force.'' I express my sincere appreciation to this committee for your 
continuing support of the many endeavors of our Army and particularly 
today's topic--the Army's continued efforts and progress in space. The 
Army is a full member of the Joint Team and we appreciate the 
opportunity to be included in the ranks with Secretary Teets, General 
Lord, Vice Admiral Sestack, and Brigadier General Benes as joint 
advocates of the space planning process and continued advances in our 
Nation's ability to operate in space. The Army is committed to working 
closely with the other Services, the Executive Agent for Space, the 
Joint Staff, and the Office of the Secretary of Defense (OSD) as space 
is absolutely critical to Army transformation. The Army will 
increasingly rely on space-based capabilities that must be responsive, 
timely, and assured to joint warfighters.
              space support--a core warfighting competency
    During the past decade, the global security environment has changed 
a great deal. Today, many nation-states are no longer constrained by 
spheres of influence as in the Cold War. The dispersion of power and 
widespread instability combined with the direct threat to our homeland 
and worldwide interests, present new challenges for the Army, the joint 
community, and our Nation. The enemies we face today are not 
necessarily a nation-state. They can also be a terrorist cell, able to 
strike almost anywhere and nearly any time. Our response to these 
challenges continues to be seen in Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF). These operations continue to reinforce 
the critical importance of space capabilities to the Army, the other 
Defense services and agencies, and the joint warfighter.
    As recently stated by our Secretary of Defense (SECDEF), ``space 
and information are not only enablers, but core warfighting 
competencies.'' Space support to military operations is not a recent 
development. For more than 30 years, the Army has tapped the 
unparalleled potential offered by space-based systems to the modern 
battlefield. In the 1970s, the Army exploited the tactical 
applicability of national space systems at the corps level to improve 
our battlefield intelligence capabilities. The Tactical Exploitation of 
National Capabilities (TENCAP) program is a longstanding success story 
of the Army leveraging the intelligence community space investments for 
tactical military benefits. Throughout the early years, exploitation of 
space-based assets fell to TENCAP and communication communities while 
national systems remained focused on strategic issues. Although Army 
TENCAP made tremendous strides in leveraging national systems for the 
tactical user, it was not until Operation Desert Storm (ODS) that key 
leadership realized the extraordinary value of space-based, beyond 
line-of-sight intelligence and satellite communications (SATCOM), as a 
combat multiplier. The use of the Global Positioning System (GPS), 
near-real-time missile warning, tactical weather information, 
unclassified imagery, and long haul communication satellites truly 
brought space directly to the battlefield. Today, as we have for the 
past 30 years, the Army continues to strive to normalize space-based 
capabilities into our traditional warfighting concepts to achieve 
seamless support to combat operations.
    Since ODS, space-based capabilities have become more entwined in 
the fabric of Army warfighting. Ongoing combat operations in 
Afghanistan and Iraq are demonstrating the operational importance of 
space to the joint warfighter. Making space relevant to tactical forces 
has gained primary emphasis along with providing and expediting the 
delivery of space-based capabilities, products, and services to 
warfighters. Space systems extend the range and capabilities of 
communications and enhance situational awareness beyond any terrestrial 
capability. It literally allows us to ``do more with less'' as we 
better use our forces in modular formations to cover larger areas than 
in the past. This is especially critical in asymmetric formations such 
as Iraq. Space systems continue to provide better intelligence and 
synchronization in combat operations by enabling collection of new 
types of data and information. In ODS, command echelons of division and 
above were the only ones that could access space-based TENCAP and 
INSCOM capabilities. Now we can provide support to our joint 
warfighters at the tactical level. Army space support teams now have 
the tactical capability to leverage satellite communications, 
commercial imagery, and enhanced situational awareness in support of 
deployed forces. Direct links now provide timely and assured data from 
national agencies and ground stations to the battalion level. Future 
work is needed to ensure these links are survivable in tomorrow's 
operational environment.
    As our reliance on responsive, timely, and assured access to space-
based capabilities increases, so does our vulnerability to attack and 
disruption. The ground segments of our space systems are especially 
vulnerable to a conventional attack. It is absolutely essential that 
both space-based and ground segment capabilities are protected against 
our future adversaries' attempts to attack these capabilities and to 
deny us our technological advantage. Space situational awareness is an 
important step to protecting our space assets from attack and in 
denying space-based products to our adversaries.
    The global growth of commercial space systems provides state and 
non-state actors access to products and services that begin to approach 
those of our own. These potential adversaries are seeking to lessen the 
advantages we enjoy by accessing space-based communications and imagery 
offered by third-party entities. In order to retain our advantage, we 
may choose to deny an adversary access to these space-based services.
 the army's organizational space structure and key operational support
    Within our Army, the U.S. Army Space and Missile Defense Command/
Army Forces Strategic Command (USASMDC/ARSTRAT) is the specified 
proponent for space. In addition to the Title 10 Army responsibilities, 
this command also serves as the Army Service Component Command to the 
U.S. Strategic Command (STRATCOM). Tasked as the service space 
proponent and working in coordination with other members of the joint 
community, USASMDC/ARSTRAT is at the forefront--supplying vital space 
capabilities to our joint warfighters. In addition to delivering and 
integrating space products and trained professionals into joint 
warfighter operations, USASMDC/ARSTRAT also conducts an extensive 
variety of space mission related research and development activities. 
This capability is one complement to the organic TENCAP equipped Army 
intelligence and tactical signal force structures.
    Soldiers and civilians serving with USASMDC/ARSTRAT's 1st Space 
Brigade (Provisional), the Army's first and only space brigade, provide 
access to products and services that are absolutely essential in all 
phases of combat operations. The brigade's three battalions--the 1st 
Satellite Control Battalion, the 1st Space Battalion, and the 193rd 
Space Support Battalion, Colorado Army National Guard, support 
combatant commanders by providing satellite communications and force 
enhancements. During the ongoing OEF and OIF campaigns, the USASMDC/
ARSTRAT's Army Space Support Teams (ARSSTs) supported the Coalition 
Force Land Component Commander, an Army Corps and Division, a Marine 
Expeditionary Force, and the Coalition Provisional Authority. The 
ARSSTs are on-the-ground space experts, pulling down key and critical 
commercial imagery, forecasting the impact of space weather on 
satellite communications, position, navigation and timing, and radio 
intercepts, and providing responsive space support to their units. This 
responsiveness and on-the-ground expertise were invaluable to combatant 
commanders and their planning staffs. TENCAP and INSCOM have increased 
their support from space-based assets by providing enhanced systems and 
more direct interface to the tactical level.
    The USASMDC/ARSTRAT Operations Center, located in Colorado Springs, 
Colorado, supports space experts deployed throughout the operational 
force and reduces our forward deployed footprint. This center maintains 
constant situational awareness of deployed elements, continuously 
responds to requests for information, and provides the essential reach-
back system of connectivity with technical subject matter experts. 
Regional Satellite Communications Support Centers and Defense Satellite 
Communications Systems Operations Centers located in several locations 
in the U.S. and overseas, provide reliable and responsive SATCOM 
support. In addition to ensuring space-based force enhancement, 
USASMDC/ARSTRAT also provides space-based ballistic missile early 
warning and missile defense support from within the theater or region. 
The 1st Space Brigade's Joint Tactical Ground Stations Detachments, 
operated by Army and Navy personnel, monitor enemy missile launch 
activity and other infrared events of interest and share the 
information with members of the air and missile defense and operational 
communities. Presently, an array of space-based and missile defense 
resources including forward-deployed Soldiers, civilians, and 
equipment, continue to support our joint warfighters in Afghanistan and 
Iraq. Space capabilities have become and will continue to be 
inextricably linked to warfighting.
                       the army's space successes
    As I appear before this distinguished committee today, Army 
professionals are using the ultimate high ground of space to provide 
products and services that are significantly more capable, abundant, 
and tightly integrated into all phases of combat operations. I would 
like to highlight a few of the Army's fielded operational systems and 
personnel that are providing essential space support to the combatant 
commanders and warfighters.
Joint Blue Force Situational Awareness (JBFSA)
    Space capabilities save lives by providing critical linkages within 
the current and future JBFSA architectures. Situational awareness is 
particularly vital given the challenges of conducting operations in 
urban areas, as is currently the case in Iraq. The Army is the lead 
service for JBFSA and has the greatest number of soldiers and systems 
to track on the battlefield. JBFSA assets, such as the Force XXI Battle 
Command Brigade and Below, the Movement Tracking System, and the 
Grenadier Beyond Line-of-Sight Reporting and Tracking System, help 
deliver timely situational awareness and have gained broad endorsements 
from tactical units for helping to prevent friendly fire incidents. The 
Army is currently devoting considerable effort to fully incorporate the 
role of blue force tracking (BFT) in identifying friendly forces during 
combat. We have also successfully demonstrated the capability to 
integrate the various JBSFA systems, space-based and line-of-sight, to 
develop a common operating picture into one enterprise system. This 
achievement, especially important until an integrated set of JBFSA 
systems is developed, is a meaningful step to support enhanced 
situational awareness.
Mission Management Center (MMC)
    The MMC facilitates the dissemination of near-real-time space-based 
data in support of JBFSA. The USASMDC/ARSTRAT MMC, located in Colorado 
Springs, serves as the critical link between warfighters, national 
agencies, and a variety of dissemination architectures.
Spectral Operations Resource Center (SORC)
    The quality of image resolution and speed of its delivery has 
improved substantially over the years. During ODS, commercial 
resolution was approximately ten meters and filling requests took days 
or weeks. During OIF, USASMDC's SORC (Forward) was able to provide its 
customers with downlinked commercial imagery of approximately one-meter 
resolution within hours of receiving a request. Manned by both Army and 
Air Force personnel, the SORC (Forward) facilitated the downlink of 
commercial imagery, providing the joint warfighter detailed spectral 
products to make crucial operational decisions.
Tactical Exploitation System (TES)
    The Army's TES as a forerunner to the Distributed Common Ground 
Station-Army (DCGS-A) provides tactical and joint warfighters the 
ability to receive, process, and exploit signals and imagery 
intelligence data from selected national, theater, and tactical 
sensors. Using TES, the time required to gain access to theater and 
national imagery has been substantially reduced. As a result, an 
integrated multi-source intelligence picture from ``space-to-mud'' is 
organic to all corps and divisions and is moving to the brigade level, 
with the DCGS-A which enables combatant commanders to gain improved 
situational awareness and enhance their ability to shape the 
battlefield. Elements of the TES are deployed in OIF and OEF in the 
Stryker brigades and selected Reserve units called to active duty.
USASMDC/ARSTRAT's Reagan Test Site (RTS)/U.S. Army Kwajalein Atoll 
        (USAKA)
    RTS is a unique contributor to the national space control mission 
through its space situational awareness data. RTS is one of only four 
Department of Defense (DOD) radar sites that provide unique 
capabilities to monitor objects in deep space. Additionally, RTS is the 
sole contributor of radar metrics on approximately one-third of the 
satellites in the geosynchronous belt. The collection of timely and 
accurate metric data is critical to the space control mission. The RTS 
maintains a vigilant 15-minute recall, 24 hours a day, for providing 
critical radar metric and imagery data on new foreign launches from 
Asia. Due to its geographic location, RTS has first visibility on most 
launches from Asia.
    These systems, assets, and their operators as well as other 
initiatives leveraging U.S. space capabilities are key contributors in 
both holding and improving the asymmetric advantages that exploiting 
space brings to the joint fight.
                realizing the potential of space--people
    Of course, without well-trained and motivated Army professionals, 
space superiority cannot be realized. As I stated earlier, the 
successful conclusion of the first phases of OIF was supported by well 
trained space professionals serving in Army units around the globe who 
used the superior technology at their disposal to provide vital and 
timely operational support to combatant commanders.
    As outlined before this committee in July 2004, combat operations 
are no longer limited to land, sea, and air. It is clear that we will 
increasingly rely on the ``high ground'' of space as an essential 
capabilities integrator. Today, the Army considers space to be a 
vertical extension of the battlefield essential to joint warfighting. 
Technology in the hands of capable professionals, who are trained to 
harvest the potential of space, has superseded the necessity to mass 
against an enemy force. Instead, space-based capabilities enable us to 
mass the combat power of our forces at the time and place of our 
choosing. As a result, an understanding of space systems and 
capabilities is becoming an increasingly important part of the 
professional soldier's skill set across all Army mission areas.
    The Army recognized this need in 1998 when it created Functional 
Area (FA) 40--Space Operations within our commissioned officer corps. 
USASMDC/ARSTRAT is the Army's personnel proponent for FA 40 officers. 
There are more than 150 FA 40s in the Army today, serving in 29 
different Army and Joint commands and DOD organizations across 
tactical, operational, and strategic echelons. These space 
professionals are today's Army space cadre and form the core for the 
future cadre. They are trained, educated, and gaining experience every 
day. They are performing remarkably as indicated by continuous praise 
from our warfighting commanders.
    Promotion rates for space cadre lieutenant colonels and colonels 
during fiscal year 2004 are above the Army average. FA 40s are 
encouraged to complete advanced degrees and 70 percent of our officers 
have done so--60 percent of the advanced degrees are in space related 
fields of study. We currently have 14 FA 40s that have graduated from 
space programs at the Naval Post Graduate School (NPS) or the Air Force 
Institute of Technology. Today, seven FA 40s are enrolled at NPS. Once 
sufficiently trained through the 11-week Army Space Officer's 
Operations course, FA 40 officers are responsible for formulating 
policy, developing operational concepts, developing technologies, and 
planning, evaluating, and implementing the tactics and techniques for 
the operational use of space systems.
    The Army's Space Cadre is supporting the fight in both OEF and OIF. 
Twenty-six FA 40s have deployed to the two theaters with six currently 
serving from the Division to Theater command level. In addition to the 
outstanding support they provide today, the Army is realizing future 
benefits as we integrate and institutionalize the lessons our FA 40s 
learn regarding how to best integrate space for tactical commanders.
    As our Army transforms, our space concepts and organizations are 
transforming as well, requiring significant increases in authorizations 
for FA 40s in our tactical echelons. Over the past few years, we have 
developed organic Army Space Support Elements (SSEs) which we will be 
embedding within Army Divisions/Units of Employment (UEx). The 3rd 
Infantry Division was our first Division to transform and stood up the 
initial SSE in June 2004. Over the next few years, all 10 Divisions 
(UEx) are being embedded with SSEs as the Army continues to transform. 
The Army Space Cadre will be the means to bring dedicated space 
expertise to UEx Divisions. In total, the Army could be adding up to 80 
FA 40 authorizations as a result of the ongoing Army transformation.
                          space formal update
    In July 2004, before this distinguished committee, I informed you 
that the Army was commencing Phase I of IV in the Cadre Force 
Management Analysis (FORMAL) which will define how other officers, our 
noncommissioned officer and enlisted force, and Army civilians will be 
addressed as part of our future Space Cadre. FORMAL completion is 
scheduled for August 2005 and we have progressed to Phase III, which is 
scheduled for completion this May. To recap, Phase I developed the Army 
unique Space Cadre definitions. Phase II identified 1,546 potential 
Army Space Cadre positions based on the definition developed during 
Phase I. During Phase III, we will refine the cadre and develop a 
comprehensive Army policy that incorporates the five personnel life 
cycle functions envisioned for the Space Cadre. The 5 life-cycle 
functions are accessing, training, professional development, 
structuring, and sustaining. During the final phase, necessary combat 
enhancement elements such as doctrine, organizational structure, 
training, and leadership development will be finalized and implemented.
    For both present and future members of the Space Cadre, formal 
education and training continues to evolve. Students are trained in the 
planning of space operations, analyzing friendly and enemy force space 
capabilities and limitations, and determining the impact of space 
weather on satellites; communications; position, navigation and timing; 
and intelligence, surveillance, and reconnaissance in support of a 
Joint Force Commander. The demand for training brought the Air Force 
and Army together to offer better training opportunities to the Space 
Cadre of both services.
                     future army space requirements
    Now and in the future, the Army's primary interest in space will be 
the role that space serves as an enabler of 21st century land warfare. 
Continued technological advances and new capabilities in space systems 
will enable the information dominance essential to the transformed Army 
land force envisioned for the future. The task ahead is to hold and 
improve the asymmetrical advantages space capabilities bring to the 
joint fight. The most important space-based capabilities the Army needs 
to leverage to maintain dominance with respect to ground operations 
relate to intelligence, reconnaissance and surveillance, satellite 
communications, JBFSA, weather, terrain and environmental monitoring, 
position, navigation and timing, missile warning, and space control. 
These capabilities enhance the paradigm of full spectrum dominance that 
is the cornerstone of future joint warfighting.
    To meet these vital requirements, it is essential that space 
systems, currently planned for fielding under the purview of the DOD 
Executive Agent for Space, become reality. The Army needs enabling 
technologies which enhance situational awareness off the ramp, allow us 
to look deep, and communicate rich situational awareness while on the 
move. Planned space-based assets such as Space Radar and 
Transformational Satellite (TSAT)-communication systems, if developed 
to be tactically relevant, will revolutionize how we use space in 
support of ground operations. The Army needs a space capability 
designed and developed from the onset that significantly improves the 
situational awareness, lethality, and survivability of the tactical 
warfighter by providing responsive, timely, and assured persistent 
surveillance and communications. These systems must be dynamically 
taskable and have the ability to provide actionable intelligence to the 
warfighter at multiple locations.
    Tactically responsive capabilities with persistent surveillance and 
enhanced protected wideband communications will improve the situational 
awareness, lethality, survivability, and operations tempo of the Army's 
Future Force. The Army continues to work closely with the DOD Executive 
Agent for Space to ensure transformational capabilities such as theater 
downlink and dynamic tasking in support of the theater warfighter are 
fulfilled.
                               conclusion
    The Army knows the value that space capabilities bring to the 
battlefield--space is the ultimate high ground. In future conflicts, 
the Army envisions that as an interdependent member of the space 
community, we will rely on space products and services provided by DOD, 
other government agencies, our allies and coalition partners, and 
commercial space systems to enhance situational awareness and joint 
battle command. We will also contribute Army capabilities, 
technologies, and trained and ready personnel to this joint effort. The 
resulting fully integrated joint capability will provide depth, 
persistence, and responsive capabilities for commanders at the 
strategic, operational, and tactical levels. There is no doubt that 
space systems and well-trained and experienced space professionals give 
us an information environment advantage over our adversaries. While we 
have done much thus far, we must continue to increase and improve our 
space capabilities to serve the needs of the future.
    Thank you for the opportunity to appear before the committee and 
for your interest and support of our Army's space programs and their 
current and future requirements.

    Senator Sessions. Admiral Sestak, do you want to comment on 
that subject or----
    Admiral Sestak. Yes, sir.
    Senator Sessions.--perspective?
    Admiral Sestak. From the Navy's perspective, being at sea, 
where you can't run fiberoptics, it's pretty critical. We 
launched the first satellite in 1948. We actually bounced a 
radio wave off the moon from Honolulu back to Washington, DC, 
just to see the importance of satellite communications. It was 
probably the first time we had a DOD system deliver on schedule 
and on time. [Laughter.]
    Except for Mr. Teets' tenure, of course. [Laughter.]
    That said, to get back to General Cartwright's issue, when 
he had the J-8 job before where he is, the general, he ran a 
war game with modeling. Some of it was in response to a 
congressional report that mandated a study, on what would be 
the impact of an explosion Electromagnetic Pulse (EMP), in 
space, which is one form of trying to deny us space. The 
scenario, without going into specifics of it--and I'm sure 
General Cartwright remembers it well--had three carrier battle 
groups off a certain nation, and they tried to measure the 
impact upon us during that scenario. It was measurable. We 
worked through some of these issues through different means, 
and not just, as people tend to think of kinetic weapons; but 
there were procedures to follow, and there were diverse 
spectrums where we switched to different frequencies--UHF to 
EHF or HF; and we switched weapons from JDAMs to laser-guided. 
So his point of different means to address such threats is well 
taken.
    We then stepped back in the Navy following a directive from 
the JROC to do a study--which is commencing with DARPA and the 
Navy--to try to assess how we, in the Navy, with regard to this 
particular issue, can try to address this through diverse 
means.
    So are we concerned? Yes, sir. I'm concerned, because when 
this soldier next to me goes ashore, the hope is that he is 
going to be able to say, ``I'm calling for fire,'' and to just 
push the button that goes up to the TSAT and comes down 
directly to the warfighter sitting off the coast on a carrier, 
or a Guided Missile Destroyer (DDG), and it goes directly into 
the IP address of a Tomahawk missile and launches. Being able 
to use that Communications Intelligence (COMINT), where we can 
be over any country legally, in peacetime as well as war, just 
like we can do on the seas today, to be offshore is really the 
marriage of the future between the ``comms'' of the seas and 
space. Being able to control, by whichever means--tactics, 
Concept of Operations (CONOPs) hardening--is very important to 
us in the future.
    [The prepared statement of Vice Admiral Sestak follows:]
         Prepared Statement by VADM Joseph A. Sestak, Jr., USN
    Mr. Chairman, distinguished members of the committee, I am honored 
to appear before you today to address Navy space activities. As Deputy 
Chief of Naval Operations for Warfare Requirements and Programs, we 
provide the substantive analysis, the ``warfighting story,'' and 
supporting capabilities investment plan to the Chief of Naval 
Operations to ensure naval forces remain operationally relevant today 
and in the future.
    Integrating space capabilities throughout the naval force is 
fundamental to our Sea Power 21 vision. The objective of Sea Power 21 
is to ensure that our Nation possesses credible combat capability on 
scene to promote regional stability, to deter aggression throughout the 
world, to assure access of joint forces and to fight and win should 
deterrence fail. Sea Power 21 guides the Navy's transformation from a 
threat-based platform centric structure to a capabilities-based, fully-
integrated force. The pillars of Sea Power 21 Sea Strike, Sea Shield, 
and Sea Base are integrated by FORCEnet, the means by which the power 
of sensors, networks, weapons, warriors, and platforms are harnessed in 
a networked combat force. It is this networked force that will provide 
the access with the strategic agility and persistence necessary to 
prevail in the continuing war on terror, as well as the speed and 
overwhelming power to seize the initiative and swiftly defeat any 
regional peer competitor in combat operations.
    The Navy of the future must be capabilities-based and threat-
oriented. While the fabric of our fighting force will still be the 
power and speed needed to seize the initiative and swiftly defeat any 
regional threat, we believe FORCEnet's pervasive awareness (C\4\ISR) 
will be more important than mass. Because of its access from the sea, 
the Navy and Marine Corps are focusing significant effort and analysis 
in support of joint combat power projection by leveraging this 
traditional access provided by the oceans through Seabasing, with the 
access now provided by space and cyberspace through FORCEnet. It is the 
synergistic access provided by these great ``commons''--the sea and 
space and cyberspace--that is the revolution of the future.
    To this end, the technological innovations and human-systems 
integration advances in future platforms remain critical. Our future 
warships will sustain operations in forward areas longer, be able to 
respond more quickly to emerging contingencies, and generate more 
sorties and simultaneous attacks against greater numbers of multiple 
aim points and targets with greater effect than our current fleet. 
However, the future is about the capabilities posture of this fleet, 
which is why the future is also about establishing C\4\ISR as a 
warfighting weapon and integrator and understanding the impact of 
changing C\4\ISR investment strategies on the warfight.
                         the navy's investment
    In the last year, we have realigned the Navy staff to establish 
C\4\ISR as a warfighting weapon and integrator of other Sea Power 21 
Pillar efforts (Sea Base, Sea Shield, and Sea Strike). We have also 
established an Analysis Center of Excellence to form the leading edge 
of mission level analysis and align our modeling analysis--including 
the accurate modeling of space and cyberspace networked systems, and 
how they contribute to warfighting effectiveness--under the Sea Power 
21 FORCEnet Pillar. I am particularly enthusiastic about the ongoing 
assessment of space capabilities with regard to their contribution to 
Maritime Domain Awareness (MDA), a new operational concept that we have 
been working closely with the U.S. Coast Guard and others to develop so 
that we can better defend the homeland against those who attempt to use 
the seas to transport terror to our shores, as well as to help forgo 
threats early forward overseas. MDA will enable identification of 
threats as early and as distant from our borders as possible to 
determine the optimal course of action. Armed with this better 
awareness and visibility, we will provide an active, layered system of 
defense that incorporates not only the maritime domain, but space and 
cyberspace as well.
    The Navy's space investment portfolio reflects our partnership with 
the Department's Executive Agent for Space and the rest of the National 
Security Space community--as well as our maritime responsibilities. We 
rely on the Air Force and National Reconnaissance Office (NRO) to 
acquire most of the major space platforms, collaborating on the 
required capabilities, and then we buy the user equipment for the 
fleet. We also take the lead in tackling maritime challenges through 
our participation in the Science and Technology/Research and 
Development (S&T/R&D) process.
    The Navy's major space segment responsibility to the joint 
community is the acquisition of the Mobile User Objective System 
(MUOS). The MUOS contract was awarded to Lockheed Martin on 24 
September 2004 and is fully funded in the fiscal year 2006 budget 
request to meet all threshold requirements with an Initial Operational 
Capability (IOC) of 2010. MUOS will provide ``communications on the 
move,'' through double canopy foliage and in the urban environment to 
small antennas used by bandwidth-disadvantaged users. MUOS is the 
common denominator for command and control providing the capability to 
communicate from tactical to theater levels, to allies and coalition 
partners and between defense and non-defense agencies.
    MUOS is critical to satisfying the demand for tactical satellite 
communications. During Operation Enduring Freedom, UHF Follow-On (UFO) 
and Leased Satellite 5 (LEASAT 5) supported only 80 percent of 
narrowband tactical UHF satellite communication requirements. 
Additionally, in the 2010-2012 timeframe, LEASAT 5 will reach end of 
life and UFO is expected to reach an unacceptable level of performance. 
Complete loss of these UHF satellite communication resources would have 
a significant impact on combat operations if not replaced by MUOS. 
Today, UFO supports approximately 500 accesses worldwide. Based on 
evolving future warfighting concepts in support of the Defense Planning 
Guidance (DPG), access requirements have grown by at least a factor of 
four. MUOS will provide a minimum of 1,997 worldwide accesses. As 
Lockheed Martin refines its design, we expect this capacity to grow.
                               innovation
    The Navy continues to invest in its Tactical Exploitation of 
National Capabilities (TENCAP) Program. Navy TENCAP's R&D process 
includes matching innovative responses to emerging Fleet requirements 
and mission capability gaps identified within the analytical Naval 
Capability Development Process (NCDP). This R&D process emphasizes the 
following rigor: (a) rapid prototyping (12-24 months); (b) testing 
under field conditions; and (c) rigorous, independent assessment of 
results. Over the past 24 years, Navy TENCAP has completed 110 R&D 
efforts with 54 percent resulting in new operational and improved ISR 
capabilities for the fleet and joint forces all for a cost less than 
$20 million per year.
    Additionally, the Naval Research Laboratory (NRL) built tactical 
satelite-1 (TACSAT-1) as part of the Office of Force Transformation 
Operationally Responsive Space initiative, and it is ready for launch 
this year on Space-X's Falcon launch vehicle. TACSAT-1 uses a 
commercial MicroStar spacecraft to carry several sensor payloads into 
low earth orbit. The payloads are designed to allow machine-to-machine 
collaboration between Air and Space assets for geo-location, as well as 
specific sensor discrimination capability. Even more significant, 
TACSAT will demonstrate tactical control of payload and dissemination 
of data through SIPRNET--a truly netcentric thrust. For TACSAT-1, NRL 
is working in partnership with the Air Force Space Command, NRO Office 
of Space Launch, and NASA. The Air Force is leading subsequent TACSAT 
demonstrations, on which Navy will also have secondary payloads; 
TACSAT-2's Navy payload is focused on the Maritime Domain Awareness 
challenge. This partnership is a significant step forward to leverage 
small satellite technology to design more responsive space 
capabilities.
                              space cadre
    The key to success is the mix of operational experience and space 
savvy found in our Navy Space Cadre. As members of the National 
Security Space team, we participated in the development of the National 
Security Space Human Capital Resources Strategy and the establishment 
of the Space Professional Oversight Board, the Senior Officer Forum for 
the discussion and resolution of matters concerning space professional 
development within the Department of Defense.
    Navy Space Cadre officers are assigned to NRO, the National 
Security Space Office, USSTRATCOM, many Joint Program Offices, and 
throughout the fleet. Their operational expertise provides critical 
insight into how space can optimize warfighting capabilities. To 
further improve the management of our space cadre, we have designated 
VADM McArthur, Commander, Naval Network Warfare Command, as the Navy's 
Space Cadre Functional Authority, providing strategic guidance on 
priorities for the development and employment of the Navy Space Cadre. 
He recently released the Navy Space Cadre Human Capital Strategy, which 
outlines our vision and way ahead.
    The Navy Space Cadre Advisor is working closely with his Service 
counterparts to meet both Navy and National Security Space goals. The 
Naval Postgraduate School (NPS) Space Systems Operations and Space 
Systems Engineering curricula continue to provide the Navy and other 
Services graduate education, post-graduate (Engineer) degrees, and 
doctoral degrees. In addition, the Navy has developed a Space 
Certification at the NPS, with courses available online. We also 
created a formal Educational Alliance with the Air Force through a 
memorandum of agreement between NPS and the Air Force Institute of 
Technology (AFIT), with the goal of leveraging strengths and 
eliminating duplication in space education.
                                summary
    Our mission remains bringing the fight to our enemies. The 
increasing dependence of our world on the seas, coupled with growing 
uncertainty of other nations' ability or desire to ensure access in a 
future conflict, will continue to drive the need for naval forces and 
the capability to project decisive joint power by access through the 
seas, space, and cyberspace.
    Accordingly, we will continue to fight the global war on terror 
while transforming for the future fight. We will continue to refine our 
operational concepts and appropriate technology investments to deliver 
the kind of dominant military power from the sea envisioned in Sea 
Power 21. We will continue to pursue the operational concepts, such as 
MDA, even as we invest in technology and systems to enable naval 
vessels to deliver decisive, effects-based combat power in every 
tactical and operational dimension. We understand that space 
capabilities will be critical to our efforts and must be integrated 
throughout the naval force and we understand that because the future of 
the Navy is tied to space, we must succeed in growing and maintaining 
our space cadre. We also look forward to the future from a strong 
partnership with Congress that has brought us many successes today.
    My highest priority is to transform Navy organizational processes 
and culture to fully integrate the warfighting capabilities that space 
systems present to our warfighters. To that end, Navy intends to be a 
full joint partner in space.

    Senator Sessions. My staff says I only have 3 minutes. We'd 
better stop now.
    General Dodgen. Senator, if I could give you just a----
    Senator Sessions. Well, it's--yes.
    General Dodgen.--if I could just give you a quick--about 
the pace of how we're moving on this. We went into Operation 
Iraqi Freedom with a--and it discusses Blue Force Tracking--we 
went into Operation Iraqi Freedom with a few hundred devices. 
We now have, in the part of that conflict, we went to thousands 
of devices; we are now to tens of thousands; and, over the next 
few years----
    Senator Sessions. Devices, what----
    General Dodgen. These are small devices that let--operating 
in communications through space, let the commanders know where 
their forces are.
    Senator Sessions. Yes.
    General Dodgen. Complete Blue Force situational awareness. 
That's growing rapidly, and that's probably a good example of 
the pace at which we're moving.
    Senator Sessions. I would agree.
    Gentlemen, I'm sorry. We'll--if you can stay, I think 
there's some other matters we would like to discuss. If any of 
you--it's such that you're not able to stay, I would certainly 
understand that. We will return in--these are four 10-minute 
votes. Sometimes people give up on a vote, but it's unlikely, 
so it'll probably be at least 30 minutes before we get back.
    We are adjourned for the time being. [Recess.]
    General, we will get started again. I thank you very much 
for your patience. It's--this time of the year, with the 
budget, about--and we have 50 hours, but the hours only count 
during debate; they don't count during votes, and I--we'll 
probably--we may have a hundred or more pending amendments to 
vote on. Hopefully, some will go away. Besides that, they bunch 
them, periodically, and so we just did a bunch.
    I think what I could summarize, the testimony before we 
left, is that domination of space is critical to our defense 
needs. The way we fight wars, we utilize the space, and we 
could never allow our soldiers to be subjected to the kind of 
capabilities that we are able to employ on the battlefield. 
That would place them at a greater risk than we would accept. 
So I do believe it's critical that we be honest and direct and 
commence the necessary programs to ensure that that remains the 
case, as it is today.
    I am a little troubled by the funding level that I asked 
about earlier, Mr. Teets, on the--what would appear to be the 
relatively small amount of money spent on offensive and 
defensive counterspace. Perhaps that's not enough, and we ought 
to be looking at that to make sure that we are moving forward.
    I also think, without going into any details, that we can't 
be squeamish about this subject. We might as well be honest 
about it. They--when you have soldiers at risk on the 
battlefield, pilots at risk in the air, sailors at risk on the 
sea, we can't allow political correctness or other type 
concerns to deflect us from thinking clearly about where we 
need to go and what we need to do.
    So, I want to encourage you in that. That would be one of 
my main concerns, and we'll be pursuing it as we go forward, as 
I chair this subcommittee, to make sure that we are not being 
reluctant to propose, from your perspective, anything necessary 
to maintain our capabilities, and expand them.
    Mr. Teets, you, I believe, one time graded yourself as--on 
contracting and management--contracting, I guess--as a C-plus. 
There are a lot of times I would like to have had that grade, 
but the----[Laughter.]
    How do you see--what lessons have you learned in 
contracting and in management that you might like to share with 
us? I know the Government Accountability Office (GAO) is of the 
opinion that sometimes if we wrote the contract better going 
in, we'd be better off as we managed the contract as we go 
forward. Do you have any comments on how we can avoid the cost 
overruns, the--missed time deadlines, through contracting or 
other actions we might take?
    Secretary Teets. Thank you, Mr. Chairman, for the question. 
The answer is, yes, I do have a good number of thoughts along 
those lines, and most of the thoughts have been embedded into 
this new acquisition policy for space systems, called 03-01, 
and they include such things as making certain that you have 
the systems engineering necessary for one of these complex 
systems done early on, making certain that you put the key 
decision points on the program, that are fundamental 
acquisition-program milestones, at the right place for a 
program that is largely research and development, not 
production. All of those changes have been codified and put 
into this acquisition policy 03-01.
    Another item that I have been discussing at considerable 
length is the need for us to have, embedded within our 
programs, sufficient program-managers reserve so that when 
problems arise, as inevitably will arise--you can't go through 
a leading-edge technology-development program, which is what 
all of our space systems are--you can't go through that without 
encountering some unexpected problems. When you do encounter 
the unexpected problems, you can't wait for funds to be 
reprogrammed or moved from one program element into another 
program element, or wait to solve the problem. Help is needed 
in a rapid way if you're going to properly respond. Yet the 
system that we have--and I'm not laying this, by any means, all 
at the feet of Congress--I would tell you that the system we 
have doesn't seem to have any discipline for allowing program 
managers to have reserve, and then have access to it. I can't 
tell you how frustrating that kind of a situation is. Because 
the first thing a program manager needs is to have a resource 
to apply to a problem when it arises in a development program. 
So, I've been working hard to try and figure out a way to get 
that done. This year----
    Senator Sessions. Could you give us an example of when that 
kind of thing, that reserve--how it could help the program?
    Secretary Teets. Absolutely. What can easily happen if you 
don't have a Reserve to apply when a problem arises, you will 
have to defer work on the program downstream. You can't bring 
in any extra--any additional resource. All you can do is 
recognize that the end of the fiscal year is coming, and 
you're--you will then delay the program, essentially, while you 
fix the problem. What that leads to is schedule disruption. It 
gets the various elements of a major development program out of 
synchronization, because you'd establish the program in a way 
that had those synchronized. It generates a certain amount of 
chaos in the development program that ends up snowballing on 
you.
    What I've been trying to do is find ways to establish 
meaningful reserve. This year, in the NRO budget, I have 
actually proposed that the NRO director have a significant 
program reserve. Whether I'm allowed to--whether that's 
authorized and appropriated is yet to be seen, but----
    Senator Sessions. So it would--should the DOD request it 
when they propose a program, and put it in their request----
    Secretary Teets. Yes, I think----
    Senator Sessions.--or is it something that Congress ought 
to add on its own?
    Secretary Teets. Well, I think--as a matter of fact, I 
think the DOD should allow creation of Reserves. Then you can't 
move them around. You have to recognize that that program 
reserve is intended for application to the program when 
problems arise, and can't be tapped when some other program 
somewhere else runs into a snag. That has to be honored. There 
has to be integrity in the system to allow that to happen.
    Now, another major item that we've been working hard on, 
and I think we're getting better at, is independent cost 
estimating. It's true that we have had difficulty in properly 
estimating the cost of a program, and we suffer from the 
problem of trying to cram too much program into what might be 
thought of as an optimistic contractor estimate.
    We had an excellent panel formed, under the leadership of 
an old friend of mine by the name of Tom Young, who came in and 
did--with a group of very talented people, did a thorough 
review of where we were on SBIRS, where we were on Future 
Imagery Architecture (FIA), where we were on EELV, several 
other programs, and they came back and gave us their view of 
the situation. One of the things they emphasized was the need 
for us to have better independent cost estimates earlier on in 
the program. We've tried to institute that----
    Senator Sessions. How do you----
    Secretary Teets.--as well.
    Senator Sessions.--get an independent cost estimate?
    Secretary Teets. The right way to get an independent cost 
estimate is to have a group of people who are professionals in 
the field, who are augmented by technical people, who come in 
and do an independent review. That is to say, they're off the 
program, they're--they come in and do an independent review, 
and then create a cost estimate that is unbiased, it's not 
driven by programmatic needs; it's just an honest assessment of 
that program, and it's a combination of technical, as well as 
cost-estimating techniques.
    Senator Sessions. Before--it would be before the program 
starts or in the middle of it or anytime it's appropriate?
    Secretary Teets. Generally speaking, what you want is an 
update to the independent cost estimate at every major 
milestone decision point. When you go to a key decision point 
in the program, you want the milestone decision authority to be 
informed by a new independent program assessment, including 
that cost assessment.
    That's what we've started to implement in this 03-01 
acquisition policy that I referred to. It's going to take time 
to show its value. The fact is, the seeds of the problems that 
we are seeing on SBIRS and FIA were shown in the 1990s. The 
programs were not established with adequate systems engineering 
up front, they were not scoped to have the proper test program 
built into the programmatic flow. Optimistic--very optimistic 
contractor estimates for performance in both of those cases, 
SBIRS as well as FIA--and those are two different, but very 
large independent prime contractors--those estimates that were 
provided in those proposals were unrealistically optimistic. 
They were cost-reimbursable contracts, bid in a competitive 
environment--highly competitive environment, and the costs were 
optimistically bid and then accepted.
    Senator Sessions. So, should--can that be handled by DOD 
policy, or would it need legislation----
    Secretary Teets. I believe----
    Senator Sessions.--or congressional----
    Secretary Teets. No, in this case----
    Senator Sessions.--partnership----
    Secretary Teets. With the exception of the item--that I 
mentioned on reserve, in this case the independent cost 
estimates, the systems engineering up front, the key decision 
points that are tailored to a research and development program, 
all of that is codified in this policy, 03-01, and at the NRO 
in something we call NRO Directive 7. Those have been meshed to 
gain best-practice information from both organizations.
    I think all of that is in place, but the gestation time for 
that to take effect is a long time. Programs like Space Radar 
and TSAT System are, in fact, now being brought into existence 
under this new codified 03-01 acquisition system and, I think, 
downstream, we'll be the beneficiaries of acquiring under this 
new system of acquisition.
    We have to recognize that we're not at the end of our 
problem list on either SBIRS-High or FIA, and we're going to 
have to live with it until those programs come to completion.
    Senator Sessions. It makes sense to me, and I would just 
suggest that, if we do need congressional action, I think we 
should have some hearings on this and consider it. GAO has 
expressed concern throughout the government, not just DOD, in 
contracting procedures. In August, they raised concerns about 
the inadequacy of DOD's Space Acquisition Workforce. It seems 
to be a growing trend to have contractors oversee more of the 
work to make up for the lack of government personnel, and that 
may be a problem.
    I've learned, if you have a family member in the hospital, 
if you don't take an interest in their condition, the doctors 
sometimes get confused or they--the different ones, and you 
have to--if you build a house, I don't think you can just turn 
it over to the architect; you have to be engaged or--because 
you have a greater intensity of interest in having it be 
successful and meet your specifications than anybody else in 
the world would have.
    Secretary Teets. Yes, sir.
    Senator Sessions. I don't oppose private contracting, 
because they can create teams and handle peak work levels and 
do things in a way that government employees have a difficulty 
doing. But I guess my question to the panel would be--and let's 
just do this briefly, and I might ask you to submit more for 
the record--is this a concern? Do we need more skilled people 
capable of managing this?
    General Lord?
    General Lord. Senator Sessions, I'll answer the question 
and I'll follow on with what Mr. Teets said. Developing the 
acquisition professionals in the space acquisition business is 
a priority of Mr. Teets and certainly one that we share. I know 
that our other colleagues do agree with us. What we've done at 
our Space and Missile Systems Center in Los Angeles, we're 
keeping our program managers longer was one of the things that 
Mr. Young noticed the first time he took a look at us, that we 
had program managers who didn't stay around long enough to lead 
a program to success. So we've agreed on a minimum 4-year 
tour----
    Senator Sessions. What was it before that? I mean, how long 
did you stay----
    General Lord. Well, in some cases we had--in some major 
programs, we'd have four or five program managers in a period 
of 5 or 6 years, which is just absolutely the wrong way to do 
business. We've put our foot down, and now we're--we have 4-
year minimum tours for our program managers, we have our----
    Senator Sessions. Can you extend that if----
    General Lord. I can, depending on what's going on. Our 
SBIRS program manager, for example, Colonel Randy Weidenheimer, 
I didn't say he would be the program manager for life, but he's 
going to get the program, and he'll keep working that as long 
as we need him to. Randy's doing a wonderful job, I think, 
given what Mr. Teets said, that he inherited a program that had 
some flaws in it, and we're working those. But the pressure is 
to put the right people in at the right place, train them, have 
the systems engineering schools that they can help understand, 
and then have the right amount of engineers in the systems at 
Los Angeles so that we can do that. Mr. Teets is----
    Senator Sessions. Are these civilian and--I mean----
    General Lord. We have a mixture of military and civilian 
engineers. We're 100 percent manned----
    Senator Sessions. Government employee----
    General Lord. Yes, sir.
    Senator Sessions.--civilians.
    General Lord.--100 percent in our civilian engineers in the 
Space and Missile Systems Center in Los Angeles against their 
authorizations. That number's probably close to, I would say--I 
don't know exactly--I think it's close to maybe 750, 800, maybe 
even a thousand civilian engineers at Los Angeles.
    Now, our military component is smaller than that, but we 
have key management positions, where we're manned now, or will 
be by the summer, at about the same authorization rate the rest 
of the Air Force is, because engineers in the acquisition 
business are really golden nuggets, and we try to spread them 
around. We have some great ones, and we're going to get up to 
the same level as the rest of the Air Force. So we want to go 
even further. We're taking actions to selectively man, where we 
can, in the space acquisition business.
    So professional development of our acquisition cadre is an 
important part for us.
    Senator Sessions. You believe you are making progress----
    General Lord. We're making progress, but we're competing in 
an environment where there's a lot of other competition for 
engineers, and we want to make sure we have the best and 
brightest that we can get our hands on in the Space and Missile 
Systems Center.
    Senator Sessions. Well, it strikes me, if we have a multi-
billion-dollar procurement program that's critical to our 
national defense, we may have to provide unusual compensation 
capabilities to the defense management to keep the people you 
need. Have you considered whether or not some change in our----
    General Lord. There's been options like that----
    Senator Sessions.--personnel system might be helpful, or--
--
    General Lord. Yes, sir, there's been opportunities to--and 
I'll have to provide it for the record; I don't know exactly 
what the bonus is now for some engineers, and we'll provide 
that to you.
    [The information referred to follows:]

    The Critical Skills Retention Bonus was offered in fiscal year 2003 
to the following Air Force Specialty Codes (AFSCs): 32E (Civil 
Engineer), 33S (Communications and Information), 61S (Scientific 
Research), 62E (Developmental Engineer), and 63A (Acquisition Program 
Manager). The goal of the retention bonus was to retain officers in the 
target AFSCs with 4-13 commissioned years of service by offering 1 to 4 
year contracts with a payout of $10,000 per year, not to exceed 
$40,000. In fiscal year 2003, officers who were eligible were required 
to make their decision to accept the bonus by 31 August 2003. New 
contracts have not been awarded since 31 August 2003 and the last 
payment to those originally accepting the bonus will expire on 30 
September 2006.
    The retention bonuses offered to critical skills in fiscal year 
2003 had a positive impact on retention when compared to projected non-
bonus Cumulative Continuation Rates: Scientists, 5.9 percent increase 
over projection, an additional 28 officers retained; Engineers, 13.8 
percent increase over projection, an additional 173 officers retained; 
Acquisition Program Managers, 10.5 percent increase over projection, an 
additional 86 officers retained; and Communications-Computer, 6.7 
percent increase over projection, an additional 134 officers retained.
    This program proved valuable and should be a consideration in 
developing force shaping initiatives in the future.

    General Lord. But we have used that as an incentive to 
attract people and make sure they stay in that business. But 
we're looking at all the options.
    Senator Sessions. I notice you indicated that you share the 
concern and--just briefly.
    General Cartwright. I think you've hit the key issues. It's 
the stability of the workforce. It's the training and then the 
refreshing and constant interface. Because this is a dynamic 
field, the rules, the laws, the regulations change on a regular 
basis. The technologies change very quickly. If you don't have 
a workforce that's engaged and stable, you lose the benefit.
    Senator Sessions. I'll ask the other--General Cartwright 
and the others, military witnesses--what about the Space Radar? 
Can you give us an appreciation for its utility and where we 
are on that?
    General Cartwright. I'll start off and give you a thumbnail 
of how I see the utility of radar from space and how it's 
evolved. It's more in the context of a warfighter approach. If 
you go back, in particular, to the first Gulf War, one of the 
takeaways out of that war was that we needed to be able to take 
the night away from the enemy and be able to operate 24 hours a 
day. We came out of that war looking at both taking the night 
from the enemy and bringing precision to the war. Those were 
the two big takeaways, from my perspective, out of that 
activity.
    As we moved into the Bosnia and Kosovo era and some of the 
work that we did there, the next major activity we really felt 
like we needed to take away in the scorecard for the enemy was 
weather. That was reinforced again in this most recent 
conflict.
    When you look at taking the night and weather away from the 
enemy, you start to want to use more than one phenomenology to 
see what's going on. Electro-optical or just pure vision 
becomes challenged, obviously, in the night, and particularly 
in the weather. Radar gives you a way of having the opportunity 
to dictate the tempo of the conflict on your terms, because 
you're not held up by night and you're not held up by weather. 
Eventually--I'll extend this out one more iteration, which is 
that we have to start to take away the advantage of mobility 
and deception from the enemy. Again, having more than one 
phenomenology to look at in a very wide area, country size, and 
understand what's in front of you and not be hindered or 
dictated by natural phenomenon or by the enemy's ability to run 
and hide, will be critical to the way we fight battles in the 
future.
    Senator Sessions. They understand when our capabilities are 
at their minimum, and tend to make their movements and actions 
during those periods.
    General Cartwright. They are not unintelligent in that 
area.
    Senator Sessions. Secretary Teets, we've been concerned 
about the cost of this program. You've restructured it, I 
understand, some, and how are we doing with that? Is there any 
cost-sharing that we can obtain, or the DOD could obtain 
through the Intelligence Community, to help afford this 
program?
    Secretary Teets. Yes, sir. What we have done is really 
responded to a directive that is cosigned by both the Secretary 
of Defense (SECDEF) and the Director of Central Intelligence 
(DCI), which came out after a number of Space-Based Radar 
Summit meetings that we held among people who are involved in 
both the warfighting community, as well as the intelligence-
collection community. This particular memorandum that I'm 
referring to really dictates the desire of both the DCI and the 
SECDEF to field a national Space Radar system, one that will 
serve the needs of both the Intelligence Community and the 
warfighting community downstream.
    So, what we've done is put together a program that--for 
example, the President's request in 2006 is $225 million, and 
what we are going to spend a significant portion of that on is 
this demonstration satellite that I mentioned in my oral 
statement, which would fly in 2008, or actually two satellites 
that would fly in 2008. These satellites would be about a 
quarter-scale, roughly speaking, a one-fourth scale model, of 
the full-blown operational satellite that would come online in 
about the 2015 time frame. What we're trying to do on the cost 
equation is mature the technology early, use the transmit-
receive modules that would ultimately be used on the full-blown 
system, but do it early, and have the Intelligence Community 
and the warfighting community work together to develop the 
concept of operations for how this system would be used--how 
would it be tasked, how would you disseminate the data that you 
receive from it, how would synthetic-aperture radar imagery get 
to imaging analysts while surface moving-target indication 
information would get to combatant commanders in theater--
develop all of that concept of operations.
    What we've said is, before we spend a very large amount of 
money on a full-blown operational system, let's show you--and 
show ourselves, too, by the way--but let's show ourselves and 
Congress that we can deliver this system at a predictable 
price, we can work together to develop this concept of 
operations. Then there's a separate tasking, in this memo that 
I referred to, which charges the Under Secretary of Defense for 
Intelligence and the Deputy Director of Central Intelligence 
for Community Management to work together to find the right 
formula for sharing the funding, starting in 2008. So, in 2008, 
I do believe that there will be a jointly-funded Space Radar 
Program that will come to Congress.
    Senator Sessions. Anyone want to make a brief comment on 
the priority that we ought to give to this, how critical that 
is to the warfighter, and----
    General Cartwright. I'll throw at least initial comments in 
here. To me, again, owning to the tempo of the fight, being 
able to do it day, night, all weather, is critical. There are 
other capabilities that radar, as a phenomenology offered to us 
in the realm of precision, both for locating a spot on the 
Earth and for describing it, that you cannot get from electro-
optical, which is the way we do business today. As we move to 
more precise weapons, lower collateral damage, and a better 
understanding of the environment that we operate in, radar is 
going to be critical to us in that environment. Having that 
available and taskable by the warfighter is going to be very 
important, as it will also be to the Intelligence Community.
    Admiral Sestak. Mr. Chairman?
    Senator Sessions. Admiral Sestak?
    Admiral Sestak. Just a short vignette. I talked to you 
about a scenario that was run by the General in the next 
decade, where three aircraft carriers had to show up at a 
conflict. This analysis shows that having five aircraft 
carriers show up, let's say, at ``D Plus 20,'' was interesting, 
but irrelevant. Having two or three carriers there with this 
space capability was totally relevant, on D-Day, to that fight.
    What the U.S. Navy, same as my brethren services, are going 
to face in the next decade against certain regional adversaries 
is pretty much a ``saturation'' tactic by them. For us, it's a 
lot of mines to impede us closing them, a lot of submarines, 
but it's also a lot of arrows going to be shot at us at sea--
theater ballistic missiles--as well as at our service brethren 
sitting in several overseas bases. There are not enough of our 
arrows to shoot down their arrows. There just aren't.
    To be able to have a space-based capability that can be 
overhead, day in and day out--in peacetime, watching where they 
move what we call Transportable Erector Launches (TELs)--and 
then be able to say, when the flag goes down, that I can shoot 
the archer, I can take him with that quick-response missile is 
exactly what we need to do--which space radar can help with 
enormously. So, the only thing we would need hard-kill for--
which is still important--is to have a nominal number of arrows 
to shoot the arrows down that were fired from bunchers not 
destroyed--a greatly mitigated threat. It's absolutely critical 
in future conflict for us, from the sea.
    Senator Sessions. Would you care to express an opinion as 
to, in the panoply of matters we are spending money on in 
space, how high you would rate Space Radar?
    Admiral Sestak. I would rate that capability as extremely 
high. Warfare in the future is about speed. Every war we've 
fought since World War II has been one where U.S. industrial 
might--such as in Operation Desert Storm, Korea in 1951, and 
World War II--we had time to build up. Even in this last war, 
it took us several months to get everything over there, and 
then we attacked. Imagine if we had had that capability of 
speed, of being able to see and know what Saddam was doing in 
1990, before he came into Kuwait. Maybe we wouldn't be there 
today.
    So, this capability to see, to know, and to act quickly 
because of intelligence from space is absolutely of a 
heightened concern.
    One last thing. The global war of terror and September 11 
showed us something. We haven't had to worry about any 
adversary coming against our shores from the seas since the 
British of 1812. September 11 has changed this tremendously. To 
some degree, we can protect the airways better, because we know 
that every plane has to be on a certain pathway; and if they're 
off that, alarms go off.
    People or items coming from the seas are many--56,000 ships 
every year come into U.S. ports that are over 10,000 tons, 
never mind the smaller ships. Which one of those ships coming 
from across the sea has something in it we don't want to pull 
into our port?
    The ability of a space-based capability, along with other 
sensors we have under the sea, to fingerprint precisely certain 
critical vessels coming across, is an additional attribute that 
this space capability gives us to control the strategic 
approaches by pervasive awareness from overhead, as well as 
from under the sea. Fingerprinting.
    Senator Sessions. Thank you.
    I think that states a strong case for Space Radar, and we 
need to be sure, as we go forward, our budget properly reflects 
that.
    Perhaps our service witnesses could share with us the 
extent to which we have learned lessons from this Iraq 
campaign, or Afghanistan campaign, and--What can we do better? 
Are there some things that Congress needs to do to help you 
meet your goals?
    General Cartwright, do you want to start off? We've talked 
about some of it, I know, but if there's something specific, it 
would be an opportunity to--we'd appreciate hearing from you.
    General Cartwright. I mean, I'll go back to the space 
situation awareness. It has become such a critical enabler for 
our warfighters. I speak from a purple uniform right now, as 
much as from a Marine uniform. To stay on a path that keeps our 
focus there so that we understand what's happening in space, 
since it is so critical, so that we can move from being able to 
assess what happens in very large volumes, but not with any 
great granularity, taking several days to know whether 
something ran into something else, was interfering with 
something else, or just disappeared. Today, there's so much 
ambiguity in an area that is so critical to the way we do 
business, that remaining focused in space situation awareness 
in the next few years is, to me, a critical enabler. Getting 
those capabilities into a command and control system that takes 
that awareness, not just to some headquarters, but down to the 
warfighters, so that they know when GPS is going to be 
available and how accurate it is, and they understand when 
their communications are being interfered with by solar 
activity or by an enemy. To me, that's going to be a critical 
enabler, and I want to stay focused in that area. It is 
resourced now. I'd just urge us to keep it resourced and move 
forward in that area.
    General Lord. Senator Sessions, thanks. Very good question. 
I want to say, with the support of this committee, certainly 
with respect to space professional development, I think that's 
helped us create an important advantage for us in this 
business. It certainly, I think, paid off in Operations 
Enduring Freedom and Iraqi Freedom. Not only do we have the 
good hardware, but we have good people who understand the 
environment of space and our commitment to their educational 
and professional development helped us integrate space in a 
seamless way. We're not perfect yet. We have to continue to 
grow our people in the right kind of way so they're the bona 
fide warfighters and can stand shoulder to shoulder with their 
colleagues in the Army, Navy, Air Force, Marine Corps, and 
Coast Guard and be an equal partner in the air, land, sea, and 
space business. I think that's starting to really take hold. 
Because of your support, and the committee's support, we've 
been able to make some great strides there, and will continue. 
So I would, sir, ask you to just keep the pressure on us with 
respect to space professional development.
    Senator Sessions. Thank you.
    General Dodgen.
    General Dodgen. Sir, I would highlight three things. First 
of all, I echo what General Lord said about the people. Space 
experts are going to be on the battlefield from now on in the 
Army's combat formations. We had gone from support teams, which 
went on call, to now we're in the process of putting organic 
space experts in each one of our division-level formations.
    The second thing I would highlight to you is that we had 
some issues with our missile warning in Operation Iraqi 
Freedom. There were classes of missiles that the current 
constellation DSP did not see. So, we need better infrared 
capability that SBIRS will provide us. The effect of not having 
that constellation up there to give you that missile warning is 
that you become dependent upon your radar resources to pick 
these things up, and you lose in a battle which is--and 
particularly with short-range missiles--is only seconds long, 
you lose some of those seconds. So that warning from space will 
be critical to us as we go forward.
    The last thing I would tell you, that I think we did for 
the first time in this fight that worked pretty well and we 
need to mature at the joint level, is the notion that, as space 
becomes more complicated, that we have a single space-
coordinating authority which coordinates our efforts in space, 
understands our vulnerability, protects what we have, and 
limits our--the effects of our enemy. I think that's important, 
that we continue that at the theater level, and even at the 
global level.
    Senator Sessions. Thank you.
    Admiral Sestak. Sir, I have just two. The first one is that 
I would think of the TV series ``M*A*S*H.'' All those 
casualties are coming in, and the physicians are going around 
trying to find who to take care of first. That's part of the 
problem that we saw in the war, and that we definitely will see 
next decade with the space surveillance radar. We're going to 
have a lot of information; but how much of it is knowledge? We 
need data triage. We need machine-to-machine automatic target 
recognition, automatic mensuration; that is, the ability to 
say, ``These are the important targets and this is definitely a 
tank or a TEL.'' We can have this great space capability system 
up there, but we all know, having operated out there, that our 
minds can only take so much data . . . it needs knowledge 
presented to it. I need that automaticity in these networks Mr. 
Teets and others talked about. Without that, we are just 
getting information into the M*A*S*H tent, but we're not taking 
care of the important targets first on their way out.
    Second, I won't forget the day I got underway on a battle 
group. I'm literally 2, 3 hours out from Norfolk, headed to the 
Persian Gulf, a couple of years ago, when my intelligence 
officer walked in and said, ``I just want you to know, 10 
minutes ago two aircraft took off from this airfield in this 
country in the Persian Gulf.'' I said, ``Why do I care what's 
happening 8,300 nautical miles away, when I won't be there 2 
weeks from now?'' He said, ``Because we're the first battle 
group to ever have a direct downlink from a satellite that was 
able to have the signal intelligence intercept that they were 
getting underway. When you're in the Gulf, those two aircraft 
will be over top of you in 10 minutes.''
    So what's important as we begin to look at things like 
TACSAT, being able to have more responsive systems go up, is, 
our ability to get it directly by the warfighter. It's good to 
send it down and get it processed, data triage, but time is 
also important, and that downlink, increasingly, to that 
warfighter forward--from Unmanned Aerial Vehicles (UAVs) to 
national satellites--to TACSATs--is critical in this fight.
    Those are the two I'd take away, sir.
    Senator Sessions. Well, it is certainly a complex thing. I 
agree that discriminating between lethal attackers and 
innocents in time is critical. I've often thought about it. As 
we get more capable and we have more information, it's even 
harder to determine what's friendly and what's not. I don't 
envy you in that regard.
    Secretary Teets, do you have anything to share with us? 
We'll keep the record open so that anyone who wants to submit 
written questions will be able to do so. We'll also make part 
of the record your statements that you've given us. But do you 
have any final comments before we break?
    Secretary Teets. No, sir. I would only, in closing, thank 
you, once again, for the support of this committee. I think 
your attitude, that has been very evident today, is extremely 
helpful, and I appreciate very much the openness with which you 
are willing, and obviously eager, to discuss this entire space-
control issue. I do think it is a paramount issue, and we need 
your continued support to push this agenda forward. We thank 
you very much.
    Senator Sessions. Thank you.
    Well, from this hearing, I think few could dispute that our 
military capability depends on space control, and, therefore we 
need to be investing in things that will allow us to continue 
to have that control and improve our capabilities.
    If there's nothing else, thank you very much for your 
excellent testimony. It has helped us a lot, and we look 
forward to continuing to work with you.
    We are adjourned.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Jeff Sessions
                          general space policy
    1. Senator Sessions. Secretary Teets, is it U.S. policy to disrupt 
adversary satellite-based communications only in a temporary, 
reversible manner?
    Mr. Teets. U.S. space policy states that we are committed to he 
exploration and use of outer space for peaceful purposes. These 
peaceful uses include intelligence and military-related activities. In 
the event that an adversary is using space in a manner hostile to U.S. 
national interests, we chose to deny the adversary this use. We reserve 
the right to employ a range of options which range from diplomatic 
through military. The Secretary of Defense (SECDEF) is tasked to 
develop a range of options from temporary/reversible to permanent/non-
reversible denial of an adversary's use of the space system and/or 
service.

    2. Senator Sessions. Secretary Teets, can we accomplish the space 
control mission solely through reversible effects?
    Mr. Teets. The objective of the U.S. space control mission area is 
to gain and maintain space superiority. Space Superiority is comprised 
of three critical elements. We must have complete Space Situation 
Awareness (SSA) to fully understand what is happening in space, we must 
be able to defend our space assets against hostile attack and the 
environment, and when required, we must have the ability and resources 
to deny our adversaries the use of space. While our focus is on 
temporary, non-destructive means, we reserve the right to use 
destructive force if it becomes necessary.

    3. Senator Sessions. Secretary Teets, are there any scenarios where 
we might have to consider destructive effects?
    Mr. Teets. Yes, it may be necessary but only after other options 
are considered. The U.S. will employ a range of options to achieve 
space superiority in a time and place as needed. These options include 
both diplomatic as well as military with the military options ranging 
from temporary/reversible to permanent/non-reversible. The decision is 
based on which option will best achieve the combatant commander's 
required effect. All U.S. military planning must be in accordance with 
The Law of Armed Conflict; space control planning is no different. 
Before implementing a plan to destroy any portion of a space system 
(ground, space, user) the planners will ensure that it meets both the 
necessity and proportionality principles associated with the Law of 
Armed Conflict. That is, that the destruction is required to meet the 
combatant commander's intent, the degree of force does not exceed that 
required to accomplish the mission and that the military advantage 
justifies the potential civil loss. Our current destructive 
capabilities are focused on the ground and/or user segment of the space 
system using conventional munitions.

    4. Senator Sessions. Secretary Teets, commerical imagery 
satellites, owned by other countries or a consortia of other countries, 
could conceivably provide to potential adversaries the location of U.S. 
forces during a crisis or conflict. Would we permit these commercial 
satellite companies to pass such information?
    Mr. Teets. Protecting U.S. and allied forces from overhead 
reconnaissance is a growing concern of ours. Commercial imagery is 
available to anyone with internet access and a credit card. Our 
approach for addressing this issue is multi-pronged. National remote 
sensing policy focuses on establishing agreements to limit the 
distribution of remote sensing information for U.S. licensed remote 
sensing operators in times of crisis. We are working with other 
governments to encourage them to put in place similar mechanisms for 
their commercial/civil operators. In addition, other diplomatic options 
can be pursued if necessary. On the military side, we continue to 
perform research and development on capabilities to deny remote sensing 
in accordance with our National space control policy should diplomatic 
options fail.

    5. Senator Sessions. Secretary Teets, the United States' Global 
Positioning System (GPS) system provides position and navigation 
information to anyone that has a GPS receiver, including potential 
adversaries. What is U.S. policy with respect to denying this 
information to adversaries, or those cooperating with adversaries, 
during times of crises or conflict?
    Mr. Teets. In accordance with presidential directive, the U.S. 
policy is to deny to adversaries position, navigation, and timing 
services from the GPS, its augmentations, and/or any other space-based 
position, navigation, and timing systems without unduly disrupting 
civil, commercial, and scientific uses of these services outside an 
area of military operations, or for homeland security purposes.

    6. Senator Sessions. Secretary Teets, in Operation Iraqi Freedom, 
over 80 percent of our military satellite communications was provided 
by commercial carriers, many of which are owned by non-U.S. consortia. 
What are the national security risks of relying on commercial providers 
for military communications?
    Mr. Teets. Commercial satellite systems are an integral part of our 
space capabilities just as commercial aircraft play a vital role in our 
ability to transport troops and cargo when needed. Our challenge in the 
use of commercial space capabilities is to strike a proper balance 
between the risk in the use of commercial communications satellites and 
the cost of operating only military satellite communications to meet 
our needs. We are well aware of this balancing act and are aggressively 
refining strategies to ensure we find the proper balance. To address 
these opportunities and potential threats, a Department of Defense 
(DOD) Commercial Satellite Communications (SATCOM) study was 
established in 2004 where DOD worked directly with the satellite 
industry to improve policies, programs, protection, and processes 
relating to the commercial SATCOM services supporting U.S. Government. 
As part of this effort, I hosted a meeting for the CEOs of our 
commercial SATCOM service providers and other key DOD SATCOM leaders. 
The meetings focused on the vital role that commercial SATCOM plays in 
our current expeditionary force structure.

    7. Senator Sessions. Secretary Teets, should we consider the 
development of a National Commercial Satellite Communications policy 
similar to the existing National Remote Sensing Policy?
    Mr. Teets. Current national space policy (PDD/NSC-49) directs DOD 
and other U.S. Government agencies to ``purchase commercially available 
space goods and services to the fullest extent feasible.'' We see no 
requirement for a comprehensive, interagency National Space 
Communications Policy.
    At the same time, DOD is proactively working to amend the current, 
``ad-hoc'' approach to leasing commercial SATCOM with a more strategic 
approach for acquiring services to support a variety of missions. The 
DOD Executive Agent for Space recently co-sponsored a comprehensive DOD 
Commercial SATCOM study. This study was conducted in conjunction with 
U.S. Strategic Command (USSTRATCOM) and the Office of the Assistant 
Secretary of Defense for Networks and Information Integration. The 
study examined protection operations and acquisition practices 
associated with DOD use of commercial SATCOM networks. As a result of 
this study, Acting ASD(NII), Dr. Wells, signed a memorandum on ``Policy 
for the Planning, Acquisition and Management of Commercial Satellite 
Communications Fixed Satellite Services'' on 14 December 2004. This 
policy seeks to establish a capabilities-based, best practices strategy 
that provides more competitive, rapid, and reliable access to 
commercial satellite communications resources.
    In accordance with this action plan, the study co-sponsors are 
working closely with DISA to establish new contract criteria for the 
protection of commercial SATCOM networks, based upon ``best practices'' 
for information sharing, physical protection, and cyber security. The 
National Security Space Office also is incorporating commercial 
requirements and capabilities in its update of the Transformational 
Communications Architecture.

    8. Senator Sessions. General Lord, General Dodgen, and Admiral 
Sestak, there seems to be general agreement that it is a good idea to 
develop an operationally responsive space capability to provide 
warfighters with the ability to rapidly launch small, militarily useful 
satellites capable of supporting a specific theater of operations. How 
would each of your respective services employ such a capability in 
support of the warfighter?
    General Lord. Air Force Space Command is currently developing an 
Operations Concept for Joint Warfighting Space (JWS). Under this 
concept we will employ small satellites known as Tactical Satellites 
(TACSATs) that feature tailored payloads dedicated for the Theater 
Commander's specific needs. These TACSATs will have standardized 
platforms and payload interfaces for rapid mating and testing of 
payloads. Various payloads/platforms will be kept as War Reserve 
Material (WRM) near the launch pads, analogous to pre-positioned 
munitions on flight lines. The WRM concept, rapid mating and test, 
rapid launch capability, and priority mission planning will enable an 
initial on-orbit capability within 72 hours of call-up. We are planning 
a series of TACSAT flights starting later this year to demonstrate this 
responsive capability.
    General Dodgen. A good example of how we would use such a 
capability is the TACSAT, which is an experimental program that may 
provide a capability to rapidly augment an existing constellation of 
spacecraft, and/or to rapidly deploy space assets with payloads 
tailored to specific requirements of combatant commanders. Such a 
capability could assist in achieving persistent surveillance, precision 
targeting, communications, 360 degrees of situational awareness, and 
the possibility of dynamic re-tasking. Technology advancements in small 
satellites along with small responsive launch offer the potential of 
cost-effective, tactical space systems.
    Admiral Sestak. Small satellite constellations could provide 
additional options to the Battle Group Commander. These options could 
responsively fill capability needs or gaps, such as persistent 
intelligence, surveillance, and reconnaissance (ISR) and communications 
relay, in a quick reaction manner. For specific problems, it could also 
help us achieve efficiencies by optimizing space capabilities in a 
responsive manner for limited timeframes.
    For instance, in the months leading up to Operation Iraqi Freedom, 
the Navy was concerned about Iraqi use of mines to potentially disrupt 
and delay joint access to the area from the sea. The sheer number of 
ISR requirements and competition inherent for use of National Technical 
Means (NTM) make it difficult to achieve the level of persistent ISR 
needed to detect mine laying operations prior to a conflict. With an 
operationally responsive space capability, the battle group commander 
could request launch of a constellation of small satellites optimized 
against a specific threat (e.g. mines) to achieve Maritime Domain 
Awareness. The battle group commander could expect the small satellite 
constellation to be operational in a matter of weeks and to have direct 
tasking of the payload.

    9. Senator Sessions. General Cartwright, what progress has STRATCOM 
made toward development of a requirement document and a concept of 
operations to support this capability?
    General Cartwright. STRATCOM is in the initial stages of writing a 
Space Support Joint Capabilities Document to address responsive space 
capabilities within the context of Joint Doctrine. The ongoing National 
Security Space Office Responsive Space Operations Architecture 
Development Study will also provide key insight to the analysis 
necessary for developing the responsive space attributes and 
capabilities required to support the joint warfighter.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                           space superiority
    10. Senator Inhofe. Secretary Teets, General Cartwright, General 
Lord, General Dodgen, and Admiral Sestak, in 2001 the Space Commission 
reported ``an attack on elements of the U.S. space systems during a 
crisis or conflict should not be considered an improbable act.'' These 
types of attacks could include but would not be limited to:

        1. Jamming the signal links between satellites and ground 
        stations.
        2. Permanently or temporarily degrading satellites with lasers.
        3. Degrading or destroying satellites or ground systems with 
        electromagnetic pulse (EMP) attacks.
        4. Conducting cyber attacks to disrupt computer systems used to 
        control satellite functions and to collect, analyze, and 
        distribute information.

    The United States has had an ever-evolving reliance on space 
operations to support military and national objectives, beginning with 
1991's Persian Gulf War. Since then, space systems have been heavily 
utilized for navigation, communication, weather, missile warning, and 
targeting information. It is my understanding that approximately 60 
percent of the precision-guided munitions dropped over Afghanistan 
during the first 2 months of Operation Enduring Freedom were GPS-
directed Joint Direct Attack Munitions (JDAMs). I have also been 
informed that commercial satellites are providing more than 70 percent 
of the military's communication network during Operation Iraqi Freedom. 
Non-U.S. companies, I might add, own most of these satellites.
    It seems to me that with the ongoing and escalating use of space 
assets we need to ensure that we have superior systems that are heavily 
defended against attack. I don't have to point out that the threat to 
our space capability need not come directly from the enemy we engage. 
The enemy we engage can buy the threat from a third-party.
    What are we doing to ensure that our space capability is indeed 
superior, and just as importantly, how do we limit any attack on what 
we have come to rely on as a critical information provider to defeat 
the enemy? In other words, should the U.S. do more in the way of 
counter-space operations?
    Mr. Teets. The U.S. can no longer consider space a sanctuary and we 
are taking steps to ensure we are prepared to be meet the increasing 
threat. The National Security Space Community has reviewed and updated 
emergency response procedures and contingency plans to address existing 
and emerging threats. We are improving space situational awareness for 
enhanced warning and assessment of potential threats. Space operators 
and end-users are being educated on the full range of threats to space 
systems. We have taken addition steps and they are outlined in more 
detail in our May 2004 report to Congress titled ``Efforts to Address 
Vulnerabilities in Space Systems.''
    General Cartwright. Our space related assets are true global 
enablers. STRATCOM has an assessment underway to identify space control 
capability gaps and redundancies as well as the potential approaches 
necessary to guarantee our continued ability to operate freely in 
space. This assessment will also help rationalize ongoing space control 
policy development efforts and provide a basis to help focus future 
science and technology and acquisition programs.
    General Lord. Operation Iraqi Freedom demonstrated the importance 
of space systems to military operations. However, the advantages of 
space-enabled warfare are also evident to our adversaries. Space can no 
longer be treated as a sanctuary. Defensive counterspace operations 
need to be a key consideration in the development, acquisition, and 
operation of every space system. For example, the Air Force has 
reviewed and updated emergency response procedures and contingency 
plans to address existing and emerging threats. The Air Force is also 
developing a comprehensive attack detection and characterization 
program that will increase space situation awareness significantly and 
allow us to mitigate the effects of an attack on less protected 
systems. Our space operators and end-users are being educated on the 
full range of threats to space systems. More specifically, the Air 
Force has established a Space Aggressor capability and a Space Test and 
Training Range capability to conduct threat and protection training in 
a realistic, yet secure environment. We have taken additional steps and 
they are encompassed in more detail in the DOD Executive Agent for 
Space May 2004 Report to Congress entitled ``Efforts to Address 
Vulnerabilities in Space Systems.''
    General Dodgen. Counter-space operations are becoming increasingly 
important to warfighting. The increasing reliance on space capabilities 
demands that we protect these potential vulnerabilities. Protection 
must be examined in a holistic view--protection of on-orbit assets, 
protection of the links to ground systems, and protection of the ground 
systems. Besides protecting the ability of U.S. and coalition forces to 
leverage these critical space capabilities, we must remain vigilant to 
deny the enemy's use of various space capabilities that could be used 
against our forces, if required. Preventing the enemy from using space 
capabilities can range from diplomatic and economic measures to 
military ones. We must have the military capability to deny the enemy 
use of space capabilities in cases of last resort. These capabilities 
must strive to be temporary and reversible in nature. The ability to 
deny the enemy the use of space also requires a robust and near real 
time space surveillance capability that provides as complete space 
situational awareness as possible. Our counter-space approach must be a 
balanced but comprehensive one, integrating defensive and offensive 
capabilities and tactics to maintain our warfighting dominance.
    Admiral Sestak. Navy mitigates the effect that an attack might have 
on our space capabilities by building redundancy into our operational 
procedures so we can shift to a different means of transferring data if 
the space segment suffers an outage for any reason (hardware failure, 
adversary denial, etc.). SATCOM is a ship's lifeline after it pulls 
away from the pier, but if there is a hardware failure on a commercial 
satellite, for example, Navy ships have alternate means of 
communication in different frequency bands such as SHF (DSCS and 
Wideband Gap Filler) and EHF (MILSTAR and AEHF). Even if a Navy ship 
lost all satellite communications it could still communicate, albeit at 
a reduced level, using HF communications.
    All of the four mission areas of Space Control are important to 
ensure freedom of action in space for the U.S. Consequently, a balanced 
investment portfolio for SSA, Protection, Prevention, and Negation is 
needed to ensure maximum effectiveness.

                 china's growing anti-satellite threat
    11. Senator Inhofe. Secretary Teets and General Lord, as a follow-
up, a growing concern of mine is China's increased space capability. 
China is spending large sums of money on jamming and intercept 
technologies, as well as laser technology that can blind electro-
optical sensors or attack our GPS satellite constellation. Reports also 
highlight that China is thought to be on a path toward a direct-ascent 
(ASAT) system that could be fielded in the 2005-2010 timeframe. What 
are we doing to counteract these advances by China? In other words, 
what redundancies are we developing into our systems to prevent the 
success of these Chinese initiatives?
    Mr. Teets. The National Security Space Community continues to 
monitor threat assessments provided by our intelligence community. As 
the threat changes/evolves we adjust current operations and our 
acquisition programs as deemed necessary. We are facing a much 
different threat today than we did during the first 50 years of space 
operations and are taking appropriate measures to ensure our continued 
operations. The Air Force is investing in programs to improve our space 
situational awareness to allow us to better understand if we are under 
attack. We are developing enhanced capabilities to make it more 
difficult for an enemy to jam GPS or our satellite communication links. 
We continue to enhance force protection at our ground stations while 
maintaining a requirement for alternate control facilities to minimize 
the impact if one of the ground sites is attacked. In addition, space 
operators and end-users are being educated on the full range of threats 
to space systems. We have taken additional steps and they are outlined 
in more detail in our May 2004 report to Congress titled ``Efforts to 
Address Vulnerabilities in Space Systems.''
    General Lord. The importance of space to our military operations 
and the threat to space systems have evolved significantly over the 
first 50 years of space and missile operations and we are taking 
appropriate measures to ensure our continued operations. In concert 
with the rest of the National Security Space Community, the Air Force 
continues to monitor threat assessments provided by our intelligence 
community. As the threat changes and evolves, we adjust current 
operations and our acquisition programs as deemed necessary. The Air 
Force is investing in programs to improve our space situation awareness 
to allow us to better understand if we are under attack. We are 
developing enhanced capabilities to make it more difficult for an enemy 
to jam GPS or our satellite communication links. We continue to enhance 
force protection at our ground stations while maintaining a requirement 
for alternate control facilities to minimize the impact if one of the 
ground sites is attacked. In addition, space operators and end-users 
are being educated on the full range of threats to space systems. 
Additional steps to protect our space systems can be found in the 
Department of Defense Executive Agent for Space Report to Congress 
entitled ``Efforts to Address Vulnerabilities in Space Systems.''

                           space acquisition
    12. Senator Inhofe. Secretary Teets, when it comes to further 
acquisitions of space assets, I, and I am sure many of my colleagues 
would agree that we have to continue to exploit space to meet our 
national security objectives. From strategic missile warning, to 
assured communications, navigation, intelligence, and surveillance, 
modern, more technologically advanced systems are being developed. Yet 
these systems have run into problems with costing, delivery schedule, 
and technical performance.
    The Government Accountability Office (GAO) issued a report in June 
2003 entitles, ``Military Space Operations: Common Problems and Their 
Effects on Satellite and Related Acquisitions.'' Are you familiar with 
this report?
    Mr. Teets. Yes.

    13. Senator Inhofe. Secretary Teets, the report specifies that most 
satellite programs cost more than expected and take longer to develop 
and launch than planned. It identifies the causes for these 
shortcomings as:

          1. Inadequate requirements definition and requirements 
        instability
          2. Poor investment practices
          3. Poor execution of acquisition strategies
          4. Immature technologies

    The report also listed several contributing factors. I understand 
that you have modified the space acquisition process in an effort to 
address the report's conclusion.
    What positive results have you seen thus far based on the 
modifications you implemented for the space acquisition process, based 
on the findings of this GAO report? What, if any, additional 
adjustments are needed to further correct issues associated with this 
acquisition process?
    Mr. Teets. As the MDA, I am responsible for managing the program 
baselines to satisfy user requirements. We are working with the user 
community to more closely coordinate activities under JCIDS 3170 and 
NSS Acquisition Policy 0301.
    I updated the National Security Space Acquisition Policy 03-01 this 
past December to incorporate lessons-learned and to position Key 
Decision Point (KDP) reviews such that they will provide more relevant 
information to the Milestone Decision Authority (MDA) at the time of 
the reviews. I implemented similar changes to NRO policy to more 
closely align the two acquisition processes. The updated policy ensures 
that critical program events occur prior to the KDP. For example, the 
system design review should be completed prior to program initiation 
(Phase B) since it establishes the baseline to begin preliminary 
design. In addition, Requests for Proposals (RFPs) are not releasable 
until after the Defense Space Acquisition Board (DSAB) and Milestone 
Decision Authority (MDA)-approved acquisition strategy.
    Part of the space acquisition process is an Independent Cost 
Assessment Team (ICAT). While cost estimating is not an exact science, 
we've put in place a system to ensure past experience and solid costing 
methods are used and will lead to realistic cost numbers to aligning 
the design reviews with the Key Decision Points (KDP), NSS 03-01 
requires that an initial requirements documents The Independent Cost 
Estimate (ICE) is effective in giving the program's MDA a comprehensive 
estimate. All elements of cost are considered when deciding when or if 
to proceed with a space system. The ICE is a requirement for each DSAB 
meeting when the MDA approves the program's entrance into the next 
phase of the space acquisition process.
    The independent cost estimates are produced by an Office of 
Secretary of Defense (OSD)-led team that includes members from the Air 
Force cost community as well as members from the National 
Reconnaissance Office (NRO) and other Services' cost groups. A System 
Program Office (SPO) cost estimate is required as well. Both estimates 
are briefed to the MDA at the DSAB.
    I understand the GAO's concern on technology development 
requirements prior to key decision points. We share their desire to set 
a minimal threshold of maturity for allowing technologies into a 
program. Of equal importance, we must leverage cutting edge technology 
in order to meet the needs of the warfighting community. We must 
achieve a balance and I think the policy addresses this concern by 
formalizing an independent review of the System Program Office (SPO)--
generated Technology Readiness Assessment (TRA). This means that the 
Component S&T Executive will provide an additional look at the 
technical level of maturity and provide an assessment to the MDA along 
with the exhaustive peer review that is part of the IPA process.
    It will take time to accurately assess the benefits of the modified 
space acquisition process. The systems that are growing up under the 
new process won't be fielded for a number of years. However, more 
frequent engagement of leadership earlier in the acquisition process 
and specific requirements prior to moving into phases are definitely 
positive steps towards addressing the challenges with space 
acquisition. The policy also allows for Program Managers and Program 
Executive Officers to conduct program reviews outside of the DSAB 
process at the request of the DOD Space MDA or designee.
    Whereas, currently, there are no further adjustments to the 
acquisition process, we will continue to focus on ways to improve. One 
future adjustment that would certainly help is a change in budgeting 
for space systems that recognizes the differences in acquiring space 
systems. This could be a management tool as I have talked about 
before--management reserve or a different appropriation other than 
missile procurement. This is a dialogue that needs to continue with 
Congress and within the DOD.
    Another related activity I initiated is development of a highly 
trained space cadre. This activity recognizes the need to establish and 
maintain a reliable source of experienced space personnel in the DOD 
and industry. No matter how good the acquisition review process 
becomes, it is more important to have people able to execute 
acquisition strategies, and recognize and develop good investment 
practices at the program level. Given the proper resources, this day-
to-day work between government and industry has the greatest impact on 
the government's ability to successfully execute major space 
acquisition programs.
    With our improved acquisition decisionmaking policy and a system 
for space cadre development, we can focus on program execution. We need 
to reinforce more discipline in the program baselining process and our 
ability to get reliable program execution data back to program 
management in a timely fashion. This includes our ability to generate 
more accurate Integrated Master Schedules and the metrics that convey 
program performance. We feel that better program execution and 
management will lead to fewer rebaselinings and baseline breaches.

                       the concept of small space
    14. Senator Inhofe. General Lord, closely aligned with my previous 
question to Secretary Teets is the belief by some experts that our 
space programs are so big, so complex, that they inevitably will lead 
to cost overruns and delivery delays along with performance issues. 
That due to the sheer size of the programs, any shortcomings will have 
a huge impact not only on that program but also on follow-on programs 
or programs being developed in parallel. One alternative to the 
acquisition approach we have typically used would be an initiative 
known as ``Small Space,'' where relatively inexpensive, smaller, 
simpler, satellites would be orbited quickly, in an almost ``just in 
time'' sequence. Less expensive vehicles would be used to launch the 
satellites for military or crisis applications.
    Proponents of ``Small Space'' believe the benefits would include an 
expanded industrial base because of more satellite launches, reduced 
vulnerability due to a single satellite failure or attack, and improved 
responsiveness to the warfighter because of a more flexible launch 
process. How viable is such a low cost launch approach to the 
acquisition process, in your personal professional opinion?
    General Lord. All indications thus far are that a low-cost approach 
using ``Small Space'' is viable. We are working towards a low cost, 
responsive space launch capability. Under a joint AF/DARPA program, we 
are developing launch vehicles that would be able to launch small 
satellites for under $5 million per launch. Our Air Force Space 
Command's Space and Missile Systems Center is actively involved in that 
development program. They are also leading a launch vehicle demo 
program that features a hybrid between a reusable first stage and an 
expendable second stage to reduce launch costs by an estimated factor 
of 3X-6X as compared to current medium launch vehicle costs. Both of 
these programs will leverage from spiral development, where lessons 
learned are incorporated as incremental steps to affordable launch 
vehicles.

    15. Senator Inhofe. General Lord, how do we balance the needs for 
this ``Small Space'' approach, against the costs and technical 
challenges of developing, manufacturing, launching, and servicing 
large, complex systems?
    General Lord. Air Force Space Command sees ``small space'' 
satellites and payloads playing an augmentation and a rapid 
reconstitution capability role to ``big space,'' as well as providing 
the potential for risk reduction prototypes or demos for larger 
strategic space systems. This concept allows us to rapidly provide 
capability when and where needed to prevent ``gaps.'' This is analogous 
to Navy PT boats augmenting battleships. ``Small space'' will not 
replace ``big space'' assets but will make capability gap coverage more 
affordable.

                   ``small space'' and the warfighter
    16. Senator Inhofe. General Cartwright and Admiral Sestak, I am 
particularly concerned about how our Space Initiatives will aid and 
benefit our troops on the ground, giving us an advantage that cannot be 
compromised. Do you believe that ``Small Space'' programs may have 
better or more responsive military applications than we currently 
possess with larger systems?
    General Cartwright. There is evidence that ``Small Space'' may be 
ideally suited as a potential surge capability for the warfighter. 
Lessons learned from recent conflicts indicate that, an operationally 
responsive tactical satellite supporting a single function, and/or 
tailored to a specific regional mission, could benefit deployed forces.
    Admiral Sestak. ``Small Space'' programs offer the potential for 
responsive military application and will complement the capacity, 
longevity, and reliability of the larger space systems. ``Small Space'' 
programs will offer an additional option from national to organic 
sensors to fill capability needs or gaps such as persistent ISR and 
communications relay in a responsive manner for the military commander. 
They can help us achieve efficiencies by optimizing space capabilities 
for a particular problem in a responsive manner for a limited 
timeframe.
    Precisely because of their responsive nature, ``Small Space'' 
programs will not be able to replace the larger space systems. We will 
continue to depend on the large capacity, endurance, and reliability of 
larger systems to provide indications and warning, ISR, communications, 
Meteorogical and Oceanographic (METOC) and Position, Navigation, and 
Timing (PNT) through peace time and crisis. Not only are the long-dwell 
times available from the ``large'' programs critical, but the broad 
range of capabilities offered by them will enable DOD to move toward 
net-centric operations.
                                 ______
                                 
               questions submitted by senator john thune
                       space-based radar program
    17. Senator Thune. Secretary Teets, as we advance battlefield 
technologies we also open the door to advancing civilian dual use 
technologies that can help in a myriad of situations. I will watch with 
great interest the development of the Space-Based Radar (SBR) program. 
There is no dispute that this new system will prove to be a great asset 
to both our Intelligence Community and our warfighters. But this same 
technology--perhaps on a shared basis--can produce many valuable 
applications for civilian government agencies, academic, scientific, 
and industrial interests. These other applications may include 
topographic mapping, coastal zone management, agricultural/water/timber 
analysis, or oil/gas exploration. Will you take into consideration the 
potential benefits of providing at least some shared civilian use of 
the SBR system, and if so how?
    Mr. Teets. Space Radar data and products will have tremendous 
applications for civil agencies across the spectrum of academic, 
scientific, and industrial uses. Space Radar will accommodate civil 
requirements within the community structures for meeting user global 
information needs. The program's initial capabilities document which 
sets forth high level requirements for the Space Radar system will be 
coordinated through the Civil Applications Committee as part of the 
review process inherent to achieve DOD and national approval. This will 
ensure partnership of civil agencies in setting Space Radar 
requirements. Also, we are currently assessing the utility and policy 
implications of using the system for civil applications including 
counterdrug, disaster response, and homeland defense.

    18. Senator Thune. Secretary Teets, is there a real potential for 
cost savings to DOD if we find that other government agencies like the 
United States Department of Agriculture (USDA), Department of the 
Interior, and especially the U.S. Geological Survey (USGS), can 
possibly devote some of their budget resources to a program where they 
can also draw clear benefit?
    Mr. Teets. Including civil agency partners in the Space Radar 
program would provide DOD and the National community with opportunities 
to further share the cost of the Space Radar program in a responsible 
way with those agencies that will benefit from its enhanced 
capabilities. In line with cost sharing opportunities, DOD and the 
National Community are working closely together in an effort to review 
the governance and cost responsibilities for the Space Radar program in 
the future. Adding civil agencies to this effort would broaden the 
opportunities inherent in any such discussion. I would welcome the 
opportunity to discuss a cost sharing agreement with other government 
agencies such as the ones you mention. In fact, the SECDEF and DCI have 
recently affirmed their support for one common Space Radar capability. 
As part of this commitment, they have agreed to review the cost sharing 
approach in the fiscal year 2008 budget.

    19. Senator Thune. Secretary Teets, don't we have the technical 
capability and safeguards to provide some civilian use of SBR, perhaps 
by adding a separate, dual-frequency capability, yet still protect the 
classified aspects and military/intelligence uses of this platform?
    Mr. Teets. Space Radar has the ability through community tasking 
management processes to accommodate both DOD/National classified 
information needs and civil unclassified requirements. The community 
structures that exist today and as they will evolve to in the 2015 
timeframe will enable both sets of requirements to be met within a 
common operating process. Policy or material mechanism may be 
instituted over time to make the provision of unclassified civil 
information from the Space Radar system transparent to the user. Space 
Radar is in the concept exploration phase of acquisition, which is the 
time to study these requirements. We can look further at the technical 
aspects of adding a separate, dual-frequency capability, once the 
requirements have been vetted. We will continue to ensure the 
protection of sources and methods consistent with prudent guidelines 
and trusted technology.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
  advanced extremely high frequency satellite and tactical satellites
    20. Senator Bill Nelson. Secretary Teets, on March 11, 2005, the 
committee received the report on TSAT acquisition strategies to reduce 
operational risk. That report estimates that with the current MILSTAR 
communications satellite and the three planned Advanced Extremely High 
Frequency (AEHF) satellites, coverage can be maintained through 2017 
over 75 percent of the world. This estimate is based on the assumption 
that the MILSTAR satellites will live longer than the design life. The 
report also assumes that TSAT will launch in 2013. The Air Force senior 
warfighter forum decided that they would accept this program and ``a 
potential gap in the fielding schedule'' in order to enable the 
delivery of T-Sat capability. What is the length of the ``gap,'' and 
when does the ``gap'' get too long?
    Mr. Teets. The third AEHF satellite is scheduled to launch in 2010. 
If a fourth AEHF were procured it would launch in 2011. The first 
Transformational Satellite Communications System \1\ (TSAT) launch is 
currently scheduled for 2013 and will complete the 4-satellite 
constellation required to fully meet AEHF capabilities. This creates a 
2-year gap in the fielding of the complete AEHF capability. While no 
capability gap is desirable, this 2-year gap is acceptable, given the 
estimated life of the combined MILSTAR-AEHF constellation. The 
acceptability of a larger capability gap would have to be assessed by 
the Senior Warfighters' Forum (SWarF).
---------------------------------------------------------------------------
    \1\ not to be mistaken with the Science & Technology demonstration 
platform TACSAT

    21. Senator Bill Nelson. General Cartwright, General Lord, General 
Dodgen, Admiral Sestak, how much risk is acceptable?
    General Cartwright. It is critical to have and maintain the 
capability to deliver integrated net-centric communications across 
functional areas with adequate bandwidth to support our deployed forces 
and strategic missions. Potential degradation in the number of 
protected circuits and or loss of medium data rate capacity, could 
create operationally unacceptable conditions.
    General Lord. The current plan for three AEHF satellites and five 
MILSTAR satellites can be deployed to provide coverage for the most 
critical areas. The extended Data Rate (XDR) capability ``gap'' will be 
in the area with the lowest operational risk. Therefore, the Senior 
Warfighter Forum determined that the transformational capabilities 
provided by TSAT outweigh the risks resulting from a possible gap. If 
delays in the TSAT program caused the XDR capability ``gap'' to 
increase significantly, STRATCOM would convene another senior 
warfighter forum to reassess the risks.
    General Dodgen. The ``gap'' in the fielding schedule results from a 
portion of the Earth not being covered by the advanced extremely high 
frequency (AEHF) constellation as a result of the decision to move to 
TACSAT vice launching a fourth AEHF satellite. The first TSAT will 
close the AEHF ring, but requires a 2-3 year period between the launch 
of the third AEHF satellite and the first TSAT to achieve this 
capability. The Military Satellite Communications (MILSATCOM) Senior 
Warfighter Forum accepted this risk and gap because of the vastly 
increased capability that TSAT brings to the warfighter, including 
greater than 20 times the capacity (28.5 Gbps system-wide), beyond line 
of sight comm-on-the-move, optical cross links, IP routing, etc. To 
mitigate the risk, in the interim, during the gap period, an AEHF 
satellite can be relocated if the situation requires this capability 
over an area of the earth not covered by the constellation. It should 
be noted that while the longevity estimate indicates that MILSTAR and 
AEHF can be maintained through 2017, MILSTAR will be a very aged 
satellite at that time, and AEHF, while a valuable transitional 
capability will not meet the transformation needs of the warfighter in 
the 2015-2025 time frame. Operating at the lowest common denominator a 
combined MILSTAR/AEHF constellation provides less than 300Mbps of 
circuit based, medium data communications. Both MILSTAR and AEHF are 
built to satisfy a relatively static, circuit based, post World War II, 
linear battlefield. TSAT is being designed to serve DOD's transformed 
modular, mobile, net-centric warfighter. ASD(NII), the Joint Staff, 
COCOMs, Services, and Agencies are united in unanimously supporting the 
first TSAT, and accepting risk in the period between the last AEHF 
launch and the first TSAT launch.
    Admiral Sestak. The level of risk for launching TSAT is considered 
acceptable because of the legacy our spacecraft manufacturers have 
developed over the past 30 years. Spacecraft are lasting longer than 
their design life and critical component redundancies are standard in 
every design. The satellite communications needs of our warfighters 
continue to exceed the supply of existing satellite constellations. The 
TSAT system will provide such a large increase in capacity, the 
combatant commanders are willing to accept this reasonable risk caused 
by the delayed launch.

    22. Senator Bill Nelson. Secretary Teets and General Cartwright, 
the AEHF satellite is significantly more capable than MILSTAR, and TSAT 
is significantly more capable than the AEHF satellite. I understand 
that everyone wants the most capability, but is there a way to minimize 
the risk associated with the plan for AEHF and TSAT without delaying 
TSAT?
    Mr. Teets. The current approach is the lowest risk considering 
available funding. The SWarF unanimously voted to support this approach 
based on the critical warfighter requirements for the TSAT capability 
and the sound risk mitigation approach being taken for TSAT.
    General Cartwright. STRATCOM is not an acquisition decision 
authority. I respectfully defer to the acting Secretary of the Air 
Force.

    23. Senator Bill Nelson. Secretary Teets and General Cartwright, 
what is the risk if MILSTAR fails?
    Mr. Teets. The level of risk depends on the location and 
capabilities of the affected MILSTAR satellite. In the worst case, a 
failure could either expand the existing tactical protected 
communications (Medium Data Rate) coverage gap, or open a temporary gap 
in strategic (Low Data Rate), world-wide protected communications. In 
either case, operational workarounds such as constellation 
reconfigurations or re-routing of data can mitigate these impacts.
    General Cartwright. The amount of risk would be a function of the 
number and location of failed satellites within the overall MILSTAR 
architecture and the time period in which the failure is theorized to 
transpire. Resultant coverage gaps would impact a variety of users 
depending on where the remaining satellite coverage is placed. The 
number of AEHF satellites on-orbit would also offset the failed MILSTAR 
induced coverage gaps. Under any scenario, the remaining MILSTAR and 
AEHF satellites would be re-positioned to maximize coverage.

    24. Senator Bill Nelson. Secretary Teets and General Cartwright, 
what if there are only three AEHF satellites when this failure occurs?
    Mr. Teets. With three operational AEHF satellites and the remaining 
MILSTAR satellites continuing to function, a single MILSTAR failure 
would have short term (e.g., hours to days) operational impact. 
However, we could minimize the long-term impacts with operational 
workarounds.
    General Cartwright. The amount of risk would be a function of the 
number and location of failed satellites within the overall MILSTAR 
architecture and the time period in which the failure is theorized to 
transpire. Resultant coverage gaps would impact a variety of users 
depending on where the remaining satellite coverage is placed. The 
number of AEHF satellites on-orbit would also offset the failed MILSTAR 
induced coverage gaps. Under any scenario, the remaining MILSTAR and 
AEHF satellites would be re-positioned to maximize coverage.

    25. Senator Bill Nelson. Secretary Teets and General Cartwright, 
has there been a decision to not buy the fourth AEHF satellite?
    Mr. Teets. The decision to buy the fourth AEHF satellite will be 
revisited in fiscal year 2005.
    An Interim Program Review was held in October 2004 to assess the 
progress of the TSAT program. Based on the results of that review and 
recommendations from the 16 Sep 04 Senior Warfighter Forum--where 
combatant commanders expressed unanimous support for TSAT development 
instead of procuring AEHF #4--the decision was made to stay with the 
baseline TSAT program. This decision is reflected in the fiscal year 
2006 President's budget request.
    If, at the end of the next year to year and a half, we have not 
been making proper advancement on retiring risks and maturing the 
technologies associated with TSAT, we will acquire a fourth AEHF 
system.
    General Cartwright. STRATCOM is not an acquisition decision 
authority. I respectfully defer to the acting Secretary of the Air 
Force.

    26. Senator Bill Nelson. Secretary Teets and General Cartwright, 
when must a decision be made to buy the fourth AEHF satellite without a 
break in the production line?
    Mr. Teets. A production break could be avoided if a decision were 
made in time to allow for budgeting of Advanced Procurement funds in 
the fiscal year 2007 budget.
    General Cartwright. STRATCOM is not an acquisition decision 
authority. I respectfully defer to the acting Secretary of the Air 
Force.

    27. Senator Bill Nelson. Secretary Teets and General Cartwright, in 
what budget year must this decision be reflected to avoid a production 
break?
    Mr. Teets. A production break could be avoided if a decision were 
made in time to allow for budgeting of Advanced Procurement funds in 
the fiscal year 2007 budget.
    General Cartwright. STRATCOM is not an acquisition decision 
authority. I respectfully defer to the acting Secretary of the Air 
Force.

    28. Senator Bill Nelson. Secretary Teets and General Cartwright, 
when this decision has to be made will you be completely confident that 
the first TACSAT will launch no later than 2013?
    Mr. Teets. The Department believes the Transformational Satellite 
Communications System \2\ (TSAT) program is progressing to meet 
emerging warfighter needs and will launch on time based on the careful 
planning we have done for this program. From a technology standpoint, 
we will be confident of a successful TSAT launch once our final 
technology maturation testing and system design review is complete. 
From a programmatic standpoint, we have high confidence in the TSAT 
program of record. It is sufficiently funded; the upfront systems 
definition and risk reduction are structured to capture lessons from 
previous programs; the acquisition strategy includes significant 
technology maturation activities with comprehensive technology 
demonstrations; and technology off-ramps, which still significantly 
enhance warfighter capability, are available to meet schedule if 
advanced technology is not ready to fly.
---------------------------------------------------------------------------
    \2\ not to be mistaken with the Science & Technology demonstration 
platform TACSAT.
---------------------------------------------------------------------------
    General Cartwright. STRATCOM is not an acquisition decision 
authority. I respectfully defer to the acting Secretary of the Air 
Force.

    29. Senator Bill Nelson. Secretary Teets and General Cartwright, 
given that every recent satellite program has experienced substantial 
cost and schedule delays, even the ones that were supposed to be easy 
such as Wideband Gap Filler, why take the risk of giving up the fourth 
AEHF satellite?
    Mr. Teets. The Senior Warfighter Forum unanimously voted to support 
the TSAT baseline program. This was based on the critical warfighter 
need for the capability provided by TSAT, and the worldwide EHF 
coverage supplied by the MILSTAR constellation along with the three 
planned AEHF satellites.
    General Cartwright. STRATCOM is not an acquisition decision 
authority. I respectfully defer to the acting Secretary of the Air 
Force.

    30. Senator Bill Nelson. Secretary Teets and General Cartwright, 
the AEHF satellite provides secure, reliable, survivable 
communications. Clearly TACSAT, if successful will provide increased 
capacity and capability. On the other hand, what happens if TACSAT is 
delayed 2, 3, 4, 5 years or more? Why not buy the fourth AEHF satellite 
and offset the possibility that TACSAT might be late?
    Mr. Teets. The SWarF unanimously voted to support the TSAT \3\ 
baseline program based on the fact AEHF cannot support communications 
on the move (COTM) and other critical warfighter transformational 
capabilities. The worldwide coverage provided by the three AEHF 
satellites in combination with the existing MILSTAR satellites is 
expected to extend through 2017. This helps mitigate the coverage risk 
associated with a possible delay in the TSAT first launch.
---------------------------------------------------------------------------
    \3\ not to be mistaken with the Science & Technology demonstration 
platform TACSAT.
---------------------------------------------------------------------------
    General Cartwright. STRATCOM is not an acquisition decision 
authority. I respectfully defer to the acting Secretary of the Air 
Force.

                              space policy
    31. Senator Bill Nelson. Secretary Teets, the U.S. national 
security space policy is currently under revision. While the policy was 
expected to have been released at the end of 2004, we understand that 
it may not be released until late spring or early summer. When will it 
be finished? What are the issues that are unresolved?
    Mr. Teets. We continue to work closely with the National Security 
Council (NSC) to update this important foundational policy document. 
The NSC has forwarded the draft policy for coordination between the 
deputies of the appropriate departments and agencies. Once the entire 
coordination process is completed, the document will be forwarded to 
the President for signature.

    32. Senator Bill Nelson. General Cartwright, what is/was STRATCOM's 
role in developing the new national security policy?
    General Cartwright. STRATCOM has been working closely with the OSD, 
Joint Staff, and other key players to provide the warfighter 
perspective since the process began in June of 2004. We at STRATCOM, in 
turn, have consulted with our associated Service components, ensuring 
them direct insight and an opportunity to contribute to this important 
process.

    33. Senator Bill Nelson. Secretary Teets and General Cartwright, 
current U.S. policy requires constant access to space operations, 
including denying the use of space to adversaries. Currently the means 
employed to deny access to space by adversaries are temporary and 
reversible effects on adversaries' space systems including ground 
elements. Do you support the current policy that actions against space 
systems should be temporary and reversible?
    Mr. Teets. Current U.S. space policy emphasizes the use of 
temporary and reversible effects but does not limit our options. During 
past conflicts, adversary communications have been interrupted by the 
physical destruction of the ground antennas associated with the space 
system. This remains an option today. The U.S. will employ a range of 
options to achieve space superiority in a time and place as needed. 
These options include both diplomatic as well as military with the 
military options ranging from temporary/reversible to permanent/non-
reversible.
    General Cartwright. Yes. STRATCOM supports the inherent right to 
self defense and the policy that actions against space systems be 
temporary and reversible.

    34. Senator Bill Nelson. Secretary Teets and General Cartwright, 
what are the dangers associated with kinetic, anti-satellite weapons? 
Would you oppose the development of such weapons?
    Mr. Teets. We proved in the 1980s that we can develop a kinetic 
antisatellite weapon. Because of the concerns associated with debris 
clouds in orbits used by other nations, the U.S. does not maintain an 
operational program. However, we must be prepared to employ a range of 
options for defending our national security. Secretary Rumsfeld stated 
it best in his February 2002 testimony before the House of 
Representatives.

          ``It is incumbent on the [U.S.] armed services to remain open 
        to a wide range of possible capabilities and systems that will 
        enable us to deny our adversaries the advantages gained from 
        space that could be used in a manner hostile to the United 
        States, our citizens, or our national interests. The force 
        structure of the armed services is and will continue to be 
        fully compliant with our international obligations, treaties, 
        and our right to self-defense as spelled out in the U.N. 
        Charter.''

    He went on to explain that any capability proposed by the military 
would be provided to the President and Congress for subsequent approval 
and funding. The DOD continues to subscribe to this policy today.
    General Cartwright. One danger associated with kinetic, anti-
satellite weapons is potential fratricide. Orbital debris caused by a 
high impact anti-satellite weapon could corrupt an operational orbit 
and create risk of hitting our own satellites. As we consider various 
methods for defending our ability to operate freely in space we must be 
mindful of the potential ill effects on our own space systems.

                      space situational awareness
    35. Senator Bill Nelson. Secretary Teets, General Cartwright, 
General Lord, General Dodgen, and Admiral Sestak, there is a consensus 
that U.S. space situational awareness, while good, needs to be 
substantially improved. What programs are your highest priorities to 
improve space situational awareness?
    Mr. Teets. The U.S. does currently posses the best space situation 
awareness capability in the world. We are faced with several challenges 
to maintain and improve this capability. We have aging systems that 
provide critical capability, which we must either upgrade or replace. 
Our other challenge is presented by the fact that more countries are 
becoming space-faring countries and satellites are becoming more 
capable. Technology advancements make it possible for these satellites 
to be smaller and more maneuverable than before, thus stressing our 
assets beyond their current capabilities. We have worked over the past 
couple of years to develop a well-balanced space situation awareness 
architecture. Our priorities include updating and replacing our aging 
ground-based radar and optical systems for both increased capability 
and longer lifetimes, and fielding operational space-based systems to 
improve our detection, timeliness and characterization capabilities. In 
addition, we must better ingrate our current surveillance and 
reconnaissance capabilities with the information available to us from 
the intelligence and space environment communities through an updated 
command, control, and information system currently under development 
for STRATCOM.
    Our fiscal year 2006 budget reflects the Department's priorities. 
The budget includes a request for upgrading selected sensors in the 
Space Surveillance Network, design/development work for new space based 
sensors, and funds to integrate these sensors into a space C2 system. 
This request will fund development of sensors and C2 to provide timely 
detection of threats and information about orbiting objects we do not 
have today. In keeping with this budget we have the following program 
on the horizon:

        <bullet> SB Space Surveillance: Provides timely and accurate 
        information on objects in deep space (Program adjustment 
        currently on UPL);
        <bullet> S-Band Fence: Detects small objects in near earth and 
        manned spaceflight areas in a timely manner;
        <bullet> SSA Command and Control: Develops data fusion, data 
        exploitation, and presentation prototypes for eventual 
        integration into the Combatant Commanders Integrated Command 
        and Control System infrastructure;
        <bullet> Haystack Ultra-Wideband Satellite Imaging Radar 
        (HUSIR) Upgrade: Improves Space Situational Awareness by 
        providing detailed space system characterization of Low Earth 
        Orbit objects;
        <bullet> Orbital Deep Space Imager: Improves Space Situational 
        Awareness by providing detailed space system characterization 
        for deep space objects.

    General Cartwright. STRATCOM's priority is to advocate for 
capabilities that enhance interoperability within and among individual 
systems to fuse all sources of information (e.g., ISR and weather). It 
is important to ensure optimum coverage by sensors and to maximize 
information collection and dissemination in support of all facets of 
the space control mission area.
    General Lord. Our fiscal year 2006 budget request includes 
foundational development for this mission area. In the future, we will 
be building on this foundation. This vision includes pursuing a robust 
Command and Control/Information Management (C2/IM) infrastructure to 
autonomously report changes. We also require a small object detection 
capability, more search based capabilities, and the ability to 
characterize space systems across ground, link, space, and launch to 
determine capabilities of satellites that are being placed in orbit. As 
we grow this mission area, we expect to see budget requests that are in 
line with this overall concept. In addition to the budget request, we 
are pursuing service life extension programs (SLEP) for our existing 
sensors (for example, the Eglin and Globus II radars as well as the 
Ground-Based Electro-Optical Deep Space Surveillance (GEODSS) System) 
and have several projects being worked:

        (1) SSA Command and Control (C2): Develops data fusion, data 
        exploitation, and presentation prototypes for eventual 
        integration into the Combatant Commanders Integrated Command 
        and Control System infrastructure.
        (2) Space Based Space Surveillance (SBSS): Track and search 
        based operations that will provide timely and accurate 
        information on objects in deep space.
        (3) Space Fence/S-Band Fence: Search based operations that will 
        detect small objects in near earth and manned spaceflight 
        orbits in a timely manner.
        (4) Haystack Ultra-Wideband Satellite Imaging Radar (HUSIR) 
        Upgrade: Adds W-band capability to achieve significantly 
        improved imaging resolution for detailed space system 
        characterization of Low Earth Orbit objects. We are also 
        partnering with DARPA on the Deep View program to extend that 
        improved imaging resolution to Deep Space orbits out to 
        Geosynchronous altitudes.
        (5) Orbital Deep Space Imager (ODSI): Improves Space Situation 
        Awareness by providing detailed space system characterization 
        for deep space objects.

    General Dodgen. The Army's highest priority in SSA is the Space 
Surveillance Network (SSN) contributing sensor array at Kwajalein. 
Uniquely situated in the South Pacific, Kwajalein is important to 
contributing to near earth and deep space surveillance, satellite 
tracking, and new foreign launches. SMDC/ARSTRAT will continue to 
provide support to the SSN through operations at Kwajalein.
    Admiral Sestak. Our highest priority among all of the Space Control 
initiatives is SSA. We strongly concur with General Cartwright's 
[STRATCOM] comments on SSA before the Senate Armed Services 
Subcommittee on Strategic Forces for fiscal year 2006 budget hearing on 
15 March 2005 when he said: ``The first is that we have a ground 
surveillance infrastructure that needs to be recapitalized and upgraded 
and that's part of this program. We have to make sure that we do that, 
because it has a certain capability that gives us wide area, large 
ability to catalog. We need to improve that so that we're not looking 
at areas that are as ambiguous as miles, but down to very small areas. 
The second is a command-and-control system that integrates all of this 
so that the warfighter gets the benefit of the knowledge of the 
situation awareness and it gets distributed out. We can't forget those 
two pieces because they tie back to the user's side of this equation, 
whether it be the warfighter or others, that need to manage the system 
on orbit. So in addition to what's on orbit, there's a ground piece of 
this, and there is a command-and-control piece of this that we have to 
keep our eye on.''
    As an integral part of upgrading SSA from the ground, Navy is most 
familiar with and particularly supports the Air Force S-Band Fence 
upgrade. This upgrade offers a significant and cost-effective increase 
incapability.
    In addition, Navy has requested a Space Control Architecture be 
developed for the Joint Capabilities Integration and Development System 
(JCIDS) process, in order to determine how specific investments in 
Space Control intelligence, surveillance, protection, and negation will 
contribute to an overall system architecture.

                           space organization
    36. Senator Bill Nelson. Secretary Teets and General Cartwright, an 
important recommendation of the 2001 Space Commission was the need to 
integrate black and white space. Since 2001, Secretary Teets, you have 
worked very hard to carry out this integration. Do you continue to 
believe that this integration is important and what are the advantages 
gained by integration?
    Mr. Teets. Yes, I strongly recommend that a single individual 
continue to hold the dual positions of Under Secretary of the Air Force 
and Director of the NRO, as well as the responsibility as DOD Executive 
Agent for Space. The advantages gained by integration are: better 
coordination among the government organizations providing and using 
intelligence; authority to oversee the direction of planning, 
programming, and execution of funds spent on space systems used by the 
Pentagon and the Intelligence Community; greater ``unity of effort'' 
between black and white space programs; better positioning to apply 
lessons learned across the space arena; greater insight to develop a 
unified science and technology roadmap; ability to develop an 
overarching human capital strategy; and a wider understanding of 
industrial base issues.
    General Cartwright. A net-centric global information system, 
employing agile distributive operations, is the way ahead in 
transitioning to more effective joint warfighting. Integration between 
black and white space is key to the ultimate success of such a system. 
Transitioning from ``need to know'' to ``need to share'' protocols will 
allow the warfighter access to a greater spectrum of national expertise 
and capability.

    37. Senator Bill Nelson. Secretary Teets and General Cartwright, 
what still needs to be done to fully integrate black and white space?
    Mr. Teets. I am proud of the accomplishments we have made in 
National Security Space. We took several disparate organizations and 
integrated them in a way that better serves our Nation, and we also 
demonstrated and improved the capabilities our space systems provide on 
and off the battlefield. However, National Security Space remains a 
work in progress. We need to continue modernizing every major space 
system and providing new or enhanced capabilities, while sustaining 
existing constellations that provide critical capabilities and 
intelligence to joint warfighters.
    General Cartwright. Joint warfighting requires agile, distributed 
operations in today's world. The greatest challenge to distributed 
operations is the ``need to know'' caveat. This issue leads to the 
joint warfighter not knowing that a critical piece of information is 
readily available and the existing owner of that information not 
recognizing its importance. Fundamental to this issue is the 
establishment of data tagging standards and associated information 
assurance policies. We must transition to a net-centric global 
information system that allows each user the flexibility to select from 
all appropriate data sources. The continued path of integration between 
``black'' and ``white'' space helps toward that goal.

    38. Senator Bill Nelson. General Lord, General Dodgen, and Admiral 
Sestak, from the service perspective has the integration of black and 
white space been successful and what changes should be made or further 
actions taken?
    General Lord. We have undertaken several initiatives to meet the 
Space Commission's recommendation for a closer integration of Air Force 
and National Systems. Establishing the Under Secretary of the Air Force 
as the DOD Executive Agent for Space provided centralized guidance and 
direction. Additionally, dual hatting the Under Secretary of the Air 
Force as the Director of the National Reconnaissance Office 
consolidated the top leadership to bridge the gap between these two 
premier space organizations. Senior level discussions between the Air 
Force and National Systems agencies are streamlining black and white 
space support to the warfighter and the intelligence community. For 
example, the future launch of the first Space Based Infrared System 
(SBIRS) Highly Elliptical Orbit (HEO) sensor will support not only 
missile warning but provide technical intelligence and battlespace 
characterization as a major contributor to the Defense Intelligence 
Agency's mission. We continue to look for opportunities to transition 
and horizontally integrate the Air Force's and the NRO's current and 
future systems into a common national security space plan.
    General Dodgen. The efforts to integrate black and white space for 
the benefit of the joint warfighter are welcome from the Army's 
perspective. Any changes should focus in two areas--decrease the 
latency of black-space-derived information in reaching the warfighter 
and increase the ability to share this information with the widest 
possible military audience.
    These two areas must be balanced by the imperative to protect the 
sensitive information gathering methods.
    Admiral Sestak. The integration of black and white space, made 
possible by organizational and policy changes as well as technological 
developments, has paid huge dividends to the Fleet. We have 
significantly shortened the warfighter's decision cycle by emphasizing 
tactical and operational level requirements in addition to traditional 
strategic level requirements. Advances in processing and real-time 
information transfer have increased warfighter situational awareness 
and made possible the successes of joint operations over extended 
geographical distances from our shores.

    39. Senator Bill Nelson. General Lord, General Dodgen, and Admiral 
Sestak, an additional recommendation of the Space Commission was that 
there should be an Under Secretary of Defense for Space. In lieu of 
that recommendation, Secretary Rumsfeld designated the Under Secretary 
of the Air Force as the DOD executive agent for space. In your views 
has this been successful?
    General Lord. Yes. The relationship established by the Secretary 
aligns the Executive Agent for Space at the right level. This 
organizational alignment has worked well in allowing a collaborative 
exchange between all elements that make up the National Security Space 
team. Establishing the Under Secretary of the Air Force as the DOD 
Executive Agent for Space affords the position the ability to provide 
DOD guidance and direction recommended by the Space Commission.
    With regards to Space Professional Development, the Executive Agent 
for Space position is extremely valuable in ensuring all Services chart 
a similar path building on their core competencies while gaining 
valuable information by sharing best practices. The most notable 
example is Former Secretary Teets personally chairing the Space 
Professional Oversight Board (SPOB) which brings the Services together 
quarterly to address the actions defined in the DOD National Security 
Space Human Capital Resource Plan. As a result of Secretary Teets' 
leadership, we jointly built comprehensive programs to address each 
Service's needs regarding education, training, and expertise. 
Specifically, the SPOB ensured that the offerings of the Naval 
Postgraduate School and the Air Force Institute of Technology regarding 
space engineering and operations were complementary and capable of 
satisfying each Service's unique space education requirements. The SPOB 
was also a key advocate of transitioning the Air Force's Space 
Operations School into the National Security Space Institute charged 
with satisfying all Service requirements for Space Professional 
Education and Advanced Space Training. The Executive Agent for Space 
position has been extremely successful in ensuring the Services jointly 
address all the recommendations of the Space Commission including, but 
certainly not limited to, those regarding Space Professional 
Development.
    General Dodgen. Bringing the roles of Director, National 
Reconnaissance Office (DIRNRO), Under Secretary of the Air Force 
(USECAF), and DOD Executive Agent (EA) for Space together has had 
positive impacts in the fielding of space-based capabilities to the 
joint warfighter. By bringing these roles together under one office, we 
see a synergy of efforts that was not possible under the previous 
construct.
    Admiral Sestak. Due to the lengthy life cycle of space system 
acquisition, it is too early to evaluate the impact that the DOD 
Executive Agent for Space had. The DOD Executive Agent for Space is 
meeting the ``majority of the Navy's needs, particularly in the areas 
where Navy has common needs with other Services through comprehensive 
and collaborative processes to give all stakeholders an equal voice. 
Combining this strategy with a strong JCIDs process will be the key to 
meeting joint warfighter requirements.

    40. Senator Bill Nelson. General Lord, General Dodgen, and Admiral 
Sestak, how does each military service remain an active player in 
space?
    General Lord. The Air Force remains an active player in space by 
virtue of our day-to-day duties. We are committed to providing space 
superiority to the warfighter and the Nation. Our Nation demands 
capabilities coming from and through space, now more than ever. Our 
Joint Forces Commanders know we cannot go to war and win without space 
capabilities. Our space capabilities have revolutionized modern warfare 
with GPS giving unparalleled accuracy for 70 percent of the munitions 
used in Operation Iraqi Freedom (up from 30 percent in Operation Desert 
Storm); unprecedented secure global satellite communications having 8 
times more bandwidth than just a few years ago, a robust weather 
constellation giving our warfighters premiere worldwide terrestrial and 
space environment information; the healthiest ever missile warning 
constellation providing real-time defense for the U.S. and our Allies; 
our ICBM forces offer an extraordinarily capable and proven strategic 
deterrent with readiness rates above 99 percent; we continue our 
impressive streak of 40 successful operational space launches in a row 
leading to over $3-$5 billion in savings.
    In addition, we are taking necessary steps to build a community of 
space professionals to take us into the future. Former Secretary Roche 
took a major step when he named the Commander of Air Force Space 
Command as the Space Professional Functional Authority (SPFA). In this 
role, I ensure the Air Force is taking all necessary steps to build a 
community of Credentialed Space Professionals capable of designing, 
acquiring, operating, employing, integrating, and sustaining the 
transformational space systems of the future. We are able to break down 
many of the barriers that could have limited the role the Air Force 
would play in future space systems. For example, about half of the 
personnel assigned to the National Reconnaissance Office are Air Force 
members. Through the SPFA role we are better able to ensure our people 
get both NRO and AFSPC experience so they are better able to represent 
total space needs to and from all the Services and Agencies. This space 
professional community is building upon our current successes to 
design, acquire, operate, integrate, and sustain our future 
transformational space systems.
    The Air Force is an active player in the development of the 
National Security Space Plan as well as the leader in developing and 
operating our Nation's space systems. The National Security Space Plan 
ensures all systems, programs, and agencies are integrated to provide 
coverage of critical capabilities. Our continued participation in these 
National forums as well as development of critical systems ensures that 
we remain an active player in space.
    As the Air Force's lead Major Command for space, we focus on our 
three priorities for 2005:

        1. Continue our emphasis on ensuring Space Superiority and 
        providing desired Combat Effectiveness for Joint Warfighting.
        2. Maintain a safe and secure Strategic Deterrent Capability 
        and provide means for Prompt Global Strike.
        3. Continue Efforts to develop Cost-Effective Assured Access to 
        Space.

    As we move towards achieving these goals, Space Superiority 
continues to emphasize our desire to provide combat effects and 
capabilities to the joint warfighters. There are a number of efforts 
underway to enhance our SSA, Defensive Counterspace (DCS) and Offensive 
Counterspace (OCS) mission areas. Currently, we are working with the 
National Security Space Office to develop desired survivability levels, 
protection strategies and tactics, and techniques and procedures for 
each of these mission areas. We continue to remain active in monitoring 
and characterizing the space environment in order to effectively define 
and depict the ``battlespace'' picture, assess potential future 
adversary capabilities and vulnerabilities, and develop future 
capabilities to deny an adversary's freedom of action in space, or 
their ability to deny the United States and its Allies their use of 
space.
    General Dodgen. Army leadership must commit to developing validated 
``capability needs'' for space capabilities. These validations must be 
vetted by Army leadership and planned for integration with Army 
capabilities as a whole. We then pass these same requirements to the 
national security space office where we have significant Army presence 
in assigned positions. At the same time, our Army validated 
requirements are submitted to the joint community through coordination 
with U.S. Strategic Command and through insertion in the Joint 
Capabilities Integration and Development System. Here, they are worked 
by joint Functional Capabilities Boards and, when appropriate, sent 
before the Joint Requirement Oversight Council. Therefore, Army and 
joint requirements converge to simultaneously satisfy the needs of land 
warfighting dominance and the joint warfight.
    Admiral Sestak. The Navy participates in the full spectrum of 
space-based systems development beginning with capability-based 
assessments using modeling and simulation to determine operational and 
maritime requirements. The Navy then actively works with the Joint 
community in the definition of system requirements and ensures these 
requirements are accurately captured and documented using the JCIDS. 
The Naval Research Laboratory conducts scientific and technical 
research and development (S&T/R&D) into capabilities to meet our 
maritime requirements in areas like Maritime Domain Awareness and ship 
tracking. The Navy's TENCAP Program also conducts R&D to improve 
utilization of existing space systems, the results of which can also 
influence future systems.
    This S&T/R&D work feeds into the acquisition process where Air 
Force, in its role as Executive Agent for Space, is the primary 
purchaser of satellites with the Navy an active partner in space 
systems requirements development. The Navy is the program manager and 
acquisition lead for the Mobile User Objective System (MUOS) that will 
replace the UHF Follow-on narrowband SATCOM constellation for the Joint 
community. In addition to MUOS, the Navy acquires user terminals for 
space systems and prepares its platforms for integrating space products 
into the network via FORCnet. The space-based capability is then 
delivered to the fleet, and operators trained for maximum utility. 
Lessons learned from real world operations feed into the cyclical 
process of assessments, requirements, S&T/R&D, development, 
acquisition, and operations.
    In addition to this, the Navy invests its Space Cadre personnel in 
Joint Program Offices, the National Reconnaissance Office, the National 
Security Space Office, STRATCOM, and many other space forums so that 
both Navy needs and a maritime viewpoint are inherent in the spacebased 
systems development process.

                              space launch
    41. Senator Bill Nelson. Secretary Teets, the Air Force has decided 
to pick up infrastructure costs for the Evolved Expendable Launch 
Vehicle (EELV) program. The Air Force is also getting ready to complete 
the next group of space launches referred to as ``buy three.'' How will 
you balance and integrate the decision to pay infrastructure costs with 
the need to compete launch services?
    Mr. Teets. In our previous buys, we paid a single price for a 
launch service, which included the contractor's infrastructure and 
launch vehicle hardware, making the contractors assume all the 
financial risks. Consistent with the President's recently-released U.S. 
Space Transportation Policy and in order to share the risk more 
equitably with the contractors, beginning with Buy 3, we will procure a 
national launch capability (infrastructure) separately from launch 
services (which primarily includes launch vehicle hardware). In Buy 
Three, we plan to award up to 24 launch services between the two 
competing providers.

    42. Senator Bill Nelson. General Cartwright, in your view how is 
assured access to space maintained in the next 5 years?
    General Cartwright. I echo the U.S. Space Transportation Policy in 
that assuring access to space will require maintaining a viable space 
transportation industrial and technology base. In the next 5 years, the 
capabilities provided by programs such as the EELV will be the 
foundation for space access. The near-term approach of having two space 
launch providers should assure the availability of critical space 
capabilities by providing a mutual backup capability. However, I also 
advocate the need for a future generation of launch technologies where 
access to space is reliable, routine, and affordable.

                       space range modernization
    43. Senator Bill Nelson. Secretary Teets, General Cartwright, 
General Lord, General Dodgen, and Admiral Sestak, I am concerned that 
the space launch ranges may not be being sufficiently modernized. Could 
each of you provide your thoughts on what needs to be done to ensure 
that the ranges are modernized to meet all national security needs?
    Mr. Teets. We believe our continuing modernization and sustainment 
efforts will enable the spacelift ranges to meet national security 
needs now and in the foreseeable future. Our modernization programs 
have delivered over $240 million worth of modernized systems in the 
past 18 months and are scheduled to deliver $150 million more in the 
next 12 months. Improvements include: automated, interoperable planning 
and scheduling systems; higher capacity, reconfigurable communications 
networks; more reliable, capable, and redundant command destruct 
(flight termination) systems; and fully integrated, centralized flight 
operations and analysis (safety) systems. The increased level of range 
modernization funding in our fiscal year 2006 budget request reflects 
our renewed commitment to making the ranges more responsive, reliable, 
and supportable. It implements our mid term vision of keeping the 
ranges healthy while making upgrades to enable on-demand deployment of 
on-orbit mission assets within days to support crisis and combat 
operations. Additionally, these efforts will help pave the way for the 
long-term transformation to higher capacity, global ranges able to 
support the operationally responsive spacelift systems of the future.
    General Cartwright. The ranges are aging but the support to 
warfighters continues to be outstanding--the ranges are doing their 
job. Recent modernization efforts have focused on enhanced range 
safety, improved responsiveness and flexibility, and the replacement of 
obsolete hardware to sustain reliability and availability. The 
integrated Launch and Test Range System modernization and sustainment 
plan is comprehensive and should keep the ranges healthy for the 
foreseeable future.
    General Lord. We believe our continuing modernization and 
sustainment efforts will enable the spacelift ranges to meet national 
security needs now and in the foreseeable future. Our modernization 
programs have delivered over $240 million worth of modernized systems 
in the past 18 months and are scheduled to deliver $150 million more in 
the next 12 months. Improvements include automated, interoperable 
planning and scheduling systems; higher capacity, reconfigurable 
communications networks; more reliable, capable, and redundant command 
destruct (flight termination) systems; and fully integrated, 
centralized flight operations and analysis (safety) systems. The Air 
Force has increased the level of range modernization funding in the 
fiscal year 2006 budget request by $99 million reflecting our renewed 
commitment to making the ranges more responsive, reliable, and 
supportable. This funding implements our mid-term vision of keeping the 
ranges healthy while making upgrades to enable on-demand deployment of 
on-orbit mission assets within days to support crisis and combat 
operations. Additionally, these efforts will help pave the way for the 
long-term transformation to higher capacity, global ranges able to 
support the operationally responsive spacelift systems of the future.
    General Dodgen. Currently the Army's only space launch range 
capability is at the U.S. Army Kwajalein Atoll/Reagan Test Site (USAKA/
RTS) in the Republic of the Marshall Islands. DOD's only land-based 
equatorial launch site, USAKA/RTS has two facilities supporting current 
and future launch customers. Meck Island currently supports the launch 
of interceptors from the Ground-based Midcourse Defense (GMD) program, 
and is being considered for the additional role of target launches for 
missile defense test events. The second facility, Omelek Island, is 
currently being developed to a minimal launch infrastructure, per the 
requirements of the customer, to support Space Exploration Technologies 
(SpaceX), a commercial space-launch company under contract to Defense 
Advanced Research Projects Agency (DARPA) to develop and prove-out low-
cost space-launch capabilities. The most significant challenge this 
range faces in developing and maintaining a level of readiness is 
sufficient and consistent funding to construct, maintain, and modernize 
(pursuant to technological advancements) all supporting facilities, 
including both mission operations and logistic facilities. As these 
activities are accomplished, the range would be able to better meet the 
requirements of other potential DOD space launch customers.
    Current launch customers could potentially benefit from investment 
in fiber connectivity to the continental United States (CONUS), thereby 
improving the bandwidth and latency limitations inherent in relaying 
real time or near-real time data across SATCOM channels. SATCOM is the 
range's only means of off-base communications and data exchange. With 
the assistance of Defense Information Systems Agency (DISA), USAKA/RTS 
is currently evaluating the feasibility of establishing submarine 
fiber-optic connectivity with the CONUS in an effort to substantially 
increase this data flow capability.
    Admiral Sestak. Space launch ranges, like our space surveillance 
and GPS capabilities, have become multi-use, serving both government 
and commercial requirements with funding responsibilities remaining 
exclusively with the DOD. Perhaps it's time to rethink our management 
approach to these ``dual use'' space infrastructures to incorporate 
either a cost-sharing approach or an approach that meets the needs of 
both sectors. One idea that may bear further study is to establish some 
sort of government trust fund, similar to the Highway Trust Fund and 
the Aviation Trust Fund, which could be examined as a means of 
earmarking funds for supporting space infrastructure. As an example, a 
very modest tax could be added to commercial GPS equipment. The 
potential for revenue from GPS users is obvious and straightforward an 
this revenue stream could allow our space infrastructure to keep pace 
with user demands.

                    space-based infrared system high
    44. Senator Bill Nelson. Secretary Teets, the SBIRS has just 
experienced another Nunn-McCurdy breach. What are you doing to ensure 
that all technical problems are identified and resolved, that a new 
realistic cost and schedule baseline is developed, and that this new 
baseline will survive until the program is completed?
    Mr. Teets. To date, SBIRS has had to deal with a number of 
challenges, the legacy of a poor foundation. The 10 March 2005 Nunn 
McCurdy Average Procurement Unit Cost (APUC) notification is directly 
related to the same issues that drove the 17 June 2004 Program 
Acquisition Unit Cost (PAUC) breach. The program ``replan,'' 
incorporates additional testing, more robust oversight, increased time 
spans, and realistic software productivity estimates, in an effort to 
ensure future technical issues are flushed out and addressed earlier in 
the development. With the 10 March 2005 Nunn McCurdy notification, I 
directed an Independent Program Assessment (IPA) to establish a clear 
and unambiguous program baseline and associated cost estimate. We will 
provide a full briefing of the results upon completion. The program is 
making technical progress--HEO# 1 delivered; HEO#2 on track; GEO 
integration/test proceeding well. This has our complete and undivided 
attention.

               ballistic missile range safety technology
    45. Senator Bill Nelson. Secretary Teets, as you are aware, the 
Rocket Systems Launch Program line in the annual DOD budget request has 
been increased by congressional action for each of the past 2 years to 
include a funds for a project we believe has great benefit to the U.S. 
Air Force and the future of the Nation's space launch and test ranges. 
The Ballistic Missile Range Safety Technology (BMRST) is a mobile range 
support unit incorporating today's latest GPS technologies, command 
destruct functions, and telemetry data systems. This system has 
demonstrated operationally improved and flexible down-range reentry 
support and increased range safety at lower range support costs.
    After securing additional funds to develop and demonstrate this 
system, I would have expected the Air Force to have embraced this 
technology program and invest in its final development and fielding. My 
understanding is that those military units utilizing BMRST, such as the 
launch activity at Cape Canaveral Air Force Station, are impressed with 
the added flexibility it gives them in performing their mission and 
have embraced it.
    While I appreciate the Air Force's interest in applying the funds 
provided by Congress for continued program development and 
demonstration, I am disappointed that the system has not been picked up 
in the Department's annual budget request and established as an 
acquisition program.
    Please provide the committee your assessment of the Air Force's 
requirements and efforts to modernize safety systems for our launch and 
test ranges. What are the greatest risks to operations or safety 
associated with launch range safety?
    Mr. Teets. The Air Force has validated and documented its 
requirements for modernizing safety systems in the April 2003 
Operational Requirements Document (ORD) for Launch and Test Range 
System (LTRS) Modernization. The Air Force developed these performance-
based ORD requirements primarily to meet public safety requirements, 
based on years of operational and test experience at the ranges. The 
ongoing Range Standardization and Automation Phase IIA program (RSA 
IIA), managed by the Space and Missile Systems Center in Los Angeles, 
has developed new flight safety systems to meet core safety performance 
requirements at the Eastern and Western Ranges. The Eastern Range 
system has been operational since September 2003 and the Western Range 
system is currently in the integration and test phase. The Eastern 
Range system has demonstrated its greater efficiency and effectiveness 
for a number of launches since being placed in operation, and we expect 
the forthcoming Western Range system will produce the same kinds of 
results. Both systems will have the ability to process and analyze 
tracking data passed through digital telemetry systems from GPS 
tracking sources to ensure flight safety.
    The Air Force believes BMRST has the potential to provide 
additional flexibility in meeting baseline safety and range user 
requirements. A BMRST Integrated Product Team (IPT) has been 
established to closely examine the concept of employment, test, 
certification, maintenance, and sustainment aspects of the BMRST 
system. Once the IPT assessment is complete, and if it is determined 
the system meets ORD requirements and proves cost effective, the AF 
will evaluate how best to integrate BMRST into the current range 
architecture.
    The Air Force has numerous requirements and guidelines that are 
applicable to assured access to space and safety for the general 
public. The greatest risk to operations or safety would be to have 
errant rockets launched from a range cause injuries and loss of life or 
destroy property. The current range safety system has been highly 
successful in preventing injuries, loss of life, and destruction of 
property, and we expect the ongoing modernization efforts to continue 
this record of success.

    46. Senator Bill Nelson. Secretary Teets, what are the Air Force's 
priorities and plans for launch range safety-systems modernization?
    Mr. Teets. Modernization of range safety systems is our number one 
Spacelift Ranges modernization priority. As an integral part of our 
ongoing range modernization efforts, this entails: fully integrated, 
centralized, and automated flight operations and analysis (safety) 
systems; more reliable, capable, and redundant command destruct (flight 
termination) systems; more accurate and cost effective GPS tracking 
systems to replace ground based tracking radars where operationally 
feasible; and more reliable open system architecture upgrades to ground 
based tracking radars which can't be replaced by GPS systems for 
operational reasons. Other modernization efforts contributing to range 
safety include: improved collection and processing of local weather 
data for range safety models; and faster, more accurate air, sea, and 
land range surveillance systems to prevent incursions into launch 
hazard areas. Of course, range safety is also the top priority with 
respect to operating and maintaining the ranges.

    47. Senator Bill Nelson. Secretary Teets, what is the Air Force's 
evaluation of the capability of BMRST and the potential or promise of a 
GPS-based range safety capability?
    Mr. Teets. The Air Force believes BMRST has the potential to 
provide additional flexibility in meeting baseline safety and range 
user requirements. A BMRST Integrated Product Team has been established 
to closely examine the concept of employment, test, certification, 
maintenance, and sustainment aspects of the BMRST system. Once the IPT 
assessment is complete, and if it is determined the system meets ORD 
requirements and proves cost effective, the AF will evaluate how best 
to integrate BMRST into the current range architecture. Over the long 
term, in order to meet future operationally responsive space launch 
vehicle concepts, the future range architecture must become more 
responsive while providing global connectivity. It is our belief, 
mobile assets like BMRST could become integral components of an 
affordable, global launch and test range architecture.
    The Air Force sees great promise in GPS-based range safety 
technology in the future. The AF already is using GPS-based tracking 
systems for ballistic missile tests and intends to convert to GPS 
tracking for space launch. This will occur as on board systems are 
developed and integrated into new launch vehicle programs, recognizing 
that some legacy systems like the space shuttle will continue to rely 
on radar tracking until they are replaced by newer systems employing 
GPS capabilities.

    48. Senator Bill Nelson. Secretary Teets, has the Air Force 
conducted any analysis of the benefits of GPS-based range safety 
systems?
    Mr. Teets. The Air Force has analyzed GPS-based range safety 
(tracking) systems extensively, has used them operationally for 
ballistic missile tests, and plans to use them for space launch 
applications. A GPS tracking system cost analysis was conducted when 
the transition to GPS-based tracking was first proposed under the Range 
Standardization and Automation program. Subsequently, the Air Force 
contracted with the National Research Council for an independent 
assessment of GPS-based tracking, which endorsed the use of GPS-based 
systems for ballistic missile testing and recommended the transition to 
GPS-based tracking for space launch purposes as rapidly as feasible. 
The full potential of GPS tracking systems is realized in the downrange 
area, where GPS will reduce the dependence upon costly remote ground 
based radars and will enable operations outside the coverage of these 
fixed ground sites. Where operationally feasible, GPS tracking systems 
could replace up to 9 of 18 Air Force owned and operated ground based 
tracking radars.

    49. Senator Bill Nelson. Secretary Teets, please provide the 
committee with an estimate of the direct and indirect costs associated 
with our current launch safety systems versus the costs estimated for a 
BMRST system. Given the demonstrated potential of BMRST, why has the 
Air Force declined to establish an acquisition program to complete 
development and deploy this capability?
    Mr. Teets. The Air Force has spent the money given by the Congress 
for the BMRST program to develop and deliver the product. An upgraded 
version is already in work and expected to be delivered in September 
2005. Formal operational test, evaluation, and certification will be 
conducted along with development of a concept of employment. Once these 
efforts are complete, the AF will perform a cost benefit analysis to 
determine the best way to integrate BMRST to augment the range 
architecture should the system meet ORD requirements and prove cost 
effective. It is important to understand that BMRST was initially built 
as a stand-alone, mobile range safety system. It was never designed to 
replace existing command, telemetry or GPS metric tracking safety 
systems. As such, BMRST is a system that could augment existing range 
safety capability. Thus, to provide an estimate of the costs associated 
with current launch safety systems versus the costs estimated for BMRST 
is an inappropriate comparison. The cost benefit analysis we anticipate 
from the system program office this summer will tell us what value we 
expect to gain in employing BMRST (as a supplemental system) for the 
costs involved in operating and sustaining the system. No cost savings 
is anticipated for bringing on a system like BMRST; rather, the cost 
and capability will be additive.

    [Whereupon, at 5:49 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

                              ----------                              


                         MONDAY, APRIL 4, 2005

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

              STRATEGIC FORCES AND NUCLEAR WEAPONS ISSUES

    The subcommittee met, pursuant to notice, at 2:02 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions and Bill 
Nelson.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: William C. Greenwalt, 
professional staff member; Stanley R. O'Connor, Jr., 
professional staff member; Robert M. Soofer, professional staff 
member; and Kristine L. Svinicki, professional staff member.
    Minority staff member present: Madelyn R. Creedon, minority 
counsel.
    Staff assistants present: Catherine E. Sendak and Nicholas 
W. West.
    Committee members' assistant present: William K. Sutey, 
assistant to Senator Bill Nelson.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. The hearing will come to order. I am 
pleased to welcome our witnesses today: General James 
Cartright, Commander of the U.S. Strategic Command; and Linton 
Brooks, Administrator of the National Nuclear Security 
Administration (NNSA) and the Under Secretary of Energy. I 
would also note that sitting behind General Cartright, Rear 
Admiral Charles Young, the Navy lead for strategic forces, and 
Major General Roger Burg, the Air Force focal point for 
strategic systems. Gentlemen, thank you for your service to our 
Nation and for taking the time and effort to be here with us 
today.
    This subcommittee will also be accepting for the record the 
written statements of Mira Ricardel, Acting Assistant Secretary 
of Defense for International Security Policy, regarding the 
policies used in formulating the Nuclear Posture Review.
    [The prepared statement of Ms. Ricardel follows:]
                 Prepared Statement by Mira R. Ricardel
    Mr. Chairman and distinguished members of the subcommittee: First 
of all, I would like to thank each the members of this subcommittee for 
this opportunity and for your support of our Nation's strategic forces. 
You have devoted considerable time to understanding the need to reshape 
our Nation's strategic capabilities. Only with your support will the 
Nation's strategic posture continue toward the needed transformation 
from its Cold War configuration to one that can meet the challenges of 
the decades ahead.
    Last year, the Department of Defense, in cooperation with the 
National Nuclear Security Administration, conducted an assessment of 
progress by the two Departments in implementing the transformation 
outlined in the December 2001 Nuclear Posture Review (NPR). I will 
discuss the key findings of that assessment, but first, I will review 
the key tenets of the NPR and address some of the erroneous 
characterizations of the administration's strategy for strategic 
capabilities.
              nuclear posture review: ``key conclusions''
    In December 2001 Secretary Rumsfeld submitted the NPR Report to 
Congress. Conceived even before the terrorist attacks of September 11, 
this new strategy was driven by the President's clear direction to 
reduce the number of nuclear weapons to the lowest level compatible 
with our security needs, and to move the U.S. beyond a Cold War 
deterrent strategy of managing a bi-polar ``balance of terror'' based 
ultimately on mutual offensive nuclear threats. Our Cold War strategic 
nuclear force posture was designed to deter an adversary--the Soviet 
Union--that no longer exists. Under that strategy, the security of the 
United States depended on our ability to deter a major nuclear attack 
because, in reality, there were no other prudent options to prevent 
such an attack. As a result, we settled for ``stability'' based on 
mutual vulnerability and a balance of terror.
    President Bush recognized that the conditions that made deterrence 
feasible and vulnerability an asset during the Cold War will not exist 
in all circumstances in the future security environment. He set a new 
course: a transformational strategy that seeks to strengthen deterrence 
of the new post-Cold War security threats--in particular unpredictable 
regional states that possess weapons of mass destruction (WMD)--while 
simultaneously preparing for situations where the various conditions 
necessary for reliable deterrence do not exist.
    Secretary Rumsfeld enumerated the key conclusions of the December 
2001 Nuclear Posture Review in his report to Congress:

        <bullet> Nuclear forces will continue to play a critical 
        security role for the United States, its allies and friends.
        <bullet> Deterrence should not be limited to the threat of 
        retaliation, nor rely exclusively on nuclear forces. Existing 
        nuclear forces, moreover, are unsuited to many of the 
        contingencies that may confront the United States and our 
        allies.
        <bullet> A mix of strategic capabilities, offensive and 
        defensive, nuclear and conventional, will provide a broad range 
        of military options that are credible to enemies, reassuring to 
        allies, and consistent with American values.
        <bullet> In the post-Cold War period, active and passive 
        defenses will contribute to deterrence, and provide useful 
        protection in the event deterrence fails.
        <bullet> Transformation of our Nation's nuclear posture is 
        needed and will complement the transformation of U.S. 
        conventional forces and capabilities.
        <bullet> To comply with the President's guidance, we will 
        reduce our nuclear forces to the lowest possible level 
        consistent with our national security needs, including our 
        obligations to our allies.
        <bullet> This broad range of capabilities will help assure 
        allies and friends and will dissuade potential foes from 
        investing in capabilities with which to threaten us.

    Instead of the legacy Cold War posture we have inherited, with its 
reliance on the high-yield, offensive nuclear weapons suited to a 
balance of terror, this new approach requires a broad mix of strategic 
capabilities to strengthen our strategic deterrence capability and to 
better tailor our deterrence strategies to the spectrum of post-Cold 
War threats.
                    misunderstandings about the npr
    Despite the advent of this landmark strategy and its unprecedented 
direction to reduce dramatically the number of deployed nuclear 
weapons, there remain misunderstandings about the NPR and the 
President's strategy for nuclear weapons.
    For example, some commentators have suggested that the NPR rejects 
deterrence in favor of nuclear ``warfighting,'' and ``lowers the 
nuclear threshold.'' In fact, as Secretary Rumsfeld emphasized in the 
Foreword to the NPR, the NPR's direction is designed to ``improve our 
ability to deter attack,'' while ``reducing our dependence on nuclear 
weapons'' to do so. The NPR strategy places greater emphasis on 
advanced non-nuclear and defensive capabilities, increases the 
credibility of our deterrent for many possible contingencies, and 
reduces the emphasis on nuclear weapons in our strategic posture. In 
fact, the NPR identified the potential for non-nuclear weapons to 
substitute for nuclear weapons, further reducing our reliance on the 
latter.
    By strengthening the credibility of our strategic deterrent with a 
new strategy that includes nuclear, non-nuclear and defensive 
capabilities, we also strengthen nonproliferation because we can better 
assure our allies and friends that they can rely on the U.S. strategic 
deterrent, and do not need to seek an alternative nuclear deterrent for 
their security. Moreover, this more flexible and capable strategic 
force helps to dissuade potential adversaries from investing in nuclear 
capabilities as a successful way to challenge the U.S.
    Our Cold War nuclear arsenal was designed for a different time, and 
a different threat than we now face. Consequently, in addition to the 
NPR's call for nuclear reductions and an emphasis on non-nuclear and 
defensive capabilities, it identified the need to adapt our nuclear 
capabilities to post-Cold War requirements for deterrence.
    In a regional crisis, for example, the credibility of our deterrent 
from the adversary's perspective may turn on our ability to threaten 
his WMD, missiles, command and control, and leadership bunkers 
protected in hard and deeply buried facilities--while minimizing the 
threat of collateral damage. Thus, rather than rejecting deterrence, 
the NPR's direction to examine the potential for threatening deeply 
buried facilities while minimizing the threat of collateral damage 
seeks to strengthen our deterrent by increasing its credibility for 
post-Cold War contingencies.
    In sum, the NPR's transformation is intended to strengthen our 
capability to deter in circumstances very different from those of the 
Cold War, reduce the number of deployed nuclear weapons and our 
reliance on nuclear weapons, and contribute to non-proliferation by 
assuring our allies and dissuading potential adversaries.
                  implementing the npr: status report
    The Department of Defense just completed a review of progress to 
date in implementing the December 2001 Nuclear Posture Review. 
Noteworthy progress includes:

        <bullet> To guide the implementation of the NPR, a broad 
        framework of new national policy guidance documents has been 
        issued covering nuclear forces, ballistic missile defense, 
        national command and control, and cyber operations.
        <bullet> Changes to the Unified Command Plan aligns United 
        States Strategic Command missions with the New Triad 
        capabilities by making the Commander of Strategic Command 
        responsible for ``operationalizing'' the strategy.

                <bullet> A Global Strike Concept Plan has been 
                developed and implemented, and non-nuclear strike 
                options are being integrated into strategic deterrence 
                operational plans.
                <bullet> The President's direction to deploy ballistic 
                missile defenses is expected to lead to an initial 
                fielded capability later this year.

        <bullet> Reductions in U.S. nuclear forces are on track toward 
        our goal of 1,700 to 2,200 operationally deployed strategic 
        nuclear warheads by 2012. This represents a reduction of two-
        thirds from the time this administration entered office.
        <bullet> By the end of this fiscal year, the last of the 
        Peacekeeper intercontinental-range ballistic missiles will have 
        been deactivated. Progress is well underway in modifying four 
        former ballistic missile submarines to serve in the future as 
        delivery platforms for conventional cruise missiles and special 
        forces.
        <bullet> Consistent with the reduction in operationally 
        deployed warheads, a new plan for the nuclear stockpile has 
        been implemented that will cut the total stockpile (active and 
        inactive warheads) nearly in half by 2012.
        <bullet> The Department is making steady progress on 
        improvements in planning, intelligence, and command and control 
        capabilities that are needed to integrate New Triad 
        capabilities effectively.

    Despite considerable progress in establishing new policies and 
directives in support of the NPR strategy, progress in developing and 
fielding capabilities for the New Triad has been less than desired. 
There are two areas of special concern:

        <bullet> Non-nuclear strategic strike capabilities

                <bullet> If we are fully to realize the goal of reduced 
                reliance on nuclear weapons and a broader range of 
                strategic capabilities for the national leadership, we 
                will need to invest in a portfolio of non-nuclear 
                weapons with unique characteristics. Two general 
                categories of weapons will be needed:

                        <bullet> Prompt, precise, long-range, 
                        conventional weapons that can be used in 
                        response to an imminent threat; and
                        <bullet> Non-nuclear weapons with unique 
                        effects that can provide an effective, yet 
                        appropriate response for some situations in 
                        which an adversary uses weapons of mass 
                        destruction.

                <bullet> We are actively examining options for non-
                nuclear weapons for these important roles.

        <bullet> A responsive infrastructure for nuclear weapons

                <bullet> Revitalization of our Nation's nuclear weapons 
                infrastructure (managed by the National Nuclear 
                Security Administration) is essential. This unique 
                defense R&D and industrial capability will continue to 
                be a vital element of our security strategy for the 
                foreseeable future. Our existing nuclear stockpile was 
                designed for a different time and for Cold War 
                missions. The age of most warheads has already exceeded 
                the original design life. While the recently 
                implemented stockpile plan makes dramatic reductions--
                cutting the stockpile nearly in half by 2012--we don't 
                need a smaller Cold War era nuclear stockpile, we need 
                capabilities appropriate for 21st century threats. That 
                means we need to conduct a range of studies on 
                potential weapon concepts--including the completion of 
                the Robust Nuclear Earth Penetrator (RNEP) Study. It is 
                also critical to revitalize the nuclear weapon R&D and 
                production infrastructure in order to assure the long-
                term safety and reliability of U.S. nuclear warheads, 
                strengthens deterrence for the new security 
                environment, and provides a hedge against an 
                unforeseen, catastrophic technological failure of any 
                element of the nuclear force or unanticipated adverse 
                changes in the geopolitical threat environment. In this 
                connection, our joint work with NNSA on Reliable 
                Replacement Warhead concepts, described more fully by 
                Ambassador Brooks in his testimony, is a first step 
                towards enabling the responsive nuclear weapons 
                infrastructure called for in the NPR.

    In short, our goal is an array of integrated, strategic response 
capabilities that will provide unprecedented flexibility, assuredness, 
and effectiveness--essential characteristics for both adversaries and 
allies alike to consider in their calculus of a modernized U.S. 
strategic deterrent.
    With that in mind, I ask for your continued support of the 
President's plan to implement this new strategy.
    Mr. Chairman, once again thank you for this opportunity.

    Senator Sessions. We will begin this hearing in open 
session. At an appropriate time, the hearing will move into 
Russell Room 232-A for a closed session to more fully explore 
some of today's hearing topics in a classified setting. We will 
try to have as much of the policy discussion as we can here in 
this open session. I think it is important that the American 
people and the people of the world for that matter understand 
what our goals are, what our capabilities are, and what we plan 
to do in the future. The details of that, of course, many of 
them are classified and should be discussed only in a 
classified setting.
    Today we will receive testimony on strategic forces and 
nuclear weapons issues. We will examine how the Strategic 
Command (STRATCOM) and the NNSA support global deterrence and 
the extent to which this differs from the Cold War mission of 
strategic deterrence.
    Strategic forces today provide the President and the 
warfighter with a range of global prompt capabilities for time-
urgent missions, such as global strike. General Cartright, this 
subcommittee is interested in your perspectives regarding 
whether the United States has the capabilities necessary to 
support deterrence and whether there are any shortfalls. That 
is your responsibility in your new position.
    Another critical task for this committee is to exercise its 
oversight function with respect to the United States nuclear 
forces. Nuclear weapons are the most formidable weapons in our 
arsenal. Although an analysis of the appropriate mix of nuclear 
and conventional weapons is ongoing as part of the Quadrennial 
Defense Review, I cannot foresee any circumstances in which 
nuclear weapons will cease to play a central role in our 
nuclear deterrent and our deterrence posture.
    Ambassador Brooks, the subcommittee is interested in 
hearing your assessment of the Stockpile Stewardship Program, 
which is charged with maintaining the safety, security, 
reliability, and effectiveness of our current nuclear 
stockpile, which has been in place for many decades now, and 
also you are in charge of reducing the numbers of those weapons 
in our stockpile.
    Additionally, I wish to explore with you progress being 
made in developing the responsive nuclear weapons 
infrastructure called for in the Nuclear Posture Review of 
2001. I will ask the witnesses to define the term 
``responsive.'' We use that term, but have we agreed what it 
really means? Do we have the nuclear weapons complex we need or 
do we have the one we inherited from the Cold War? What are our 
needs and what are our capabilities?
    The post-Cold War security environment introduced new 
threats and greater uncertainties that require new, flexible, 
and adaptive strategic forces. Rather than rely exclusively on 
a nuclear triad of land and sea-based intercontinental missiles 
and long-range bombers that has been the historic position 
since the beginning of the Cold War, the Nuclear Posture Review 
outlined a new triad consisting of nuclear and conventional 
offensive strike forces, missile defenses, and a revitalized 
nuclear infrastructure capable of providing new capabilities in 
a timely fashion to meet emerging threats.
    Indeed, the direction taken by the Nuclear Posture Review 
should improve our ability to deter attack by placing greater 
emphasis on advanced non-nuclear and defensive capabilities, 
which in turn reduces the dependence on nuclear weapons in our 
strategic posture.
    A central purpose of this hearing is to explore more fully 
the range of strategic capabilities needed to achieve prompt, 
decisive results when required and to understand the scope and 
cost of the programs that support the objective. We still face 
the reality, however, that nuclear weapons are uniquely capable 
of holding certain critical targets at risk. This subcommittee 
and this Senate have engaged in a debate for a number of years 
regarding a study of the Robust Nuclear Earth Penetrator 
(RNEP). This subcommittee and full committee authorized RNEP in 
fiscal years 2003, 2004, and 2005. The full Senate supported 
the RNEP and funding was appropriated during fiscal years 2003 
and 2004 totaling approximately $22 million. Amendments to 
eliminate funding for RNEP both in this committee and in the 
full Senate have failed in the past.
    Last year, during fiscal year 2005, although RNEP was once 
again fully authorized by this subcommittee at $27 million, 
funding was not continued by the appropriators.
    The budget request for fiscal year 2006 once again requests 
funds for completing the RNEP study. This issue is not new. The 
study will examine if RNEP would provide a capability to deal 
with specific buried and hardened targets in a more precise 
way. The full committee has heard the testimony of both the 
Secretaries of Defense and Energy earlier this year that the 
RNEP study--study only--is needed.
    I would note that not only is the study all that is called 
for; statutory provisions say that no RNEP or like weapon could 
be built without explicit approval by Congress.
    So we have taken the testimony, had the debate, and 
affirmed by our votes the need to complete the feasibility 
study of RNEP, but I know we will deal with that issue again 
this year and there will be an opportunity to discuss it.
    I suspect that some of our debate when it comes to RNEP 
revolves around concerns as to whether we ought to maintain 
nuclear weapons at all. While that is certainly appealing and I 
wish we could get to that point, frankly, I do not foresee that 
as a likely eventuality in our lifetimes. Our nuclear forces 
must be effective in order to provide credibility in our 
deterrence umbrella for the United States and our allies. 
Completing the RNEP study is one more way to help us maintain 
that credibility.
    So these are some of the issues that we will explore in our 
hearing today. Let me now recognize my distinguished ranking 
member, Senator Nelson of Florida. He is a strong and active 
member of the Armed Services Committee, and it is a pleasure 
for me to work with him as the ranking member on this 
subcommittee.
    Senator Nelson.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Thank you, Mr. Chairman.
    I want to welcome our witnesses. It is an important 
hearing. In this hearing I hope that we are going to discuss a 
range of topics, topics on nuclear and strategic issues, and I 
want to focus on two topics. The first, already mentioned here, 
is the RNEP. Last year, Congress denied funds for the program 
and, in spite of this fact, the fiscal year 2006 budget request 
for both the Department of Energy (DOE)/NNSA and the Air Force 
includes money for RNEP.
    It would appear that the administration is committed to 
going forward with this controversial program, not just 
completing the feasibility study. If the only goal is to 
develop earth-penetrating capability that could be used for 
either a nuclear or conventional weapon, it would seem logical 
that the focus of the effort would be a conventional and not a 
nuclear weapon. We have had discussions about this in committee 
as well as on the floor of the Senate.
    The second topic is the Reliable Replacement Warhead. 
Congress, the American people, need to understand what it will 
produce and what it will cost. Is it, as some hope, a pivotal 
change in the approach to nuclear deterrence that will enable 
real significant reductions in the number of nuclear warheads 
and reduce the cost of maintaining a nuclear arsenal? Is it an 
opportunity to have a serious review and discussion of nuclear 
weapons and nuclear policy? Or is it just an excuse to develop 
a new nuclear weapon and to return to nuclear weapons testing? 
I hope our witnesses are going to provide some insight and 
clarity on that issue.
    I also hope that we can get a clear understanding on the 
policy context for both of these initiatives, the RNEP and the 
Reliable Replacement Warhead. We need to understand the cost of 
each program, the impact these programs will have on the 
ability to make real reductions in the stockpile, and the 
impact that these programs will have on others. Will these 
programs have a deterrent effect or will it encourage other 
nations to start developing nuclear weapons?
    So I look forward to discussion of these issues today. 
Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    General Cartright, you are our strategic commander of 
STRATCOM. Give us your thoughts, if you would.

STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    General Cartwright. Senator Nelson and Mr. Chairman: 
Listening to your statements, it is kind of like being the 
fourth gent in a row of people who are speaking. You are 
hearing all your points being brought out. But let me hit at a 
couple, in particular, and then be ready for your questions.
    One, the acknowledgment that the environment in the world 
has changed is maybe an obvious statement, but the realities 
here of the implications of the global environment we live in, 
both to the discussion of the threat as it exists today, a 
global threat, the context in which we conduct military 
operations from a forces perspective, which is where I spend 
most of my time. Clearly, the world has changed and the 
diversity of the threat compared to the Cold War and what we 
must protect against are things that drove, particularly in the 
Department, the realignment with STRATCOM of a set of global 
enablers that could be provided to the regional combatant 
commanders to allow them to conduct their job in this very 
diverse world that we are living in.
    We have had experience with these types of global enablers 
before, obviously United States Transportation Command and how 
we consolidated all of our logistics functions and our lift 
into one command, because it made sense to approach this from a 
global standpoint. The Special Operations Command is another 
example where we have consolidated because it made sense.
    Our strategic weapons have always been with STRATCOM, but 
we have now added space, as you said, global strike, integrated 
missile defense, intelligence, surveillance, and reconnaissance 
(ISR) function, have been added in there. Net warfare, the 
information operations side, and the cyber world have been 
added to our set of global capabilities at STRATCOM. We are 
also in the process of evaluating and providing options for 
combating weapons of mass destruction as an additional mission.
    Trying to bring these together as global enablers is really 
an acknowledgment that the threat is very diverse. In the world 
that we live in, almost every action that we take has global 
implications. It's hard not to wake up in the morning and look 
at the world and people who are watching elections in the 
former Soviet Union, Soviet republics; people who are watching 
the implications of the war in Iraq, the elections in Iraq, the 
elections in Afghanistan, et cetera, they have global 
implications, as does the price of oil, the price of coffee.
    So this is a global environment and we need a set of global 
enablers. That is what STRATCOM is trying to bring to the 
table. To do that, we have to do it in an environment that is 
different than what we had in the Cold War.
    [The prepared statement of General Cartwright follows:]
          Prepared Statement by Gen. James E. Cartwright, USMC
    Mr. Chairman and members of the subcommittee: This is my first 
opportunity to appear before you as Commander of the United States 
Strategic Command (USSTRATCOM). Thank you for the time you've given me 
to discuss the missions assigned to us as we continue to prosecute the 
global war on terror and take on the challenge of combating weapons of 
mass destruction.
    My prepared remarks cover USSTRATCOM's role in the challenging 21st 
century environment and plans for addressing those challenges with 
capabilities to serve our Nation's needs in war and in peace.
                  the 21st century global environment
    Global interdependence--economic, political, and social--combined 
with near instantaneous global connectivity, is a trademark of the new 
century. It also heightens the importance of strong links between U.S. 
strategic objectives and regional operations. U.S. strategic objectives 
have profound influence on individuals, regions, nations, and non-state 
actors and networks. The tight linkage between U.S. strategic 
objectives and the conduct of regional operations is evident in our 
operations in Afghanistan and Iraq, and more recently in Asia in the 
aftermath of the tsunami. In Afghanistan, the strategic objective to 
combat global terrorism guided, as well as constrained, our regional 
decisions. The regional operations in Iraq are clearly influencing 
cultural, economic, and security considerations around the globe.
    Our adversaries are using asymmetric approaches; exploiting social, 
political, and economic vulnerabilities to avoid confronting superior 
U.S. forces head on. We continue to see increases in the speed and 
deceptive scale of proliferation of potential weapons of mass 
destruction, including delivery and concealment capabilities. We see 
adversaries who would use improvised explosive devices (IEDs) and 
suicide bombs against their own people and infrastructure, as well as 
against deployed multinational forces. These adversaries have easy 
access to the same global technology base we do, and can exploit the 
same communication and information resources as the American public. 
They have proven they are an intelligent and adaptable enemy.
    All operations, while regional in execution, have global 
consequence and therefore require a global perspective. Regional 
combatant commanders, who are responsible and accountable for 
conducting combat and peacekeeping operations in their areas of 
responsibility (AORs), have long depended upon support provided from 
outside their AORs. Much of that support, which in the past was 
provided on an ad hoc basis, has now been codified in the Unified 
Command Plan as a USSTRATCOM global responsibility. We are positioning 
USSTRATCOM to advance a distinctly global and strategic perspective on 
current and emerging capabilities necessary to deter threats to our way 
of life, particularly those threats involving weapons of mass 
destruction. USSTRATCOM will enable combatant commander's regional 
operations through realization of a comprehensive set of global mission 
capabilities, soundly integrated to achieve more effective and 
efficient execution.
    We look upon this responsibility as both an exciting challenge and 
a solemn obligation to the regional combatant commanders, the American 
men and women who serve in their AORs and to the American people.
                            global enablers
    21st century operations are fundamentally different from those of 
the last century. Combat operations are being conducted in rapidly 
changing circumstances, shifting from humanitarian operations to 
intense firefights within a few hundred yards of each other with little 
or no warning. This dynamic nature is matched by a varying composition 
of assisting partners. We must be ready to conduct integrated, 
distributed operations using global and regional military forces. In 
many situations, these forces will be augmented by other U.S. 
Government personnel, coalition and commercial partners, and possibly, 
non-governmental organizations. To plan and effectively execute these 
types of distributed, agile and integrated operations, the regional 
combatant commands increasingly rely on multiple capabilities the 
global commands must support or provide.
    The Unified Command Plan expands USSTRATCOM responsibilities 
through the assignment of global mission areas that span levels of 
authority, cross regional boundaries and intersect with various 
national and international agencies. USSTRATCOM's missions are:

        <bullet> Global deterrence;
        <bullet> Global support from space-based operations;
        <bullet> Global intelligence, surveillance, and reconnaissance;
        <bullet> Global strike;
        <bullet> Global information and network operations;
        <bullet> Global command and control;
        <bullet> Global integrated missile defense coordination;
        <bullet> Globally combating weapons of mass destruction.

    Achieving the full potential of these missions is contingent upon 
identifying the right capabilities mix and sustaining our global reach 
through space. However, without the context of advanced situational 
awareness, and the power of collaboration, even the best tools may be 
insufficient to deter and defeat a determined adversary. We are placing 
an emphasis on the following global enablers:
The New Triad
    USSTRATCOM supports The New Triad concept; a strategic way ahead in 
pursuit of a more diverse set of offensive and defensive warfighting 
capabilities. We are active participants in all three legs of The New 
Triad: offensive nuclear and non-nuclear strike (including non-
kinetic), passive and active defenses, and a defense infrastructure 
capable of building and sustaining all offensive and defensive 
elements, including the critical support areas of command and control 
and intelligence.
    Coupled with improved collaboration and shared global awareness, 
The New Triad concept will enable more precisely tailored global strike 
operations. With a full spectrum of nuclear, conventional and non-
kinetic options available, regional combatant commanders will be 
enabled to achieve specific local effects against high value targets in 
the context of the strategic objective.
    While we are confident in our ability to support effective global 
strike operations today, we must continue to evolve that capability to 
meet the demands of an uncertain tomorrow. For example, I intend to 
conduct experiments to better understand the value of weapon accuracy 
within a range of stressing environments. If modeling and testing 
confirm the value of such capability, this may lead to new thoughts on 
the balance between nuclear and conventional strike alternatives.
    The new responsibilities assigned to USSTRATCOM have required the 
command to broaden its Cold War focus from deterring nuclear or large-
scale conventional aggression to becoming a major contributor to the 
much broader defense strategy. Nuclear weapons; however, continue to be 
important, particularly for assuring allies and friends of US security 
commitments, dissuading arms competition, deterring hostile leaders who 
are willing to accept great risk and cost, and for holding at risk 
those targets that cannot be addressed by other means.
    As steward of the Nation's strategic nuclear capabilities, we have 
two specific areas of focus--rationalizing our nuclear forces, and 
providing for a relevant nuclear stockpile in the context of The New 
Triad. USSTRATCOM's first priority will continue to be the maintenance 
of the absolute security, safety, and surety of the stockpile. At the 
same time we will continue to evaluate and provide a range of options, 
both nuclear and non-nuclear, relevant to the threat and military 
operations.
    The New Triad concept presents an opportunity to reduce our 
reliance on nuclear weapons through the evaluation of alternative 
weapons, defensive capabilities and associated risk. It is our intent 
to have the upcoming Quadrennial Defense Review address nuclear issues, 
and the associated infrastructure, to determine transformation 
requirements for our nuclear capabilities in the 21st century. We will 
look at rationalizing our nuclear forces as an element of the overall 
force structure and the proper tailoring of nuclear effects as part of 
the broad spectrum of national power. These assessments will be 
important to future operational planning as well as future budget 
plans.
    Finally, The New Triad concept provides a framework on which to 
establish a new dialogue on the future role for nuclear weapons in our 
national strategy. The challenging security and threat environment of 
the 21st century signals the need for an informed national level 
discussion to hear the voices of government leaders, military, academia 
and the public if we are to effectively establish a long term nuclear 
investment plan.
Space
    The importance of the space mission to our national security cannot 
be overstated. The U.S. economy, our quality of life, and our Nation's 
defense are all linked to our freedom of action in space. For example, 
satellites are at the heart of routine financial activities such as 
simple automatic teller machine operations or complicated international 
currency and stock market transactions. The telecommunication industry 
is heavily vested in space. Commercial airliners, container ships, 
trains, trucks, police, fire departments and ambulances have also 
become highly dependent upon space-based global positioning systems to 
enhance their ability to safely deliver people, goods and services. The 
fact is, our dependency on space increases every day--a fact not lost 
on our adversaries. This growing national dependence on space-based and 
space-enabled capabilities establishes a true imperative to protect our 
space assets and our ability to operate freely in, and from, space.
    We currently enjoy an asymmetric advantage in space, but our 
adversaries are gaining on us. Our space support infrastructure is 
aging and, in some instances, on the verge of becoming obsolete. We 
will continue to face additional challenges as other nations exploit 
new technologies and capabilities in attempts to bridge the gap between 
them and us.
    The space environment itself is also rapidly changing. For example, 
the number of objects in-orbit increases every month, while the size of 
those objects decreases. This is challenging our space surveillance 
technology, developed in the latter half of the 20th century, because 
it was not designed to detect or track the current magnitude of new, 
smaller objects, including micro-satellites. This increases the chances 
of collisions, which threatens our manned spaceflight program; opens 
the door for unwarned action against U.S. satellites by adversaries; 
and limits our ability to protect our space assets.
    We must do a better job of leveraging the capabilities of our space 
assets--in DOD, national and commercial systems. We must also maintain 
the ability to protect our own space assets and capabilities, both 
actively and passively, while denying our adversaries the military use 
of space--at the time and place of our choosing.
    In order to bring these elements of space control together, our 
near-term plan is to work with the various space programs to identify 
potential gaps and make sure existing information and applications are 
available and provided to authorized users on a global network. This 
plan will serve as the basis for a concept of operations to exploit 
information from our space assets, providing space situational 
awareness to the regional combatant commands.
Distributed Operations
    For distributed, integrated operations, dominant situational 
awareness is an imperative--globally, regionally, and locally. It must 
exist across the full breadth and depth of operations, from planning 
and combat through post-conflict reconstruction, and ultimately, 
peacetime.
    For our forces to effectively employ collaborative capabilities and 
capitalize upon situational awareness, we must enable them to create 
pictures of the battlespace tailored to their specific needs--what we 
refer to as User Defined Operating Pictures. It is USSTRATCOM's job to 
provide the global capabilities to enhance situational awareness, 
facilitate collaborative planning, and provide a basic User Defined 
Operating Picture capability for all of the combatant commands.
    Many of the capabilities required for agile, distributed operations 
will be facilitated by space and enabled by a global information 
environment with ubiquitous, assured access to information, when and 
where any combatant commander needs it. To achieve this vision, the old 
mantra to provide information on a ``need to know'' basis, must be 
replaced by a ``need to share.'' Critical information that the 
warfighter didn't know existed, and the owner of the information didn't 
know was important, must be made available within a global information 
environment easily accessible to commanders at all levels.
Interdependent Capabilities
    Our action plan for global command and control focuses on ensuring 
the all-source information needed for effective operations is available 
to all theaters. For the global Intelligence, Surveillance, 
Reconnaissance (ISR) mission, that also means developing integrated and 
persistent systems capable of supporting precision targeting. 
USSTRATCOM has the lead for coordinating global ISR capabilities and 
will be working closely with the regional combatant commanders, Joint 
Forces Command and the services to develop the associated strategy.
    The Department's net-centric global information services, currently 
in development, are essential to our global missions. These services 
will connect global and regional applications and improve both 
horizontal and vertical information integration.
    We are developing a prioritized plan for transitioning away from 
stove-piped legacy systems to capabilities that support broader 
information and applications access. Included in this plan are actions 
focused on leveraging existing legacy applications and data by making 
them more broadly accessible. Each user will be allowed the flexibility 
to select from any available data source, anywhere on the network, 
those objects most useful to them at any particular time. Additionally, 
any new data source will be available the moment it comes onto the 
network, rather than requiring a modification to existing systems, as 
is the case today.
    USSTRATCOM is an advocate for net-centricity. Our focus is on:

        <bullet> Capability to enable our ``internet-like'' environment 
        and access to information;
        <bullet> Realization of a high-bandwidth, ubiquitous 
        communications backbone to deliver information with high 
        assurance and low latency; and
        <bullet> Robust information assurance required to defend our 
        networks and our information.

    Creating a collaborative structure is more than just designing and 
disseminating tools--it is also about changing human behavior. Our 
objective is a global, persistent, 24/7 collaborative environment--
comprising people, systems, and tools. Our future structure must 
support real time command and control at both the global and local 
levels as well as enable dynamic, adaptive planning and execution in 
which USSTRATCOM, the regional combatant commanders, and other 
geographically dispersed commanders can plan and execute operations 
together. Our collaborative environment must also provide the 
capability to ``connect all the dots''--enemy dots, friendly dots, 
neutral dots, contextual dots--all the dots that matter--as they 
appear, rather than wait for a post-event analysis when all of the 
different data stores can be opened. With improved collaboration and 
shared awareness, we can more effectively conduct operations using the 
full spectrum of capabilities to achieve desired, focused effects 
against high value targets.
    In that regard, we are actively assessing the currently available 
collaborative environment and processes and investigating potential 
pilot programs to encourage organizational information sharing to build 
trust in shared information. Fundamental to this issue is the 
establishment of data tagging standards and associated information 
assurance policies.
    With regard to sharing information, we are in some respects 
navigating uncharted waters. While the value of sharing information 
with allies, coalition partners and other Federal departments and 
agencies is well understood, sharing information with industry or other 
private sources presents proprietary, intellectual property and privacy 
concerns which are not well understood. Such information has the 
potential to be of great value to USSTRATCOM and the regional combatant 
commanders in accomplishing our missions. We will be attentive to the 
actions currently being taken throughout the Federal Government in 
response to Executive Order 13356, ``Strengthening the Sharing of 
Terrorism Information To Protect Americans,'' which may provide us 
valuable insight and guidance in this sensitive area.
                    building an asymmetric advantage
    In addition to our role as steward of the Nation's nuclear 
stockpile and guardian of global deterrence, USSTRATCOM now has the 
responsibility for working across regional boundaries to address 
threats in a global perspective. To achieve the asymmetric advantage we 
desire requires us to build the interdependent, collaborative, 
operational environment we've envisioned. It is our responsibility to 
provide global services and global context to the regional combatant 
commands and their deployed forces so we are collectively a more 
effective force--for warfighting, peace and all possible combinations 
of both.
New Command Structure
    As the latest step in maturing our approach to fulfilling 
USSTRATCOM's global mission responsibilities we are implementing a new 
command structure. This structure is critical to the asymmetric 
advantage we seek, leveraging essential competencies of associated 
components and key supporting agencies through an distributed, 
collaborative environment.
    Rather than creating additional organizational layers, we are 
bringing existing commands and agencies under our global mission 
umbrella through the establishment of Joint Functional Component 
Commands. These interdependent Joint Functional Component Commands will 
have responsibility for the day-to-day planning and execution of our 
primary mission areas: space and global strike, intelligence 
surveillance and reconnaissance, network warfare, integrated missile 
defense, and combating weapons of mass destruction.
    USSTRATCOM headquarters retains responsibility for nuclear command 
and control. Additionally, headquarters will provide strategic 
guidance, exercise global command and control, and conduct strategic 
level integrated and synchronized planning to ensure full-spectrum 
mission accomplishment. USSTRATCOM will also advocate for the 
capabilities necessary to accomplish these missions.
    This construct will allow us to leverage key, in-place expertise 
from across the Department of Defense and make it readily available to 
all regional combatant commanders. Our vision is for the combatant 
commanders to view any Joint Functional Component Command as a means by 
which to access all of the capabilities resident in the USSTRATCOM 
global mission set. Anytime a combatant commander queries one of our 
component commands, they will establish strategic visibility across our 
entire structure through our collaborative environment. The fully 
integrated response USSTRATCOM provides should offer the combatant 
commander greater situational awareness and more options than 
originally thought available. Specific Joint Functional Component 
Command responsibilities include:

        <bullet> Space and Global Strike. The Commander STRATAF (8th 
        Air Force) will serve as the Joint Functional Component 
        Commander for Space and Global Strike. This component will 
        integrate all elements of military power to conduct, plan, and 
        present global strike effects and also direct the deliberate 
        planning and execution of assigned space operation missions. 
        For plans not aligned with a specific mission set, the Joint 
        Functional Component Command for Space and Global Strike is 
        tasked to work in close coordination with USSTRATCOM 
        headquarters as the lead component responsible for the 
        integration and coordination of capabilities provided by all 
        other Joint Functional Component Commands.
        <bullet> Intelligence Surveillance and Reconnaissance. The 
        Director, Defense Intelligence Agency (DIA) will be dual-hatted 
        to lead the Intelligence, Surveillance, and Reconnaissance 
        Joint Functional Component Command. This component is 
        responsible for coordinating global intelligence collection to 
        address DOD worldwide operations and national intelligence 
        requirements. It will serve as the epicenter for planning, 
        execution and assessment of the military's global ISR 
        operations; a key enabler to achieving global situational 
        awareness.
        <bullet> Network Warfare. The Director, National Security 
        Agency (NSA) will also be dual-hatted to lead the Network 
        Warfare Joint Functional Component Command. This component will 
        facilitate cooperative engagement with other national entities 
        in computer network defense and offensive information warfare 
        as part of our global information operations.

    Our coordinated approach to information operations involves two 
other important supporting commands. The Director, Defense Information 
Systems Agency also heads the Joint Task Force for Global Network 
Operations. This organization is responsible for operating and 
defending our worldwide information networks, a function closely 
aligned with the efforts of the Joint Functional Component Command for 
Network Warfare. Additionally, the Commander, Joint Information 
Operations Center coordinates the non-network related pillars of 
information operations: psychological operations, electronic warfare, 
operations security and military deception. Both the Joint Task Force 
for Global Network Operations and the Commander, Joint Information 
Operations Center will be full members of the USSTRATCOM distributed, 
collaborative environment.

        <bullet> Integrated Missile Defense. The Commander, Army Space 
        and Missile Defense Command will head the Integrated Missile 
        Defense Joint Functional Component Command. This component will 
        be responsible for ensuring we meet USSTRATCOM's Unified 
        Command Plan responsibilities for planning, integrating, and 
        coordinating global missile defense operations and support. It 
        will conduct the day-to-day operations of assigned forces; 
        coordinating activities with associated combatant commands, 
        other STRATCOM Joint Functional Components and the efforts of 
        the Missile Defense Agency (MDA). The Joint Functional 
        Component Command for Integrated Missile Defense is a key 
        element of the ``defenses'' leg of the New Triad concept.
        <bullet> Combating Weapons of Mass Destruction. The Secretary 
        of Defense (SECDEF) recently assigned USSTRATCOM responsibility 
        for integrating and synchronizing DOD's efforts for combating 
        weapons of mass destruction. As this initiative is in its very 
        formative stages, we have yet to formalize any specific 
        componency structure. However, we anticipate establishing a 
        formal relationship with the Defense Threat Reduction Agency as 
        an initial starting point.

    This new componency structure is in its infancy and will take 
several months to fully realize. There are detailed issues to work 
through, including the proper distribution of subject matter expertise 
and an assessment of expanding relationships with other U.S. Government 
departments and foreign nations.
    A final element of our evolving organizational structure involves 
developing relationships with the private sector to build upon efforts 
under the Partnership to Defeat Terrorism. This important partnership 
with the private sector supports many of our national objectives and 
crosses into relatively uncharted territory.

        <bullet> Partnership to Defeat Terrorism. The United States has 
        achieved success in the global war on terrorism by attacking 
        terrorist infrastructure, resources, and sanctuaries. 
        Nevertheless, our adversaries continue to plan and conduct 
        operations driven by their assessment of our vulnerabilities. 
        The main vulnerability requiring our constant vigilance is the 
        Nation's economy, and one need look no further than the 
        economic aftershock attributed to the September 11 terrorist 
        attacks to affirm this assertion. The risk is accentuated given 
        the global underpinnings of our economic structure. Even a 
        small-scale terrorist attack against a lower tier provider in a 
        distant land can have wide-ranging and pervasive economic 
        implications.

    Given the evolving understanding of terrorist's use of global 
processes, the Partnership to Defeat Terrorism was created to intercede 
on behalf of combatant commanders, among others, and positively affect 
outcomes through connections with the private sector. Since November 
2001, the Partnership to Defeat Terrorism has successfully combined 
private sector global processes with other elements of national power 
to help fight global terrorism as part of USSTRATCOM's global mission 
responsibilities. This fruitful relationship with the private sector 
has proven effective on a number of occasions and has garnered the 
support of influential leaders both within and outside government.
    Yet, the Partnership to Defeat Terrorism is somewhat of an ad hoc 
process based on trusted relationships. As such, the value of the 
program is directly related to the availability of the participants. 
USSTRATCOM was recently contacted by a group of people from various 
non-military sectors, advocating the creation of a working group to 
formalize this ad hoc program to begin planning a more permanent 
approach for the long-term.
    Evolving plans call for the establishment of a Global Innovation 
and Strategy Center, which will serve as an independent headquarters 
for the work of the Partnership to Defeat Terrorism. When fully 
operational, the Global Innovation and Strategy Center will be able to 
access on-site and public/private sector experts to conduct rapid 
analysis of national security situations. The center will also have 
access to a wide range of available technologies to assist in the 
development of strategies incorporating capabilities well in excess of 
those of the military alone.
    On a strategic level, the value of such an effort is the open 
realization that all elements of national power, which have not 
traditionally operated in a synchronized and coordinated role in 
national security, understand the urgent need for their involvement.
    Full realization of the benefits inherent in the distributed, 
interdependent organizational structure described above requires an 
effective collaborative operation. A true collaborative environment 
provides us the asymmetric advantage necessary to deter and defeat the 
agile adversaries we face in the 21st century environment. In the 
future, these skills will take on even greater importance as we broaden 
our partner base within the U.S. Government, with coalition partners, 
commercial partners, academia and others, including non-government 
organizations.
                   achieving the strategic imperative
    Agile, responsive distributed operations, enabled by meaningful 
information exchange, shared objectives, and shared situational 
awareness, are key to the successful performance of USSTRATCOM's global 
missions. We have assessed the capability gaps in our global mission 
areas and have developed action plans, working with our partner 
commands, to improve our collective ability to carry out operations at 
all levels.
    USSTRATCOM's strategy is focused on:

        <bullet> Stewardship of the strategic nuclear stockpile;
        <bullet> Defending against asymmetric approaches used by our 
        adversaries, including weapons of mass destruction;
        <bullet> Responding effectively in a rapidly changing combat 
        operations environment;
        <bullet> Achieving prompt, predictable precision operations; 
        and
        <bullet> Coordinating with U.S., multinational, interagency, 
        and private sector partners in a collaborative environment.

    Implementing this strategy relies on new and enhanced capabilities, 
including:

        <bullet> Dominant situational awareness;
        <bullet> A ubiquitous, assured, global information environment;
        <bullet> Dynamic, persistent, trustworthy collaborative 
        planning;
        <bullet> User Defined Operating Pictures, using distributed, 
        globally available information, and;
        <bullet> A culture that embraces ``need to share'' rather than 
        ``need to know.''

    We are not there yet. Working with our partner commands, we have 
developed plans to improve our global capabilities. We need your 
continued support to deliver the capabilities needed to combat the 
threats of the 21st century. We need your support for:

        <bullet> Pursuit of high capacity, internet-like capability to 
        extend the Global Information Grid to deployed/mobile users 
        worldwide;
        <bullet> Adoption of data tagging standards and information 
        assurance policies to increase government-wide trusted 
        information sharing; and
        <bullet> Technology experiments to enhance our understanding of 
        the value of accuracy and stressing environments for current 
        and future weapons.

    Finally, as an element of our role as steward of the Nation's 
strategic nuclear capabilities, we need you to:

        <bullet> Consider a new national dialogue on nuclear policy. 
        This Nation is ready for a genuine policy debate on the role of 
        nuclear weapons within the context of the current global 
        environment and the potential offered by The New Triad concept. 
        We must build a long-term nuclear investment plan suited to 
        national security goals.

    USSTRATCOM recognizes what has to be done to be a global command in 
support of the warfighter. We are aggressively moving out on actions to 
ensure USSTRATCOM fulfills our full set of global responsibilities, 
supporting our national security needs in peace and in war.
    Thank you for your continued support.

    Senator Sessions. General Cartwright, with regard to 
STRATCOM's relationship then to, say, General Abizaid or a 
combatant commander, how do you see that? Will you state that 
again?
    General Cartwright. The way I see that relationship and the 
way I have articulated that relationship is I am trying to 
provide and will provide to General Abizaid, the commander of 
Central Command (CENTCOM), or any other regional commander, 
global capabilities so that that particular commander, in the 
case of General Abizaid, has a set of global skills, things 
like space, global ISR, missile defense, that he can use in his 
region to apply.
    To me that's what's different about STRATCOM today and 
that's what's different about the context in which STRATCOM 
operates today. We have, through the Nuclear Posture Review 
(NPR), a new triad which acknowledges the values of offense, 
defense, and infrastructure and tries to balance those legs 
such that the threats of today, the threats that we can imagine 
for tomorrow, we have the opportunity by adjusting those 
balances to adapt to a changing world.
    It is a reality that this world is going to change and it 
is probably going to change at a rate that is more significant 
than it has in the past. So the triad gives us that vehicle by 
which we can address those changes.
    Underpinning that triad, or part and parcel to it, is 
command and control, the ability to connect these three legs, 
understand the balances, and provide to, say, General Abizaid, 
the skills, the capabilities, let us say ISR or network 
warfare, to provide those skills and the command and control 
necessary to actually use these capabilities that we are trying 
to put together.
    So the world and the approach to the threat has definitely 
changed. Around that triad at STRATCOM we have built a set of 
commands that represent each of these mission areas. They are 
called functional commands, joint functional component 
commands. These are commands that provide these skills, whether 
it be integrated missile defense, or whether it be ISR. They 
are to provide those to the regional combatant commanders.
    They are all connected. So if General Abizaid needs 
assistance in ISR and he comes to my commander for ISR, he also 
gets the space component, he gets the missile defense 
component. He gets all of the pieces, no matter where he enters 
into our capability. That is the approach here, a holistic 
approach to try to understand this complex threat and provide 
to a regional combatant commander those kinds of capabilities.
    So that is what is fundamentally different at STRATCOM.
    Senator Bill Nelson. Mr. Chairman, if I could just 
interject here?
    Senator Sessions. Yes.
    Senator Bill Nelson. So one of the things that you are 
telling us is that your assets in space have to be reliable. 
You have to know that they are there, they are working, and 
that an enemy cannot take them out. Is that correct?
    General Cartwright. I would add to reliable, assured. They 
have to be there. They have to be in a configuration that a 
regional combatant commander can count on them, whether it be 
in position, timing and navigation, or in communications or any 
of the other capabilities that we currently have in space. We 
have to have them in a position where they are assured and can 
be provided to a regional combatant commander and he can count 
on the effects that they will deliver.
    Senator Bill Nelson. Now, you almost used in the same 
breath the example of space assets as one component and missile 
defense as the other component. But the National Missile 
Defense System, that is not to the point that a combatant 
commander could rely on that, is it?
    General Cartwright. Clearly, the emerging national missile 
defense, the system that is there to protect the United States, 
is a an emerging, developing capability that we are working our 
way through. But its ties to sensors in space, its ties to 
terrestrial sensors, are all there today and available to, say, 
a regional combatant commander to be used and leveraged. Maybe 
not for missile defense, but again this sensor in one minute 
can be used for missile defense, the sensor in the next minute 
could be used for ISR, radar surveillance, et cetera.
    So how you use the sensor is what we are there to try to 
leverage in more than one way. To build a sensor for a single 
function today is probably less than optimal. You would like to 
be able to build sensors, in particular in this discussion, so 
that missile defense could use it, so that space surveillance 
could use it, so that a regional combatant commander could use 
it for his warfighting requirements.
    So how we do that is what STRATCOM is trying to pull 
together in networking these capabilities in ways that are 
available to the regional combatant commander.
    Let me finish with three points of leverage that I think 
are out there that are areas that we are pursuing to try to 
build this capability for the regional combatant commanders. 
The first is the concept of precision. We have seen over the 
last 10 to 15 years the value that precision brought to our 
conventional forces, weapons like Joint Direct Attack Munitions 
(JDAMs) and laser-guided bombs and things like that.
    Precision has an intrinsic quality of being able to, one, 
define what it is, the effect that you would like to create on 
an enemy's capability; two, to focus it so that you can 
actually provide it in a way that does not require multiple 
delivery vehicles, multiple sensors, multiple warheads. If you 
can get to a point in precision--there is a very clear knee in 
the curve where you can start to have a direct effect on your 
inventory, whether that be of sensors, whether it be delivery 
platforms, or warheads.
    To me, we have to go explore this and understand where 
those leverage points are and make sure that we are applying 
them across the entire set of delivery capabilities that we 
have in the strategic side of the equation.
    That precision also has to go to the issue of intelligence, 
because having the weapons without the precise intelligence is 
a mismatch. We have to try to work on the intelligence and 
approaching intelligence in a fundamentally different way, a 
more holistic way, to try to get at more precise intelligence 
so that weapon-to-target and delivery and sensor all come 
together in a way that is the most effective way that we can 
put it against an adversary.
    The second piece of leverage or point of leverage that I 
think we have to consider is the one that connects the triad to 
the infrastructure. Ambassador Brooks and I have spent a 
considerable amount of time both in analysis, in tabletops and 
exercises trying to understand, as was highlighted in the 
opening comments, what does ``responsive'' mean. What does it 
bring to us, how can we best leverage it so that the Nation 
particularly can be ready for what it does not expect, because 
the world is going to change, that it can recover from what it 
does not expect.
    From a ground perspective, we have an old saying that 
basically no good plan survives first contact. We are going to 
be surprised. There are going to be things that emerge that we 
did not count on. What is our ability to react to that, not 
only to the human dimension of training an individual soldier, 
sailor, airman, or marine to be able to respond to the unknown, 
but to set the entire enterprise on a footing that makes sense 
and allows us to be responsive to emerging threats that we did 
not plan on?
    So that is an attribute of the infrastructure that the two 
of us have spent a great deal of time trying to understand. We 
do not have the exact answers yet, but we are starting to close 
in on what we think are the key leverage points in the 
infrastructure piece and how that relates to the defensive leg 
and the offensive leg. I think that is going to be important 
and I would like to go into that in more detail in the closed 
session.
    The last point that I would touch on, which we talked about 
a little bit here, is the precision and the fundamental change 
in how we do planning. Once again the word ``responsive'' comes 
up. Can we do planning in a responsive way and have the 
precision in our intelligence, have the precision in our 
targeting? We have worked hard to change the way we do our 
planning, to make it more holistic, to make our planning 
reflect that the world is complicated, that the systems that we 
are working against are complicated, and they should be looked 
at as systems of systems and architectures rather than 
individual targets, and to understand that in a complex way.
    We have done a very good job in working against 
infrastructure type targets and understanding the relationships 
of, say, a power grid and how a power grid is put together, and 
that it is probably not necessary to aim at each and every 
element of that grid. We are expanding that work now into a 
much broader target set, to understand the interrelationships. 
That, too, can have a significant effect on the infrastructure 
side of the equation, as well as on the delivery side of the 
equation.
    To me, this is going to be important work that we are going 
to embark on. We are doing this in conjunction with Joint 
Forces Command to get a more holistic approach at how we 
develop targeting and how we employ precise munitions and 
precise intelligence.
    With that, I stand ready for your questions, sir.
    Senator Sessions. Thank you.
    Senator Bill Nelson. Mr. Chairman, a family from my State 
of Florida is being honored starting at 3 o'clock with the 
first presentation of the first Congressional Medal of Honor 
posthumously to a sergeant that lived in Tampa. So, with your 
permission, I am going to go on down there so that I can be 
with that family at the White House while that presentation is 
made.
    If I may, in my absence if you would just see that a couple 
of those issues that I brought up in my opening comments would 
be addressed for the record.
    Senator Sessions. I will definitely do that, and I know you 
have to be there for that and I know you want to be there for 
that, because I know how deeply you care about those soldiers 
who defend our interests throughout the world. It is a great 
honor. So we thank you for that.
    Ambassador Brooks, you are the Administrator of the NNSA 
and Under Secretary of Energy. So we would be glad to hear your 
comments at this time.

  STATEMENT OF HON. LINTON F. BROOKS, ADMINISTRATOR, NATIONAL 
 NUCLEAR SECURITY ADMINISTRATION, AND UNDER SECRETARY OF ENERGY

    Ambassador Brooks. Thank you very much, Mr. Chairman.
    I have submitted a statement for the record and I would 
like to summarize just a few of the key points from that 
statement if I may.
    Senator Sessions. If you would, please.
    Ambassador Brooks. I would like to talk about the 
administration's emerging vision for the nuclear weapons 
enterprise, both the stockpile and the complex for the future, 
and how we hope to get to that vision. But before I do, I want 
to emphasize that stockpile stewardship, which you referred to 
in your opening statement, is working. I am confident that 
today's stockpile is safe and reliable and I am confident that 
there is no near-term requirement for nuclear tests. Last month 
the Secretary of Energy and the Secretary of Defense (SECDEF) 
reaffirmed this judgment in reporting to the President their 
ninth annual assessment of the safety and reliability of the 
stockpile.
    Still, if we were starting to build that stockpile today we 
would probably take a different approach than we took during 
the Cold War. The legacy stockpile we have inherited from the 
Cold War may not be the most appropriate from a number of 
perspectives.
    First, it may not be the right stockpile technically. Most 
of our current warheads were designed to maximize explosive 
yield while minimizing size and weight. We did this so we could 
put the maximum number of warheads on a delivery vehicle. This 
was the most cost effective way to meet Cold War military 
requirements.
    As a result, we designed these systems very close to 
performance cliffs, and we were not terribly worried about that 
because we were in an era where we were continually gaining new 
knowledge from an ongoing nuclear test program. If we were 
designing the same stockpile for the same mission today with a 
test moratorium, with a force in which most delivery systems 
will carry fewer warheads than their maximum capability, we 
would manage the technical design risk differently.
    The second technical problem is that our stockpile was not 
designed for longevity. It was designed at a time when we 
introduced new weapons and we turned over weapons every 15 to 
20 years. Today our stockpile is being rebuilt and having its 
life extended in fairly difficult and costly life extension 
programs.
    Now, no one will suggest that rebuilding nuclear weapons 
will ever be cheap, but decisions taken during the Cold War to 
use certain specialized materials make the life extension 
program more costly and more difficult than it would be if we 
were starting from scratch today. More broadly, when we 
designed these weapons we did not have as one of our criteria 
minimizing costs over the entire life cycle of the warhead.
    Now, as a result of these decisions, which made perfect 
sense during the Cold War, it is becoming more difficult and 
more costly to certify remanufacture, despite the extraordinary 
success of the Stockpile Stewardship Program. The inevitable 
accumulation of small changes over the lifetime of these 
systems will increase uncertainty in long-term weapons 
performance. So we believe that we need to gradually over the 
next decade, 2 decades, shift from today's strategy of 
certifying what we build to a strategy of building things we 
know we can certify and we know we can do so without nuclear 
testing.
    Now, the stockpile we inherited from the Cold War may not 
be the right stockpile militarily, either. This is much more in 
General Cartwright's area than mine, but the NPR identified a 
number of capabilities shortfalls. Our yields are probably too 
high, we have no capability against hard and deeply buried 
targets, our systems are unsuited for some specialized 
missions.
    Now, we do not know when, if ever, the Nation will decide 
that it needs new capabilities. Other than to request 
completing this modest research and development effort on the 
RNEP, we are not investigating any capability changes. Still, 
we need to maintain the capability to respond to potential 
future requirements.
    The stockpile we now plan for the coming decade may also be 
the wrong one from a policy perspective. It is probably still 
too large, even after the President's extraordinarily bold 
decision last May to make one of the largest reductions in the 
total deployed stockpile ever made, total active stockpile ever 
made. Until we achieve a responsive nuclear weapons 
infrastructure, we are going to have to retain substantial non-
deployed warheads to hedge against technical failure of a 
critical system or to hedge against unforeseen geopolitical 
changes. But that is not the best long-term answer.
    Finally, today's stockpile may not be optimal from a 
physical security standpoint. The Cold War threat was people 
trying to steal secrets. In the post-September 11 world, we 
increasingly realize that there is a terrorist threat, the 
terrorist threat of individuals willing to die in order to gain 
access to a warhead and detonate it in place. This has 
dramatically increased our security costs, and if we were 
designing the stockpile today we would look at new approaches 
to warhead-level use control to reduce these costs.
    So today's stockpile may not be the stockpile you want to 
have 20 years from now. Whatever you think of that, today's 
nuclear weapons complex is certainly not the responsive 
infrastructure we want over the long term. A responsive 
infrastructure would be able to deal with unanticipated events 
or emerging threats and would let us anticipate innovations by 
an adversary and counter them before our deterrent is degraded.
    Our current infrastructure is not responsive. We had over 
the past decade a nearly complete halt to nuclear weapons 
modernization. We have in the past underfunded key elements of 
our manufacturing complex, and those actions have taken their 
toll. For example, we cannot produce plutonium parts for 
nuclear weapons and have not been able to do so for 15 years.
    But we are making progress. We restored tritium production 
in the fall of 2003. We will have the Tritium Extraction 
Facility on line in time to meet the needs of the stockpile. We 
are restoring some lost production capabilities. We are 
devoting substantial resources to restoring facilities that 
suffered from years of deferred maintenance.
    Much remains to be done and we need the continued support 
of Congress. We have to achieve the scientific goals of 
stewardship, continue to revitalize our facilities and 
infrastructure, plan for and construct a modern pit facility 
(MPF) so that we are no longer the only nuclear power that 
cannot make plutonium pits, strengthen test readiness, and 
transfer knowledge to the next generation of weapons 
scientists.
    But we also need to begin to transform to a smaller, less 
costly, more easily secured, safe and reliable stockpile and we 
need to transform the infrastructure that supports that 
stockpile. Part of that transformation will be to retain the 
capability to provide new or different military capabilities 
that the Department of Defense (DOD) requires. But 
transformation is more than that. Even if everybody in this 
room were absolutely convinced that we would never need a 
capability that we do not have today, the need to ensure the 
safety, security, and reliability of the legacy stockpile over 
the long term would still require us to transform, and concerns 
about responsiveness would mandate transformation of the 
weapons complex.
    Now, these two are intertwined. If the stockpile can be 
transformed so it is easier to maintain, then a responsive 
infrastructure becomes easier to construct, and a responsive 
infrastructure is essential to reduce stockpile numbers so that 
we maintain our hedge in the infrastructure rather than in non-
deployed weapons.
    We are beginning, with the support of Congress, a program 
mentioned in both yours and the ranking member's opening 
statements, the Reliable Replacement Warhead, that may--we are 
at the very early stages--help enable the transformation we 
seek. We will look under this program at whether, if we relax 
some of the design constraints imposed on Cold War systems, we 
can provide replacements for existing weapons that can be more 
easily manufactured, with more readily available and more 
environmentally benign materials.
    Now, these warheads would be delivered by existing systems 
and would have the same military capabilities as the legacy 
warheads they replace. But because they would be designed for 
ease of certification and would be less sensitive to 
incremental aging effects, they would reduce the possibility 
that the United States would ever need to conduct a nuclear 
test in order to diagnose or remedy a reliability problem.
    So the answer to Senator Nelson's question is not only is 
the Reliable Replacement Warhead program not designed to foster 
a return to nuclear testing, it is probably our best hedge 
against the need some time in the future to be faced with the 
question of a return.
    There is another reason why we ought to start this 
transformation now. We have not developed and fielded a new 
warhead in 20 years and we have not modified a warhead in 
nearly 10. We are losing expertise. We need to train the next 
generation of nuclear weapons designers and engineers before 
the last generation retires. Otherwise, we will place at risk 
our ability for stockpile stewardship in the future.
    This kind of training cannot be done except in real design 
work. The enabler for this transformation, as I said earlier, 
is the Reliable Replacement Warhead program. We will use the 
funds Congress provided last year and those requested this year 
to begin concept and feasibility studies on replacement 
warheads or warhead components that provide comparable military 
capabilities to existing warheads. If those studies suggest the 
concept is feasible, then perhaps by 2012, 2015, we should be 
able to demonstrate through a small build of warheads that a 
Reliable Replacement Warhead can be manufactured and certified 
without nuclear testing.
    Once that capability is demonstrated, then the United 
States will have several opportunities. We will have the option 
to cease some of the planned life extension programs, apply the 
savings from the reduced life extension workload to transform 
to a stockpile that is easier and less costly to manufacture, 
and use stockpile transformation to drive a shift to a more 
responsive infrastructure.
    We should not underestimate the very complex challenge this 
kind of transformation will involve. We are transforming an 
enterprise while it is operating at close to full capacity with 
warhead life extension programs. But I believe we need to 
begin.
    If we can establish a responsive infrastructure and 
demonstrate we can produce replacement warheads on the same 
time scale in which geopolitical threats emerge, and if we can 
demonstrate that we can respond quickly to technical problems, 
then I believe we can go much further in reducing non-deployed 
warheads in order to meet the President's stated vision of the 
smallest stockpile consistent with our Nation's system 
requirements.
    Success in realizing our vision for transformation should 
let us achieve a smaller, safer, more secure stockpile, one 
that offers a reduced likelihood that we will ever need to test 
again, one that reduces ownership costs, one that enables a 
much more responsive nuclear infrastructure, and one that helps 
ensure that we maintain a credible deterrent well into the 21st 
century.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Ambassador Brooks follows:]
           Prepared Statement by Ambassador Linton F. Brooks
                              introduction
    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss nuclear weapons programs and policies. I look forward 
to working with you in this new area of responsibility. I also want to 
thank all of the members for their strong support for critical national 
security activities. Before I begin my remarks, I want to say how 
pleased I am to be on this panel today with my colleague, Gen. James E. 
Cartwright, Commander of United States Strategic Command (USSTRATCOM), 
who will present the military perspective on these issues.
    Today, I will discuss with you the administration's emerging vision 
for the nuclear weapons enterprise of the future, and the initial steps 
we will be taking, with your support, to realize that vision. This 
vision derives from the work of the Nuclear Posture Review (NPR), the 
August 2003 Conference at Strategic Command, the follow-on NPR 
Strategic Capabilities Assessment and related work on a responsive 
nuclear infrastructure--key elements of which are addressed in Acting 
Assistant Secretary of Defense Mira Ricardel's written statement 
submitted for the record. The Nuclear Weapons Complex Infrastructure 
study, currently underway and scheduled to be completed this summer, 
will further refine this vision. I should add that Gen. Cartwright and 
the Directors at our three National Laboratories have provided both 
leadership and creative impetus to this entire effort.
    The NPR has resulted in a number of conceptual breakthroughs in our 
thinking about nuclear forces--breakthroughs that have enabled concrete 
first steps in the transformation of our nuclear forces and 
capabilities. The recognition of a more dynamic and uncertain 
geopolitical threat environment but one in which Russia does not pose 
an immediate threat, the broad reassessment of the defense goals that 
we want nuclear forces to serve, and the evolution from a threat-based 
to a capabilities-based nuclear force have enabled substantial 
reductions in operationally-deployed strategic warheads through 2012 as 
reflected in the Moscow Treaty. This has also led to the deep 
reduction, directed by the President last May, in the total nuclear 
weapons stockpile required to support operationally-deployed forces. By 
2012 the stockpile will be reduced by nearly one-half from the level it 
was at the time this administration took office, resulting in the 
smallest nuclear stockpile in decades. This represents a factor of four 
reduction in the stockpile since the end of the Cold War.
    Very importantly, the NPR articulated the critical role of the 
defense research and development (R&D) and manufacturing base, of which 
a responsive nuclear weapons infrastructure is a key element, in the 
New Triad of strategic capabilities. We have worked closely with the 
Department of Defense (DOD) to identify initial steps on the path to a 
responsive nuclear infrastructure and are beginning to implement them.
    Building on this progress, I want to address the current state of 
our thinking about the characteristics of the future nuclear weapons 
stockpile and supporting nuclear infrastructure. Specifically, I will 
address three key questions:

        <bullet> What are the limitations of today's stockpile and 
        nuclear infrastructure?
        <bullet> Where do we want the stockpile and infrastructure to 
        be in 2030?
        <bullet> What's the path to get there?

    In laying out these ideas, the administration hopes to foster a 
more comprehensive dialog with Congress on the future nuclear posture. 
I must first emphasize, however, that today stockpile stewardship is 
working, we are confident that the stockpile is safe and reliable, and 
there is no requirement at this time for nuclear tests. Indeed, just 
last month, the Secretary of Energy and Secretary of Defense (SECDEF) 
reaffirmed this judgment in reporting to the President their ninth 
annual assessment of the safety and reliability of the U.S. nuclear 
weapons stockpile. Like the eight certifications that preceded it, this 
year's assessment is based on a collective judgment of the Directors of 
our National Laboratories and of the Commander, USSTRATCOM, the 
principal steward of our nuclear forces. Our assessment derives from 10 
years of experience with science-based stockpile stewardship, from 
extensive surveillance, from the use of both experiments and 
computation, and from professional judgment.
       what are the limitations of today's stockpile and nuclear 
                            infrastructure?
    Although nuclear weapons issues are usually contentious, I believe 
that most would agree that if we were starting to build the stockpile 
from scratch today we would take a much different approach than we took 
during the Cold War. Indeed, today's Cold War legacy stockpile is the 
wrong stockpile from a number of perspectives. Let me explain.
    First, today's stockpile is the wrong stockpile technically. Most 
current warheads were designed to maximize explosive yield with minimum 
size and weight so that many warheads could be carried on a single 
delivery vehicle. During the Cold War, this resulted in the most cost 
effective approach to meet then existing military requirements. As a 
result, our weapons designers, in managing risk during a period when we 
used nuclear tests as part of the tool kit to maintain confidence, 
designed closer to the so-called ``cliffs'' in performance. If we were 
designing the stockpile today under a test moratorium and to support an 
operationally-deployed force in which most delivery systems will carry 
many fewer warheads than the maximum capacity, we would manage 
technical risk differently, for example, by ``trading'' size and weight 
for increased performance margins, system longevity, and ease of 
manufacture.
    Second, the legacy stockpile was not designed for longevity. During 
the Cold War we introduced new weapons into the stockpile routinely and 
``turned over'' most of the stockpile every 15-20 years exploiting an 
enormous production capacity. Today, our weapons are aging and now are 
being rebuilt in life extension programs that are both difficult and 
costly. Rebuilding nuclear weapons will never be cheap, but decisions 
taken during the Cold War forced the use of certain hazardous materials 
that, in today's health and safety culture, cause warheads to be much 
more costly to remanufacture. Maintaining the capability to produce 
these materials causes the supporting infrastructure to be larger and 
more costly than it might otherwise be.
    More broadly, our nuclear warheads were not designed with priority 
to minimize overall demands on the nuclear weapons enterprise; that is, 
to minimize DOE and DOD costs over the entire life cycle of the warhead 
which includes design, development, production, certification, 
surveillance, deployment, life extension, retirement, and 
dismantlement.
    As a result of these collective decisions, it is becoming more 
difficult and costly to certify warhead remanufacture. The evolution 
away from tested designs resulting from the inevitable accumulations of 
small changes over the extended lifetimes of these systems means that 
we can count on increasing uncertainty in the long-term certification 
of warheads in the stockpile. To address this problem, we must evolve 
our strategy from today's ``certify what we build'' to tomorrow's 
``build what we can certify.''
    The Cold War legacy stockpile may also be the wrong stockpile from 
a military perspective. The NPR identified a number of capabilities 
shortfalls in the existing arsenal that could undermine deterrence in 
the future. Specifically, the NPR suggested that current explosive 
yields are too high, that our systems are not capable against hard and 
deeply buried targets, that they do not lend themselves to reduced 
collateral damage and that they are unsuited for defeat of biological 
and chemical munitions. The designs of the past do not make full use of 
new precision guidance technologies from which our conventional systems 
have fully benefited, nor are they geared for small-scale strikes or 
flexibility in command, control and delivery. We do not know when, if 
ever, we will need to field new capabilities to deal with these 
shortfalls. Nonetheless, it is vital that we maintain the capability to 
respond to potential future requirements.
    The stockpile we plan for in 2012 is the wrong stockpile 
politically because it is probably still too large. The President's 
decision last May to reduce the stockpile significantly was taken in 
the context of continued progress in creating a responsive nuclear 
weapons infrastructure as part of the New Triad of strategic 
capabilities called for in the NPR. But we have a ways to go to get 
there. Until we achieve this responsive infrastructure, we will need to 
retain a substantial number of non-deployed warheads to hedge against a 
technical failure of a critical warhead or delivery system, or against 
unforeseen geopolitical changes. Because operationally-deployed forces 
are dominated by two weapons types--the W76 SLBM warhead and the W80 
cruise missile warhead--we are particularly sensitive to technical 
problems involving these systems. We retain ``hedge'' warheads in large 
part due to the inability of either today's nuclear infrastructure, or 
the infrastructure we expect to have when the stockpile reductions are 
fully implemented in 2012, to manufacture, in a timely way, warheads 
for replacement or for force augmentation, or to act to correct 
unexpected technical problems. Establishing a responsive nuclear 
infrastructure will provide opportunities for additional stockpile 
reductions because we can rely less on the stockpile and more on 
infrastructure (i.e., ability to produce or repair warheads in 
sufficient quantity in a timely way) in responding to technical 
failures or new or emerging threats.
    Finally, today's stockpile is the wrong stockpile from a physical 
security standpoint. During the Cold War the main security threat to 
our nuclear forces was from spies trying to steal our secrets. Today, 
the threat to classified material remains, but to it has been added a 
post-September 11 terrorist threat that is difficult and costly to 
counter. We now must consider the distinct possibility of well-armed 
and competent terrorist suicide teams seeking to gain access to a 
warhead in order to detonate it in place. This has driven our site 
security posture from one of ``containment and recovery'' of stolen 
warheads to one of ``denial of any access'' to warheads. This change 
has dramatically increased security costs for ``gates, guns, guards'' 
at our nuclear weapons sites. If we were designing the stockpile today, 
we would apply new technologies and approaches to warhead-level use 
control as a means to reduce physical security costs.
    Let me turn to issues of the nuclear weapons infrastructure. By 
``responsive'' nuclear infrastructure we refer to the resilience of the 
nuclear enterprise to unanticipated events or emerging threats, and the 
ability to anticipate innovations by an adversary and to counter them 
before our deterrent is degraded. The elements of a responsive 
infrastructure include the people, the science and technology base, and 
the facilities and equipment needed to support a right-sized nuclear 
weapons enterprise. But more than that, a responsive infrastructure 
involves practical and streamlined business practices that will enable 
us to respond rapidly and flexibly to emerging DOD needs.
    Our current infrastructure is by no means responsive. A nearly 
complete halt in nuclear weapons modernization over the past decade, 
coupled with past under funding of key elements of our manufacturing 
complex has taken a toll on our ability to be responsive. For example, 
we have been unable to produce certain critical parts for nuclear 
weapons (e.g., plutonium parts) for many years. Today's business 
practices--for example, the paperwork and procedures by which we 
authorize potentially hazardous activities at our labs and plants--are 
unwieldy. But progress is being made. We restored tritium production in 
the fall 2003 with the irradiation of special fuel rods in a TVA 
reactor, and anticipate that we will have a tritium extraction facility 
on-line in time to meet the tritium needs of a reduced stockpile. We 
are restoring some lost production capabilities, and modernizing 
others, so that later this decade we can meet the scheduled startups of 
refurbishment programs to extend the life of three warheads in the 
legacy stockpile. We are devoting substantial resources to restoring 
facilities that had suffered from years of deferred maintenance. 
Finally, we have identified quantitative metrics for 
``responsiveness,'' that is, timelines to address stockpile problems or 
deal with new or emerging threats. These will help guide our program by 
turning the concept of responsiveness into a measurable reality.
    That said, much remains to be done. Among other things, we must 
achieve the scientific goals of stockpile stewardship, continue 
facilities and infrastructure recapitalization at National Nuclear 
Security Administration's (NNSA) labs and plants, construct a Modern 
Pit Facility (MPF) to restore plutonium pit production, strengthen test 
readiness, streamline business practices, and transfer knowledge to the 
next generation of weapons scientists and engineers who will populate 
this responsive infrastructure. Our challenge is to find ways to carry 
this out that reduce duplication of effort, support consolidation of 
facilities and promote more efficient operations complex-wide. I want 
to stress the importance of a MPF even if the stockpile continues to 
shrink--sooner or later the effects of plutonium aging will require all 
our current pits to be remanufactured.
    where do we want the stockpile and infrastructure to be in 2030?
    Although the legacy stockpile has served us well, it was designed 
to meet the requirements of the Cold War era, many of which are 
irrelevant or inadequate today. We need to begin now to transform to 
the nuclear weapons enterprise of the future--this means transformation 
to a smaller, less costly, more easily secured, safe and reliable 
stockpile as well as transformation of the supporting nuclear 
infrastructure. The two are, of course, intertwined--we see stockpile 
transformation as ``enabling'' transformation to a responsive nuclear 
infrastructure, and a responsive infrastructure as essential to 
reducing total stockpile numbers and associated costs.
    Part of transformation will be to retain the ability to provide new 
or different military capabilities in response to DOD's emerging needs. 
General Cartwright will discuss this aspect of transformation in more 
detail in his testimony.
    But transformation involves more than retaining the capability to 
respond to new military requirements. My main responsibility is to 
assure the continued safety, security and reliability of the nuclear 
weapons stockpile. In this regard, even if we never received another 
DOD requirement for a new military capability for the nuclear 
stockpile, the concerns raised about our ability to assure the safety, 
security and reliability of the legacy stockpile over the very long 
term would still drive the need to transform the stockpile. The 
concerns about responsiveness to technical problems or geopolitical 
change would still mandate transformation of the weapons complex.
    More broadly, we must explore whether there is a better way to 
sustain existing military capabilities in our stockpile absent nuclear 
testing. With the support of Congress, we are beginning a program--the 
Reliable Replacement Warhead (RRW) program--to understand whether, if 
we relaxed warhead design constraints imposed on Cold War systems (that 
have typically driven ``tight'' performance margins in nuclear design) 
we could provide replacements for existing stockpile weapons that could 
be more easily manufactured with more readily available and more 
environmentally benign materials, and whose safety and reliability 
could be assured with highest confidence, without nuclear testing, for 
as long as the United States requires nuclear forces. Such warheads 
would be designed specifically to facilitate less costly remanufacture 
and ease of certification of safety and reliability, and thus would 
reduce infrastructure costs needed to support that component of the 
stockpile. Because they would be designed to be less sensitive to 
incremental aging effects, they would dramatically reduce the 
possibility that the United States would ever be faced with a need to 
conduct a nuclear test in order to diagnose or remedy a reliability 
problem.
    There is another reason why it is critical that we begin now to 
transform the stockpile. We have not developed and fielded a new 
warhead in 20 years, nor have we modified a warhead in nearly 10 years. 
We are losing expertise. We must train the next generation of nuclear 
weapons designers and engineers before the last generation, which honed 
its skills on nuclear testing, retires. If such training--and I cannot 
emphasize this strongly enough--is disconnected from real design work 
that leads to engineered systems, we will, as one laboratory director 
put it, ``create not a new generation of weapons designers and 
engineers but a generation of analysts'' who may understand the theory, 
but not the practice, of warhead development. If that happens, it would 
place at risk our capabilities for stockpile stewardship in the future.
    Along these lines, as part of the transformation of the stockpile, 
we must preserve the ability to produce weapons with new or modified 
military capabilities if this is required in the future. Currently the 
DOD has identified no requirements for such weapons, but our experience 
suggests that we are not always able to predict our future 
requirements. The chief implication is that we must maintain design 
capability for efforts like those being carried out in the RRW program 
but also as a hedge against possible future requirements for new 
capabilities.
                     what's the path to get there?
    Let me briefly describe the broad conceptual approach for stockpile 
and infrastructure transformation. The ``enabler'' for such 
transformation, we believe, is the RRW program. To establish the 
feasibility of the RRW concept, we will use the funds provided by 
Congress last year and those requested this year to begin concept and 
feasibility studies on replacement warheads or warhead components that 
provide the same or comparable military capabilities as existing 
warheads in the stockpile. If those studies suggest the RRW concept is 
technically feasible, and if, as I expect, the DOD establishes a 
requirement, we should be able to develop and produce by the 2012-15 
timeframe a small build of warheads in order to demonstrate that an RRW 
system can be manufactured and certified without nuclear testing.
    Once that capability is demonstrated, the United States will have 
the option to:

        <bullet> truncate or cease some ongoing life extension programs 
        for the legacy stockpile,
        <bullet> apply the savings from the reduced life extension 
        workload to begin to transform to a stockpile with a 
        substantial RRW component that is both easier and less costly 
        to manufacture and certify, and
        <bullet> use stockpile transformation to enable and drive 
        consolidation to a more responsive infrastructure.

    We should not underestimate the very complex challenge of 
transforming the enterprise while it is operating at close to full 
capacity with on-going warhead life extension programs and potential 
evolving requirements. As a result, as we proceed down this path, we 
will look for opportunities to restructure key life extension programs 
to provide more ``head room'' for transformation. This could also 
provide, in the nearer term, opportunities to ensure appropriate 
diversity in the stockpile, making our nuclear deterrent less sensitive 
to single-point failure of a particular warhead or delivery system.
    Once we establish a responsive infrastructure, and demonstrate that 
we can produce new (or replacement) warheads on a timescale in which 
geopolitical threats could emerge, and can respond in a timely way to 
technical problems in the stockpile, then we can go much further in 
reducing non-deployed warheads and meet the President's vision of the 
smallest stockpile consistent with our Nation's security.
    Success in realizing our vision for transformation will enable us 
to achieve over the long term a smaller stockpile, one that is safer 
and more secure, one that offers a reduced likelihood that we will ever 
need to test again, one that reduces NNSA and DOD ownership costs for 
nuclear forces, and one that enables a much more responsive nuclear 
infrastructure. Most importantly, this effort can go far to ensure a 
credible deterrent for the 21st century that will reduce the likelihood 
we will ever have to employ our nuclear capabilities in defense of the 
Nation.
                               conclusion
    The administration is eager to work with Congress to forge a broad 
consensus on an approach to stockpile and infrastructure 
transformation. The vision of our future nuclear weapons posture I have 
set forth today is based on the collective judgment of the Directors of 
our National Laboratories and of the Commander, USSTRATCOM. It derives 
from lessons learned from 10 years of experience with science-based 
stockpile stewardship, from many years of effort in planning for and 
carrying out the life extension programs for our legacy stockpile, and 
from coming to grips with national security needs of the 21st century 
as laid out in the NPR.
    I hope that the committee finds our vision both coherent and 
compelling. But I must emphasize that it is simply that, a long-term 
vision, nothing more and nothing less. Much of it has not yet begun to 
be implemented in program planning, or is at the very early stages of 
development. But we believe it is the right vision to guide our near 
term planning and to ensure the Nation's long-term security. I ask for 
the committee's support and leadership as we embark on the path of 
transformation.
    Thank you Mr. Chairman. I will be pleased to answer any questions.

    Senator Sessions. Thank you, Ambassador Brooks. Those were 
excellent comments and I thought you were frank and spoke in 
language that most of us can understand. Sometimes that is not 
true when we deal with these subjects.
    You indicated and suggested that the forces we have may not 
be militarily the best kind of nuclear weapons that we need, 
suggesting that some, maybe many, are too powerful, less 
surgical, I suppose, less available for multiple missions. 
General Cartwright, do you have any thought about that? If you 
had nuclear weapons available to you, would they be exactly the 
kind--if you had them available for your needs, would they be 
exactly the kind that we produced as a result of the Cold War 
situation? Or would you agree with Ambassador Brooks that it 
could be configured perhaps with even fewer, less powerful but 
more effective weapons?
    General Cartwright. I would tend to agree with Ambassador 
Brooks. We can focus both at the effect that the weapon could 
create--the target set of today and tomorrow is probably not 
going to be at least identical for sure, but it is going to be 
much more diverse. But I would also focus on the fact that if I 
were to start today with a clean slate the idea of a more 
secure weapon, a safer weapon to handle, and a weapon that had 
increased surety, such that, again in an inventory type model, 
if applied to a target you were sure it was going to work and 
you only needed to apply one weapon to that target, if that 
could be engineered in, that is the type of engineering that we 
would want to have different today than we had in the past.
    So getting the safety, getting the security, and getting 
the surety of the weapon engineered in the front end rather 
than later on would definitely be a change to the configuration 
of the weapons that we have today.
    Then, going on to the different types of targets that are 
emerging as we look at today's targets and what we expect to 
emerge in the future, we would probably design these weapons 
different than we have.
    Senator Sessions. I think you make a very good point there. 
We might as well begin to discuss it. It is a long way from 
dealing with those issues in any concrete way, but I think 
America believes in free speech and free discussion, so I think 
it is good that you have raised those questions.
    I would just note, Ambassador Brooks, that as part of the 
President's reduction in warhead program we have reduced by 
about two-thirds the number of warheads in the inventory. At 
least that is the plan, and you are moving forward to 
accomplishing that by 2012; is that correct?
    Ambassador Brooks. Yes, sir.
    Senator Sessions. That would reduce the number of 
operationally deployed strategic nuclear warheads we have, 
decommissioning them, by two-thirds, from 1,700 to 2,200 
warheads?
    Ambassador Brooks. Yes, sir.
    Senator Sessions. General Cartwright, do you think even 
with these legacy forces does that give you the kind of 
deterrent capability that STRATCOM believes is necessary to 
defend America?
    General Cartwright. It does. It allows us also, given that 
we are talking about 2012, to realize some of the value of this 
new triad called for in the NPR. So the value of a more robust 
infrastructure, the value of a defensive capability, the value 
of an offense that is more than just our nuclear capability, 
but includes the kinetic capabilities of conventional weapons 
and the non-kinetic capabilities that we intend to field, so we 
have time to both meter the downward slope of the weapons and 
the increased capabilities of the other legs.
    Senator Sessions. Would it be fair to say, Ambassador 
Brooks, that as we discuss how to improve and make more 
effective and reliable and helpful our nuclear arsenal, the 
truth is we are reducing it substantially? For those who are 
concerned about nuclear weapons, we are bringing those numbers 
down, even with any kind of changes you are discussing, 
continually, and if you could make some modernization efforts 
in the stockpile, you could take the numbers down even more?
    Ambassador Brooks. I believe that you could. First, let me 
distinguish between what is clearly what the President has 
decided and what I am suggesting to you we might----
    Senator Sessions. I think that is important. Neither this 
Congress nor the President has made any decision to make any 
changes. But I think it is healthy to discuss it.
    Ambassador Brooks. The President decided last year to make 
a substantial reduction in the total stockpile. That is both 
the deployed stockpile and the reserves, if you will. That is a 
reduction of nearly 50 percent, to be implemented by 2012. It 
will end us up with 1,700 to 2,200 operationally deployed 
strategic weapons plus a number that I will be happy to discuss 
in closed session for spares, but particularly for 
contingencies.
    So for example, if a problem occurs with a warhead, you 
would like to be able to have enough of a different type of 
warhead to deploy to take up the slack. If there is an 
unexpected change in the geopolitical situation, an increase in 
the threat, you would like to be able to match that by 
deploying more weapons.
    What I am suggesting is that right now the only way you can 
maintain those hedges is to maintain a large number of non-
deployed weapons. But if I have an infrastructure that could 
respond to technical problems by fixing them quickly and that 
could respond to geopolitical problems by remanufacturing 
whatever was needed to meet those problems, I would not need 
even the substantial reductions.
    It is important, Mr. Chairman, to understand that the 
stockpile that we will have in 2012 is the lowest stockpile the 
United States has had in decades. It will be the lowest 
stockpile that I have personally been associated with and I 
have been in the nuclear weapons business for a while now.
    Senator Sessions. In addition to just the warhead numbers, 
we will be reducing, eliminating, retiring the Peacekeeper MX 
missile.
    Ambassador Brooks. Correct.
    Senator Sessions. Which has 10 warheads per missile. We are 
maintaining the Minuteman missile, but reducing the warheads 
from three per missile to one per missile; is that the plan?
    General Cartwright. Yes, sir.
    Senator Sessions. Then the nuclear submarines with nuclear 
warheads and missiles on them, 4 of the 18 will be moved from 
nuclear weaponry. That would also reduce the number of warheads 
per missile on those submarines. So you have over a 20-percent 
reduction in the number of nuclear warhead submarines as part 
of the triad and an additional reduction in number of warheads 
per missile on those submarines.
    General Cartwright. Yes, sir.
    Senator Sessions. So I think we have demonstrated our 
Nation's willingness to bring down those numbers.
    Let me ask either of you. We urge that our Russian friends 
maintain strict security on their nuclear weapons. How do you 
feel we are doing with ours? Do you need anything, just 
briefly, to enhance the security of our stockpiles, to avoid 
terrorists perhaps either attacking them or stealing them?
    Ambassador Brooks. Most of the intact nuclear weapons are 
in the custody of the DOD. I have nuclear weapons at the Pantex 
Plant and I move nuclear weapons between the DOD and my 
facilities. The rest of what the DOE has is components, which 
are probably more of a concern for an improvised nuclear device 
than as an intact weapon.
    We have substantially increased the funding for physical 
security. In 2001 the NNSA spent about $400 million. Last year, 
the current year, we are spending $740 million. We are asking 
for $708 million in the budget that is before Congress now.
    So we have made a very substantial investment in improving 
physical security and I am quite comfortable that the weapons 
and materials in my custody or in the Department's custody are 
secure. I will defer to General Cartwright on DOD weapons.
    General Cartwright. We have reviewed the threat, updated 
the threat to understand the change in the character of the 
threat between the Cold War and now, taken the opportunity in 
that review to understand the things we would change that 
currently exist to improve our posture to protect these 
weapons. Both the Navy and the Air Force have very aggressive 
programs to improve all of the issues that we highlighted in 
our review and are on a path to fix those, update those, 
whatever the right characterization of the particular issue is, 
to get us to a footing.
    I am comfortable that we have the weapons protected and 
that we are moving to a posture that will improve that 
protection in light of the changing threat.
    Senator Sessions. That is good news and it is important and 
I think it is just something this Congress needs to assure, and 
you need the resources necessary.
    I think, General Cartwright, you answered in your comments 
as you summarized your thoughts earlier, you answered the 
question about how are we changing from strategic deterrence to 
global deterrence. I think that was something I wanted to get 
at and I think you have covered that pretty well.
    I would want to ask you a little bit more maybe about the 
New Triad. That is a little vague to me or at least I am not 
sure I fully understand it.
    But we also are moving away from solely a nuclear response. 
We have much more capability today with the precision weapons. 
How do the new precision capabilities we have to direct 
conventional weapons, non-nuclear weapons, precisely to a 
target, reduce our dependence on nuclear weapons?
    General Cartwright. To the extent--and let me just go back 
on the offensive side and talk just briefly. On the kinetic 
type weapons, we have the nuclear and then we have the 
conventional weapons. We are also developing a class of weapons 
that we call non-kinetic, that get an effect by attacking a 
network, for instance, that would control a particular 
function, like when we talked about power grids and things like 
that.
    We are developing a set of tools that allows us to go after 
targets in a non-kinetic way. They are just emerging as 
capabilities today, but we are working very hard in that 
environment.
    When we talk about nuclear versus conventional, what 
precision allows you to do is to--if you have both the precise 
intelligence and the ability to deliver a weapon to a precise 
location, then the energy required to destroy a target can be 
more focused.
    Senator Sessions. You mean a smaller bomb?
    General Cartwright. Exactly. So in the conventional world, 
as you saw years ago, we were using 2,000 pound bombs. Just as 
few as 5 years ago, we were down to 1,000 pound bombs from 
aircraft-delivered weapons. We are now in the 500 pound and 
smaller for the same effect, because of precision.
    So it has that ability to start to reduce the amount of 
kinetic energy necessary to create the effect. That is one 
positive. The other thing is this targeting, this new way of 
approaching targeting that I described, which identifies a 
target area from the standpoint of a system and how to effect 
that system with precision such that you do not have to hit 
each of the nodes in any particular system is also offering us 
leverage in the number of weapons necessary to hold a target at 
risk.
    So between the two of those, we start to get at a way to be 
much more efficient in delivering our effect, and to the extent 
that we need large-yield conventional or nuclear weapons there 
is a group of them against a set of targets that can now be 
significantly smaller if we apply this precision.
    Senator Sessions. How would you explain to us the global 
strike concept? How do you utilize that, what the President and 
the SECDEF would like to see, how are you getting along toward 
achieving it?
    General Cartwright. Global strike is one of our mission 
areas. It provides to the Nation the ability to rapidly plan 
and rapidly deliver effects anyplace on the globe. It allows us 
to provide effects for a regional combatant commander if that 
is appropriate, say in the case of CENTCOM, General Abizaid. It 
allows us to provide a strategic capability, which again is not 
necessarily nuclear, for that regional combatant commander, to 
tailor it for his target and deliver it very quickly, with very 
short time lines on the planning and delivery, any place on the 
face of the Earth.
    Senator Sessions. Is that possible? Do we have the 
technology that is available today, if you had the money, that 
you could within a short period of time deliver a conventional 
weapon anywhere in the world?
    General Cartwright. Even with the money, right now we have 
technical challenges that we have to overcome in order to get 
this capability. If we are talking about non-kinetic, we can 
move pretty much anyplace on the earth at the speed of light in 
cyber-type capabilities. But the conventional type capabilities 
and the nuclear type capabilities--nuclear right now is 
delivered in our missiles at very high speeds at very long 
ranges. Our bombers have very long ranges, not quite the 
speeds.
    But trying to pull those attributes together with both 
conventional and nuclear kinetic effects is a little bit of 
what we are trying to work at in the global strike arena. But 
it is much broader. It encompasses both the ability to plan 
rapidly, to apply the precision to the intelligence and gather 
that intelligence in a very rapid manner, and then to apply 
that intelligence to the target and understand the effect we 
want to create.
    All of those are part and parcel to delivering the weapon. 
So we have to get it all. One part of this is not enough.
    Senator Sessions. That is the joint strike capability you 
are working on?
    General Cartwright. The global strike, yes, sir.
    Senator Sessions. What about the costs of that? Where are 
we on funding? Do you have adequate funding to achieve what you 
are seeking?
    General Cartwright. I believe that we do. I am trying to 
make sure that I can stay at the right classification level 
here, but I am comfortable that the areas that we are looking 
at for feasibility to ensure that we can deliver this 
capability, both in the intelligence side of the equation, the 
delivery side of the equation, and the weapons side of the 
equation, that we have sufficient latitude and resources to go 
investigate what is feasible, what gives you great leverage, 
and then, if it is a new thing, the opportunity to come back 
and advocate for something new. If it is just a different use 
of a current capability, the ability to put the pieces 
together, connect the dots, so to speak, and provide that 
capability.
    Senator Sessions. But in terms of explosive power, a 
nuclear weapon on a missile, for example, would have far more 
explosive power than a conventional munition would?
    General Cartwright. Yes, sir. But again, if it were----
    Senator Sessions. Obviously it does. But the point is a 
conventional munition might not be sufficient under certain 
circumstances.
    General Cartwright. Under certain circumstances, and there 
are circumstances in which that is the case.
    Senator Sessions. With regard to the hard and deeply buried 
targets, I know a number of our adversaries are proud of their 
tunneling ability and they have worked hard to place deep in 
the ground and in mountains and other areas their strategic 
capabilities. Would you explain, General Cartwright, what your 
concerns are in that regard, what you feel like we need to be 
capable of neutralizing that capability that our adversaries 
have?
    I would just note parenthetically that it is the history of 
warfare that if someone feels threatened in one capability they 
figure out a way to make it not threatened, to eliminate that 
threat, and burying into the ground is a way to do that. It 
also would be historically--so that if we want to be able to 
prevail in a conflict, then we would be able to confront that 
challenge.
    So are we there? Is a study of the capabilities of a Deep 
Earth Penetrator in your opinion justified to see if something 
like that is feasible? Do you support it and why?
    General Cartwright. Yes, sir. First I would say that this 
target set of buried, deeply buried, and hardened targets is a 
very real target set and that it is growing. As you say, if an 
enemy has a capability that they want to protect, they 
generally move toward some way to disguise and deceive us about 
its capability and its location to thwart our targeting and our 
weapons capabilities. Oftentimes they go to mobility. Sometimes 
they go to cover. Sometimes they bury deeply.
    Clearly, the hard and deeply buried targets that go very 
deep into the earth using commercial capabilities are target 
sets that we want to understand better, both what is it they 
are trying to accomplish, what it is that they are trying to 
put in these bunkers, and then to what extent we can hold those 
capabilities at risk.
    We are exploring as many different avenues of approach to 
understanding these target sets and holding them at risk as we 
can come up with. Again, it will probably not be solved by one 
weapon or one approach. We are going to have to understand the 
intelligence necessary to locate and understand what goes on in 
these bunkers. We are going to have to have multiple ways by 
which we can hold them at risk.
    We are working our way through that right now. The RNEP is 
one of several capabilities that we think will be necessary. 
Whether it is a nuclear capability or whether we have other 
capabilities is the work that is being done in the study. But 
that study has implications far beyond just the nuclear 
solution to this in characterizing the facilities, in 
characterizing the effect that can be brought by a weapon 
against those facilities, whether it be kinetic or non-kinetic, 
and in the different types of training for our forces to hold 
these facilities at risk.
    So it is a multifaceted problem which we are trying to get 
our arms around. We have a reasonable base of experience for a 
large amount of this target set, but as it gets more 
sophisticated we have to keep improving our capability.
    Senator Sessions. Well, sort of to recap where we are on 
it, I think we have authorized the study in this committee and 
by the full Senate in 2003, 2004, and 2005. Funding was 
appropriated in 2003 and 2004. It goes to, I believe, the 
Energy Subcommittee for final appropriations of the funds and 
in conference with the House I believe the chairman of the 
House Energy Appropriations Subcommittee objected and 
eventually that funding was not included last year, after 
having been in there previously.
    The President's request this year I believe, Ambassador 
Brooks, is less, but is it sufficient to continue the study 
that we would undergo?
    Ambassador Brooks. Yes, with the proviso that there is 
another increment in 2007. We are requesting $4 million in the 
current budget and anticipating requesting $14 million in 2007, 
and our 5-year projection shows no additional money for this.
    The reason the level is so much less is we have cut back on 
what it is that we propose to do. Originally we proposed to 
examine two different warheads. Fundamentally, what we are 
doing is taking a warhead, putting a very hard case on it, 
controlling its attitude very precisely so that it can 
penetrate a few meters into rock and still stay intact and go 
off. That way the energy goes into the ground.
    We have concluded that we can demonstrate whether or not 
the concept is feasible by looking at only one warhead. We 
selected the B83 which is one of the two bombs we were looking 
at--because that was where we were when the program was 
stopped.
    If the funding is provided us in 2006 and 2007, we will 
gain enough knowledge to know whether the United States should 
further investigate the concept. We of course will not actually 
be able to deploy anything. As you pointed out in your opening 
statement, that would require a whole different Congressional 
action. That is not what this is about. This is a study.
    Senator Sessions. I think that is a reasonable request and 
have supported that. So the amount of funding will be 
considerably less, but it would give us an indication of how we 
could deal with that, whether we could achieve it or not, even 
if we were to decide to do so.
    Let me ask you this. There is concern expressed that such 
an action would destabilize somehow the nuclear world 
environment, encourage others to build more and dangerous 
weapons. How would you analyze that?
    Ambassador Brooks. I believe that is a misreading of the 
world. Let us look at sort of three kind of classes, four 
really, classes of people. One is the established nuclear 
powers. There is no evidence that the Russian Federation or 
China will take some action in their stockpile because we do or 
do not do this study, and in closed session I can talk a little 
bit more about what those two powers are doing.
    The nuclear wannabes, if you might, the North Koreas of the 
world, seem to be completely uninfluenced by what we do. To the 
extent that they are looking at the U.S., it is our 
overwhelming conventional power that probably causes them to go 
into the search for nuclear weapons.
    Terrorists obviously are not deterred by what we do or what 
we do not do. So the one area in which some believe that this 
kind of nuclear modernization has adverse consequences is the 
large number of non-nuclear states who collectively help us 
preserve the nonproliferation regime through things like export 
control.
    But even here, a study should not make any difference and 
we have empirical evidence because the previous administration 
took a bomb and hardened it to penetrate into frozen soil and 
in essence it had no discernible effect on the actions of any 
other country. So I believe that there is room to debate--
whenever you want to spend money, there is always room to 
debate whether it is a good use of the public funds, but I 
believe the concern that somehow we are going to destabilize 
the nonproliferation regime is just wrong, not supported by the 
facts.
    Senator Sessions. I think that was a good analysis and I 
thank you for that. Everybody will have to make their own 
decision about that, but I would agree. Again, I think you are 
talking about--we have many nations now with an active nuclear 
weapon program and capabilities of building or updating their 
systems. We are the one nation of the nuclear powers that does 
not have a plutonium pit capability, as you noted. So having a 
precision discreet nuclear weapon capable of dealing with 
hardened targets only in a world in which nuclear research and 
development and production is ongoing in a broad-based way is 
not impressive to me. It does not persuade me that we should be 
afraid of that.
    Ambassador Brooks, I see the New York Times recently had an 
article that indicated that our W76--is that it?
    Ambassador Brooks. Yes, sir.
    Senator Sessions.--weapons that are a big part of our 
inventory, may not be effective. You have told us that you 
think the stockpile is effective. I just would ask you to 
specifically comment on that and any thoughts you have. I note 
with interest that they sort of criticize you for not having a 
stockpile that would work, but they are also the fiercest 
critic of any testing to see if it would work. But regardless, 
what are your thoughts on the reliability today?
    Ambassador Brooks. Yes, sir. The W76 is a warhead for the 
Trident missile. It is the most numerous warhead in our 
deployed arsenal, so it is obviously of great concern. The 
dispute has to do with a minority view about interpretation of 
data taken back in the era of underground testing.
    We have looked into this extensively. We went through a 
process in which the lab that did not design a particular 
warhead, in this case the W76, examined it. We held a special 
study or a special examination under Dr. Everet Beckner, who is 
the deputy who runs the Defense Programs in the DOE, bringing 
in the critics, bringing in experts that they suggested. We 
have looked at this a number of ways and I am sure that the 
critics are very sincere and I am sure that they believe what 
they say, but our best technical judgment is they are just 
simply wrong.
    Senator Sessions. General Cartwright, the Common Aero 
Vehicle is a vehicle that, if developed, could lift in low 
orbit a munition or lift other items, Unmanned Aerial Vehicles 
(UAVs) or other things, into low orbit and then back into the 
United States, back to the world. We prohibited funding on 
that, I believe, previously, Congress did, awaiting your 
dealing with the concerns that this might be mistaken as some 
sort of attack on, for example, Russia. In other words, they 
have the capability of identifying a launch and they might 
think it would be a launch against them of maybe a nuclear 
warhead, and we wanted to be sure that there could be no 
misunderstanding in that before we authorized going forward 
with this vehicle.
    What can you tell us about the status of the Common Aero 
Vehicle?
    General Cartwright. First let me go to the attributes that 
we are looking at in the system. Those are the attributes of, 
as we talked about earlier in global strike, of being able to 
hold targets at risk at great distances in very short periods 
of time. Now, it could be held at risk in the sensor 
standpoint. It could be held at risk in a weapons standpoint. 
There are many uses, as you alluded to, to a platform that 
could go into low earth orbit and quickly get around the world. 
Associated with that is the responsive lift that would get 
there, that would allow it to get there.
    We are studying that. I think I would turn to Air Force, 
General Burg, back here as to the details of the resources 
associated with it since the moratorium was put on it. I am not 
sure where we are this year exactly in our request.
    What we are trying to understand is in global strike what 
are the options of moving a capability very quickly around the 
world, in the planning, the intelligence, and the delivery, and 
how can we do that and what feasibility is there in using 
space, in moving through the air, in other methods of delivery, 
cyber, et cetera. This is just one of several areas that we are 
investigating.
    Senator Sessions. Have you given thought to the specific 
objection that Congress had with regard to it being 
misinterpreted in some fashion? It seems to me that the 
locations of our Intercontinental Ballistic Missiles (ICBMs) 
are well known. Would that obviate that fear?
    General Cartwright. I think we have worked our way through 
on this issue over time from bombers, that clearly have 
capabilities to deliver both conventional and nuclear 
capabilities, and how we portray them such that it is 
reasonably unambiguous what our intent is with the weapon. 
Cruise missiles have had the same type of discussion. We are 
now having that discussion with space vehicles and with 
missiles that get you to either low earth orbit or outside the 
atmosphere.
    There are any number of ways to approach the problem if we 
want to take this on. What we have to understand is we have 
done this in the past with basing options so that it is clear, 
with inspection options, protocols, and with profiles of the 
trajectory of the flights, all of which are possibilities, and 
not to exclude the discussion that has gone on about shared 
awareness or warning. We need to make sure that, if we are 
going to use a weapon that is a conventional weapon, but 
somehow could be misunderstood, that we try to provide every 
opportunity to ensure that it is not misunderstood. At the end 
of the day the objective here is to increase the number of 
options, to try to give the Nation more decision time on any 
crisis, and to expand the choices that we might be able to 
offer the President in a crisis.
    Senator Sessions. Well, I think that has potential as being 
an effective part of our defense needs and I hope that you will 
pursue it. I think I indicated low earth orbit, but this would 
not be an orbital vehicle; it may go into low earth orbit. It 
would not be a space vehicle.
    I just want to follow up here with the NPR in 2001 and the 
New Triad. Are you confident that we have a clear understanding 
of what is involved in that? How much of it is expected to 
develop over time, and would you share with us, General 
Cartwright, briefly how you understand the New Triad?
    General Cartwright. The three legs associated with the New 
Triad are: the offense, and we talked about that briefly 
before, which is a kinetic capability that is both conventional 
and nuclear, and bringing to bear in particular now more robust 
non-nuclear options, and also the non-kinetic, which is the 
focus right now. We have put probably our greatest effort in 
the cyber type of capabilities on the non-kinetic side, and 
creating both the alternative, which is the ideal state, or in 
combination some way of managing the offensive side of the 
discussion.
    The defense is a combination of, in our terms, active and 
passive capabilities, those things that we would do in a 
passive sense to protect ourselves and then in the active sense 
those things that we would put together, such as missile 
defense, to protect the Nation against those things that would 
cause us significant regret.
    On the infrastructure side, we have had a pretty good 
discussion about the infrastructure pieces and where the 
leverage is there. Clearly there has to be a balance between 
the three. Over time, technology, aging platforms, et cetera, 
will change the balance. The change in the world climate will 
change the balance of those. But the idea here is to hold at 
risk with a credible deterrent through the three legs of the 
triad our capabilities such that no one leg can be targeted and 
eliminated without a credible capability in the other two.
    The underpinning of that activity is the command and 
control system that connects all of it and making sure that 
that is assured and survivable. We cannot forget that 
particular leg, particularly now as we look at the 
transformation going on in our communications globally, moving 
from circuit-based capabilities to Internet protocol type 
capabilities. That transformation has to be considered in the 
context of our command and control systems for the triad, and 
how we make that migration, how we come up with a very robust 
distributed capability, will all be important parts of the New 
Triad.
    Senator Sessions. I thank you for that, and I thank both of 
you for your plainspoken, understandable comments on this 
complex area of our Nation's defense. It is very critical. We 
have to expend an extraordinary amount of money each year, but 
as a percentage of our total defense budget it is probably less 
than, what, 3 or 4 percent that we spend on nuclear weapons, 
although I encourage you, Ambassador Brooks, to keep those 
costs as low as you can.
    So I think we will keep the record open for additional 
questions that are going to be submitted by the other members. 
I know several members for one reason or another could not be 
here today. But we have established a record that I think would 
be a good foundation for us to consider a new defense 
authorization bill this year. We need to know what you believe, 
what the facts are, how you analyze them, as we make our 
decisions about what to authorize as part of our Nation's 
defense in the future.
    So do either of you have any further comments before we go 
to closed session?
    General Cartwright. Just one real quick comment.
    Senator Sessions. Please.
    General Cartwright. Which is associated with the comments 
on the triad, is that it is absolutely critical, and we both 
believe it, that the two of us have to be in a constant 
dialogue in order to make this triad work. There has to be a 
clear, clean relationship and a good dialogue there and we have 
endeavored to develop that and foster it, and we both benefit 
from each other's insights.
    Senator Sessions. That is important.
    I have worked in the Federal Government with a host of 
different agencies in the law enforcement world and you have to 
go beyond rules and regulations. You have to have two people 
talking from different agencies on a regular basis to get the 
kind of sharing and cooperation that you need to be successful. 
So I really think you are wise in saying that and I encourage 
you to continue.
    So if there are no further questions before this meeting 
now, we will be adjourned for closed session later.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Jeff Sessions
    funding for feasibility studies: responsiveness to dod requests
    1. Senator Sessions. Ambassador Brooks, last year this committee 
authorized funding for what was called the ``Advanced Concepts 
Initiative.'' The purpose of advanced concepts was to provide funding 
to respond to Department of Defense (DOD) requests for feasibility 
studies on enhancing the military capabilities of the existing 
stockpile and to support Strategic Command (STRATCOM) by supplying 
quick turnaround, limited scope answers concerning technical questions 
related to the stockpile. Although Advanced Concepts was fully 
authorized, no funding was appropriated. The National Nuclear Security 
Administration (NNSA) has requested no funding for Advanced Concepts in 
fiscal year 2006. Is the Department of Energy (DOE) able to respond to 
technical inquiries and requests from DOD, as was envisioned under 
Advanced Concepts?
    Ambassador Brooks. The fiscal year 2005 Omnibus Appropriations Act 
reassigned the $9 million requested for the Advanced Concepts 
Initiative (ACI) into a new activity entitled ``Reliable Replacement 
Warhead.'' RRW funding will enable the NNSA to work with the DOD to 
assess the feasibility of warhead replacement components--both nuclear 
and nonnuclear--to ensure the long term sustainability of the military 
capabilities provided by the existing stockpile without nulear testing. 
The RRW program has the potential to ``enable'' the long-term 
transformation of the nuclear weapons stockpile and lead to a more 
efficient, less costly nuclear weapons infrastructure. With respect to 
other requests from DOD to respond to technical inquiries and requests 
not currently funded, we would consult with Congress on an approach to 
carry out this work.

    2. Senator Sessions. Ambassador Brooks, shouldn't NNSA be able to 
provide this kind of quick turnaround analysis if we are to have a 
truly ``responsive'' system as laid out in the Nuclear Posture Review?
    Ambassador Brooks. With respect to inquiries regarding the existing 
stockpile, we have the capability and authority today to provide the 
DOD with appropriate responses. With respect to requests from DOD to 
carry out feasibility studies on advanced concepts that are not 
currently funded, we would consult with Congress on an approach to 
carry out this important work.

              design basis threat--timetables and funding
    3. Senator Sessions. Ambassador Brooks, since September 11, DOE has 
modified its requirements regarding the kinds of threats against which 
it needs to protect its nuclear facilities. These scenarios are 
described in something known as ``the design basis threat.'' When 
Secretary Bodman was before the full committee, he testified that it 
will take until 2008 before all of DOE's facilities are in compliance 
with the new threat scenarios--which would be 7 years after September 
11. Just as we are concerned with the security of nuclear materials 
around the world, we need to be just as sure that nuclear materials 
here at home are secure. When do you estimate that all of the NNSA 
facilities will be in compliance with the new design basis threat?
    Ambassador Brooks. The Department has issued two Design Basis 
Threat (DBT) policy revisions since September 11, May 2003 and October 
2004. Site DBT Implementation Plans for the May 2003 revision were 
approved by my office in February 2004 and all NNSA sites are on 
schedule to be compliant with this revision by the end of fiscal year 
2006. Site Implementation Plans for the October 2004 DBT revision are 
due to Headquarters in July 2005, with the requirement that sites 
identify the upgrades and funding necessary to be compliant with this 
revision by the end of fiscal year 2008.

    4. Senator Sessions. Ambassador Brooks, since the NNSA budget 
request for the nuclear weapons facilities is down slightly in the 
fiscal year 2006 budget request, is the request sufficient to conduct 
your ongoing missions as well as provide for the needed security 
upgrades?
    Ambassador Brooks. Yes, the fiscal year 2006 budget presents a 
balanced approach that provides for ongoing mission, supports the 
President's highest priority on detecting and preventing proliferation 
of WMD, and allows us to continue to make improvements to our nuclear 
weapon facilities to address the revised DBT. The fiscal year 2006 
safeguards and security (S&S) budget supports the third and final year 
of the improvements to meet the 2003 Design Basis Threat. The fiscal 
year 2006 budget also includes support for the Vulnerability 
Assessments necessary to develop the implementation plans to come into 
compliance with the 2004 DBT policy issues by the end of 2008.
    Much of the reduction you see in the nuclear weapons facilities-
related accounts, including Safeguards and Security, results from 
changes in construction project funding.

                      reliable replacement warhead
    5. Senator Sessions. Ambassador Brooks, the fiscal year 2006 budget 
request includes a program called the Reliable Replacement Warhead. The 
purpose of this program is described in the budget request as: ``to 
demonstrate the feasibility of developing reliable replacement 
components that are producible and certifiable for the existing 
stockpile.'' This objective sounds very similar to the Life Extension 
Program, which DOE has been conducting for many years, in which DOE 
extends the lifetime of a warhead through dismantlement, replacement of 
limited life components, and return of the warhead to the stockpile. 
Could you more fully describe the purpose of the Reliable Replacement 
Warhead program and how it differs from the Life Extension Program?
    Ambassador Brooks. The Reliable Replacement Warhead program is very 
closely aligned with the purpose of ongoing warhead Life Extension 
Programs; that is, to ensure the long-term sustainability of the 
military capabilities provided by warheads in the existing stockpile. 
There is, however, concern that our current path--successive 
refurbishments of existing warheads developed during the Cold War and 
to stringent Cold War specifications--may not be the right path to 
achieve this long-term sustainability. Specifically, the directors of 
our national laboratories have raised concerns about their ability to 
assure the safety and reliability of the legacy stockpile over the very 
long term absent nuclear testing. With the support of Congress, we are 
undertaking the RRW program to understand whether, if we relaxed 
warhead design constraints imposed on Cold War systems that have 
typically driven ``tight'' performance margins in nuclear design, we 
could provide replacement components for existing stockpile weapons 
that could be more easily manufactured with more readily available and 
more environmentally benign materials, and whose safety, security and 
reliability could be assured with high confidence, without nuclear 
testing, for as long as the United States requires nuclear forces.

    6. Senator Sessions. Ambassador Brooks, is the goal of the Reliable 
Replacement Warhead program to replace existing warheads with new 
designs and new warheads or is the goal to refurbish and increase the 
reliability of existing nuclear warheads?
    Ambassador Brooks. The focus of the Reliable Replacement Warhead 
program is to extend the life of those military capabilities and the 
reliability provided by existing warheads, not develop new warhead 
types for new or different military missions.

             modern pit facility--pit production capability
    7. Senator Sessions. Ambassador Brooks, the Modern Pit Facility 
(MPF) would provide the United States the capability to manufacture 
plutonium pits for our nuclear weapons stockpile. The United States is 
the only nuclear weapons nation without this capability. Attempts to 
determine the production rate for a new pit production facility have 
been complicated by the fact that there is uncertainty regarding the 
exact lifetime of plutonium pits in a nuclear warhead. Pit lifetime is 
currently estimated to be somewhere between 45 and 60 years. This is a 
wide range, and I understand there is considerable uncertainty. What 
activities is DOE currently undertaking to refine its knowledge of the 
lifetime of nuclear weapons pits and the effect of plutonium aging on 
the performance of weapons?
    Ambassador Brooks. The 45- to 60-year estimate of the minimum pit 
lifetime is based on an assessment made at the end of fiscal year 2003 
using the available data and analyses. There is an underlying rationale 
for stating the estimate as a range. Each weapon type in the stockpile 
has a design margin between the baseline performance level and a 
threshold level below which the primary would no longer produce the 
required output. Aging degradation of the pit could diminish critical 
performance parameters until the weapon's design margin is eventually 
reduced to zero and primary output would drop below the required 
threshold. Since the design margin is different for each weapon type, 
pit lifetime estimates must be weapon-specific. The 45- to 60-year 
range accounts for the differences in design margins between the weapon 
types, the current uncertainties in the sensitivity of performance to 
aging degradation, and the lack of aging data beyond the oldest 
available pits (retired units up to 43 years of age).
    The ongoing NNSA effort on pit lifetime is focused on obtaining 
additional data on pit aging, evaluating the aging impacts on critical 
performance parameters, and reducing the uncertainty in the estimate. 
Accelerated aging experiments are underway using carefully prepared 
plutonium alloys that will reach a 60-year equivalent age for 
evaluation in 2006. High-pressure static and dynamic experiments (e.g., 
diamond anvil cell, Z experiments, TA-55 gun shots, JASPER gas gun 
shots) are being conducted to obtain the needed data on plutonium 
properties at different ages. Modeling and calculations are being 
performed using our most advanced computational capabilities to assess 
aging effects on weapon performance. Relevant historical data from 
underground nuclear tests is also being identified and interpreted to 
illuminate the effects of aging on weapon performance. At the request 
of NNSA, a series of JASON reviews are being conducted on the science 
underpinning the pit lifetime effort as well as an updated estimate. 
Based on the results from these activities, an updated pit lifetime 
estimate will be made at the end of fiscal year 2006. We would still 
expect the updated estimates to be expressed as a range of years but 
specific to each warhead type. Additional work will be necessary beyond 
fiscal year 2006 to further establish the scientific basis for pit 
lifetime prediction. Based on the ``Requirements for a Modern Pit 
Facility'' report to Congress in January 2005, the need for a Modern 
Pit Facility is not likely to be impacted.

    8. Senator Sessions. Ambassador Brooks, what is the average age of 
a pit in the current stockpile? If the average age is a classified 
figure, alternatively, could you provide the range of ages of pits in 
the stockpile?
    Ambassador Brooks. The pits in the current stockpile range from 
about 15- to 35-years old with an average age of approximately 20 years 
old.

    9. Senator Sessions. Ambassador Brooks, does this country need a 
pit production capability regardless of whether the U.S. ever produces 
new nuclear warhead types?
    Ambassador Brooks. Yes. Because pits have ``lifetimes'' (the 
current estimate of 45-60 years is under review) based on changes in 
plutonium over time, the U.S. needs a pit production capability 
regardless of whether we ever produce a new nuclear warhead type. The 
Administration's Nuclear Posture Review, approved by the President, 
requested the Department of Energy to accelerate efforts on a Modern 
Pit Facility to eliminate a serious deficiency in our Nation's nuclear 
security.

    10. Senator Sessions. Ambassador Brooks, how long would it take to 
bring such a pit production facility online?
    Ambassador Brooks. Given our current funding profile, our current 
plan is to have operational startup beginning in fiscal year 2019, with 
full production for an MPF projected for fiscal year 2021. The Critical 
Decision-0 for the start of conceptual design of a Modern Pit Facility 
(MPF) was approved in May 2002, with a target of fiscal year 2007 to 
start preliminary design and a 2013 construction start.

    11. Senator Sessions. Ambassador Brooks, why do you believe a site 
for this facility needs to be selected in fiscal year 2006?
    Ambassador Brooks. The Fiscal Year 2005 Consolidated Appropriations 
Act bars the use of any funds to select a Modern Pit Facility (MPF) 
construction site in fiscal year 2005 pending the outcome of the 
ongoing review of the nuclear weapons complex and initial results from 
accelerated pit aging experiments in fiscal year 2007. Thus, we have 
deferred site selection. Because pit lifetime will likely remain an 
issue beyond fiscal year 2007, the NNSA needs to proceed with planning 
an MPF or equivalent pit production capability. It is essential to make 
a site selection in fiscal year 2006 to: (1) allow site-specific design 
to proceed, (2) retain the current design team, and (3) avoid repeating 
work already completed on the Environmental Impact Statement for an 
MPF. We look forward to working with Congress towards this goal.
    The interim pit manufacturing capability of 10 pits per year being 
established at Los Alamos National Laboratory in fiscal year 2007 will 
not be sufficient to maintain the 2012 stockpile as determined in the 
May 2004 stockpile plan approved by the President and submitted to 
Congress in June 2004. Further, the NNSA submitted a pit report to 
Congress in January 2005 that confirmed the need for at least a 125 pit 
per year capability starting in 2021.

                        enhanced test readiness
    12. Senator Sessions. Ambassador Brooks, the National Defense 
Authorization Act for Fiscal Year 2004 requires DOE to achieve and 
maintain thereafter a test readiness posture of not more than 18 
months. In other words, DOE would be able to resume underground nuclear 
testing within 18 months of a Presidential decision to conduct a test. 
DOE is to achieve this readiness no later than October 1, 2006. Will 
DOE achieve the 18-month test readiness by the statutory deadline?
    Ambassador Brooks. We are ``on track'' to meet the statutory 
requirement of an 18-month test readiness posture by the end of fiscal 
year 2006. Successful execution of our test readiness program to 
achieve this requires that Congress appropriate the resources requested 
by NNSA, to carry out this important mission.

    13. Senator Sessions. Ambassador Brooks, are there any critical 
path activities--in terms of both facilities and personnel--that might 
cause DOE not to meet the deadline?
    Ambassador Brooks. The National Nuclear Security Administration has 
a well-developed program underway to meet the October 1, 2006, deadline 
to achieve an 18-month test readiness posture as specified in the 
National Defense Authorization Act for Fiscal Year 2004. This program 
is described in the February 2005 Nuclear Test Readiness Report to 
Congress. We are confident that we will meet the deadline, assuming our 
budget request is approved by Congress.

    14. Senator Sessions. Ambassador Brooks, has DOE been able to hire 
and retain personnel for the ``key'' and ``critical'' testing program 
positions at the Nevada Test Site?
    Ambassador Brooks. Yes. The National Nuclear Security 
Administration's Nevada Site Office has been able to both hire new 
employees and retain key employees in its critical positions for the 
testing program at the Nevada Site Office. NNSA has used its excepted 
service direct appointment authority to fill key positions, and has 
used other incentives such as recruitment bonuses and retention 
allowances to retain employees in critical positions.

                     stockpile stewardship program
    15. Senator Sessions. Ambassador Brooks, the Stockpile Stewardship 
Program is the program through which DOE maintains and certifies the 
safety, security, and reliability of the nuclear stockpile through the 
use of science based tools such as computer simulations, materials 
research, and component testing. How do you judge the success or 
failure of the Stockpile Stewardship Program?
    Ambassador Brooks. The Stockpile Stewardship Program (SSP) has been 
a success and is working well to provide the Nation with a safe, 
secure, and reliable nuclear deterrent. However, maintaining the aging 
stockpile continues to be a scientific and engineering challenge that 
requires the application of the National Nuclear Security 
Administration's best capabilities. While some aspects of the 
developing stewardship capability have taken longer than envisioned, 
our knowledge of the aging stockpile continues to improve as the SSP 
tools come online. The best indicator of SSP's success boils down to 
the fact that the Secretary of Energy and Secretary of Defense recently 
provided the President with their ninth annual assessment of the 
nuclear weapons stockpile. Each of these nine assessments has relied on 
the tools and capabilities of the SSP. To date, these assessments have 
not identified a need to augment SSP tools and capabilities with 
nuclear testing.

    16. Senator Sessions. Ambassador Brooks, if a President were to 
face a circumstance where he needed to resume full scale nuclear 
weapons testing, would you consider science-based Stockpile Stewardship 
to have ``failed''?
    Ambassador Brooks. No. Discovering a problem in the stockpile 
through SSP would not be a failure, even if we discovered a problem so 
severe that we would recommend a nuclear test to the President. The SSP 
would have failed only if we did not detect a major deficiency in a 
deployed warhead in the U.S. arsenal in time to take appropriate 
corrective actions. The SSP is not a substitute for nuclear testing, 
nor would a return to nuclear testing negate the need for the SSP. SSP 
activities would still be necessary to effectively assess the safety, 
security, and reliability of the aging U.S. nuclear weapons stockpile. 
The U.S. has not conducted a nuclear weapons test since 1992 and has no 
plans to resume nuclear testing.

    17. Senator Sessions. Ambassador Brooks, does the need for the 
Reliable Replacement Warhead program mean that science-based Stockpile 
Stewardship has ``failed''?
    Ambassador Brooks. No. The stockpile is aging and eventually 
warheads will need to be replaced. The goal of the Reliable Replacement 
Warhead (RRW) program is to demonstrate that we can design, produce and 
certify replacement components and warheads without nuclear testing. 
The replacement components and warheads will be designed to enhance the 
safety and security of the deployed stockpile. The Stockpile 
Stewardship Program is working well but continues to evolve. The RRW 
program is expected to be a significant part of our long-term strategy 
for nuclear forces, serving as the ``enabler'' for our planned 
stockpile and infrastructure transformation.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                       the reliability of the w76
    18. Senator Bill Nelson. Ambassador Brooks, an article in the New 
York Times on April 2, 2005, written by William Broad, questions the 
reliability of the W76 warhead on the D-5 missile. The article suggests 
that the W76 would be the first candidate for the reliable replacement 
warhead program. What is the status of the W76, is it reliable, and is 
it the first candidate for the reliable warhead replacement program?
    Ambassador Brooks. The NNSA is very confident in the reliability of 
the Los Alamos National Laboratory (LANL) designed W76 warhead. This 
warhead was developed and tested between 1973 and 1981. Its history of 
underground nuclear tests in Nevada is one of the most extensive of the 
weapon systems now in the U.S. inventory.
    The Directors of Sandia National Laboratories, Los Alamos National 
Laboratory, and Lawrence Livennore National Laboratory provide an 
annual assessment of all stockpile weapons to the Nation's leadership, 
with extensive internal and external technical review. Their Annual 
Assessment of September 2004 and the draft assessment for September 
2005 reiterates no change in the laboratories' confidence in the 
performance of the W76 warhead.
    Since the W76 warhead is a central pillar in the Nation's deterrent 
force, we have initiated a major Life Extension Program (LEP) to 
address identified aging and surveillance concerns before failure 
occurs. The purpose of the LEP is to extend the service life from 20 to 
60 years. The LEP is manageable, cost effective, maximizes reuse of 
components, and includes modern surety enhancements while minimizing 
system certification risk.
    Today and into the future the W76 warhead has a significant role in 
the Nation's nuclear deterrence.
    The Department of Defense (DOD) and NNSA recognize that further 
steps are needed to fully accomplish Presidential direction to achieve 
``a credible deterrent with the lowest possible number of nuclear 
weapons consistent with our national security needs.'' We believe that 
this Reliable Replacement Warhead (RRW) concept is promising and has 
the potential to save production, maintenance, and environmental costs, 
while at the same time increasing DOD and NNSA confidence in weapon 
reliability over the long-term.
    Because of the significant role the W76 warhead has in the Nation's 
deterrent, the DOD and NNSA believe that the first application to be 
examined for RRW will be in connection with W76 warheads currently 
deployed on the Trident sea-launched ballistic missile.
    The NNSA's RRW strategy will help lead the transition to an 
efficient, responsive infrastructure. This approach is also important 
to sustaining the capabilities of both the NNSA design laboratories and 
the production plants. Our strategy is a critical positive approach 
that is necessary to sustain and improve reliability, safety, and 
security of weapons for the long-term.

                       future of nuclear weapons
    19. Senator Bill Nelson. Ambassador Brooks and General Cartwright, 
the DOE has maintained the nuclear weapons stockpile safely and 
securely, without testing, for just over 12 years. For the most part 
this stockpile was designed and built in the 1970s and 1980s, to meet 
Cold War requirements and priorities. Is it time to reevaluate 
deterrence including the role nuclear weapons play in deterrence, the 
desired capabilities that cannot be achieved with conventional weapons, 
the number and type of nuclear weapons needed, and nuclear weapons 
employment policy?
    Ambassador Brooks. The December 2001 Nuclear Posture Review and 
follow-on studies including the recently-completed NPR Strategic 
Capabilities Assessment and the DOD Stockpile Transformation study have 
resulted in a number of conceptual breakthroughs in our thinking about 
nuclear forces and their future role in national defense policy. These 
breakthroughs have led to the Treaty of Moscow, which will result, by 
2012, in substantial reductions in operationally-deployed strategic 
forces, and to the subsequent decision by the President to reduce, also 
by 2012, the overall nuclear stockpile consisting of both deployed and 
non-deployed warheads. Moreover, this work has provided the impetus for 
examining the potential of the Reliable Replacement Warhead (RRW) 
program to facilitate both stockpile and infrastructure transformation 
leading to an even smaller, but safer and more reliable stockpile for 
the long term. Specific questions about the role of nuclear weapons in 
deterrence, nuclear weapons employment policy, and the degree to which 
conventional capabilities could (or could not) achieve certain 
deterrence missions, however, are best directed to the Department of 
Defense.
    General Cartwright. Yes, the New Triad concept presents an 
opportunity to reduce our reliance on nuclear weapons through the 
evaluation of alternative weapons, defensive capabilities and 
associated risk. The ongoing Quadrennial Defense Review (QDR) will also 
help to frame the discussion associated with the future role of nuclear 
weapons in support of our defense policy goals of assurance, 
dissuasion, deterrence and defeating our adversaries, to include the 
number and types of weapons required.

    20. Senator Bill Nelson. Ambassador Brooks and General Cartwright, 
I understand the DOD has started to give some thought to these issues, 
as have you General Cartwright. What studies are underway at DOD, at 
the STRATCOM and at DOE that would have a bearing on these questions 
and are there any plans for additional studies?
    Ambassador Brooks. The December 2001 Nuclear Posture Review and 
follow-on studies including the recently-completed NPR Strategic 
Capabilities Assessment and the DOD Stockpile Transformation study have 
resulted in a number of conceptual breakthroughs in our thinking about 
nuclear forces and their future role in national defense policy. These 
breakthroughs have led to the Treaty of Moscow, which will result, by 
2012, in substantial reductions in operationally-deployed strategic 
forces, and to the subsequent decision by the President to reduce, also 
by 2012, the overall nuclear stockpile consisting of both deployed and 
non-deployed warheads. Moreover, this work has provided the impetus for 
the joint DOD-NNSA Reliable Replacement Warhead (RRW) feasibility and 
cost study, scheduled to begin in May 2005, that will examine the 
potential of RRWs to facilitate both stockpile and infrastructure 
transformation leading to an even smaller, but safer and more reliable 
stockpile for the long term. The NNSA Complex Infrastructure Study, 
initiated at the request of Congress and currently underway, when 
completed, will offer recommendations for a more efficient, less costly 
infrastructure for supporting the nuclear stockpile.
    General Cartwright. The New Triad concept presents an opportunity 
to reduce our reliance on nuclear weapons through the evaluation of 
alternative weapons, defensive capabilities and associated risk. The 
2005 Quadrennial Defense Review (QDR) will help frame the discussion 
associated with the future role of nuclear weapons in meeting our 
defense policy goals and any shortfalls or capability gaps that may 
exist in conventional, advanced conventional and non-kinetic 
capabilities.

                    robust nuclear earth penetration
    21. Senator Bill Nelson. Ambassador Brooks, General Cartwright, and 
General Burg, what is the Air Force planning to do with the funding in 
its fiscal year 2006 and fiscal year 2007 budget request for the Robust 
Nuclear Earth Penetrator (RNEP)?
    Ambassador Brooks. It is our understanding that the Air Force plans 
to utilize its requested funds for fiscal year 2006 and 2007 research 
to work on the navigation, guidance, and control kit (NG&C) and 
delivery aircraft integration. But we would look to the Air Force to 
answer this question in better detail.
    General Cartwright and General Burg. USSTRATCOM is not an 
acquisition decision authority. Respectfully defer to the Acting 
Secretary of the Air Force.

    22. Senator Bill Nelson. Ambassador Brooks, General Cartwright, and 
General Burg, could you please provide a breakout and description of 
the activities planned?
    Ambassador Brooks. We understand the Air Force will provide a 
breakout and description of their planned Fiscal Year 2006-2007 Robust 
Nuclear Earth Penetrator study activities.
    General Cartwright and General Burg. USSTRATCOM is not an 
acquisition decision authority. Respectfully defer to the acting 
Secretary of the Air Force.

    23. Senator Bill Nelson. Ambassador Brooks, General Cartwright, and 
General Burg, are these activities coordinated with DOE?
    Ambassador Brooks. An essential part of the Robust Nuclear Earth 
Penetrator (RNEP) study is close coordination of National Nuclear 
Security Administration and Air Force activities. The management 
structure of the RNEP study has been approved by the Nuclear Weapons 
Council, to include a Joint RNEP Study Group and an Executive 
Integrated Product Team.
    General Cartwright and General Burg. Respectfully defer to the 
Acting Secretary of the Air Force.

    24. Senator Bill Nelson. Ambassador Brooks, General Cartwright, and 
General Burg, if the RNEP study is only a feasibility study, why are 
DOD and DOE developing requirements for RNEP now--doesn't it make more 
sense to develop a requirement after the feasibility of the project is 
established?
    Ambassador Brooks. For this study, the requirements set many of the 
key parameters by which the feasibility will be assessed. There may be 
some confusion on this point. The Joint Phase 6.X process which defines 
the acquisition process for the National Nuclear Security 
Administration requires that the draft requirement Military 
Characteristics and Stockpile-to-Target Sequence--the so-called 
``requirements''--are developed during Phase 6.2/2A, which is what the 
RNEP study is. These draft requirements are essential in order to 
develop design options and interface documents, and to evaluate those 
design options.
    General Cartwright and General Burg. The RNEP study is 
investigating a solution to a military requirement for Hard and Deeply 
Buried Target (HDBT) defeat that was validated by the Joint 
Requirements Oversight Council (JROC) in January 2001. The RNEP phase 
6.2/6.2A study process generated technical requirements that define key 
performance measures that are used in determining the feasibility of 
concepts.

    25. Senator Bill Nelson. Ambassador Brooks, General Cartwright, and 
General Burg, what performance measures must be met to establish 
feasibility and what is the schedule to meet these performance 
measures?
    Ambassador Brooks. The downselect process that was established to 
evaluate the original two systems had established ``screening'' 
criteria and ``selection'' criteria. Each system must first demonstrate 
the screening criteria and then it would be graded against the 
selection criteria. A failure to demonstrate the screening criteria 
eliminates that system from further selection. For the screening 
criteria, the proposed option must demonstrate the feasibility of the 
design to penetrate and survive penetration in the threshold geology 
and meet the other Military Characteristics and Stockpile-to-Target 
Sequence requirements. In addition, each option must show that 
certification is feasible. The National Nuclear Security Administration 
is now considering only the B83 option but the original downselect 
criteria remain the appropriate performance measures.
    General Cartwright and General Burg. The detailed technical 
performance measures of the RNEP concept are documented within draft 
joint technical requirement documents and are classified. However, the 
Phase 6.2/6.2A study effort focused on determining the technical 
feasibility of modifying an existing nuclear explosive package from the 
B61 or B83 family to provide a nuclear earth penetrator capability 
against strategic deep underground facilities. The principal technical 
feasibility question centered on whether the DOE can modify existing 
designs to penetrate a few meters into the threshold surface geology, 
survive impact, and function as intended. The RNEP candidates must be 
certified without nuclear testing and must be compatible with the DOD 
delivery system.

    26. Senator Bill Nelson. Ambassador Brooks, General Cartwright, and 
General Burg, is the DOE/NNSA going to receive any of the money in the 
Air Force budget?
    Ambassador Brooks. No. The National Nuclear Security Administration 
will not receive any funding designated for the Air Force's portion of 
the Robust Nuclear Earth Penetrator Phase 6.2/2A cost and feasibility 
study.
    General Cartwright and General Burg. Respectfully defer to the 
Acting Secretary of the Air Force.

    27. Senator Bill Nelson. Ambassador Brooks, General Cartwright, and 
General Burg, DOE/NNSA is only looking at the feasibility of using the 
B83 for the RNEP. Is DOE/NNSA planning an additional feasibility study 
for the B61 as an RNEP?
    Ambassador Brooks. The present funding request does not have any 
provision to continue with the B61. If the B83 option does not appear 
to be feasible, the data will have to be evaluated relevant to the B61 
and a decision will be made with the Department of Defense as to 
whether or not to propose reconstituting the B61 effort.
    General Cartwright and General Burg. Respectfully defer to the 
National Nuclear Security Administration.

    28. Senator Bill Nelson. Ambassador Brooks, General Cartwright, and 
General Burg, this year DOE/NNSA did not include any money in its 5-
year budget for RNEP other than $14 million for fiscal year 2007. Last 
year DOE/NNSA did show the cost of the RNEP in the 5-year budget plan. 
DOE and DOD are developing requirements for RNEP which implies the 
feasibility study is not an intellectual exercise. Why did DOE/NNSA 
drop RNEP from its 5-year budget plan?
    Ambassador Brooks. The National Nuclear Security Administration was 
asked to participate with the Department of Defense to do a study that 
would allow the President to decide on whether or not to go forward 
with the Robust Nuclear Earth Penetrator (RNEP) program. In the 
interest of transparency, in last year's Future Years Nuclear Security 
Program--our FYNSP--we included the money for the study, as well as the 
estimated funding that it would take should there be a decision to 
actually produce it. Because of this inclusion, some inaccurately 
concluded that the decision to go forward had been made. In this year's 
budget request and FYNSP, we have included only the funding needed to 
complete the study in fiscal year 2006 and fiscal year 2007. The 
President has made no decision to go forward with the RNEP program, and 
the fiscal year 2006 President's budget requests no funding beyond the 
completion of a phase 6.2/6.2A study.
    General Cartwright and General Burg. Respectfully defer to the 
National Nuclear Security Administration.

    29. Senator Bill Nelson. Ambassador Brooks, General Cartwright, and 
General Burg, what is DOE going to do with the $4 million in its fiscal 
year 2006 budget request?
    Ambassador Brooks. The $4 million requested in fiscal year 2006 
will enable NNSA to reconstitute the B83 team and to execute the sled-
track test. The recovery, disassembly, reduction of the data and 
analysis of any of the data will be done with fiscal year 2007 funding.
    General Cartwright and General Burg. Respectfully defer to the 
National Nuclear Security Administration.

                           advanced concepts
    30. Senator Bill Nelson. Ambassador Brooks, DOE/NNSA was prohibited 
from spending the $6 million for advanced concepts appropriated for 
fiscal year 2004 until it submitted a report describing how the money 
would be spent. $4 million of the $6 million was further prohibited 
from being spent until DOE/NNSA submit a revised stockpile plan. DOE/
NNSA submitted the spending plan on the first $2 million in March 2004, 
the revised stockpile plan was submitted last summer, but I don't 
believe DOE/NNSA has submitted a funding plan for the remaining $4 
million. Could you either direct us to that report if it was submitted 
or if not when will the plan be submitted? Alternatively, will DOE/NNSA 
reprogram that money for a different purpose?
    Ambassador Brooks. NNSA submitted a report for planned activities 
for fiscal year 2004 for advanced concepts work to Congress on March 
12, 2004. This report was sent to the House and Senate Committees on 
Armed Services and House and Senate Appropriations Subcommittees on 
Energy and Water Development. This money is being used to complete 
advanced concepts work that started in fiscal year 2004; the National 
Nuclear Security Administration does not intend to reprogram it for 
other purposes.

                  reliable replacement warhead program
    31. Senator Bill Nelson. Ambassador Brooks and General Cartwright, 
what is DOE/NNSA planning to do with the $9 million provided in fiscal 
year 2005 for the Reliable Replacement Warhead program?
    Ambassador Brooks. During fiscal year 2005 and fiscal year 2006, a 
National Nuclear Security Administration and multi-laboratory team will 
work with the Department of Defense to assess potential Reliable 
Replacement Warhead (RRW) components and systems, define feasibility of 
key manufacturing processes and design/certification methodology, and 
develop a program plan to achieve project goals.
    General Cartwright. Respectfully defer to the National Nuclear 
Security Administration.

    32. Senator Bill Nelson. Ambassador Brooks and General Cartwright, 
the DOE/NNSA budget justification says that the fiscal year 2006 
request will be used ``to provide cost and schedule efficient 
replacement pits that can be certified without underground testing.'' 
What does this mean exactly?
    Ambassador Brooks. The objective of the Reliable Replacement 
Warhead (RRW) program is, among other things, to demonstrate the 
feasibility of developing reliable replacement components for existing 
warheads that can be manufactured and certified without nuclear 
testing. During an initial 1- to 2-year feasibility evaluation, the 
NNSA will assess whether reliable replacement components such as pits 
can be manufactured more efficiently and cheaply than current pits. The 
NNSA will also determine whether warheads that would use certain of 
these components can be certified without nuclear testing. Such 
warheads would provide comparable military capabilities to when the 
weapons were first placed in the stockpile. The pit is an ``initial 
focus'' because it is an essential long-lead component.
    General Cartwright. Respectfully defer to the National Nuclear 
Security Administration.

    33. Senator Bill Nelson. Ambassador Brooks and General Cartwright, 
what relationship does this activity have to the $23 million in the 
DOE/NNSA budget request for the pit programs to certify and manufacture 
pits other than the W88 pit?
    Ambassador Brooks. The $23 million referred to in your question is 
in the category of ``Pit Manufacturing Capability.'' The objective of 
this $23 million activity is to develop manufacturing processes and 
equipment for all replacement pits including pits being evaluated in 
the Reliable Replacement Warhead (RRW) program. The budget required for 
certification and development of specific manufacturing techniques for 
an RRW pit will be covered in the RRW program. The manufacturing 
processes and equipment developed in the ``Pit Manufacturing 
Capability'' effort will be applicable for the Modern Pit Facility or 
for pit production at the Los Alamos National Laboratory.
    General Cartwright. Respectfully defer to the National Nuclear 
Security Administration.

    34. Senator Bill Nelson. Ambassador Brooks and General Cartwright, 
an article in the New York Times from February 7, 2005 states that 
funds provided in fiscal year 2005 are being used to design ``a new 
generation of nuclear weapons meant to be sturdier and more reliable 
and to have longer lives, Federal officials and private experts say.'' 
The article goes on to quote John Harvey, an official of the NNSA, that 
the goal of the program is to make nuclear weapons ``inherently more 
reliable.'' ``The goal is to see if we can make smarter, cheaper and 
more easily manufactured designs that we can readily certify as safe 
and reliable for the indefinite future -- and do so without nuclear 
testing.'' In short, is the goal to replace the current stockpile and 
if so, does that mean we will dismantle the current stockpile?
    Ambassador Brooks. The goal of the RRW program is to provide 
reliable replacement warhead components or systems that will ensure the 
long-term sustainability of the military capabilities provided by 
warheads in the existing stockpile. Implementing the RRW program will 
ensure diversity in the nuclear stockpile and reduce the likelihood 
that a common mode technical failure of one or more warheads could 
negate a critical component of our Nation's nuclear deterrent. Over the 
long term, this strategy will enable us to achieve a smaller stockpile, 
one that is reliable, safer and more secure, one that offers a reduced 
likelihood that we will ever need to test again, one that reduces NNSA 
and DOD ownership costs for nuclear forces, and one that enables a much 
more responsive nuclear infrastructure. Thus, if RRW feasibility is 
established, it will provide opportunities to retire and dismantle 
substantial additional warheads from the legacy stockpile--even below 
the historic stockpile level determined by the President last May. At 
the same time, we would expect that some legacy warheads, for example, 
those that will have undergone refurbishment as part of the Life 
Extension Program, will remain in the stockpile through the end of 
their service lives.
    General Cartwright. Respectfully defer to the National Nuclear 
Security Administration.

    35. Senator Bill Nelson. Ambassador Brooks and General Cartwright, 
in the article John Harvey goes on to say ``what we are looking at now 
is a long-term vision. We're trying to flesh this out and understand 
the path we need to be on, and to work with Congress to get a 
consensus.'' How do each of you plan to work with Congress to get a 
consensus on nuclear policy?
    Ambassador Brooks. We plan, as we did in today's testimony, to 
inform Congress at all levels and on a regular basis about the promise 
and progress of the RRW program in facilitating transformation toward a 
smaller, safer and more reliable stockpile over the long term, and to a 
more responsive nuclear weapons infrastructure. We will work with 
Congress to demonstrate that this approach offers a cost effective and 
affordable path to sustain needed nuclear weapons capabilities for the 
long-term future. Finally, in concert with the DOD through the Nuclear 
Weapons Council, we will seek advice and concurrence from Congress as 
we implement this vision.
    General Cartwright. USSTRATCOM pledges to work openly with Congress 
to improve the safety, security, reliability, and surety of the 
Nation's nuclear weapons.

    36. Senator Bill Nelson. Ambassador Brooks and General Cartwright, 
will work on the Reliable Replacement Warhead be managed in the same 
way that the DOE manages life extension programs and RNEP through the 6 
``X'' process or in the way new nuclear warheads were managed 
historically through the phased weapons acquisition, phase 1, 2, 3, 
etc.?
    Ambassador Brooks. A joint Department of Defense/Department of 
Energy Project Officers Group is being established to oversee a 
Reliable Replacement Warhead (RRW) cost and feasibility study. Because 
the focus of the RRW program is to extend the life of military 
capabilities provided by the existing stockpile, we consider the effort 
to be most closely aligned with the Phase 6.X process.
    General Cartwright. Respectfully defer to the National Nuclear 
Security Administration.

                         nuclear test readiness
    37. Senator Bill Nelson. Ambassador Brooks, what is the DOE/NNSA 
budget request for test readiness in fiscal year 2006?
    Ambassador Brooks. The National Nuclear Security Administration's 
budget request for Test Readiness in fiscal year 2006 is $25 million. 
Test Readiness maintains underground nuclear test unique capabilities 
that are not supported in stockpile stewardship experimental programs. 
Funds are requested to continue improving the state of readiness to 
reach an 18-month test readiness posture by October 1, 2006.

    38. Senator Bill Nelson. Ambassador Brooks, what is the DOE/NNSA 
test readiness level planned to be at the end of 2006?
    Ambassador Brooks. With the requested budget, the National Nuclear 
Security Administration's underground nuclear test readiness posture is 
planned to be 18 months at the end of fiscal year 2006, in compliance 
with the National Defense Authorization Act for Fiscal Year 2004.

    39. Senator Bill Nelson. Ambassador Brooks, what is the DOE/NNSA 
test readiness level now, and what is it planned to be at the end of 
2005?
    Ambassador Brooks. The National Nuclear Security Administration's 
nuclear test readiness posture is approximately 30 months right now, 
with the goal of reducing this to 24 months by the end of fiscal year 
2005.

    40. Senator Bill Nelson. Ambassador Brooks, will the Reliable 
Replacement Warhead program require a resumption of nuclear weapons 
testing?
    Ambassador Brooks. No. The intent of the Reliable Replacement 
Warhead program is to identify replacement options that could be 
fielded without nuclear testing.

    41. Senator Bill Nelson. Ambassador Brooks, will any other nuclear 
program under consideration require a return to testing?
    Ambassador Brooks. It has been U.S. policy since 1992 to observe a 
nuclear test moratorium. There are no nuclear programs under 
consideration that would require a return to nuclear testing. The 
potential technical need for testing of the existing stockpile is 
addressed annually by the national laboratory directors' assessment of 
existing warheads.

                          modern pit facility
    42. Senator Bill Nelson. Ambassador Brooks, is the Environmental 
Impact Statement (EIS) for the MPF completed?
    Ambassador Brooks. A Draft Programmatic Environmental Impact 
Statement (EIS) has been completed in compliance with the National 
Environmental Policy Act. Five locations are being considered as host 
location for potential new construction of a Modern Pit Facility (MPF) 
(Los Alamos Site, New Mexico; Savannah River Site, South Carolina; 
Carlsbad Site, New Mexico; Pantex Site, Texas; and the Nevada Test 
Site). An upgrade to an existing facility at Los Alamos National 
Laboratory is also considered in the EIS. The Consolidated 
Appropriations Act for Fiscal Year 2005 bars the use of any funds to 
select an MPF construction site in fiscal year 2005 pending the outcome 
of the ongoing review of the nuclear weapons complex and accelerated 
pit aging experiments. Thus, we have deferred site selection. It is 
essential to make that selection in fiscal year 2006 to allow site 
specific design to proceed and to avoid repeating work already 
completed on the EIS for an MPF. We look forward to working with 
Congress towards this goal.

    43. Senator Bill Nelson. Ambassador Brooks, General Cartwright, 
General Burg, and Admiral Young, when will there be an established 
requirement for pits by type by year, including a requirement for new 
types of pits, if any, and what is the process to develop requirements?
    Ambassador Brooks. In response to a request in Public Law 108-375, 
``Ronald Reagan National Defense Authorization Act for Fiscal Year 
2005,'' a report was submitted to Congress in January 2005 that 
addresses validated pit production requirements for an MPF. These 
requirements include the total number of pits to be produced per year, 
and the number of pits to be produced per year for each weapon type for 
the nuclear weapons stockpile specified in the revised nuclear weapons 
stockpile plan submitted to the congressional defense committees in 
June 2004. The report consists of an unclassified summary and a 
classified annex and concludes that a 125 pit per year MPF with full 
production starting in 2021 is the minimum capacity to support the 
President's reduced 2012 stockpile assuming a 60-year pit lifetime 
which is the upper end of the current 45- to 60-year estimate by 
National Nuclear Security Administration physics laboratories. There 
are no current requirements for new pit types.
    General Cartwright, General Burg, and Admiral Young. Respectfully 
defer to the National Nuclear Security Administration.

    44. Senator Bill Nelson. Ambassador Brooks and General Cartwright, 
does DOE/NNSA have a deadline for making a site selection for a MPF and 
if so, what is the deadline and on what basis was it established?
    Ambassador Brooks. The National Nuclear Security Administration 
does not have a ``deadline'' for making a site selection for the MPF, 
but we desire to make this decision as soon as possible due to the 
complexity of the project. The Consolidated Appropriations Act for 
Fiscal Year 2005 bars the use of any funds to select an MPF 
construction site in fiscal year 2005 pending the outcome of the 
ongoing review of the nuclear weapons complex and accelerated pit aging 
experiments. Thus, we have deferred site selection. Planning for a MPF 
is based on the smallest possible pit manufacturing plant capable of 
supporting a reduced 2012 stockpile consistent with the President's May 
2004 stockpile plan, as reported to Congress in June 2004, and a 60-
year pit lifetime assumption. Based on these planning assumptions, an 
MPF capacity of at least 125 pits per year (single shift operations) 
with modular expansion capability, a construction start in 2012, and 
full production in fiscal year 2021 is required to maintain the 
stockpile. A site decision is required in fiscal year 2006 to support a 
construction start in fiscal year 2013.
    General Cartwright. Respectfully defer to the National Nuclear 
Security Administration.

    45. Senator Bill Nelson. Ambassador Brooks, the 5-year budget for 
the MPF apparently does not include the cost for such a facility. What 
is the plan for the funding by year in the budget for the MPF?
    Ambassador Brooks. Funding through fiscal year 2010 for a Modern 
Pit Facility is covered in the Department of Energy (National Nuclear 
Security Administration) Fiscal Year 2006 Budget Request to Congress on 
page 171.

                       national ignition facility
    46. Senator Bill Nelson. Ambassador Brooks, will you commit to 
provide adequate funding to the National Ignition Facility (NIF) to 
support both ignition by 2010 and a robust series of high density 
physics experiments?
    Ambassador Brooks. We will commit to provide adequate funding to 
support the execution of the first ignition experiment in 2010 and a 
set of high-energy density experiments consistent with the highest 
priority needs of stockpile stewardship and the constrained budget. The 
NIF Activation and Early Use Plan defines the experimental program, 
including non-ignition experiments, to be executed on NIF through the 
execution of the first ignition experiment. Due to reductions in the 
fiscal year 2005 appropriations for the NIF Demonstration Program and 
changes in the fiscal year 2006-2010 funding profile from that 
previously planned, the NIF Activation and Early Use Plan is being 
modified. One of the consequences is that non-ignition work is being 
reduced. The NNSA will provide a revised NIF Activation and Early Use 
Plan to Congress by June 30, 2005, which will describe the implications 
of these budget changes. NNSA intends to focus the program on ignition 
while maintaining capability at the OMEGA and Z facilities to address 
near term issues.

    47. Senator Bill Nelson. Ambassador Brooks, how much money would be 
needed in the NIF budget in fiscal year 2006 to fund both stockpile 
experiments and to keep ignition on track?
    Ambassador Brooks. The fiscal year 2006-2010 ICF budget is more 
constrained than previously planned; accordingly, some changes will be 
made in the Inertial Confinement Fusion Ignition and High Yield (ICF) 
Campaign, including the NIF Project. Current technical progress on some 
high energy density issues reduces priority for further study of those 
issues. A review of these technical issues together with reductions in 
the fiscal year 2005 appropriations for the NIF Demonstration Program 
and changes in the fiscal year 2006-2010 funding profile is leading to 
modification of the NIF Activation and Early Use Plan. The NNSA will 
provide the final revised Plan to Congress by June 30, 2005.
    NNSA will support a constrained program in stockpile experiments in 
fiscal year 2006 consistent with the available budget, and will delay 
some high energy density stockpile experiments to later years. This 
program, while not robust, will meet minimum requirements and will 
enable a sensible transition into the fiscal year 2007-2011 period, 
where NNSA is examining the outyear changes necessary to bring the 
program back to the required level of support.
    The additional funds required to support the original robust 
program of stockpile experiments can be most easily seen by comparing 
the ``Support of Other Stockpile Programs'' funding line within the ICF 
Campaign in the fiscal year 2005 and fiscal year 2006 NNSA 
congressional budget submissions. This comparison is shown in the table 
below:

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                     Fiscal Year
                                                                    --------------------------------------------
                                                                       2006     2007     2008     2009     2010
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2005 Request--Support of Other Stockpile Programs......   42,997   45,636   49,089   50,208      n/a
Fiscal Year 2006 Request--Support of Other Stockpile Programs......    9,872        0   20,394   31,129   27,605
----------------------------------------------------------------------------------------------------------------
Difference.........................................................   33,125   45,636   28,695   19,079   19,505
----------------------------------------------------------------------------------------------------------------


                   navy t-lam-n, the nuclear tomahawk
    48. Senator Bill Nelson. Admiral Young, I understand that the Navy 
wanted to retire the nuclear Tomahawk. Is this still the Navy's 
position and if not, when and why did it change and how long does the 
Navy plan to keep this system?
    Admiral Young. Respectfully defer to the Secretary of the Navy.

    49. Senator Bill Nelson. General Cartwright, what are the targets 
or types of targets that you want to hold at risk with the nuclear 
Tomahawk that cannot be held at risk with any other nuclear or 
conventional weapon?
    General Cartwright. Currently, there are no targets that USSTRATCOM 
needs to hold at risk with the nuclear Tomahawk that cannot be held at 
risk with other nuclear and conventional weapons.

                   tactical nuclear weapons in europe
    50. Senator Bill Nelson. General Burg, is there any plan to review 
keeping nuclear weapons in Europe?
    General Burg. The ongoing Quadrennial Defense Review is 
holistically looking at the requirements for strategic deterrence.

    51. Senator Bill Nelson. General Cartwright, while I understand 
that tactical nuclear weapons in Europe do not fall within the purview 
of the Strategic Command, have you looked into the question of why 
nuclear weapons are kept in Europe and NATO continues to exercise with 
these tactical nuclear weapons? Should these weapons fall under the 
purview of Strategic Command?
    General Cartwright. Our nuclear forces support the defense policy 
objectives of assuring allies, dissuading competitors, deterring 
adversaries, and defending the United States should deterrence fail. 
The presence of U.S. nuclear forces based in Europe and committed to 
NATO provides a political and military link between the European and 
North American members of the Alliance. USSTRATCOM continues to work 
with U.S. European Command and Supreme Headquarters Allied Powers 
Europe to maintain our longstanding relationship. Current command 
relationships regarding nuclear weapons in Europe are adequate.

                          nuclear capable f-22
    52. Senator Bill Nelson. General Burg, is the Air Force planning to 
have any nuclear capable F-22 aircraft? If yes, what nuclear weapon 
will the F-22 carry?
    General Burg. No.

                           nuclear targeting
    53. Senator Bill Nelson. General Cartwright, what will drive the 
number and type of reliable replacement warheads that will be needed in 
the future? For instance, will the number and type be determined by 
specific targets, by specific target types, or will it be driven by a 
desire to have specific capabilities?
    General Cartwright. The National Defense Strategy drives all force 
structure including nuclear force elements. In that context, our 
nuclear force construct must be sized to support the policy objectives 
of assuring allies, dissuading competitors, deterring adversaries, and, 
if necessary, to defend the United States with sufficient force to 
defeat any aggressor. Furthermore, our forces must be flexible to 
provide the capability to deal with immediate, potential, and 
unexpected contingencies.

    54. Senator Bill Nelson. General Cartwright, President Clinton and 
Russian President Yeltsin agreed that neither would keep nuclear 
missiles targeted at the other's country. Is this agreement still 
honored?
    General Cartwright. Yes.

    55. Senator Bill Nelson. General Cartwright, are U.S. ICBMs or 
SLBMs targeted today on Russia or any other country?
    General Cartwright. There are no U.S. ICBMs or SLBMs targeted today 
on Russia or any other country.

                        long range global strike
    56. Senator Bill Nelson. General Cartwright, Admiral Young, and 
General Burg, in thinking about long range global strike and the future 
of Trident submarines and SLBMs, ICBMs, and the B-2, B-52, and B-1 
bombers, what is the timetable to identify replacements for these 
missiles programs and platforms? How do conventional strike 
capabilities figure into the thinking?
    General Cartwright and General Burg. The Air Force is conducting 
the Land Based Strategic Deterrent Analysis of Alternatives to explore 
the possibilities for replacing the Minuteman III in the 2020 
timeframe. The oldest Trident submarines will reach end of hull life in 
approximately 2030, driving the identification of a Trident replacement 
nominally around 2015. The Air Force's Next Generation Bomber Program 
is ongoing and is intended to identify capabilities to replace the B-52 
and B-2 that will reach their end of service lives around 2040.
    In reference to conventional strike capabilities, the New Triad 
concept presents an opportunity to reduce our reliance on nuclear 
weapons through the evaluation of alternative weapons, defensive 
capabilities, and associated risk.

    57. Senator Bill Nelson. General Cartwright, Admiral Young, and 
General Burg, are there currently any plans or serious discussions 
about using an ICBM or SLBM to deliver a conventional warhead? If so, 
what are the policy implications of this approach; that is, how can 
others be assured that a nuclear weapon is not on the missile?
    General Cartwright, General Burg, and Admiral Young. We are 
currently assessing the technical feasibility and potential policy 
implications regarding conventional warhead applications on an ICBM or 
SLBM.

    58. Senator Bill Nelson. General Cartwright, Admiral Young, and 
General Burg, what would the cost be of developing, testing, and 
fielding such a conventional system?
    General Cartwright, General Burg, and Admiral Young. USSTRATCOM is 
not an acquisition decision authority. Respectfully defer to the Navy 
and Air Force Services.

    59. Senator Bill Nelson. General Cartwright, Admiral Young, and 
General Burg, do we have the intelligence capabilities to support this 
type of conventional weapon?
    General Cartwright, General Burg, and Admiral Young. ICBM or SLBM-
delivered munitions require the same U.S. intelligence capabilities as 
any other conventional-delivered munitions. For many potential targets, 
particularly fixed facilities, we have sufficient intelligence to give 
us a high level of confidence about the target's function and status. 
For other potential targets, particularly those that are mobile or 
relocatable, we lack the type of persistent surveillance that allows us 
to find and track a target and then hold it at risk.

    60. Senator Bill Nelson. General Cartwright, Admiral Young, and 
General Burg, is there any consideration being given to have MMIIIs 
carry only conventional warheads?
    General Cartwright, General Burg, and Admiral Young. We are 
currently assessing the technical feasibility and potential policy 
implications regarding conventional warhead applications on an ICBM or 
SLBM.

    61. Senator Bill Nelson. General Cartwright, Admiral Young, and 
General Burg, is there any discussion of withdrawing from the 
intermediate range ballistic missile treaty to have either conventional 
or nuclear warheads on intermediate range missiles?
    General Cartwright, General Burg, and Admiral Young. Not to my 
knowledge.

                  plans to dismantle nuclear warheads
    62. Senator Bill Nelson. Ambassador Brooks, the 2004 stockpile plan 
identified approximately 3,000 to 4,000 warheads (the actual number is 
classified and so this number is not correct) that could be retired. 
Are there specific plans to dismantle these warheads over a specific 
time period? If so, what are these plans and is there money in the 
fiscal year 2006 budget request for DOE to implement these plans?
    Ambassador Brooks. The NNSA has developed specific plans to 
dismantle all retired warheads, including those reflected in the 
classified June 2004 Report to Congress, ``A Revised Nuclear Weapons 
Stockpile Plan for 2012.'' The NNSA also provided a classified report 
to Congress in February 2005 specifically regarding dismantlement, with 
specific plans through fiscal year 2010. The funding requested for 
fiscal year 2006 is sufficient for fiscal year 2006 activities.

    63. Senator Bill Nelson. Ambassador Brooks, if such plans do not 
exist, what is the significance of a warhead being designated for 
retirement?
    Ambassador Brooks. The NNSA has developed specific plans to 
dismantle all retired warheads, including those reflected in the June 
2004 Report to Congress, ``A Revised Nuclear Weapons Stockpile Plan for 
2012.'' Once a warhead is designated as ``retired'', it is no longer 
part of the nuclear weapons stockpile and the NNSA works with the 
Department of Defense to store, transport, and dismantle the warhead, 
and then ultimately disposition the resultant components.

    64. Senator Bill Nelson. Ambassador Brooks, how many total nuclear 
warheads and bombs are there in the stockpile today? How many were 
there 4 years ago?
    Ambassador Brooks. [Deleted.]

                        nuclear weapons security
    65. Senator Bill Nelson. Ambassador Brooks, General Cartwright, 
Admiral Young, and General Burg, several years ago the Nuclear Weapons 
Council, the Strategic Command, and the Department of Energy undertook 
what became known as the End-to-End Review. While Congress has never 
been fully briefed on this study, I understand that there were several 
serious issues identified in the study having to deal with nuclear 
weapons security. Can you describe what were the concerns generally, 
what actions have been taken to remedy the concerns, and are there any 
outstanding issues that have not been addressed?
    Ambassador Brooks. The End-to-End Review of the Nuclear Command and 
Control System was completed in 2002 under the chairmanship of Brent 
Scowcroft. The Department of Defense and the Department of Energy's 
National Nuclear Security Administration are working together on a plan 
for implementation of the End-to-End Review. A request for a briefing 
on the conclusions of the Review should be addressed to the Department 
of Defense.
    General Cartwright, General Burg, and Admiral Young. The Office of 
Under Secretary of Defense (Acquisition, Technology, and Logistics) is 
the releasing authority for the report and its implementer.

                         nuclear policy studies
    66. Senator Bill Nelson. General Cartwright, I understand that just 
before Admiral Ellis retired, your predecessor at the Strategic 
Command, he initiated a nuclear force study. Is this study completed, 
what did it cover, and what are the recommendations?
    General Cartwright. Admiral Ellis and his staff were involved in an 
analysis that followed the 2001 Nuclear Posture Review (NPR) and to 
assist in the development of the March 2003 NPR Implementing 
Instructions. It was not a formal study.

    67. Senator Bill Nelson. General Cartwright, does this nuclear 
force study exist in a written form and if so, could we get a copy of 
it?
    General Cartwright. No. There was no formal study.

    68. Senator Bill Nelson. General Cartwright, what other nuclear 
policies reviews are currently underway?
    General Cartwright. Nuclear policy may be examined in the context 
of the Quadrennial Defense Review for 2005.

                     annual stockpile certification
    69. Senator Bill Nelson. Ambassador Brooks, General Cartwright, 
Admiral Young, and General Burg, each year the Secretaries of the DOE 
and DOD, in consultation with the directors of the National 
laboratories, must certify that the nuclear weapons stockpile remains 
safe, secure, and reliable. If the Secretaries are not able to make 
this certification they must recommend what actions need to be taken to 
resolve the issue identified. The annual certification process for 2005 
is ongoing. Have any issues been identified so far in the 2005 review 
that concern any of you and if so, what are those issues? Will any of 
those issues require a resumption of nuclear weapons testing?
    Ambassador Brooks. Your questions concerning existing issues with 
the stockpile and the need for the resumption of nuclear weapons 
testing are best answered by the results of the Fiscal Year 2004 Annual 
Stockpile Assessment process that you should have now received. The 
results in fiscal year 2004 did note a number of manageable issues with 
the warheads that we continue to follow or work to better understand as 
part of the fiscal year 2005 assessment process; none of these issues 
appear to lead to a recommendation to resume nuclear testing.
    General Cartwright, General Burg, and Admiral Young. None of the 
issues currently identified will require a resumption of nuclear 
weapons testing.

    [Whereupon, at 3:22 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

                              ----------                              


                        THURSDAY, APRIL 7, 2005

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                   BALLISTIC MISSILE DEFENSE PROGRAMS

    The subcommittee met, pursuant to notice, at 2:31 p.m., in 
room SR-222, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Inhofe, Sessions, 
Cornyn, Levin, Reed, Bill Nelson, and E. Benjamin Nelson.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: William C. Greenwalt, 
professional staff member; Robert M. Soofer, professional staff 
member; and Kristine L. Svinicki, professional staff member.
    Minority staff members present: Madelyn R. Creedon, 
minority counsel; and Richard W. Fieldhouse, professional staff 
member.
    Staff assistants present: Andrew W. Florell, Benjamin L. 
Rubin, and Catherine E. Sendak.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; John A. Bonsell, assistant to 
Senator Inhofe; Arch Galloway II, assistant to Senator 
Sessions; Russell J. Thomasson, assistant to Senator Cornyn; 
Elizabeth King, assistant to Senator Reed; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; and Andrew Shapiro; assistant to Senator 
Clinton.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. Gentlemen, you may take your seats and 
the hearing will come to order.
    We meet today to receive testimony on Ballistic Missile 
Defense Programs and the policies of the Department of Defense 
(DOD).
    I want to welcome Senator Jim Inhofe, one of our senior and 
most active members of the Armed Services Committee and a 
member of this subcommittee, to be with us. Senator Bill 
Nelson, our ranking member, is caught in a meeting but should 
be joining us shortly.
    Though this hearing is being held at the subcommittee 
level, all members of the full Armed Services Committee have 
been invited to participate.
    I appreciate and am pleased to welcome today's witnesses: 
the Honorable Michael Wynne, Under Secretary of Defense for 
Acquisition, Technology and Logistics; and General James E. 
Cartwright, Commander of the United States Strategic Command 
(STRATCOM). It is good to meet with you again, General 
Cartwright. You have testified now in the last 2 weeks three 
different times before me, and I am impressed and appreciate 
your time. But these are important issues. I hope that it has 
not been too disruptive of your schedule, but we need a record 
on which to build an authorization bill that will be helpful to 
the country.
    Senator Reed, it is great to have you with us.
    Senator Reed. Thank you, Mr. Chairman.
    Senator Sessions. David Duma, the acting Director of the 
Operational Test and Evaluation (DOT&E); and Lieutenant General 
Henry Obering, Director of the Missile Defense Agency (MDA).
    Gentlemen, we thank you for your service in this highly 
important area that is critical to our Nation's defense and a 
highly technical area. We thank you for the time from your 
schedule.
    We have a lot of ground to cover today, so I will be brief 
with my opening remarks.
    During this hearing, I would like to cover at least two key 
issues. First, how has MDA restructured their missile defense 
program as a result of the administration's $5 billion 
reduction to the missile defense program over the fiscal year 
2006 through 2011, a billion dollar reduction in this year's 
funding? In particular, what is the rationale for MDA's 
proposed balance between the near-term fielding and longer-term 
deployment of systems, and what is the cost impact of cutting 
back or slowing programs as a result of these budget cuts? In 
other words, sometimes by slowing down too much or reducing 
programs too much, they end up costing more than we need to 
have occur. Sometimes it is better to continue the program and 
find the money in some other fashion.
    Second, what is the status of our initial defensive 
capabilities and testing program? That has been a matter of 
concern and we will discuss that today.
    With respect to this testing issue, I had the opportunity 
over the recess to visit with Senator Allard and Senator 
Cornyn--Senator Allard was the former chairman of this 
subcommittee, and Senator Cornyn is a member of the Armed 
Service Committee--to meet some of the men and women that are 
at our missile defense test sites and operational facilities in 
California and the Pacific. I was very impressed with them. I 
was very impressed with the breadth of infrastructure we have 
from the Marshall Islands, to Hawaii, to Vandenberg, to Alaska, 
which we did not visit. But it is quite an impressive array of 
radar, launch sites, and testing facilities.
    I viewed the ground-based interceptor (GBI) at Kwajelein. 
It was being prepared for its next test launch and I had the 
opportunity to inspect the GBI sites at Vandenberg Air Force 
Base that will be used for testing and, should the need arise, 
to defend this country against incoming ballistic missiles.
    We spent considerable time with MDA's Deputy Director for 
Test and Assessment, discussing what went wrong with the recent 
test, the ground-based midcourse defense system (GMD), and I 
feel confident that the last two aborted test launches do not 
represent setbacks for this important program. They represent 
setbacks in the sense that they were unsuccessful, but they do 
not reflect, from what I have learned to date, a serious defect 
in any of the systems. We are going to pursue that today and we 
want to hear your responses to the concerns that have been 
raised from those two failures.
    As far as I can tell, we may have a problem with quality 
control, but the inherent workability of the hit-to-kill 
technology continues to be proven as we were able, for example, 
to be on the destroyer Russell, the Aegis destroyer, and see a 
demonstration of how that and the Aegis cruiser had 
successfully proven once again the SM-3 technology, hit-to-kill 
technology, that the Navy is utilizing.
    General Obering, you are to be commended for taking the 
initiative in commissioning an independent review team to 
examine these recent test failures and recommend improvements 
to the development program.
    Our capability to defend the country against long-range 
ballistic missiles has come a long way since the 1970s when we 
tested national defense interceptors armed with nuclear 
warheads. In fact, last Sunday I had the honor to attend the 
memorial service in Tuscumbia, Alabama for Senator Howard 
Heflin. When he left the Senate, he said one of the things he 
was most proud of was having played a key role in the early 
discussions over national missile defense. I know he felt good 
this past year to realize that that vision he had--and he 
played a key role in keeping it alive--had resulted in the 
deployment of eight missiles capable of defending the United 
States. So we have come a long way.
    We should not forget that between 2000 and 2002, the MDA 
conducted four out of five successful intercept tests using 
prototypes of the GBIs we now have in place, and in 2003 and 
2004, MDA conducted three successful flight tests of the 
operational long-range booster now in place in Alaska and 
California.
    Despite what I believe to be a basically sound approach 
toward developing and fielding this important defensive 
capability, I do share the concern of many of my colleagues 
that additional operationally realistic testing of the GMB 
system is necessary. To address this concern, Congress last 
year directed the Secretary of Defense (SECDEF), in 
consultation with the DOT&E, Mr. Duma, to develop criteria for 
operationally realistic testing and conduct a test consistent 
with that criteria by the end of this fiscal year. My 
understanding is that the DOD has successfully addressed this 
requirement, and MDA now has in place a plan for increasingly 
realistic testing of the GMD systems over the next few years.
    Finally, while much attention is focused on GMD, I would 
also like to note that other ground- and sea-based missile 
defense programs, such as the Patriot and the Navy's Aegis SM-
3, continue to enjoy successful testing and now stand ready to 
defend our deployed forces and allies against shorter-range 
ballistic missiles.
    Likewise, development continues on the advanced systems 
such as the airborne laser (ABL) and the kinetic energy 
interceptor (KEI), both of which are candidates for a boost-
phase defense.
    We will want to look carefully at these two programs, as 
they represent a considerable investment well into the next 
decade.
    I would also like to understand why another boost-phase 
option, the spaced-based interceptor, has fallen out of the 
mix.
    I have already gone on too long, but if any of the other 
Senators here would like to make any opening comments, we would 
be glad to hear them before we proceed with questions.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Mr. Chairman, I would like to do that. I 
think when you said how this is of the utmost importance, this 
is the most important thing that we can be dealing with right 
now. I will not be able to stay very long, but I thought I 
would express the concerns I had that perhaps Secretary Wynne 
and the rest of you could address in your opening comments.
    As Mr. Reed just got back--I did too--from Iraq, I think 
that all the hysteria and the war effort has kind of deflected 
attention from a national missile defense system. People are 
not talking about that or as aware of that as they were before. 
When you see the successes--I had occasion to be there right 
after the election to see the E-4 attitude of the people over 
there who said such things as I could not see the ballot 
through my tears. It is the first time that in 7,000 years they 
have had an opportunity for self-determination.
    Then this last week, I had an opportunity to be in the 
Sunni Triangle, going around Fallujah and Tikrit and other 
places, and just seeing people like a former brigade commander 
of Saddam Hussein, a guy named Mahti, is now doing the same 
thing in Fallujah for us. He is one who hated Americans but 
loves Americans now. It was great to watch the successes.
    But in spite of those successes, the imminent threat that I 
have always felt was there is one that I thought was very 
visionary by Ronald Reagan. Mr. Chairman, it was just 2 weeks 
ago that we celebrated the 22nd anniversary of Strategic 
Defense Initiative (SDI). The fact that he saw this coming, 
saying it would take a long period of time for it to get here, 
several decades, and of course, it has.
    I was disturbed and expressed my concern back in 1996 when 
President Clinton at that time vetoed the 1996 defense 
authorization bill. In his veto message, he said, the bill 
requires deployment by 2003 of a costly missile defense system 
able to defend all 50 States from a long-range missile threat 
that our intelligence community does not think exists. We found 
out afterwards that the intelligence community was wrong.
    I can recall getting a letter--and I think, Mr. Chairman, 
you were there at the time--on August 24, 1998, saying it would 
be about 5 years before North Korea would have the capability 
of reaching the United States with a multi-stage rocket. Seven 
days later on August 31, they fired one.
    Then people are saying, well, that is a country that is run 
by a person that you cannot predict. It is not like the Soviet 
Union was at one time, and then also with others they are 
trading technology and systems with, such as Iran, people say, 
well, it will be 10 years before Iran has the delivery 
capability. Well, that is if it is indigenous. They could have 
it tomorrow.
    So these are things that concern me, and what I would like 
to have you address in your opening statements is how you 
perceive the gravity of the problem. Maybe I am overlooking 
something. It is not as bad as I think.
    Second, with the reduction--the chairman said $5 billion 
over 5 years. Is that not right? Well, $1 billion this coming 
year in the current budget. If that slows you down--I would 
like to have you be very honest with us as the committee as to 
what you think is adequate. We want to make sure that you have 
the resources to get us where we want to go as soon as 
possible. So if you could address those things in your opening 
statements, it would be very helpful.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you, Senator Inhofe.
    Senator Reed, Senator Nelson, do you have any comments 
before the witnesses?
    Senator Ben Nelson. I am anxious to hear the witnesses. 
Thank you.
    Senator Sessions. Gentlemen, we would be glad to hear from 
you. Mr. Wynne, are you going to lead off?

 STATEMENT OF HON. MICHAEL W. WYNNE, ACTING UNDER SECRETARY OF 
       DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Wynne. Yes, sir. Thank you, Mr. Chairman. Thank you, 
Senator Inhofe. Thank you, Senator Reed and Senator Nelson, for 
being here and other members of the committee. Thanks for the 
opportunity to testify today on the fiscal year 2006 DOD 
missile defense program and the budget submission.
    As Senator Inhofe indicated, the addition of the global war 
on terror did not diminish the span of missions given to the 
DOD to provide for the common defense. In fact, it highlighted 
and expanded the total mission of the Department.
    One of the reasons potential adversaries have sought 
ballistic missiles is that the United States has historically 
had no defense against long-range missile attack. President 
Bush made it a top priority of his administration to end this 
vulnerability.
    Congress had actually preceded this with its own priority 
challenge when in the National Missile Defense Act of 1999 it 
established the U.S. policy to deploy an effective national 
missile defense system capable of defending us against limited 
ballistic missile attack.
    Last year I testified to the full Senate Armed Services 
Committee that we had encountered and solved a number of 
technical difficulties and can expect further challenges. This 
year my expression is not much different. I am pleased to 
report that we are no longer defenseless against long-range 
ballistic missile attack. As we place additional components of 
our initial configuration into service, the effectiveness of 
our missile defense capability will incrementally improve 
through 2006 and beyond.
    As I have testified in the past, the Ballistic Missile 
Defense (BMD) Program differs from the classical major defense 
acquisition program. I am confident that our unique acquisition 
and the management structure the Department has put into place 
for the BMD Program reduces decision times and promotes the 
capability based incremental development of our highly 
integrated and layered ballistic missile defense systems.
    I believe our innovative approach has proven successful, 
and the Government Accountability Office (GAO) generally 
agrees. The GAO has completed six MDA specific reviews in the 
past year, with more to come, and we have learned from them and 
implemented a number of their recommendations.
    We have made substantial progress in the missile defense 
program. We have placed ground-based interceptors in Alaska and 
in California. We have updated radars and we have modified 
Aegis ships for long-range surveillance and tracking support. 
Logistic support is in place. We have connected the elements to 
the fire control system, and we have a command and control 
battle management and communications capability in place. We 
are also conducting increasingly realistic exercises and tests.
    Our test program is designed to build confidence in our 
missile defense capability. While I am now disappointed in the 
results of the GMD's recent test, I am overall pleased with the 
program's progress and with the director's response to these 
conditions. The essential challenge to the program now is to 
emphasize discipline and quality assurance, and one additional 
goal I have set out is to improve the turnaround time between 
these test events.
    The President's budget for fiscal year 2006 reflects our 
priorities, as well as an implementation plan developed by the 
Secretary and all of his advisors. It responds to the need to 
prepare for an uncertain future that will require more agile, a 
more lethal, and a more responsive force in a most cost 
effective manner.
    The Department did reduce missile defense funding in fiscal 
year 2006 by $1 billion approximately to about $7.8 billion. We 
have not changed our mission in any way but have adapted to 
this fiscal discipline and remain committed to fielding 
effective missile defenses.
    In implementing the reduction, the director of the MDA was 
left to plan how best to structure the program, balancing 
development, testing, and fielding while mitigating risk. I 
believe that the President's budget will allow the Department 
to pursue a missile defense system that meets the needs of the 
warfighter. I urge the committee to support this President's 
budget for the important program.
    We are grateful for the support of Congress, which has made 
this bold effort to field missile defense capabilities possible 
and set it in motion.
    Thank you for this opportunity to testify before the 
committee. I would be happy to answer any questions you might 
have.
    [The prepared statement of Mr. Wynne follows:]
              Prepared Statement by Hon. Michael W. Wynne
    Good afternoon, Mr. Chairman, Mr. Ranking Member, and members of 
the committee. Thank you for the opportunity to appear before you today 
to discuss the fiscal year 2006 Department of Defense (DOD) Missile 
Defense Program and budget submission. I am pleased to provide you this 
update on the progress of the Missile Defense development program.
    The United States and our allies face serious and unpredictable 
threats to our homelands, populations, and interests. One of these 
threats is the proliferation of weapons of mass destruction and the 
means to deliver them, including ballistic missiles. These weapons have 
proliferated on a global basis and are possessed today by some two 
dozen States, including some of the world's least responsible regimes.
    One of the reasons potential adversaries have sought ballistic 
missiles is that the United States has historically had no defense 
against long-range missile attack. President Bush has made it a top 
priority of his administration to end this vulnerability and to begin 
fielding missile defenses to protect the U.S., its deployed forces, and 
its friends and allies. The DOD has made great progress in ending the 
Nation's vulnerability to missile attack, and I am pleased to appear 
before you today to discuss this progress.
    The National Missile Defense Act of 1999 established that it is the 
policy of the United States to deploy as soon as technologically 
possible an effective National Missile Defense system capable of 
defending the territory of the United States against limited ballistic 
missile attack. Upon taking office, President Bush directed that the 
DOD examine the full range of available technologies and basing modes 
for missile defense that could protect the United States, our deployed 
forces, and our friends and allies. In light of the changed security 
environment following September 11 and the progress made in development 
efforts, the President directed the Department to begin fielding 
missile defense capabilities in 2004. We have indeed fielded an 
inherent capability that can be used for limited defense of the United 
States against long-range threats from North Korea. In 2005, we are 
enhancing that capability. Last year, I testified to the full Senate 
Armed Services Committee that we had encountered and solved a number of 
technical difficulties and can expect further challenges on the path 
ahead. This year, I must tell you that my statement from a year ago 
remains true, as our test program has had both successes and 
disappointments. But I am pleased to report that we have made a 
dramatic improvement over our previous condition of being defenseless 
against long-range ballistic missile attack. As we place additional 
components of our initial configuration in service in 2005, the 
effectiveness of the missile defense capability will incrementally 
improve. Further improvements planned for 2006 and beyond will continue 
to enhance both the capability of fielded missile defense components 
and the depth of those capabilities.
    The Secretary's direction to consolidate ballistic missile defense 
development activity within a single program and to streamline our 
oversight process has enabled the Director of the Missile Defense 
Agency (MDA) to make the program decisions that make the fielding of an 
initial ballistic missile defense capability possible more quickly than 
would be the case for a ``standard'' acquisition program. As I have 
testified in the past, the Ballistic Missile Defense (BMD) Program 
differs from the classical major defense acquisition program, so our 
approach to acquisition differs. Rather than produce and deploy a fixed 
``objective'' missile defense configuration to serve its entire 
operational life, we plan an ambitious program of technology insertions 
and additional fielding actions to enhance the capability. This 
approach is justified not only by the uncertain nature of the security 
environment in which our missile defense system must work, but also by 
the advantages it offers from an acquisition strategy perspective.
    I am confident that our acquisition approach and the management 
structure the Department has put into place for the BMD Program reduces 
decision times and promotes the capabilities-based, incremental 
development of our highly integrated and layered BMD System. The 
Director of the MDA reports directly to me; we meet weekly to discuss 
current issues and quarterly for a full review of the missile defense 
program. In addition, my predecessor created the Missile Defense 
Support Group (MDSG), a group of senior and experienced individuals 
from all the DOD stakeholder organizations to advise the Director of 
the MDA and support the Department's senior leadership in this critical 
area. The MDSG has met over 50 times in the past 3 years to discuss 
complex issues and provide advice to the Director. The frequency of 
these MDSG meetings far exceeds the amount of senior level oversight 
and advice we give programs in the ``normal'' acquisition process. I 
have also encouraged an active interaction between the Director of the 
MDA and the Director of Operational Test and Evaluation (DOT&E), as 
well as their respective staffs. I am satisfied that their relationship 
has evolved in constructive ways, to the point of the Director of the 
MDA and the DOT&E jointly approving a master test plan. You will also 
find that the testing community has people embedded in the management 
offices of our missile defense elements. These actions give me 
confidence that the Department's management structure for, and 
oversight of, the missile defense program facilitates decisive senior 
leadership action, provides the Director of the MDA the authority he 
needs to execute the BMD Program, and also provides Congress extensive 
and frequent insight into our progress.
    I continue to believe our innovative approach is proving 
successful. Based on recent reviews, the Government Accountability 
Office (GAO) appears to agree. The GAO has been actively engaged in 
reviewing the Ballistic Missile Defense Program, having completed six 
MDA-specific reviews in the past year and with additional reviews on-
going at this time. In many ways, our approach to developing the 
Missile Defense Program shares characteristics of the GAO's knowledge-
based criteria for major program decisions. We have worked closely with 
the GAO and have implemented a number of their recommendations.
    We have made substantial progress in the Nation's Missile Defense 
Program. We have already emplaced ground-based interceptors in Alaska 
and California, updated radars, and modified Aegis ships for long-range 
surveillance and tracking support. Logistics support is in place. We 
have connected the elements to the fire-control system, and we have a 
command and control, battle management and communications capability in 
place. We are conducting increasingly realistic exercises and tests, 
and are learning more about the system with every exercise and test 
event. By the end of 2005, we will have added still more ground-based 
interceptors, upgraded additional radars, added a sea-based X-band 
radar, additional long-range search and track destroyers, and Aegis 
cruisers with engagement capability using the Standard Missile-3.
    Our test program is designed to build confidence in the 
capabilities we are placing in service. Our sea-based midcourse defense 
element has had notable success while adding increasing realism. 
However, we have to remember that we are in the early stages of 
providing an unprecedented defensive capability. While I am 
disappointed in the results of the GMD's recent tests, I am pleased 
with the program's overall progress and with the Director's response. 
Those setbacks have not shaken our confidence in the system's 
fundamental capability. This is a complex system with a number of 
components that must work together. The essential shift we must now 
make is to emphasize discipline in quality assurance. The problems we 
have seen recently are not unusual for new programs in this phase of 
development. The Director of the MDA has taken strong steps to 
reinforce process and product quality. He has put a plan into place to 
return the GMD Program to a successful flight test program. I wholly 
endorse that plan and also want to improve ``turnaround'' time between 
test events. The Department will further build its confidence in the 
BMD System in the intercept tests we have scheduled for this year and 
next.
    I would also note that our advances in the BMD Program have 
attracted increasing interest and attention from the international 
community. We have signed formal agreements with the United Kingdom, 
Japan, and Australia. These agreements cover cooperation across a range 
of missile defense activities. Japan is acquiring a multi-layered BMD 
system, and we are working with Israel on improvements to the Arrow 
system. We are actively working on our collaboration with Russia on 
theater defense exercises and are in discussions to explore other areas 
of potential missile defense cooperation.
    The President's budget for fiscal year 2006 reflects the priorities 
set by the President and an implementation plan developed by the 
Secretary and his most senior military and civilian advisors. The 
budget was drafted in light of the progress that has been made--and the 
changes that have taken place--since September 11, 2001. As such, it 
responds to the need to prepare for an uncertain future that will 
require a more agile, lethal, and responsive force. At the same time, 
we must ensure that we maximize the capabilities gained from our 
defense dollars. In that regard, the budget fully supports the BMD 
Program. The Department has reduced missile defense funding in fiscal 
year 2006 by $1 billion, to $7.8 billion, compared to our plan a year 
ago. We have not changed our mission in any way, and we are fully 
committed to fielding effective missile defenses. In implementing the 
reduction, we have allowed the Director of the MDA to plan how best to 
structure the program, balancing development, testing, and fielding, 
and I have approved his approach. We will accomplish this by focusing 
on key aspects of the program, through a thorough scrub of 
infrastructure needs and overhead, and through careful restructuring of 
out-year programs while mitigating risk. For example, we have 
established the Airborne Laser (ABL) program as our primary boost-phase 
defense program. But because we will not know for several years whether 
ABL will contribute the capabilities we need, we are continuing with a 
restructured Kinetic Energy Interceptor (KEI) program that emphasizes 
critical technology demonstrations. I believe that the President's 
Budget will allow the Department to pursue a fully capable missile 
defense system--one that meets the needs of the warfighter. I urge the 
committee to support the President's budget for this important program.
    We are grateful for the support of Congress, which has made this 
bold effort to field missile defense capabilities possible. 
Congressional approval of the President's requests for missile defense 
funding has been critical to our smooth execution of the program. 
Continued cooperation between the Department and Congress will only 
grow in importance as we execute our mission to provide for the 
national security of the United States. I look forward to continuing 
that cooperation.
    Thank you for this opportunity to testify before the committee. I 
would be happy to answer any questions you might have.

    Senator Sessions. General Cartwright, STRATCOM Commander.

STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    General Cartwright. Thank you, Mr. Chairman. I will be 
brief, but I do want to address some of the issues that Senator 
Inhofe brought up.
    In 2004, we set off to build an initial capability that 
would defend against a limited threat, two to five missiles 
from North Korea. This was a rudimentary system, in my terms, a 
thin line, critical mission threads. We had just enough command 
and control, sensors and weapons that if we had an emergency, 
we could pull that together and have a capability and present 
that capability to the Nation.
    During that period, we took the time to do, in naval 
parlance, what we call a shakedown. Behind me is Lieutenant 
General Larry Dodgen, who is my commander for integrated 
missile defense. He has put his soldiers through the places to 
understand the system, to start to understand and have a vision 
of where this system is going, and the operational challenges 
that it will bring to the table.
    One thing that I walked away with in that shakedown was 
that I am absolutely convinced that we must have a defensive 
capability. No longer do we face a single foe like we did in 
the Cold War. We have a complex threat out there, multiple 
nations, multiple types of threats. An offense alone is not 
going to be enough to deter them.
    Mr. Chairman, we had this discussion in the closed session, 
but I think it bears mentioning again. As a marine--and some of 
the discussion we had with the forces in Iraq--I would not send 
a marine out into the streets of Fallujah with just an M-16. He 
has to have body armor. It changes the equation. The enemy that 
he faces, when he steps into the street, is lurking in the 
corners. He does not care who gets killed in the cross-fire. It 
is just a fact of life that this is a more complex environment 
and we have to change the mind set of the enemy. We have to 
take away from the enemy the ability to give the first shot and 
have him have his way with that first shot. We just have to 
change that calculus. To me this missile defense system starts 
to give us that capability.
    If, at the end of the day, we put the body armor on the 
marine and we give him a good M-16, then he at least has a 
fighting chance and he has changed the mind set of the enemy. 
But again, at the end of the day, it goes to the story that 
just carrying the M-16 is not going to be enough.
    North Korea and others have and will declare their 
intentions to build weapons of mass destruction (WMD). North 
Korea and others have and are building delivery systems. The 
rhetoric is bellicose out there and also threatening to us. 
North Korea shows little compassion for its people.
    When we started into this shakedown in 2004, one of the 
things that we had as an objective was to ensure that the 
warfighter, in going through this shakedown, had the 
opportunity to contribute and give input to this operationally 
realistic testing and to start to challenge many of the 
assumptions that we use to build this system.
    We have had that input. We have had an opportunity to 
contribute, and the operational test community and General 
Obering in the MDA side of the house have both been responsive 
to our inputs and the things that we have learned in our 
shakedown. I find that to be refreshing and very valuable and 
it contributes to the overall capability of the system.
    But as we start to field this system this year, the thing 
that we are trying to add, the thing that is important to us is 
a more robust command and control system, one that is 
distributed and has multiple nodes so that one node cannot be 
attacked. That is what is happening in 2005. We are fielding 
that distributed command and control system. We are also 
fielding fixed and mobile sensors, critical to being able to 
have redundancy and a layering effect that will be so essential 
in this system, and we are doing the same with our weapons in 
that we are now fielding both fixed and mobile weapons systems.
    We are moving toward a defensive capability that will 
defend the United States, our forward deployed forces, our 
allies, and friends. That is the goal. We have to have that 
vision and keep it in mind. But again, at the end of the day, 
what I walk away with from the shakedown is that offense alone 
is not enough anymore.
    I stand ready for your questions, sir.
    [The prepared statement of General Cartwright follows:]
          Prepared Statement by Gen. James E. Cartwright, USMC
    Mr. Chairman and members of the subcommittee: This is my first 
opportunity to appear before you as Commander of the United States 
Strategic Command (USSTRATCOM). Thank you for the time you've given me 
to discuss the missions assigned to us as we continue to prosecute the 
global war on terror and take on the challenge of combating weapons of 
mass destruction.
    My prepared remarks cover USSTRATCOM's role in the challenging 21st 
century environment and plans for addressing those challenges with 
capabilities to serve our Nation's needs in war and in peace.
                  the 21st century global environment
    Global interdependence--economic, political, and social--combined 
with near instantaneous global connectivity, is a trademark of the new 
century. It also heightens the importance of strong links between U.S. 
strategic objectives and regional operations. U.S. strategic objectives 
have profound influence on individuals, regions, nations, and non-state 
actors and networks. The tight linkage between U.S. strategic 
objectives and the conduct of regional operations is evident in our 
operations in Afghanistan and Iraq, and more recently in Asia in the 
aftermath of the tsunami. In Afghanistan, the strategic objective to 
combat global terrorism guided, as well as constrained, our regional 
decisions. The regional operations in Iraq are clearly influencing 
cultural, economic, and security considerations around the globe.
    Our adversaries are using asymmetric approaches; exploiting social, 
political, and economic vulnerabilities to avoid confronting superior 
U.S. forces head on. We continue to see increases in the speed and 
deceptive scale of proliferation of potential weapons of mass 
destruction, including delivery and concealment capabilities. We see 
adversaries who would use improvised explosive devices (IEDs) and 
suicide bombs against their own people and infrastructure, as well as 
against deployed multinational forces. These adversaries have easy 
access to the same global technology base we do, and can exploit the 
same communication and information resources as the American public. 
They have proven they are an intelligent and adaptable enemy.
    All operations, while regional in execution, have global 
consequence and therefore require a global perspective. Regional 
combatant commanders, who are responsible and accountable for 
conducting combat and peacekeeping operations in their areas of 
responsibility (AORs), have long depended upon support provided from 
outside their AORs. Much of that support, which in the past was 
provided on an ad hoc basis, has now been codified in the Unified 
Command Plan as a USSTRATCOM global responsibility. We are positioning 
USSTRATCOM to advance a distinctly global and strategic perspective on 
current and emerging capabilities necessary to deter threats to our way 
of life, particularly those threats involving weapons of mass 
destruction. USSTRATCOM will enable combatant commanders' regional 
operations through realization of a comprehensive set of global mission 
capabilities, soundly integrated to achieve more effective and 
efficient execution.
    We look upon this responsibility as both an exciting challenge and 
a solemn obligation to the regional combatant commanders, the American 
men and women who serve in their AORs, and to the American people.
                            global enablers
    21st century operations are fundamentally different from those of 
the last century. Combat operations are being conducted in rapidly 
changing circumstances, shifting from humanitarian operations to 
intense firefights within a few hundred yards of each other with little 
or no warning. This dynamic nature is matched by a varying composition 
of assisting partners. We must be ready to conduct integrated, 
distributed operations using global and regional military forces. In 
many situations, these forces will be augmented by other U.S. 
Government personnel, coalition and commercial partners, and possibly, 
nongovernmental organizations. To plan and effectively execute these 
types of distributed, agile and integrated operations, the regional 
combatant commands increasingly rely on multiple capabilities the 
global commands must support or provide.
    The Unified Command Plan expands USSTRATCOM responsibilities 
through the assignment of global mission areas that span levels of 
authority, cross regional boundaries and intersect with various 
national and international agencies. USSTRATCOM's missions are:

        <bullet> Global deterrence;
        <bullet> Global support from space-based operations;
        <bullet> Global intelligence, surveillance, and reconnaissance;
        <bullet> Global strike;
        <bullet> Global information and network operations;
        <bullet> Global command and control;
        <bullet> Global integrated missile defense coordination; and
        <bullet> Globally combating weapons of mass destruction.

    Achieving the full potential of these missions is contingent upon 
identifying the right capabilities mix and sustaining our global reach 
through space. However, without the context of advanced situational 
awareness, and the power of collaboration, even the best tools may be 
insufficient to deter and defeat a determined adversary. We are placing 
an emphasis on the following global enablers:
The New Triad
    USSTRATCOM supports The New Triad concept; a strategic way ahead in 
pursuit of a more diverse set of offensive and defensive warfighting 
capabilities. We are active participants in all three legs of The New 
Triad: offensive nuclear and non-nuclear strike (including nonkinetic), 
passive and active defenses, and a defense infrastructure capable of 
building and sustaining all offensive and defensive elements, including 
the critical support areas of command and control and intelligence.
    Coupled with improved collaboration and shared global awareness, 
The New Triad concept will enable more precisely tailored global strike 
operations. With a full spectrum of nuclear, conventional and 
nonkinetic options available, regional combatant commanders will be 
enabled to achieve specific local effects against high value targets in 
the context of the strategic objective.
    While we are confident in our ability to support effective global 
strike operations today, we must continue to evolve that capability to 
meet the demands of an uncertain tomorrow. For example, I intend to 
conduct experiments to better understand the value of weapon accuracy 
within a range of stressing environments. If modeling and testing 
confirm the value of such capability, this may lead to new thoughts on 
the balance between nuclear and conventional strike alternatives.
    The new responsibilities assigned to USSTRATCOM have required the 
command to broaden its Cold War focus from deterring nuclear or large-
scale conventional aggression to becoming a major contributor to the 
much broader defense strategy. Nuclear weapons, however, continue to be 
important, particularly for assuring allies and friends of U.S. 
security commitments, dissuading arms competition, deterring hostile 
leaders who are willing to accept great risk and cost, and for holding 
at risk those targets that cannot be addressed by other means. As 
steward of the Nation's strategic nuclear deterrent, we have two 
specific areas of focus--rationalizing our nuclear forces, and 
providing for a relevant nuclear stockpile in the context of The New 
Triad. At the same time we will continue to evaluate and provide a 
range of options, both nuclear and non-nuclear, relevant to the threat 
and military operations.
    The New Triad concept presents an opportunity to reduce our 
reliance on nuclear weapons through the evaluation of alternative 
weapons, defensive capabilities and associated risk. It is our intent 
to have the upcoming Quadrennial Defense Review address nuclear issues, 
and the associated infrastructure, to determine transformation 
requirements for our nuclear capabilities in the 21st century. We will 
look at rationalizing our nuclear forces as an element of the overall 
force structure and the proper tailoring of nuclear effects as part of 
the broad spectrum of national power. These assessments will be 
important to future operational planning as well as future budget 
plans.
Space
    The importance of the space mission to our national security cannot 
be overstated. The U.S. economy, our quality of life, and our Nation's 
defense are all linked to our freedom of action in space. For example, 
satellites are at the heart of routine financial activities such as 
simple automatic teller machine operations or complicated international 
currency and stock market transactions. The telecommunication industry 
is heavily vested in space. Commercial airliners, container ships, 
trains, trucks, police, fire departments, and ambulances have also 
become highly dependent upon space-based global positioning systems to 
enhance their ability to safely deliver people, goods and services. The 
fact is, our dependency on space increases every day--a fact not lost 
on our adversaries. This growing national dependence on space-based and 
space-enabled capabilities establishes a true imperative to protect our 
space assets and our ability to operate freely in and from space.
    We currently enjoy an asymmetric advantage in space, but our 
adversaries are gaining on us. Our space support infrastructure is 
aging and, in some instances, on the verge of becoming obsolete. We 
will continue to face additional challenges as other nations exploit 
new technologies and capabilities in attempts to bridge the gap between 
them and us.
    The space environment itself is also rapidly changing. For example, 
the number of objects in-orbit increases every month, while the size of 
those objects decreases. This is challenging our space surveillance 
technology, developed in the latter half of the 20th century, because 
it was not designed to detect or track the current magnitude of new, 
smaller objects, including micro-satellites. This increases the chances 
of collisions, which threatens our manned spaceflight program; opens 
the door for unwarned action against U.S. satellites by adversaries; 
and limits our ability to protect our space assets.
    We must do a better job of leveraging the capabilities of our space 
assets--in DOD, national and commercial systems. We must also maintain 
the ability to protect our own space assets and capabilities, both 
actively and passively, while denying our adversaries the military use 
of space--at the time and place of our choosing.
    In order to bring these elements of space control together, our 
near-term plan is to work with the various space programs to identify 
potential gaps and make sure existing information and applications are 
available and provided to authorized users on a global network. This 
plan will serve as the basis for a concept of operations to exploit 
information from our space assets, providing space situational 
awareness to the regional combatant commands.
Distributed Operations
    For distributed, integrated operations, dominant situational 
awareness is an imperative--globally, regionally, and locally. It must 
exist across the full breadth and depth of operations, from planning 
and combat through post-conflict reconstruction, and ultimately, 
peacetime.
    For our forces to effectively employ collaborative capabilities and 
capitalize upon situational awareness, we must enable them to create 
pictures of the battlespace tailored to their specific needs--what we 
refer to as User Defined Operating Pictures. It is USSTRATCOM's job to 
provide the global capabilities to enhance situational awareness, 
facilitate collaborative planning, and provide a basic User Defined 
Operating Picture capability for all of the combatant commands.
    Many of the capabilities required for agile, distributed operations 
will be facilitated by space and enabled by a global information 
environment with ubiquitous, assured access to information, when and 
where any combatant commander needs it. To achieve this vision, the old 
mantra to provide information on a ``need to know'' basis, must be 
replaced by a ``need to share.'' Critical information that the 
warfighter didn't know existed, and the owner of the information didn't 
know was important, must be made available within a global information 
environment easily accessible to commanders at all levels.
Interdependent Capabilities
    Our action plan for global command and control focuses on ensuring 
the all-source information needed for effective operations is available 
to all theaters. For the global Intelligence, Surveillance, 
Reconnaissance (ISR) mission, that also means developing integrated and 
persistent systems capable of supporting precision targeting. 
USSTRATCOM has the lead for coordinating global ISR capabilities and 
will be working closely with the regional combatant commanders, Joint 
Forces Command and the Services to develop the associated strategy.
    The Department's net-centric global information services, currently 
in development, are essential to our global missions. These services 
will connect global and regional applications and improve both 
horizontal and vertical information integration.
    We are developing a prioritized plan for transitioning away from 
stove-piped legacy systems to capabilities that support broader 
information and applications access. Included in this plan are actions 
focused on leveraging existing legacy applications and data by making 
them more broadly accessible. Each user will be allowed the flexibility 
to select from any available data source, anywhere on the network, 
those objects most useful to them at any particular time. Additionally, 
any new data source will be available the moment it comes onto the 
network, rather than requiring a modification to existing systems, as 
is the case today.
    USSTRATCOM is an advocate for net-centricity. Our focus is on:

        <bullet> Capability to enable our ``internet-like'' environment 
        and access to information;
        <bullet> Realization of a high-bandwidth, ubiquitous 
        communications backbone to deliver information with high 
        assurance and low latency; and
        <bullet> Robust information assurance required to defend our 
        networks and our information.

    Creating a collaborative structure is more than just designing and 
disseminating tools--it is also about changing human behavior. Our 
objective is a global, persistent, 24/7 collaborative environment--
comprising people, systems, and tools. Our future structure must 
support real time command and control at both the global and local 
levels as well as enable dynamic, adaptive planning and execution in 
which USSTRATCOM, the regional combatant commanders, and other 
geographically dispersed commanders can plan and execute operations 
together. Our collaborative environment must also provide the 
capability to ``connect all the dots''--enemy dots, friendly dots, 
neutral dots, contextual dots--all the dots that matter--as they 
appear, rather than wait for a post-event analysis when all of the 
different data stores can be opened. With improved collaboration and 
shared awareness, we can more effectively conduct operations using the 
full spectrum of capabilities to achieve desired, focused effects 
against high value targets.
    In that regard, we are actively assessing the currently available 
collaborative environment and processes and investigating potential 
pilot programs to encourage organizational information sharing to build 
trust in shared information. Fundamental to this issue is the 
establishment of data tagging standards and associated information 
assurance policies.
    With regard to sharing information, we are in some respects 
navigating uncharted waters. While the value of sharing information 
with allies, coalition partners, and other Federal departments and 
agencies is well understood, sharing information with industry or other 
private sources presents proprietary, intellectual property and privacy 
concerns which are not well understood. Such information has the 
potential to be of great value to USSTRATCOM and the regional combatant 
commanders in accomplishing our missions. We will be attentive to the 
actions currently being taken throughout the Federal Government in 
response to Executive Order 13356, ``Strengthening the Sharing of 
Terrorism Information To Protect Americans,'' which may provide us 
valuable insight and guidance in this sensitive area.
                    building an asymmetric advantage
    In addition to our role as steward of the Nation's nuclear forces 
and guardian of global deterrence, USSTRATCOM now has the 
responsibility for working across regional boundaries to address 
threats in a global perspective. To achieve the asymmetric advantage we 
desire requires us to build the interdependent, collaborative, 
operational environment we've envisioned. It is our responsibility to 
provide global services and global context to the regional combatant 
commands and their deployed forces so we are collectively a more 
effective force--for warfighting, peace and all possible combinations 
of both.
New Command Structure
    As the latest step in maturing our approach to fulfilling 
USSTRATCOM's global mission responsibilities we are implementing a new 
command structure. This structure is critical to the asymmetric 
advantage we seek, leveraging essential competencies of associated 
components and key supporting agencies through an distributed, 
collaborative environment.
    Rather than creating additional organizational layers, we are 
bringing existing commands and agencies under our global mission 
umbrella through the establishment of Joint Functional Component 
Commands. These interdependent Joint Functional Component Commands will 
have responsibility for the day-to-day planning and execution of our 
primary mission areas: space and global strike, intelligence 
surveillance and reconnaissance, network warfare, integrated missile 
defense and combating weapons of mass destruction.
    USSTRATCOM headquarters retains responsibility for nuclear command 
and control. Additionally, headquarters will provide strategic level 
integrated and synchronized planning to ensure full-spectrum mission 
accomplishment. USSTRATCOM will also advocate for the capabilities 
necessary to accomplish these missions.
    This construct will allow us to leverage key, in-place expertise 
from across the DOD and make it readily available to all regional 
combatant commanders. Our vision is for the combatant commanders to 
view any Joint Functional Component Command as a means by which to 
access all of the capabilities resident in the USSTRATCOM global 
mission set. Anytime a combatant commander queries one of our component 
commands, they will establish strategic visibility across our entire 
structure through our collaborative environment. The fully integrated 
response USSTRATCOM provides should offer the combatant commander 
greater situational awareness and more options than originally thought 
available. Specific Joint Functional Component Command responsibilities 
include:

        <bullet> Space and Global Strike. The Commander of STRATAF (8th 
        Air Force) will serve as the Joint Functional Component 
        Commander for Space and Global Strike. This component will 
        integrate all elements of military power to conduct, plan, and 
        present global strike effects and also direct the deliberate 
        planning and execution of assigned space operation missions. 
        For plans not aligned with a specific mission set, the Joint 
        Functional Component Command for Space and Global Strike is 
        tasked to work in close coordination with USSTRATCOM 
        headquarters as the lead component responsible for the 
        integration and coordination of capabilities provided by all 
        other Joint Functional Component Commands.
        <bullet> ISR. The Director, Defense Intelligence Agency (DIA) 
        will be dual-hatted to lead the ISR Joint Functional Component 
        Command. This component is responsible for coordinating global 
        intelligence collection to address DOD worldwide operations and 
        national intelligence requirements. It will serve as the 
        epicenter for planning, execution, and assessment of the 
        military's global ISR operations; a key enabler to achieving 
        global situational awareness.
        <bullet> Network Warfare. The Director, National Security 
        Agency (NSA) will also be dual-hatted to lead the Network 
        Warfare Joint Functional Component Command. This component will 
        facilitate cooperative engagement with other national entities 
        in computer network defense and offensive information warfare 
        as part of our global information operations.

    Our coordinated approach to information operations involves two 
other important supporting commands. The Director, Defense Information 
Systems Agency also heads the Joint Task Force for Global Network 
Operations. This organization is responsible for operating and 
defending our worldwide information networks, a function closely 
aligned with the efforts of the Joint Functional Component Command for 
Network Warfare. Additionally, the Commander, Joint Information 
Operations Center coordinates the non-network related pillars of 
information operations: psychological operations, electronic warfare, 
operations security and military deception. Both the Joint Task Force 
for Global Network Operations and the Commander, Joint Information 
Operations Center will be full members of the USSTRATCOM distributed, 
collaborative environment.

        <bullet> Integrated Missile Defense. The Commander, Army Space 
        and Missile Defense Command will head the Integrated Missile 
        Defense Joint Functional Component Command. This component will 
        be responsible for ensuring we meet USSTRATCOM's Unified 
        Command Plan responsibilities for planning, integrating, and 
        coordinating global missile defense operations and support. It 
        will conduct the day-to-day operations of assigned forces; 
        coordinating activities with associated combatant commands, 
        other STRATCOM Joint Functional Components, and the efforts of 
        the Missile Defense Agency (MDA). The Joint Functional 
        Component Command for Integrated Missile Defense is a key 
        element of the ``defenses'' leg of The New Triad concept.
        <bullet> Combating Weapons of Mass Destruction. The Secretary 
        of Defense (SECDEF) recently assigned USSTRATCOM responsibility 
        for integrating and synchronizing DOD's efforts for combating 
        weapons of mass destruction. As this initiative is in its very 
        formative stages, we have yet to formalize any specific 
        componency structure. However, we anticipate establishing a 
        formal relationship with the Defense Threat Reduction Agency as 
        an initial starting point.

    This new componency structure is in its infancy and will take 
several months to fully realize. There are detailed issues to work 
through, including the proper distribution of subject matter expertise 
and an assessment of expanding relationships with other U.S. Government 
departments.
    A final element of our evolving organizational structure involves 
developing relationships with the private sector to build upon efforts 
under the Partnership to Defeat Terrorism. This important partnership 
with the private sector supports many of our national objectives and 
crosses into relatively uncharted territory.

        <bullet> Partnership to Defeat Terrorism. The United States has 
        achieved success in the global war on terrorism by attacking 
        terrorist infrastructure, resources and sanctuaries. 
        Nevertheless, our adversaries continue to plan and conduct 
        operations driven by their assessment of our vulnerabilities. 
        The main vulnerability requiring our constant vigilance is the 
        Nation's economy, and one need look no further than the 
        economic aftershock attributed to the September 11 terrorist 
        attacks to affirm this assertion. The risk is accentuated given 
        the global underpinnings of our economic structure. Even a 
        small-scale terrorist attack against a lower tier provider in a 
        distant land can have wide-ranging and pervasive economic 
        implications.

    Given the evolving understanding of terrorist's use of global 
processes, the Partnership to Defeat Terrorism was created to intercede 
on behalf of combatant commanders, among others, and positively affect 
outcomes through connections with the private sector. Since November 
2001, the Partnership to Defeat Terrorism has successfully combined 
private sector global processes with other elements of national power 
to help fight global terrorism as part of USSTRATCOM's global mission 
responsibilities. This fruitful relationship with the private sector 
has proven effective on a number of occasions and has garnered the 
support of influential leaders both within and outside government.
    Yet, the Partnership to Defeat Terrorism is somewhat of an ad hoc 
process based on trusted relationships. As such, the value of the 
program is directly related to the availability of the participants. 
USSTRATCOM was recently contacted by a group of people from various 
non-military sectors, advocating the creation of a working group to 
formalize this ad hoc program to begin planning a more permanent 
approach for the long-term.
    On a strategic level, the value of such an effort is the open 
realization that all elements of national power, which have not 
traditionally operated in a synchronized and coordinated role in 
national security, understand the urgent need for their involvement.
    Full realization of the benefits inherent in the distributed, 
interdependent organizational structure described above requires an 
effective collaborative operation. A truly collaborative environment 
provides us the asymmetric advantage necessary to deter and defeat the 
agile adversaries we face in the 21st century environment. In the 
future, these skills will take on even greater importance as we broaden 
our partner base within the U.S. Government, with coalition partners, 
commercial partners, academia, and others, including non-government 
organizations.
                   achieving the strategic imperative
    Agile, responsive distributed operations, enabled by meaningful 
information exchange, shared objectives, and shared situational 
awareness, are key to the successful performance of USSTRATCOM's global 
missions. We have assessed the capability gaps in our global mission 
areas and have developed action plans, working with our partner 
commands, to improve our collective ability to carry out operations at 
all levels.
    USSTRATCOM's strategy is focused on:

        <bullet> Stewardship of the strategic nuclear stockpile;
        <bullet> Defending against asymmetric approaches used by our 
        adversaries, including weapons of mass destruction;
        <bullet> Responding effectively in a rapidly changing combat 
        operations environment;
        <bullet> Achieving prompt, predictable precision operations;
        <bullet> Coordinating with U.S. and private sector partners in 
        a collaborative environment;

    Implementing this strategy relies on new and enhanced capabilities, 
including:

        <bullet> Dominant situational awareness,
        <bullet> A ubiquitous, assured, global information environment,
        <bullet> Dynamic, persistent, trustworthy collaborative 
        planning,
        <bullet> User Defined Operating Pictures, using distributed, 
        globally available information, and
        <bullet> A culture that embraces ``need to share'' rather than 
        ``need to know.''

    We are not there yet. Working with our partner commands, we have 
developed plans to improve our global capabilities. We need your 
continued support to deliver the capabilities needed to combat the 
threats of the 21st century. We need your support for:

        <bullet> Pursuit of high capacity, internet-like capability to 
        extend the Global Information Grid to deployed/mobile users 
        worldwide;
        <bullet> Adoption of data tagging standards and information 
        assurance policies to increase government-wide trusted 
        information sharing;
        <bullet> Technology experiments to enhance our understanding of 
        the value of accuracy and stressing environments for current 
        and future weapons.

    USSTRATCOM recognizes what has to be done to be a global command in 
support of the warfighter. We are aggressively moving out on actions to 
ensure USSTRATCOM fulfills our full set of global responsibilities, 
supporting our national security needs in peace and in war.
    Thank you for your continued support.

    Senator Sessions. Thank you, General Cartwright.
    Mr. Duma, you are the acting Director of the Operational 
Test and Evaluation area of the DOD. We are delighted to hear 
from you at this time.

 STATEMENT OF DAVID W. DUMA, ACTING DIRECTOR, OPERATIONAL TEST 
             AND EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Duma. Thank you. Mr. Chairman, Senators, ladies and 
gentlemen, I am pleased to have this opportunity to speak with 
you about the Ballistic Missile Defense (BMD) system test 
program. As you requested, I will talk about the status of 
major test activities, the establishment of criteria for 
operationally realistic testing mandated by section 234 of the 
National Missile Defense Authorization Act for Fiscal Year 
2005, and finally our relationship with the MDA. Given the 
emphasis placed on fielding a limited defensive capability, my 
remarks will focus primarily on the two elements of ballistic 
missile defense that are the principal contributors to this 
early capability: the GMD and the Aegis BMD systems.
    My full statement addresses my observations about testing 
on other ballistic missile defense elements. I request my full 
statement be included for the record.
    Senator Sessions. It will be made a part of the record.
    Mr. Duma. Thank you, Mr. Chairman.
    Mr. Chairman, I am encouraged by several developments over 
the last year. The MDA has constructed a testbed infrastructure 
and populated it with prototype missiles, six at Fort Greely, 
Alaska and two at Vandenberg Air Force Base, California. The 
testbed is a major accomplishment and will address much of the 
prior criticism from my office regarding the lack of 
operational realism for testing the GMD system. The testbed 
supports integration testing, ground testing, and flight 
testing in more operationally stressing geometries and permits 
military operators to operate and control the system.
    Early in development, capability demonstrations and flight 
testing focused on the feasibility of hit-to-kill technology. 
The BMD system testbed significantly improves the test 
infrastructure by providing operational assets to participate 
in more operationally realistic, end-to-end ground tests, and 
flight test scenarios. Integrated ground testing is extremely 
important because it evaluates system interoperability and 
provides the best opportunity for assessing operator training 
and performance.
    To evaluate the testbed operational capabilities, the MDA 
established engagement sequence groups that describe defensive 
capabilities in terms of available sensors, command and control 
networks, and interceptors.
    The first increment of this capability called Limited 
Defensive Capability, is defined by four engagement sequence 
groups to evaluate defense of the 50 States against a limited 
attack from North Korea. This has been a useful way to 
coordinate system development, testing, activation exercises, 
and the development of tactics, techniques, and procedures. 
Integrated ground testing results to date indicate the testbed 
has the potential to defend against a limited attack under 
certain conditions. However, difficulties in the flight test 
program have delayed the confirmation of intercept capability 
using the testbed.
    Recent flight test failures in integrated flight test 13C 
and 14 indicate the need to further develop and mature the 
ballistic missile defense system hardware and software. In 
flight test 13C, the system aborted the launch of a missile 
when its internal checks were not satisfied. However, the 
system performed well from target launch until the system 
aborted the interceptor launch.
    In integrated flight test 14, the system performed as 
expected until it detected a problem in the launch sequence and 
again aborted the launching of the interceptor. One of the last 
steps in the launch sequence is to open the silo doors and 
retract the silo horizontal stabilizer bars. In this instance, 
sensors indicated that one of the three stabilizer bars had not 
retracted, causing the missile launch to abort.
    The operational testing community identified 18 operational 
test objectives that addressed operational realism in both 
integrated flight tests 13C and 14. In each case, 10 of these 
objectives were either partially or completely met, and 5 
objectives were not met due to the aborted interceptor launch. 
The Aegis system did not participate in either flight test, 
which resulted in the deferral of three test objectives in each 
case.
    In both integrated flight test 13C and 14, the target 
launched properly and presented a good target scene to the 
ballistic missile defense system. However, from an operational 
mission perspective, the system problems in these tests are 
failures. In an operational mission where the full-up testbed 
is operational, it is possible that other missiles would have 
been available for the user to select and launch against the 
target. The MDA has simulated the capability of the system to 
fail-over to another missile during integrated ground testing.
    After both integrated flight tests 13C and 14, General 
Obering acted quickly to complete root cause analysis and 
incorporate and verify the fixes through regression testing. I 
applaud his commitment to a test-fix-test philosophy that 
results in an event-based test program. These types of setbacks 
are typical of programs in development and they contribute to 
maturing the system.
    In November 2004, my office approved the MDA's first 
version of an integrated master test plan. That plan identified 
developmental testing that the MDA intended to conduct to 
verify the system design and its adherence to system 
specifications. The MDA is incorporating operational objectives 
into system level developmental ground and flight test events 
to increase the operational realism. This approach adds some 
operational realism and insight into the system performance and 
capability during developmental testing.
    The maturity of the testbed will not yet support realistic 
operational end-to-end testing. For example, the sea-based X-
band radar, which will not be available until the end of this 
year, is an essential element to provide midcourse 
discrimination and track updates.
    I believe we have agreements with the MDA to revise the 
integrated master test plan to continue the combined 
development and operational testing and include focused 
operational testing for each block. This strategy would 
stabilize the system design long enough for the operational 
test and evaluation community to conduct focused operational 
exercises, ground tests, and flight tests on a block 
configuration prior to deploying that capability. It will 
permit testing of the ballistic missile defense system under 
realistic operational conditions, confirm integrated warfighter 
and system performance, and increase confidence of the 
warfighters' ability to execute their mission with the deployed 
system. The operational test community will develop the 
operational evaluation and test plans consistent with the 
maturity of the system, conduct appropriate analyses, and 
prepare a formal report.
    In September 2004, the MDA began a shakedown period where 
they systematically activated and tested the integrated system 
to identify interoperability and performance problems. These 
exercises provided valuable insights and helped develop 
procedures for transitioning the systems to alert. In order to 
support potential activation of the ballistic missile defense 
system for limited defensive operations, the MDA, the 
Operational Test Agency team, STRATCOM, and Director of 
Operational Test and Evaluation (DOT&E) prepared independent 
assessments of the ballistic missile defense system capability. 
While these assessments varied widely, the process of 
developing and coordinating these analyses provided an 
excellent opportunity to exchange information and perspectives.
    The Aegis ballistic missile defense system is an important 
element of the testbed and contributes to the limited defensive 
capabilities. The Aegis BMD system is making progress in 
demonstrating end-to-end capability to defeat short-range 
ballistic missiles. The Aegis BMD element has demonstrated that 
it can intercept a unitary, short-range target in the ascent 
and descent midcourse phases of flight. The operational realism 
of the Aegis test program has been steadily increasing. The 
Navy Operational Test Force has provided observations on 
operational issues during early developmental tests and has 
introduced more operational realism into recent tests. In the 
last two flight tests, the Aegis crews successfully engaged the 
target without prior information regarding the target launch 
time and direction, and they did this all while on patrol. The 
first flight test in which the ground-based interceptors will 
engage a target using Aegis track data is planned later this 
year.
    The performance of the joint operational test team was 
nothing less than outstanding. Their continuous involvement in 
characterization of the BMD system provides important insight 
into its operational capability. The entire operational test 
and evaluation community has access to all test planning and 
execution meetings, test data, and data analyses. General 
Obering and I meet routinely and my staff coordinates daily 
with the MDA and the element offices. The MDA has not yet 
planned or executed operational testing. So my role is limited 
to providing General Obering advice as to the operational 
realism of the development testing. I also conduct an 
independent annual assessment and provide a report on the past 
year's testing activities and demonstrated system capabilities 
each February.
    In summary, General Obering is executing an event-driven, 
test-fix-test program. Test planning that addresses the 
requirement in the National Defense Authorization Act for 
Fiscal Year 2005 for an operationally realistic test in fiscal 
year 2005 is ongoing. The operational testing community is 
working with the MDA to incorporate operational realism into 
the test plan for that event.
    Mr. Chairman, this concludes my opening remarks and I 
welcome your questions.
    [The prepared statement of Mr. Duma follows:]
                  Prepared Statement by David W. Duma
    Mr. Chairman, Senators, ladies and gentlemen, I am pleased to have 
this opportunity to speak with you about the Ballistic Missile Defense 
(BMD) System test program. As you requested, I will talk about the 
status of the major test activities, the establishment of criteria for 
operationally realistic testing mandated by Section 234 of the 2005 
National Missile Defense Authorization Act, and finally, our 
relationship with the Missile Defense Agency (MDA). Given the emphasis 
placed on fielding a limited defensive capability, my remarks will 
focus primarily on the two elements of Ballistic Missile Defense that 
are the principle contributors to this early capability--the Ground-
based Midcourse Defense (GMD) and the Aegis BMD systems. I will 
conclude with a few observations about progress towards testing the 
other theater defense systems.
    I am encouraged by several developments over the last year. The MDA 
has constructed a test bed infrastructure and populated it with 
prototype missiles, six in Fort Greely, Alaska; and two at Vandenberg 
Air Force base, California. The test bed is a major accomplishment and 
addresses much of the prior criticism from my office regarding the lack 
of operational realism for testing the GMD System. The test bed 
supports integration testing, ground testing, and flight testing in 
more operationally stressing test geometries, and permits military 
operators to control the system.
    Early in development, capability demonstrations and flight testing 
focused on the feasibility of hit-to-kill technology. The BMD System 
test bed significantly improves the test infrastructure by providing 
operational assets to participate in more operationally realistic, end-
to-end ground tests and flight test scenarios. Integrated ground 
testing is extremely important because it evaluates system 
interoperability and provides the best opportunity for assessing 
operator training and performance.
    To define the test bed operational capabilities, the MDA 
established engagement sequence groups that describe defensive 
capabilities in terms of available sensors, command and control 
networks, and interceptors. The first increment of this capability, 
called Limited Defensive Capability, is defined by four engagement 
sequence groups to evaluate defense of the 50 States against a limited 
attack from North Korea. This has been a useful way to coordinate 
system development, testing, activation exercises, and the development 
of tactics and procedures. Integrated ground test results to date 
indicate the test bed has the potential to defend against a limited 
attack, under certain conditions. However, difficulties in the flight 
test program have delayed the confirmation of intercept capability 
using the test bed.
    Recent flight test failures in Integrated Flight Tests -13C and -14 
indicate the need to further develop and mature the BMD System hardware 
and software. In Flight Test-13C, the system aborted the launch of a 
missile when its internal checks were not satisfied. However, the 
system performed well from target launch, until the system aborted the 
interceptor launch.
    The operational testing community identified 18 operational 
objectives that addressed operational realism in Integrated Flight 
Test-13C. Ten of these objectives were partially or completely met. 
Five objectives were not met due to interceptor abort. Sea conditions 
off Alaska prevented Aegis at-sea participation in the test, resulting 
in the deferral of three additional test objectives to later test 
events.
    In Integrated Flight Test-14, the system performed as expected 
until it detected a problem in the launch sequence and again aborted 
the launching of the interceptor. One of the last steps in the launch 
sequence is to open the silo doors and retract the silo horizontal 
stabilizers. In this instance, sensors indicated that one of the three 
stabilizers had not retracted, causing the missile to abort launch.
    Again of the 18 test objectives addressing operational realism in 
Integrated Flight Test-14, 10 objectives were partially or completely 
satisfied, 3 objectives were deferred due to lack of Aegis at-sea 
participation, and 5 objectives were not met due to the aborted 
interceptor launch.
    In both Integrated Flight Tests-13C and -14, the target launched 
properly and presented a good target scene to the BMD System. However, 
from an operational mission perspective, these tests are failures. In 
an operational mission using the full-up test bed, it is possible that 
other missiles would have been available for the user to select and 
launch against the target. During integrated ground testing, the MDA 
simulated the capability of the system to fail-over to another missile.
    After both Integrated Flight Tests-13C and -14, General Obering 
acted quickly to complete a root cause analysis, and incorporate fixes. 
He did not move forward with planning Flight Test-14 until they 
identified the root cause of the Flight Test-13C failure and verified 
the corrective action by both analyses and ground testing. General 
Obering is taking a prudent approach. I applaud his commitment to a 
``test-fix-test'' philosophy that results in an event-driven test 
program.
    It should be noted that Patriot PAC-3 and Aegis missile defense 
systems have been in development since the early 1990s and are now 
showing a maturity that has accrued from a comprehensive test-fix-test 
program. Conversely, the GMD System has only been in development about 
7 years. These types of setbacks are typical for programs in 
development, and they contribute to maturing the system.
    The MDA has made progress in documenting their test planning 
activities. In November 2004, my office approved the MDA's Integrated 
Master Test Plan. We are working with the MDA and the Operational Test 
Agency team to increase operational realism through the test planning 
process, consistent with the maturity of the BMD System test bed. The 
Integrated Master Test Plan provides a framework for identifying and 
integrating test requirements from the BMD System elements, the MDA, 
the Operational Test Agencies, and my office. As a top-level planning 
document, it identifies criteria for operationally realistic testing 
that apply to system-level events. It also identifies a series of 
planned tests that should demonstrate the progress towards developing 
and maturing the BMD System capability. The operational test community 
and the MDA have agreed on a test strategy and operational criteria to 
test the Limited Defense Capability in 2005, consistent with the 
maturity of the system.
    In a developmental program that is employing a test-fix-test 
philosophy, test plans are necessarily fluid. My office and the 
Operational Test Agency team are working with the MDA to identify the 
impact of schedule changes on achieving the test objectives in the 
Integrated Master Test Plan. The maturity of the test bed will not yet 
support Title 10 end-to-end operational testing. For example, the Sea-
Based X-Band Radar, which will not be available until the end of this 
year, is essential to provide mid-course discrimination and track 
updates. In addition the test bed is limited to one-on-one intercepts 
against target missiles, and the crew is limited in the amount of 
control they have over the system.
    The MDA is reviewing the live-fire testing programs of the BMD 
System elements in order to coordinate efforts and provide a consistent 
approach to assessing system lethality. This will ensure that data from 
earlier tests and analyses are used to maximum advantage, and that 
future efforts focus on the most critical data needs. As the BMD System 
moves through development and maturation, it is essential that we 
continue our commitment to understanding the lethality of the system 
against the threats associated with each increment of capability.
    In September 2004, the MDA began a ``shakedown'' period, where they 
systematically activated and tested the integrated system to identify 
interoperability and performance problems. These exercises provided 
valuable insights and helped develop procedures for transitioning the 
system to alert. In order to support potential activation of the BMD 
System for Limited Defensive Operations, the MDA, the Operational Test 
Agency team, the Strategic Command (STRATCOM), and DOT&E prepared 
independent assessments of the BMD System capability. While these 
assessments varied widely, the process of developing and coordinating 
these analyses provided an excellent opportunity to exchange 
information and perspectives.
    The Aegis BMD System is an important element of the test bed and 
contributes to the Limited Defensive Capabilities. The first flight 
test in which ground-based interceptors (GBIs) will engage a target 
using Aegis track data, is planned later this year. The Aegis BMD 
System is making progress in demonstrating end-to-end capability to 
defeat short-range ballistic missiles. The Aegis BMD element has 
demonstrated that it can intercept a unitary, short-range target in the 
ascent and descent midcourse phases of flight. The operational realism 
of the Aegis test program has been steadily increasing. The Navy 
Operational Test Force has provided observations on operational issues 
during early developmental tests and has introduced more operational 
realism into recent tests. In the last two flight tests, while on 
patrol the Aegis operators successfully engaged the target without 
prior information about the target launch time and direction.
    Other elements of the BMD System clearly reflect the success of the 
MDA's ``test-fix-test'' philosophy and willingness to restructure 
program goals when appropriate. In early 2004, the MDA recognized the 
major technical challenges still faced by the Airborne Laser (ABL) 
program and restructured the program to focus on developing and 
demonstrating specific technical goals annually, instead of pursuing 
future development initiatives. This resulted in the successful ``first 
light'' of the high-energy laser through all six modules in the ground 
aircraft mockup system integration laboratory. It also resulted in the 
successful first flight of the aircraft with the laser turret, and beam 
control and fire control installed.
    The Theater High Altitude Terminal Defense system also accomplished 
extensive component and subsystem testing during 2004. The launcher 
demonstrated the ability to roll-on/roll-off a C-17 transport aircraft. 
The program successfully performed a short hot launch of a missile 
round loaded with only a portion of the normal amount of propellant. 
This test verifies the firing circuits and increases confidence in the 
success of the first flight-test later this year. A new system radar 
arrived at White Sands Missile Range in March 2004 for testing. The 
radar has successfully tracked targets of opportunity, including 
Patriot PAC-3 flight test missiles and targets.
    The performance of the Joint Operational Test Agency team is 
nothing less than outstanding. Their continuous involvement and 
characterization of the BMD System provides important insight into its 
operational capability. The entire operational test and evaluation 
community has access to all test planning and execution meetings, test 
data, and data analyses. General Obering and I meet routinely, and my 
staff coordinates daily with the MDA and the element offices. However, 
the MDA has no operational testing planned, so my role is limited to 
providing General Obering advice as to the operational realism of the 
developmental testing. I also provide an annual assessment report on 
the past years' testing activities and demonstrated system capabilities 
to the Department and Congress each February, as required by law.
    In summary, General Obering is executing an event-driven, test-fix-
test program. Test planning that addresses the requirement in the 
National Defense Authorization Act for Fiscal Year 2005 for an 
operationally realistic test in fiscal year 2005 is ongoing. The 
operational testing community is working with the MDA to incorporate 
operational objectives and realism into the test plan for this event.
    That concludes my opening remarks and I welcome your questions.

    Senator Sessions. Thank you, Mr. Duma.
    Next we will hear from General Henry Obering III, the 
Director of the MDA. General Obering.

  STATEMENT OF LT. GEN. HENRY A. OBERING III, USAF, DIRECTOR, 
                     MISSILE DEFENSE AGENCY

    General Obering. Good afternoon, Mr. Chairman and 
distinguished members of the committee. It is a privilege to be 
here. I ask that my prepared statement be entered into the 
record.
    Senator Sessions. It will be.
    General Obering. We have had many accomplishments and a few 
disappointments since my predecessor last addressed this 
committee. While overall we remain on track to execute our 
mission, I am planning to make some program adjustments which I 
will describe later in light of our recent flight test 
failures.
    Threats from WMD and proliferating ballistic missiles 
continue to present grave security concerns. In fact, there 
were nearly 100 foreign ballistic missile launches around the 
world in 2004. We must also remember that we have been 
surprised in this area in the past.
    To deal with these threats, we are developing and 
implementing fielding a joint integrated and layered BMD system 
to defend the United States, our deployed forces, allies, and 
friends against all ranges of ballistic missiles. We have put 
the foundation of this system in place today. Our program 
reflected, in the fiscal year 2006 budget submission, is 
structured to balance the fielding of elements of this system 
with its continued steady improvement through an evolutionary 
development and test approach. The budget also balances 
capabilities across an evolving threat spectrum that includes 
rogue nations with increasing expertise.
    We are requesting $7.8 billion to support our program of 
work in fiscal year 2006, which is approximately $1 billion 
less than the fiscal year 2005 request. About $1.4 billion 
covers the continued fielding and sustainment of our block 
increments of long-range, GMD components, our short to 
intermediate range defense involving Aegis ships with their 
interceptors, and the supporting radars, command, control, 
battle management, and communications capabilities. About $6.4 
billion will be invested in the development foundation for the 
continued testing and system evolution.
    To provide the context for our budget submission, I would 
like to review our progress over the past year, explain the 
rationale behind our testing and fielding activities, and 
address the next steps in our evolutionary program.
    In 2001 and 2002, we successfully conducted four out of 
five intercept tests using prototype interceptors against long-
range ballistic missile targets. These tests gave us the 
confidence to proceed with the development and fielding of a 
system that relies primarily on hit-to-kill technologies. While 
our testing since 2003 has provided us with a wealth of 
critical data, long-range interceptor aborts in recent tests 
have been disappointing. These aborts were due to a minor 
software problem in the first test and a ground support arm 
that failed to retract in the last.
    Now, while these failures do not threaten the basic 
viability of the system, I believe that we needed to take 
strong action to address them. Initially I chartered an 
independent team to review our test program, its processes, 
procedures, and management. They reported the findings to me 
last week. The team indicated that we had successfully 
demonstrated the hit-to-kill technology and achieved a major 
national accomplishment in fielding initial defensive 
capabilities. They described the rapid development and the 
initial deployment of the system as comparable to that of the 
Minute Man and the Polaris ballistic missile programs.
    With the basic functionality demonstrated, the team 
believed that we should now enter a performance and reliability 
verification phase in which mission assurance becomes the 
number one objective. They noted that our system reliability is 
based on multiple interceptors per engagement, whereas our 
system testing is focused on single interceptor performance. 
They also observed that our flight testing has a strategic 
significance well beyond that normally associated with military 
systems development.
    Therefore, the team recommended specific improvements in 
five areas: first, increase the rigor in the flight test 
certification process to include the addition of a concurrent 
and accountable independent assessment of test readiness; 
second, strengthen system engineering by tightening contractor 
configuration management, enforcing process and workmanship 
standards, and ensuring proper specification flow-down; third, 
add more ground test units and expand ground qualification 
testing; fourth, hold the contractor functional organization 
such as quality and mission assurance experts accountable for 
supporting the program in a better fashion; and finally, ensure 
program executability by stabilizing baselines.
    I will drive the implementation of these recommendations, 
along with those provided by a task force I also chartered 
under the leadership of our newly established Director of 
Mission Readiness, Rear Admiral Kate Paige. With her formidable 
leadership, talent and Aegis ballistic missile defense 
expertise, she has the ability to ensure our return to a 
successful flight test program and the authority to ensure that 
mission assurance remains our top program priority.
    Mr. Chairman, I can assure you that while these test aborts 
were major disappointments, they were not major technical 
setbacks. We maintain our confidence in the system's basic 
design, its hit-to-kill effectiveness, and its inherent 
operational capability.
    Nevertheless, neither you, the American public nor our 
enemies will believe in our ground-based ICBM defense until we 
demonstrate its effectiveness by successfully conducting 
additional operationally realistic tests.
    In planning our future test program, the DOT&E and I have 
jointly approved an integrated master test plan effective 
through 2007. The plan includes tests that combine 
developmental and operational testing to reduce costs and 
increase test efficiency. Within our range safety constraints, 
we are committed to increasing the operational aspects of our 
testing. We have also jointly agreed to criteria for 
operational realism which will be incorporated into our test 
planning.
    While the recommendations of the Mission Readiness Task 
Force will impact our testing, we currently plan to conduct a 
test with operational assets this coming year. In 2006, I 
expect to execute three to four integrated flight tests using a 
variety of flight conditions designed to demonstrate the 
operational effectiveness of the missile defense system.
    Our sea-based test program is proceeding very well. The 
last standard missile-3 intercept in February was the fifth 
success of six attempts. We plan to conduct two more tests this 
year using the Aegis cruiser as the primary engagement 
platform. We will use upgraded software and an advanced 
standard missile-3 interceptor to engage a variety of targets, 
including those with separating warheads.
    In completing our initial fielding of the block 2004 
components, we are also on track. We have successfully built 
out the initial GMD capability, including the emplacement of 8 
ground-based interceptors in Alaska and California which we 
will increase to 18 by the end of this year. Currently seven 
Aegis ships providing long-range surveillance and tracking data 
are ready for stationing. Ten should be available by the end of 
the year.
    In addition, we completed the outfitting of one Aegis 
cruiser for standard missile-3 interceptors to provide an 
emergency engagement capability against the short to 
intermediate range ballistic missiles, and we will have another 
cruiser outfitted also by the end of the year.
    In our sensor program, the Cobra Dane radar in the 
Aleutians is ready for missile defense use today, and we are 
integrating upgraded early warning radars in California, the 
United Kingdom, and our most powerful sensor the SBX this year. 
In addition, we are now testing a transportable SBX, which we 
are planning to forward deploy this year as well.
    Since October 2004, we have been in a shakedown period, or 
check-out period, similar to that used by the U.S. Navy ships 
before entering the fleet. Working closely with U.S. STRATCOM 
and the combatant commanders, we have certified missile defense 
crews and put in place the necessary logistic support 
infrastructure. We have successfully exercised the command, 
fire control, battle management, and communications capability 
critical to the operation of the system.
    Since we cannot be certain which specific ballistic missile 
threats we will face in the future, our long-term strategy is 
to strengthen our capability and maximize our flexibility. As 
we proceed with this program into the next decade, we will move 
towards a missile defense that features greater sensor and 
interceptor mobility while adding a boost-phase defense.
    To meet the long-range threat, the GMD element budget 
request is about $2.3 billion for fiscal year 2006. This covers 
continued development, ground and flight testing, fielding and 
support for up to 10 additional GBIs, their silos, and 
associated support equipment and facilities. In addition, it 
funds long-lead items for the next increment.
    To address the short to intermediate range threat, we are 
requesting approximately $1.9 billion to continue development 
and testing of our sea-based midcourse Aegis ballistic missile 
defense capability and our land-based terminal altitude area 
defense (THAAD) element. By the end of 2007, we should have up 
to 28 standard missile-3 interceptors available for use and 
three Aegis cruisers and 8 destroyers. Six additional 
destroyers will be capable of performing the surveillance and 
track mission.
    The THAAD flight testing resumes this year with controlled 
flight tests and will continue into fiscal year 2006 when we 
will conduct the first intercept test. We plan to field the 
first THAAD unit with its 24 missiles by 2009, with a second 
unit available by 2011. We will continue to roll out sensors 
that we will knit together using a strong command, control, 
battle management, and communications foundation.
    In 2007, we plan to deploy another forward based X-band 
radar and launch two space tracking and surveillance systems 
testbed satellites, which will demonstrate our ability to close 
the fire control loop worldwide. We are requesting 
approximately $520 million to accomplish this work.
    In executing our program, we are following a strategy to 
retain alternative development paths until capability is 
proven, a knowledge-based funding approach, that is. We are 
preserving decision flexibility with respect to our boost-phase 
programs until we understand what capabilities they can offer. 
We have requested approximately $680 million for these 
activities.
    In our primary boost-phase weapons program, the ABL, we 
have enjoyed recent success achieving the first light and first 
flight milestones. The next major steps are to complete the 
current lasing test, finish the beam and fire control flight 
test program, and then integrate the laser onto the testbed 
aircraft. I am pleased with where we are today, but we have 
many technical challenges ahead and it is too early to rely 
solely on this capability for boost defense.
    Therefore, as a parallel path, we undertook the KEI program 
in response to a 2002 Defense Science Board recommendation. We 
will not know for 2 or 3 years, however, whether either of 
these programs will be viable. But in order to meet our top 
line budget reductions, I decided to accept more risk in this 
area and restructure the KEI effort to focus on demonstrating a 
high acceleration booster flight in 2008. If this is 
successful, it not only provides risk reduction for the ABL 
program, it also provides us with an alternative mobile 
approach for the next generation of boosters for our long-
range, midcourse, and terminal programs as well.
    Finally, we have been working closely with a number of 
allies to make missile defense a key element of our security 
relationships and have signed a number of framework agreements 
to that end.
    The Government of Japan is proceeding with the acquisition 
of a multi-layered BMD system and is expanding their 
cooperation with us to develop a more capable Aegis standard 
missile-3 interceptor.
    We have also signed agreements with the United Kingdom and 
Australia and have received approval from Denmark and the 
Greenland home rule government to upgrade the radar at Thule.
    Our work with Israel to implement the Arrow system 
improvement program is on track.
    We are intent on continuing U.S. and Russian collaboration. 
Presently we are developing software that will be used to 
support the ongoing U.S.-Russian missile defense exercise 
program, and a new proposal for target missiles and radar 
cooperation is being discussed within the United States-Russian 
Federation Missile Defense Working Group.
    In closing, Mr. Chairman, I want to thank this committee 
for its tremendous continued support. I also want to thank the 
thousands of dedicated and talented Americans working on the 
missile defense program nationwide. I believe that we are on 
the right track to deliver the unprecedented capabilities that 
we need to close off a major avenue of vulnerability for this 
Nation.
    I look forward to your questions.
    [The prepared statement of General Obering follows:]
       Prepared Statement by Lt. Gen. Henry A. Obering III, USAF
    Good afternoon, Mr. Chairman, members of the committee. It is an 
honor to be here today to present the Department of Defense's (DOD) 
Fiscal Year 2006 Missile Defense Program and budget. The Missile 
Defense Agency (MDA) mission remains one of developing and 
incrementally fielding a joint, integrated, and multi-layered Ballistic 
Missile Defense (BMD) system to defend the United States, our deployed 
forces, and our allies and friends against ballistic missiles of all 
ranges by engaging them in the boost, midcourse, and terminal phases of 
flight.
    Our program, reflected in the fiscal year 2006 budget submission, 
is structured to balance the early fielding elements of this system 
with its continued steady improvement through an evolutionary 
development and test approach. The budget also balances our 
capabilities across an evolving threat spectrum that includes rogue 
nations with increasing ballistic missile expertise.
    We are requesting $7.8 billion to support our program of work in 
fiscal year 2006, which is approximately $1 billion less than the 
fiscal year 2005 request. About $1.4 billion covers the continued 
fielding and sustainment of our block increments of long-range ground-
based midcourse defense (GMD) components; our short- to intermediate-
range defense involving Aegis ships with their interceptors; as well as 
all of the supporting radars, command, control, battle management, and 
communication capabilities. About $6.4 billion will be invested in the 
development foundation for continued testing and evolution of the 
system.
    To provide the context for our budget submission, I would like to 
review what we have accomplished over the past year. While I believe 
the Missile Defense Program is on the right track to deliver 
multilayered, integrated capabilities to counter current and emerging 
ballistic missile threats, I am planning to make some program 
adjustments in light of our two recent flight test failures.
    I also will explain the rationale behind our testing and fielding 
activities and address the next steps in our evolutionary BMD program.
                   the evolving security environment
    The threat we face from proliferating and evolving ballistic 
missile systems and associated technologies and expertise continues 
unabated. There were nearly 100 foreign ballistic missile launches 
around the world in 2004. This is nearly double the number conducted in 
2003 and slightly greater than the number of launches in 2002. More 
than 60 launches last year involved short-range ballistic missiles, 
over 10 involved medium-range missiles, and nearly 20 involved land- 
and sea-based long-range ballistic missiles.
    Operations Desert Storm (1991) and Iraqi Freedom (2003) 
demonstrated that missile defenses must be integrated into our regional 
military responses if we are to provide adequate protection of 
Coalition Forces, friendly population centers, and military assets. We 
must expect that troops deployed to regional hotspots will continue to 
encounter increasingly sophisticated ballistic missile threats.
    Nuclear-capable North Korea and nuclear-emergent Iran have shown 
serious interest in longer-range missiles. They underscore the severity 
of the proliferation problem. Our current and near-term missile defense 
fielding activities are a direct response to these dangers. There are 
also other ballistic missile threats to the homeland that we must 
address in the years ahead, including the possibility of an off-shore 
launch.
    We have had recent experience with tragic hostage situations 
involving individuals, and we have witnessed how the enemy has 
attempted to use hostages to coerce or blackmail us. Imagine now an 
entire city held hostage by a state or a terrorist organization. This 
is a grim prospect, and we must make every effort to prevent it from 
occurring. Any missile carrying a nuclear or biological payload could 
inflict catastrophic damage. I believe the ability to protect against 
threats of coercion and actively defend our forces, friends and allies, 
and homeland against ballistic missiles will play an increasingly 
critical role in our national security strategy.
               missile defense approach--layered defense
    We believe that highly integrated layered defenses will improve the 
chances of engaging and destroying a ballistic missile and its payload. 
This approach to missile defense also makes deployment of 
countermeasures much more difficult. If the adversary has a successful 
countermeasure deployment or tactic in the boost phase, for example, he 
may play right into the defense we have set up in midcourse. Layered 
defenses provide defense in depth and create an environment intended to 
frustrate an attacker. The elements of this system play to one 
another's strengths while covering one another's weaknesses.
    With the initial fielding last year of the GMD and Aegis 
surveillance and track capabilities of this integrated system, we are 
establishing a limited defensive capability for the United States 
against a long-range North Korean missile threat. At the same time, we 
are building up our inventory of mobile interceptors to protect 
coalition forces, allies and friends against shorter-range threats. 
With the cooperation of our allies and friends, we plan to evolve this 
defensive capability to improve defenses against all ranges of threats 
in all phases of flight and expand it over time with additional 
interceptors, sensors, and defensive layers.
    Since we cannot be certain which specific ballistic missile threats 
we will face in the future, or from where those threats will originate, 
our long-term strategy is to strengthen and maximize the flexibility of 
our missile defense capabilities. As we proceed with this program into 
the next decade, we will move towards a missile defense force structure 
that features greater sensor and interceptor mobility. In line with our 
multilayer approach, we will expand terminal defense protection and 
place increasing emphasis on boost phase defenses, which today are 
still early in development.
                     initial fielding of block 2004
    Since my predecessor last appeared before this committee, we have 
made tremendous progress and have had a number of accomplishments. We 
also came up short of our expectations in a few areas.
    We stated last year that, by the end of 2004, we would begin 
fielding the initial elements of our integrated BMD system. We have met 
nearly all of our objectives. We have installed six ground-based 
interceptors in silos at Fort Greely, Alaska and two at Vandenberg Air 
Force Base in California. We completed the upgrade of the Cobra Dane 
radar in Alaska and the modification of six Aegis ships for long-range 
surveillance and tracking support. These elements have been fully 
connected to the fire control system and are supported by an extensive 
command, control, battle management, and communications infrastructure. 
In addition, we have put in place the required logistics support 
infrastructure and support centers.
    Since October 2004, we have been in a ``shakedown'' or check-out 
period, similar to that used as part of the commissioning of a U.S. 
Navy ship before it enters the operational fleet. We work closely with 
U.S. Strategic Command (USSTRATCOM) and the combatant commanders to 
certify missile defense crews at all echelons to ensure that they can 
operate the ballistic missile defense system if called upon to do so. 
We have exercised the command, fire control, battle management, and 
communication capabilities critical to the operation of the system. The 
Aegis ships have been periodically put on station in the Sea of Japan 
to provide long-range surveillance and tracking data to our battle 
management system. We have fully integrated the Cobra Dane radar into 
the system, and it is ready for operational use even as it continues to 
play an active role in our test program by providing data on targets of 
opportunity. Finally, we have executed a series of exercises with the 
system that involves temporarily putting the system in a launch-ready 
state. This has enabled us to learn a great deal about the system's 
operability. It also allows us to demonstrate our ability to transition 
from development to operational support and back. This is very 
important since we will continue to improve the capabilities of the 
system over time, even as we remain ready to take advantage of its 
inherent defensive capability should the need arise.
                         completing block 2004
    Today we remain basically on track with interceptor fielding for 
the Test Bed. We have recovered from the 2003 propellant accident, 
which last year affected the long-range ground-based interceptors as 
well as the Aegis Standard Missile-3 (SM-3) and Terminal High Altitude 
Area Defense (THAAD) booster production. We should have ten more 
interceptors emplaced in Alaska by December of this year. In October, 
we received the first Standard Missile-3 for deployment aboard an Aegis 
ship. To date, we have five of these interceptors with a total of eight 
scheduled to be delivered by the end of the year. By then, we will also 
have outfitted two Aegis cruisers with this engagement capability. So, 
in addition to providing surveillance and tracking support to the 
integrated BMD system, Aegis will soon provide a flexible sea-mobile 
capability to defeat short- to intermediate-range ballistic missiles in 
their midcourse phase.
    Our sensor program is also on track. The Beale radar in California 
is receiving final software upgrades this spring and will be fully 
integrated into the system. We are now testing a transportable X-band 
radar, which can be forward-deployed this year to enhance our 
surveillance and tracking capabilities. Our most powerful sensor 
capability, the Sea-Based X-band Radar (SBX) will be on station, ported 
in Adak, Alaska by December. This radar is so capable that, if it were 
sitting in Chesapeake Bay, it could detect a baseball-sized object in 
space over San Francisco. This sea-mobile midcourse radar will allow us 
to increase the complexity of our tests by enabling different intercept 
geometries. When we deploy it in the Pacific Ocean, it also will have 
an inherent operational capability against threats from Asia. Finally, 
the RAF Fylingdales early warning radar in the United Kingdom will be 
fully integrated for missile defense purposes by early 2006 and will 
provide the initial sensor coverage needed against Middle East threats.
    BMD elements will remain part of the system test bed even after we 
field them for initial capability. However, the MDA does not operate 
the BMD system. Our job is to provide a militarily useful capability to 
the warfighter. Because the BMD system is integrated and involves 
different Services, the MDA will continue to manage system 
configuration to ensure adequate integration of new components and 
elements and the continued smooth operation of the system.
    For these reasons, Congress mandated the Agency to maintain 
configuration control over PAC-3 and the Medium Extended Air Defense 
System (MEADS) following their transfer to the Army. Regarding the 
transition of the system elements, we use several models. Each 
transition, to include time and method of transfer, will be unique. In 
some cases, it may not be appropriate to transfer a BMD system element 
to a Service. The SBX, for example, will likely remain a MDA test bed 
asset and be made available for operational use as appropriate. In 
other words, the Services and the MDA will have shared responsibilities 
and will continue to work with the Secretary of Defense (SECDEF), the 
Services, and the component commanders to arrange appropriate element 
transfer on a case-by-case basis.
               building confidence through spiral testing
    The development and fielding of Block 2004 was initiated based on 
the confidence we built in our test program between 2000 and 2002. We 
successfully conducted four out of five intercept tests using 
prototypes of the ground-based interceptors we have in place today 
against long-range ballistic missile targets. In addition, in 2002 and 
2003, we successfully conducted three intercept tests against shorter-
range targets using an earlier version of the sea-based Aegis SM-3 
interceptors we are deploying today. These tests demonstrated the basic 
viability and effectiveness of a system that relies primarily on hit-
to-kill technologies to defeat in-flight missiles. In fact, we had 
learned as much as we could with the prototypes and decided it was time 
to restructure the program to accelerate the testing of the initial 
operational configurations of the system elements.
    In 2003 and 2004, we had three successful flight tests of the 
operational long-range booster now emplaced in the silos in Alaska and 
California. The booster performed exactly as predicted by our models 
and simulations. In addition, between 2002 and 2004, we successfully 
executed 58 flight tests, 67 ground tests, simulations, and exercises, 
all of which have continued to bolster our confidence in the basic 
ballistic missile defense capabilities. In the past year, however, we 
had several concerns with quality control and, as a result, executed 
only two long-range flight tests since last spring.
    The interceptor launch aborts in Integrated Flight Test (IFT)-13C 
last December and IFT-14 this past February were disappointments, but 
they were not, by any measure, serious setbacks. The anomaly that 
occurred in IFT-13C, in fact, is a very rare occurrence. As the 
interceptor prepares to launch, its on-board computer does a health and 
status check of various components. In that built-in test, interceptor 
operations were automatically terminated because an overly stringent 
parameter measuring the communications rate between the flight computer 
and its guidance components was not met. The launch control system 
actually worked as it was designed when it shut the interceptor down. A 
simple software update to relax that parameter corrected the problem. 
The fix was verified during subsequent ground tests and the next launch 
attempt. We did enjoy some success in the test. We successfully tracked 
the target and fed that information into the fire control system, a 
process that allowed us to successfully build a weapons task plan that 
we then loaded and, which was accepted, into the interceptor's 
computer.
    In February we used the same interceptor to attempt another flight 
test. Again, the target successfully launched. The interceptor 
successfully powered up and worked through built-in test procedures and 
was fully prepared to launch. Again, the system successfully tracked 
the target and fed the information to the fire control system, which 
generated a weapons task plan accepted by the interceptor's computer. 
This time, however, a piece of ground support equipment did not 
properly clear, and the launch control system did not issue a launch 
enable command.
    Mr. Chairman, I can assure you that while these test aborts were 
major disappointments, they were not major technical setbacks. We 
maintain our confidence in the system's basic design, its hit-to-kill 
effectiveness, and its inherent operational capability. Because of our 
recent test launch aborts, I have chartered an independent team to 
review our test processes, procedures, and management. In addition, I 
have named the current Aegis BMD program director, Rear Admiral Kate 
Paige, as the Agency's Director of Mission Assurance with full 
authority to implement the corrections needed to ensure return to a 
successful flight test program. We have pursued a comprehensive and 
integrated approach to missile defense testing under the current 
program and are gradually making our tests more complex. Missile 
defense testing has evolved, and will continue to evolve, based on 
results. We are not in a traditional development, test, and production 
mode where we test a system, then produce hundreds of units without 
further testing. We will always be testing and improving this system, 
using a spiral testing approach that cycles results into our spiral 
development activities. That is the very nature of spiral development. 
This approach also means fielding test assets in operational 
configurations. This dramatically reduces time from development to 
operations, which is critical in a mission area where this nation has 
been defenseless. Nevertheless, neither you, the American public, nor 
our enemies will believe in our ground-based Intercontinental Ballistic 
Missile (ICBM) defense until we demonstrate its effectiveness by 
successfully conducting additional operationally realistic flight 
tests.
    We have a very aggressive test program over the next 2 years. After 
we fly the interceptor which aborted in the last two flight tests to 
gain confidence in our corrections, we plan to conduct two more long-
range interceptor tests this calendar year. These will include: an 
engagement sequence that uses an operationally configured Aegis ship to 
provide tracking information to a long-range interceptor and an 
engagement sequence that uses an interceptor launched from an 
operational site, Vandenberg; tracking information provided by an 
operational radar at Beale; and a target launched out of the Kodiak 
Launch Complex in Alaska. This year we also plan to fly targets across 
the face of the Cobra Dane radar in the Aleutians and Beale in 
California. All of these tests are part of an operationally realistic 
test program as required by law.
    In fiscal year 2006, we are adding new test objectives and using 
more complex scenarios. Also, warfighter participation will grow. We 
plan to execute four flight tests using the long-range interceptor 
under a variety of flight conditions and, for the first time, use 
tracking data from the sea-based X-band radar.
    In terms of our sea-based midcourse defense element, this past 
February, we successfully used a U.S. Navy Aegis cruiser to engage a 
short-range target ballistic missile. This test marked the first use of 
an operationally configured Aegis SM-3 interceptor. In the last three 
Aegis BMD intercept flight tests, we incrementally ratcheted up the 
degree of realism and reduced testing limitations to the point where we 
did not notify the operational ship's crew of the target launch time 
and they were forced to react to a dynamic situation. This year, we 
will conduct two more tests using Aegis as the primary engagement 
platform. In fiscal year 2006, Aegis ballistic missile defense will use 
upgraded software and an advanced version of the SM-3 interceptor to 
engage a variety of short- and medium-range targets, including targets 
with separating warheads. We also plan to work with Japan to test the 
engagement performance of the SM-3 nosecone developed in the U.S./Japan 
Cooperative Research project.
    Four Missile Defense Integration Exercises involving warfighter 
personnel will test hardware and software in the integrated system 
configuration to demonstrate system interoperability. War games also 
are an integral part of concept of operations development and 
validation. Four integrated missile defense wargames in fiscal year 
2006 will collect data to support characterization, verification, and 
assessment of the ballistic missile defense system with respect to 
operator-in-the-loop planning and the exchange of information in the 
system required for successful development and system operation.
    In addition to having laid out a very ambitious test plan, we are 
working hand-in-hand with the warfighter community and the independent 
testing community. We have more than one hundred people from the test 
community embedded in our program activities, and they are active in 
all phases of test planning, execution, and post-test analysis. We meet 
with them at the senior level on a weekly basis, and they help us 
develop and approve our test plans. All data from testing is available 
to all parties through a Joint Analysis Team and are used to conduct 
independent assessments of the system.
    The MDA and Director, Operational Test & Evaluation (DOT&E) have 
completed and jointly approved an Integrated Master Test Plan, 
effective through 2007. The plan includes tests that combine 
developmental and operational testing to reduce costs and increase 
testing efficiency. Within our range safety constraints, we are 
committed to increasing the operational aspects as I stated earlier. 
This accumulated knowledge helps inform the assessment of operational 
readiness.
                building the next increment--block 2006
    In building the BMD program of work within the top line budget 
reductions I mentioned earlier, we followed several guiding principles. 
To keep ahead of the rogue nation threats, we recognized the need to 
continue holding to our fielding commitments to the President for 
Blocks 2004 and 2006, including investment in the necessary logistics 
support. We also knew that we must prepare for asymmetric (e.g., the 
threat from off-shore launches) and emerging threat possibilities as 
well in our fielding and development plans.
    In executing our program we are following a strategy to retain 
alternative development paths until capability is proven--a knowledge-
based funding approach. This is a key concept in how we are executing 
our development program. We have structured the program to make 
decisions as to what we will and will not fund based upon the proven 
success of each program element. The approach involves tradeoffs to 
address sufficiency of defensive layers--boost, midcourse, terminal; 
diversity of basing modes--land, sea, air and space; and considerations 
of technical, schedule and cost performance.
    The funding request for fiscal year 2006 will develop and field the 
next increment of missile defense capability to improve protection of 
the United States from the Middle East, expand coverage to allies and 
friends, improve our capability against short-range threats, and 
increase the resistance of the integrated system to countermeasures. We 
are beginning to lay in more mobile, flexible interceptors and 
associated sensors to meet threats posed from unanticipated launch 
locations, including threats launched off our coasts.
    For midcourse capability against the long-range threat, the GMD 
element budget request is about $2.3 billion for fiscal year 2006 to 
cover continued development, ground and flight testing, fielding and 
support. This request includes up to 10 additional ground-based 
interceptors, their silos, and associated support equipment and 
facilities as well as the long-lead items for the next increment. It 
also continues the upgrade of the Thule radar station in Greenland.
    To address the short- to intermediate-range threat, we are 
requesting approximately $1.9 billion to continue development and 
testing of our sea-based midcourse capability, or Aegis BMD, and our 
land-based THAAD element. We will continue purchases of the SM-3 
interceptor and the upgrading of Aegis ships to perform the BMD 
mission. By the end of 2007 we should have up to 28 SM-3 interceptors 
on 3 Aegis cruisers and 8 Aegis destroyers. This engagement capability 
will improve our ability to defend our deployed troops and our friends 
and allies. Six additional destroyers, for a total of 17 Aegis ships, 
will be capable of performing the surveillance and track mission.
    THAAD flight testing begins this year with controlled flight tests 
as well as radar and seeker characterization tests and will continue 
into fiscal year 2006, when we will conduct the first high endo-
atmospheric intercept test. We are working toward fielding the first 
THAAD unit in the 2008-2009 timeframe with a second unit available in 
2011.
    We will continue to roll out sensors that we will net together to 
detect and track threat targets and improve discrimination of the 
target suite in different phases of flight. In 2007, we will deploy a 
second forward-based X-band radar. We are working towards a 2007 launch 
of two Space Tracking and Surveillance System (STSS) test bed 
satellites. These test bed satellites will demonstrate closing the fire 
control loop and the value of STSS tracking data. We are requesting 
approximately $521 million in fiscal year 2006 to execute this STSS and 
BMDS Radar work.
    All of these system elements must be built on a solid command, 
control, battle management, and communications foundation that spans 
thousands of miles, multiple time zones, hundreds of kilometers in 
space, and several combatant commands. This foundation allows us to mix 
and match sensors, weapons, and command centers to dramatically expand 
our detection and engagement capabilities over that achieved by the 
system's elements operating individually. In fact, without this 
foundation we cannot execute our basic mission. That is why the 
Command, Control, Battle Management, and Communications program is so 
vital to the success of our integrated capability.
    Building a single integrated system of layered defenses has forced 
us to transition our thinking to become more system-centric. We 
established the Missile Defense National Team to solve the demanding 
technical problems involved in this unprecedented undertaking. No 
single contractor or government office has all the expertise needed to 
design and engineer an integrated and properly configured BMD system. 
The National Team brings together the best, most experienced people 
from the military and civilian government work forces, industry, and 
the Federal laboratories to work aggressively and collaboratively on 
one of the Nation's top priorities. However, integrating the existing 
elements of the BMD System proved to be very challenging. Today, we 
have streamlined the team's activities and realigned their priorities 
to focus on providing the detailed systems engineering needed for a 
truly integrated capability. The team has now gained traction and is 
leading the way to building the system this Nation will need for the 
future.
            moving toward the future--block 2008 and beyond
    There is no silver bullet in missile defense, and strategic 
uncertainty could surprise us tomorrow with a more capable adversary. 
So it is important to continue our aggressive parallel paths approach 
as we build this integrated, multilayered defensive system. There are 
several important development efforts funded in this budget.
    We are preserving decision flexibility with respect to our boost 
phase programs until we understand what engagement capabilities they 
can offer. We have requested approximately $680 million for these 
activities in fiscal year 2006.
    In fiscal year 2006 we are beginning the integration of the high-
power laser component of the Airborne Laser (ABL) into the first ABL 
weapon system test bed and will initiate ground-testing. Following that 
we will integrate the high-power laser into the aircraft and conduct a 
campaign of flight tests, including lethal shoot-down of a series of 
targets. We still have many technical challenges with the ABL, but with 
the recent achievements of first light and first flight of the aircraft 
with its beam control/fire control system, I am pleased with where we 
are today. We have proven again that we can generate the power and 
photons necessary to have an effective directed energy capability. An 
operational ABL could provide a valuable boost phase defense capability 
against missiles of all ranges. The revolutionary potential of this 
technology is so significant, that it is worth both the investment and 
our patience.
    We undertook the Kinetic Energy Interceptor (KEI) boost-phase 
effort in response to a 2002 Defense Science Board Summer Study 
recommendation to develop a terrestrial-based boost phase interceptor 
as an alternative to the high-risk ABL development effort. We will not 
know for 2 or 3 years, however, whether either of these programs will 
be technically viable. With the recent successes we have had with ABL, 
we are now able to fine-tune our boost-phase development work to better 
align it with our longer-term missile defense strategy of building a 
layered defense capability that has greater flexibility and mobility.
    We have established the ABL as the primary boost phase defense 
element. We are reducing our fiscal year 2006 funding request for the 
KEI effort and have restructured that activity, building in a 1-year 
delay, in order to focus near-term efforts on demonstrating key 
capabilities and reduce development risks. We restructured the KEI 
activity as risk mitigation for the ABL and focused it on development 
of a land-based mobile, high-acceleration booster. It has always been 
our view that the KEI booster, which is envisioned as a flexible and 
high-performance booster capable of defending large areas, could be 
used as part of an affordable, competitive next-generation replacement 
for our midcourse or even terminal interceptors. Decisions on sea-based 
capability and international participation in this effort have been 
deferred until the basic KEI technologies have been demonstrated. The 
restructured KEI activity will emphasize critical technology 
demonstrations and development of a mobile, flexible, land-based ascent 
and midcourse engagement capability around 2011, with a potential sea-
based capability by 2013. A successful KEI mobile missile defense 
capability also could improve protection of our allies and friends.
    We are requesting $82 million in fiscal year 2006 to continue 
development of the Multiple Kill Vehicle (MKV). MKV is a generational 
upgrade to ground-based midcourse interceptors to increase their 
effectiveness in the presence of countermeasures. We look forward to 
the first intercept attempt using MKV sometime in 2008.
    Our flexible management structure allows us to adjust development 
activities based on demonstrated test results, improve decision cycle 
times, and make the most prudent use of the taxpayer's money. Using a 
knowledge-based funding approach in our decisionmaking, we will conduct 
periodic continuation reviews of major development activities against 
cost, schedule, and performance expectations. We have flexibility in 
our funding to support key knowledge-based decision paths, which means 
that we can reward successful demonstrations with reinvestment and 
redirect funds away from efforts that have not met our expectations. We 
have assigned a series of milestones to each of the major program 
activities. The milestones will provide one measure for decisionmaking 
and help determine whether a program stays on its course or is 
accelerated, slowed, or terminated. This approach gives us options 
within our trade space and helps us determine where we should place our 
resources, based on demonstrated progress. The alternative is to 
terminate important development activities without sufficient technical 
data to make smart decisions. We believe that this approach also acts 
as a disincentive to our contractors and program offices to over-
promise on what they can deliver.
                      international participation
    Interest in missile defense among foreign governments and industry 
has continued to rise. We have been working closely with a number of 
allies to forge international partnerships that will make missile 
defense a key element of our security relationships around the world.
    The Government of Japan is proceeding with the acquisition of a 
multilayered BMD system, basing its initial capability on upgrades of 
its Aegis destroyers and acquisition of the Aegis SM-3 missile. We have 
worked closely with Japan since 1999 to design and develop advanced 
components for the SM-3 missile. This project will culminate in flight 
tests in 2005 and 2006. In addition, Japan and other allied nations are 
upgrading their Patriot fire units with PAC-3 missiles and improved 
ground support equipment. This past December we signed a BMD framework 
Memorandum of Understanding (MOU) with Japan to expand our cooperative 
missile defense activities.
    We have signed three agreements over the past 2 years with the 
United Kingdom, a BMD framework MOU and two annexes. In addition to the 
Fylingdales radar development and integration activities this year, we 
also agreed to continue cooperation in technical areas of mutual 
interest.
    This past summer we signed a BMD framework MOU with our Australian 
partners. This agreement will expand cooperative development work on 
sensors and build on our longstanding defense relationship with 
Australia. We also are negotiating a Research, Development, Test and 
Evaluation annex to the MOU to enable collaborative work on specific 
projects, including: high frequency over-the-horizon radar, track 
fusion and filtering, distributed aperture radar experiments, and 
modeling and simulation.
    We have worked through negotiations with Denmark and the Greenland 
Home Rule Government to upgrade the radar at Thule, which will play an 
important role in the system by giving us an early track on hostile 
missiles. We also have been in sensor discussions with several allies 
located in or near regions where the threat of ballistic missile use is 
high.
    Our North Atlantic Treaty Organization (NATO) partners have 
initiated a feasibility study for protection of NATO territory and 
population against ballistic missile attacks, which builds upon ongoing 
work to define and develop a NATO capability for protection of deployed 
forces.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its missile defense capability to 
defeat the longer-range ballistic missile threats emerging in the 
Middle East. We also have established a capability in the United States 
to co-produce components of the Arrow interceptor missile, which will 
help Israel meet its defense requirements more quickly and maintain the 
U.S. industrial work share.
    We are intent on continuing U.S.-Russian collaboration and are now 
working on the development of software that will be used to support the 
ongoing U.S.-Russian Theater Missile Defense exercise program. A 
proposal for target missiles and radar cooperation is being discussed 
within the U.S.-Russian Federation Missile Defense Working Group.
    We have other international interoperability and technical 
cooperation projects underway as well and are working to establish 
formal agreements with other governments.
                                closing
    Mr. Chairman, I want to thank this committee for its continued 
support of the Missile Defense Program. As we work through the 
challenges in the coming months, we will conduct several important 
tests and assessments of the system's progress. We will continue our 
close collaboration with the independent testers and the warfighters to 
ensure that the capabilities we field are effective, reliable, and 
militarily useful. There certainly are risks involved in the 
development and fielding activities. However, I believe we have 
adequately structured the program to manage and reduce those risks 
using a knowledge-based approach that requires each program element to 
prove that it is worthy of being fielded.
    I believe we are on the right track to deliver multilayered, 
integrated capabilities to counter current and emerging ballistic 
missile threats. For the first time in its history, the United States 
today has a limited capability to defend our people against long-range 
ballistic missile attack. I believe that future generations will find 
these years to be the turning point in our effort to field an 
unprecedented and decisive military capability, one that closes off a 
major avenue of threat to our country.
    Thank you and I look forward to your questions.

    Senator Sessions. Thank you, General Obering.
    Senator Nelson, our ranking member, has joined us now. I 
wonder if you have any opening comments before we get started.
    Senator Bill Nelson. Mr. Chairman, I will submit a 
statement for the record. I have some questions that I would 
like to get into right away.
    [The prepared statement of Senator Bill Nelson follows:]
               Prepared Statement by Senator Bill Nelson
    Thank you Mr. Chairman. I want to join you in welcoming our 
witnesses, who represent the operational users, the developers, the 
acquisition leadership, and the operational testing community for 
ballistic missile defense (BMD). It is an impressive gathering of 
talent and experience.
    I am pleased that all members of full committee have been invited 
to this hearing. BMD is an important topic of interest to the whole 
committee, and to the Nation.
    We all want to protect our Nation against all serious threats, from 
terrorism to missile attacks. But we also want to be sure that any BMD 
system we build will work effectively, especially since we are 
investing tens of billions of dollars in the system.
    As we hold this hearing, we must acknowledge current reality: we 
began fielding a system last year that has failed its last three 
intercept flight tests. People are concerned that we are deploying a 
system that may not work, or that may require considerable work and 
expense to fix. As it is, the Defense Department (DOD) plans to spend 
more than $55 billion over the next 6 years on BMD, and that assumes 
everything goes well.
    We need to have confidence that we are buying an effective system, 
not a defective system. The best way to gain that confidence is through 
testing, especially through realistic operational testing.
    It would help if there were a plan for operational testing of the 
system, and a schedule for when that testing would begin. 
Unfortunately, that is not the case today. While there is a test plan 
for the development of the system, including an effort to include what 
is called ``operational realism,'' it is still not operational testing.
    I gather that there have been good discussions recently among the 
organizations represented here today on the need for operational 
testing, and on the leading role that the Director of Operational Test 
and Evaluation (DOT&E) will play in establishing a test plan, 
evaluating the results and reporting them to Congress.
    I want to commend our witnesses today for undertaking serious 
discussions on how to do the right thing when it comes to testing this 
system and making sure it works. I want to encourage you all to 
continue working together to get the best possible result. I hope our 
witnesses will describe the progress they are making and what they hope 
to achieve. I believe we should consider legislation that would require 
adequate testing of the BMD system, to help make sure we get it right 
and produce a system that the American taxpayers can rely on.
    I look forward to hearing from our witnesses.

    Senator Sessions. Thank you.
    General Dodgen, we are glad to have you with us. General 
Holly, it is good to see you and have you with us.
    Mr. Wynne, the budget decision 753 reduced the planned 
budget for missile defense by $1 billion in fiscal year 2006 
and $5 billion over the fiscal year 2006-2011 time frame. Can 
you explain the rationale for these cuts and what guidance, if 
any, did you or other senior officials provide the MDA 
regarding the cuts and your observations about them?
    Mr. Wynne. Sir, I only will tell you that this is, as is 
every budget, a constrained resource environment, number one.
    Number two, I think the arguments were not carried well 
after two successive missile defense tests based on a need to 
go back and refocus on quality and refocus on flight 
verification. I think the budget argument could have been 
better had those both been successful.
    I think the partnering that has gone on between the DOT&E 
and the Missile Defense Director has been excellent since.
    I will also tell you that the sole direction the MDA 
Director received was that he should go back and balance the 
risk, balance the quality, and balance the performance and meet 
his mission. He accepted that challenge, sir, and provided us 
the results.
    Senator Sessions. Well, you have a good man to take on that 
challenge, I have no doubt.
    General Obering, would you share with us from your 
perspective the impact these reductions have placed on you, 
whether or not you will be able to maintain the missile 
production lines, what it means in terms of other things like 
KEI? Tell us, based on where you are, what the impact would be.
    General Obering. Yes, sir. What happens when we go in and 
do a restructure in our budget, what we have to take a look at 
is balancing the risk. That is exactly what we end up doing. 
Again, as I said in my statement, we want to try to balance our 
commitments to fielding, along with the continued development 
of the program because we know that we are going to have to 
improve it over time.
    Now, specifically we took the $1 billion cut in 2006. I 
looked across the board. I looked at where we were with the 
airborne laser program, the fact that we had had significant 
milestone achievement over the last year. We had started the 
KEI program as a risk reduction alternative in the boost-phase 
to that.
    Senator Sessions. Risk reduction. What do you mean?
    General Obering. That means if ABL does not work out, we 
need to have a boost-phase defense. We cannot be vulnerable in 
that phase. We have to have the multi-phased approach.
    So I took a look and said we are making good progress on 
the ABL, but we are not out of the woods yet. We still have a 
ways to go. But with the first light and the first flight 
milestones, we have answered many of the technical questions 
associated with that program. So we restructured the KEI. We 
stretched it out for a year, and then we focused it down on the 
demonstration of the capability that we really need from that, 
which is a very high acceleration booster, much faster 
acceleration than anything else in our inventory to get to that 
boost-phase defense.
    It turns out that if we can do that--and we planned that 
flight in 2008 now--it also gives us some tremendous way ahead 
with respect to upgrading of our midcourse and terminal phases 
because that high acceleration with the mobile capability of 
the KEI is very attractive in terms of not being fixed to a 
fixed line of defense. So that is why I wanted to not cancel 
that program. I wanted to keep that program, but I also wanted 
to make sure that it demonstrated its critical technical 
progress which is a very high acceleration booster. So that is 
why we focused a lot of our cuts there.
    We also delayed the third site that we had planned for the 
GMD program where we were negotiating with several countries in 
Europe. We delayed that by a year in order to achieve our 
budget reductions. What that does, as that moves out, is to 
provide us with another alternative with our allies, as to 
whether we want to put a fixed site defense there or have a 
mobile option available to them as well.
    I felt that the advantages of the two configurations we 
were carrying on the ground-based midcourse program, the 
Orbital Boost vehicle and the Lockheed Martin configuration, 
the advantage of having those two configurations were no longer 
with us. We have proven the Orbital Booster performance, as you 
said in your opening statement, and we feel comfortable with 
that configuration. It was very good that we had the dual 
configurations 2 years ago, when we had the accident in the 
plant in California, because we were able to go to another 
supplier and continue on with our program.
    The problem we have now is, when we requalified the booster 
motor supplier after that accident, we now have the same 
supplier for both boosters. So we do not enjoy the redundancy 
that we had before in motor suppliers. So I was willing, I 
thought, to take the further risk in that program by 
terminating and backing out of the Lockheed Martin Booster 
program.
    Then finally, General Kadish, my predecessor, did a 
tremendous job in laying the technical foundation for the 
integration of this system. But we never took a very hard look 
at the programmatic integration across all the programs we had 
and how we could get more streamlined in the management of 
those programs. That is what we are taking a look at to try to 
generate some efficiencies in the way that we are overseeing 
and managing the programs. So, that is how we laid in those 
cuts.
    Senator Sessions. Can you just give us some round numbers 
about each one of these programs, about how much reduction from 
your original plans you took?
    General Obering. I can tell you that, about $300 million 
the infrastructure overall.
    Senator Sessions. Does that include the----
    General Obering. That is everything.
    Senator Sessions. Worldwide?
    General Obering. Yes, sir. The $300 million is the 
infrastructure worldwide for managing the program. The KEI 
program, we reduced by about $700 million to $800 million in 
the near term, in the 1 year. Then across the board, about a 
total of $5 billion, if I recall--the KEI program reductions 
accounted for about $4 billion of that total.
    Senator Sessions. I know you have issued a hiring freeze 
notice. What can you tell us about that? Does that reflect cuts 
that may be unhealthy? I mean, a freeze indicates sometimes you 
are not able to have the money to move the way you would like 
to. How would you describe that?
    General Obering. Sir, the way I would describe it is, we 
issued that because we wanted to make sure that we got a good 
snapshot of where we were as we go into this infrastructure 
reduction. So, again, we are going to have to take risk. That 
is part of this, part of meeting our budget top line 
reductions. But I do believe that we will get more efficient in 
our management, and I think we will be able to meet our 
reductions and then continue on because we do not want to keep 
the hiring freeze around too long, because then you can get 
yourself into a tailspin that you do not want to come out of.
    Senator Sessions. I will agree with that.
    What about the interceptors 31 through 40? Will you be able 
to maintain that assembly line? What penalties do we face if 
you do not maintain that level of production of those 
launchers?
    General Obering. Well, sir, if we do not get the money we 
need to do the advanced long lead for that and then we end up 
with a break in our assembly line, it will be about $260 
million to $300 million in terms of the cost of reconstituting 
the assembly line and production.
    The other thing that happens is if we----
    Senator Sessions. But now, you are saying you are not going 
to have to see a break. Are you confident that under this 
budget that you will be able to maintain that production 
without suffering a break and the Government having to face 
that kind of penalty?
    General Obering. Sir, I would say that we have managed this 
to a fine line. We have this down to about the minimum that we 
can do and not have that production break. So it is critical 
that we get the budget request that we have asked for, 
including the long lead for that.
    Senator Sessions. Senator Nelson, do you want to take your 
opening now?
    Senator Bill Nelson. No. I would like to go right into the 
questions.
    Senator Sessions. Go right ahead.
    Senator Bill Nelson. Good afternoon, gentlemen. Thank you 
for being here.
    General Cartwright, what we have in the ground in Alaska 
ready to launch--three attempted intercept flight tests have 
failed, and what is in the ground, the operationally tested 
booster and the kill vehicle have never been flight tested. Is 
that correct?
    General Cartwright. That configuration has never been 
tested. That is correct.
    Senator Bill Nelson. Now, the organization represented by 
Mr. Duma does not believe, as testified here today, that there 
has been sufficient testing to provide confidence that the 
system would work effectively, that which you have in the 
ground. So do you think, General, that it would be wise to 
focus on more testing and development of the system, or do you 
believe that the system is ready now for operational alert 
status?
    General Cartwright. As I stated in my opening comments, our 
focus in 2005 is on more realistic operational testing. If the 
Nation needs it, we have a thin line. We have an emergency 
capability, but the focus needs to be on increasing the depth 
of the sensors, the command and control, and the weapons, and 
realistic operational testing.
    Senator Bill Nelson. So what you are saying is that if the 
focus is on continued testing and development, you think that 
it could be brought up to alert if needed in an emergency.
    General Cartwright. Yes, sir.
    Senator Bill Nelson. Then is there any reason not to use 
the testbed to learn more about how well the system works and 
to improve the capability of the system?
    General Cartwright. If I understand your question, that is 
the objective of the shakedown capability or what we are trying 
to do is take operators, put it on the testbed, use the testbed 
to further our knowledge both on this limited capability and 
what we would desire to have in a more expanded and 
comprehensive capability.
    Senator Bill Nelson. I want you all to know that I 
appreciate your candor because the previous representation that 
we have had here to this committee was that what is in the 
ground up there in Alaska is ready to go and it is operational.
    General Cartwright. Again, if asked, one, we have the crews 
trained. We have a thin line of command and control, what we 
are calling rudimentary command and control. We have a system 
of sensors and a system of weapons. We have questions about 
different components of that. It has no depth. In other words, 
there are not redundant systems behind it, but we would put 
that system on alert. I am confident of the training of the 
soldiers that operate that system, and we would use it. But I 
think it has to be characterized as rudimentary and one that is 
thin line.
    Senator Bill Nelson. If I were asked to climb on it and 
ride it, it has not exactly been checked out, ready to go.
    General Cartwright. I think that that is a fair statement, 
but I still would use it.
    Senator Bill Nelson. Mr. Duma, would you agree that the GMD 
system is not mature yet and that it needs continued 
development and testing?
    Mr. Duma. Yes, Senator, I would. In fact, what we have laid 
out with the MDA is continued testing of that system to 
accomplish exactly what General Cartwright addressed, to get 
that redundancy and get out of the thin line aspect, as he puts 
it, so that you have a greater confidence that if the emergency 
came and you had to use it, you would have a greater degree of 
confidence that it would work.
    Senator Bill Nelson. Specifically with regard to 
confidence, is it your opinion that given the lack of flight 
test data, there is no demonstrated basis yet for confidence 
that the system would work in an operationally effective and 
reliable manner?
    Mr. Duma. The system exists. We have the people. We have 
the equipment. We have the procedures. What we do not have is a 
demonstration that they all work together yet. There are still 
things in development in terms of algorithms. The sea-based 
radar is an example that I had in my statement. Those things 
need to be tested to show that we have that capability. It does 
not mean we do not have the assets and we have them to try.
    Senator Bill Nelson. Again, I am not being critical here. 
What we want from this committee is we want a set of rockets 
with a kill vehicle on top of it that is going to hit its mark. 
That is what all of us around this table want. Would you agree 
that given the GMD flight test failures, that the system has 
problems with quality and reliability that need to be fixed?
    Mr. Duma. I do. In fact, I testified to that before the 
House subcommittee, and that is the action that General Obering 
has taken with his independent review teams to identify the 
root causes. There is a quality problem.
    Senator Bill Nelson. Just to nail it down for the record, 
am I correct in understanding that the GMD system is undergoing 
developmental testing and not operational testing, even though 
you tried to squeeze as much operational realism out of each 
developmental flight test?
    Mr. Duma. I believe that is an accurate assessment, 
Senator.
    Senator Bill Nelson. Thank you. Thank you for your candor, 
General and Mr. Duma. That is not the spirit of the testimony 
that this committee has received in the past.
    Senator Sessions. I do not know about the spirit.
    Let us see. Senator Reed or Senator Cornyn. You are okay, 
Senator Reed? We will go to Senator Cornyn. You were here 
earlier I know.
    Senator Cornyn. He was here earlier.
    Senator Reed. John, go ahead.
    Senator Cornyn. Thank you very much, Mr. Chairman. Thank 
you, gentlemen for being here today.
    In light of the questions that you just heard, I want to 
make sure I have the story straight. What we have is not so 
much a program budget that is based on a demonstrated ability 
to function and knock down ballistic missiles before they hit 
us but is predicated more on the basis of what we perceive the 
threat to be at this point. Would you agree with that, General 
Cartwright? Maybe my question is not clear. If it is not, just 
let me know.
    General Cartwright. I think what you are saying is that we 
have a perceived threat, which I outlined in my statement is 
both in my mind real, in the judgment of the intelligence 
agencies, and is growing, against which we are trying to match 
a capability that will both influence the way that threat 
behaves and potentially if that threat were realized, could 
defeat it.
    Senator Cornyn. You said it so much better than I did. 
[Laughter.]
    That is my understanding as well.
    What I also understand is that if we waited until we went 
through a traditional test and operation before we then 
concerned ourselves with possibly deploying these, in the case 
of an emergency, it really might be too late. Would you agree 
with that, General Obering?
    General Obering. Yes, sir. You have hit on a very key 
aspect of what we are doing, and it is something that goes back 
to what Mr. Wynne talked about. In this area, where you have no 
defense, it makes sense that as you demonstrate the basic 
functionality of a system, to go ahead and get it out there so 
you can take advantage of that inherent functionality and 
continue to improve the system.
    That is exactly the risk-benefit equation that we are going 
through. We have actually flown the booster that is in the 
ground in Alaska and California three times successfully. We 
have flown the kill vehicle in a prototype fashion that is 
about 67 percent the same hardware and 62 percent the exact 
same software in those intercept tests that were successful 
several years ago. So we think we have demonstrated all the 
basic functionality and now we are taking advantage of that 
inherent capability because, as you said, sir, if we had 
followed the traditional model, we would just now be getting to 
the point where we may be entering operational testing and we 
would be 3 or 4 years from having any inherent capability.
    Senator Cornyn. Thank you very much.
    Mr. Wynne. If I could add, Senator Cornyn.
    Senator Cornyn. Certainly.
    Mr. Wynne. In a bipartisan way, this is the committee where 
this system started in 1999, and I think we have met, in fact, 
the intent, which is to field, as quickly as possible, the 
potential for defeating such a threat.
    The President has actually accelerated, as much as he can, 
the deployment of the system, and what we are doing, in the 
true spirit of spiraling, is allowing the operators as much 
time on this system so that they might train almost in a 
parallel fashion so that as the system comes on line and the 
capabilities are realized, we can meet this greater and greater 
threat. What we are doing now by essentially putting into a 
shakedown, this X-band radar is going to so dramatically 
increase our ability to detect, to track the incoming missiles, 
that maybe we will have an effective deterrence against ever 
having to use it, which as all of my friends that used to be in 
the Strategic Air Command and are now in STRATCOM would say, 
peace is our actual profession.
    Senator Cornyn. My understanding is there are an awful lot 
of countries that we cannot depend on their peaceful 
intentions, that have weapons of mass destruction. They have 
ballistic weapons, and if we did not have what we have now in 
terms of our missile defense system, we would be absolutely 
naked given an unexpected attack. These weapons are capable of 
being used potentially not only against the continental United 
States but against our allies.
    So let me just ask General Obering one last question about 
this. You alluded to the GBI prototypes that flew successfully, 
successfully intercepted four out of five targets in the 2000 
to 2001 time frame, and the current GBI booster that flew 
successfully three times in the 2003-2004 time frame. I believe 
you also talked about the last two failures. One, as I 
understand, was too restrictive a parameter in the software 
that caused the system to shut down.
    General Obering. Yes, sir.
    Senator Cornyn. Then the second had to do with a 
stabilizing arm that failed to get the signal that it actually 
separated from the rocket. Those were not failures of the 
interceptor itself. I understand they are serious. I think you 
call them major technical concerns but they do not cause you 
major concerns about the functionality of the system overall.
    General Obering. Yes.
    Senator Cornyn. Could you just explain that better than I 
did?
    General Obering. Yes, sir. It is almost like we cannot get 
our starting quarterback on the field because he keeps tripping 
over the bench. [Laughter.]
    But we have addressed the software timing issue that caused 
the abort in the first attempt on IFT-13C in December, and we 
are looking at the root cause of this battle support arm and 
its failure to clear.
    Now, unfortunately, we have been able to check out our 
abort system very well. So it works extremely well. [Laughter.]
    In both of those tests, there are some things that we have 
really learned. I do not want this to sound trite, but we have 
learned a lot in terms of, it was the configuration of the fire 
control software that we have in the field today, that was used 
in both of those tests. We were able to get the target 
information, feed that into that fire control system, generate 
the fire control solution to the weapons test plan, and send 
that to the interceptor. The onboard interceptor computer 
accepted that through a number of checks, and sent it into the 
guidance control system. We have the same guidance control 
algorithms on board the vehicle that we have flown in the past. 
So we think that the basic viability, the basic function of the 
system, we still maintain confidence in, sir.
    Senator Cornyn. Thank you very much.
    Senator Sessions. Thank you.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Thank you, gentlemen 
for your testimony.
    I assume if you are accepting a $1 billion cut in your 
budget, then you do not feel that additional resources would 
affect the operational status of either the midcourse system, 
the ABL system, or the space architecture you need and any 
radars you need. Is that a fair assumption, Mr. Secretary?
    Mr. Wynne. There is always the unique question, sir, of 
what would you do if you had an extra dollar, which probably I 
would tell you that we, in fact, have structured a program that 
we feel like is sufficient to meet our mission. But we would 
probably spend it on the ABL/KEI risk reduction program, which 
might assist us with moving towards a more mobile system.
    Senator Reed. But it would not affect the operational 
status of the midcourse system, for example.
    Mr. Wynne. The GMD system, as it sits, I think is going 
through some retrospection and some quality checks, and I 
think, sir, that it is, in fact, converting the two failures 
into ground-based test articles, which are going to allow 
people to finally count down through 0, which Senator Nelson 
knows is kind of a valuable thing to have. That will actually 
enhance the training of operational crews which otherwise would 
have always to launch and could not count through 0.
    So I think by converting those vehicles, we are, in fact, 
creating test articles from, if you will, not spent but 
refurbishable rockets. I would tell you that that is probably 
what will happen to all of these vehicles that we are currently 
thinking about either long-lead fielding or have bought is that 
they will all turn into test articles.
    Senator Reed. Let me ask General Obering and Mr. Duma. Will 
you conduct an operationally realistic test of the system by 
October 1st pursuant to the Defense Authorization Act, General 
Obering?
    General Obering. Sir, I will have to answer that question 
after I get the full results from the Mission Readiness Task 
Force that I talked to you about. After they have been able to 
go through the recommendations from the independent team, we 
will know better in a clear picture of what our test outlook 
is. However, I will tell you this. We certainly have plans to 
be able to conduct the operationally realistic testing as 
quickly as we can.
    Senator Reed. But at this juncture, you cannot say with 
confidence whether you will be able to meet that deadline?
    General Obering. I will not know until I get the full 
information.
    Senator Reed. Mr. Duma, do you have anything to add?
    Mr. Duma. We do have that in the plan, Senator. Certainly 
it is up to General Obering to define what corrective action he 
may need to take within the program. That always has a 
potential to impact the plans.
    Senator Reed. Again, General Obering, Mr. Duma, when do you 
foresee scheduling an end-to-end flight test of the system from 
target acquisition to target destruction?
    General Obering. Sir, as I said, in terms of a schedule, I 
cannot give you that, but I can tell you what our plans are. We 
intend, as quickly as we can, to fly a target out of Alaska, 
fly it across the face of the Beale radar in California, an 
operational radar, fly an operationally configured interceptor 
out of an operational site at Vandenberg, have the operational 
fire control system, the battle management communication links 
in place to support that, and have operational crews supporting 
the test.
    We also plan to have that similar type of scenario using an 
Aegis ship, what we call the ``engage-on'' sensor, using that 
information to build a weapons task plan, as well as to have a 
salvo launch in which we fire two interceptors against a 
target. We have all those in our test plan.
    Senator Reed. But again, there is no date that you can give 
with any confidence now of when you can execute.
    General Obering. Not until I get the results of the review 
team.
    Senator Reed. These tests are important, but probably just 
as important is who grades the test. Both MDA and the Office of 
Operational Test and Evaluation are essentially grading the 
tests with different criteria, as I understand it. Just for an 
initial question, Mr. Wynne, who does the DOD look to for the 
evaluation of limited defense operations?
    Mr. Wynne. Actually, sir, what we are looking for is the 
STRATCOM commander, who sits here beside me, to grade all of 
our paper, just like an acquisition program should deliver to 
the warfighter. The tests hopefully are, as you say, 
representative. Using his operational forces, trained and 
ready, I think he is the one who has to grade our paper on 
that.
    Senator Reed. Let me then ask General Cartwright. As you 
look at the technical aspects--I know you have operational 
aspects, the crew training, many things, but when you look at 
the technological issues, what date are you looking at? Is it a 
successful test even though it launches, flies, and whatever? 
How do you decide between what Mr. Duma is concluding versus 
MDA?
    General Cartwright. I think what will be important, one, is 
to have access to all the data, which we now have; two, to have 
access and some say in how the tests are conducted and do they 
actually get it realistic; and three, going back to the 
original assumptions of the system, and making sure they are, 
in fact, operationally relevant and that when we do this test, 
it is in an operationally relevant scenario. All of those will 
be criteria that we will put together and pull together. I will 
use Lieutenant General Dodgen and his capabilities at Space and 
Missile Defense Command as the analytic arm and as the operator 
arm to make sure that this is operational.
    It will not be perfect. In other words, the missile will 
not originate in Korea, things like that. But to the extent 
that we can get every factor as close to operational as we can, 
it will impinge on how we see the system and our ability to use 
it and its ability to defend against the threat that we think 
is out there.
    Senator Reed. When do you think you will have that data and 
can reach that conclusion, which I would think would be the 
minimum for declaring the system operational?
    General Cartwright. Again, it will be event-driven. I will 
have to allow General Obering to get through his review and 
conduct the tests. But the good news is we have had input into 
those tests. We are getting operators up on the consoles now 
rather than waiting until the day of the test. So I feel more 
comfortable that the operators will actually be able to 
understand what is happening technically and operationally and 
give me good input. I feel much better about that right now.
    Senator Reed. Thank you very much. Thank you, General.
    Senator Sessions. Thank you.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here with us today.
    General Obering, we talked yesterday briefly and you 
mentioned something about an independent review team that is 
looking at the latest testing efforts. Can you tell us a little 
bit more about what that would consist of and what you would 
expect to get from them more specifically?
    General Obering. Yes, sir. I mentioned in my opening 
statement that they gave us specific recommendations in about 
five different areas. Primarily the way the leader of the team 
characterized it to me is that we are 90 percent there. We have 
about 10 percent to get over the hump. This has to do with 
enforcing better discipline in our quality control processes, 
primarily strengthening some of the system engineering 
initiatives to make sure that we have proper flow-down in some 
of the specifications, all the way through the system, to 
include silo construction. One of the things we ran into, we 
believe, with this latest failure, is that we are able to reach 
out and touch more of the functional experts within the 
contractors' organizations and get some of the quality missions 
assurance experts to bring to bear on the program. In general, 
the way I characterize it is to install better test 
certification and test discipline in our process as we go.
    Senator Ben Nelson. Well, in doing that, will we find out 
to what extent something that is technologically at risk or at 
fault versus what may be a personnel or human risk or human 
fault?
    General Obering. Yes, sir. As a result of the review--and 
this is expanded, as I mentioned to you yesterday, to include 
all the ground support equipment and everything else--we should 
be able to determine that.
    Senator Ben Nelson. Then, Mr. Duma, would that, do you 
think, contribute significantly to what you would call a 
defense realistic operational interceptor effort once you get 
the report back and you are able to sift through it and make 
changes that might be suggested?
    Mr. Duma. Clearly the answer to that lies in the corrective 
action taken as a result of the report and the findings. For 
instance, in integrated flight test 13C, where there was a 
software problem and I am reasonably confident that they found 
the root cause and there has been sufficient testing and ground 
testing to confirm that that aspect of it works. The issue with 
the silo at this point I do not have that because we do not 
have the findings back yet. So with the corrective action for 
that, to do another flight test and get that booster to fly 
with the kill vehicle, so we can verify the separation and the 
maneuvers that are required, that will be the first step to 
looking at a more comprehensive operationally realistic test.
    Senator Ben Nelson. How confident are you that they will 
have identified everything or every key factor for your 
consideration?
    Mr. Duma. Well, that is why you have test programs, 
Senator. You design the system as well as you can, but the test 
program is designed to ferret out if you have made a mistake in 
the design, and if the design is helping carry out the mission 
that you intended. If you have a design problem--and we did in 
13C. It was fixed. But that is why you do testing. We have had 
successful booster launches in the past, and now this time we 
had two that did not go and for very different reasons.
    Senator Ben Nelson. So part of it is just based on 
experience. Can a lot of the testing that you are doing be done 
without operational or through the developmental side?
    Mr. Duma. That is exactly what is happening right now. It 
is developmental testing when we are trying to, as Senator 
Nelson put it, infuse as much operational realism in that 
developmental testing as possible. We cannot do everything 
because not all of the system is available. But with what we 
can do, every time you get a successful launch, your confidence 
goes up because every time you do another flight test, you 
challenge the system a little more. So even though you get a 
launch, the next one is a little more difficult scenario 
profile. You have already repeated what you have done and have 
demonstrated works. So over a period of time, that confidence 
grows.
    Senator Ben Nelson. Yes. I think Senator Nelson said 
something about getting on it and riding it. He has been up in 
space. I have not had that experience and I do not intend to 
get on and ride anything like that anywhere. [Laughter.]
    Senator Sessions. But if an incoming missile were coming at 
him, I suspect Senator Nelson would like to push the button to 
respond. [Laughter.]
    Senator Ben Nelson. If it is coming at me, I will try to 
get out of the way.
    Senator Sessions. Well, we hope one of these would work.
    Senator Ben Nelson. If a ballistic missile were launched 
against us tomorrow and with the systems we have in place right 
now and with what we know and what we believe we do not know, 
what we know we do not know, what is the expectation on a 
percentage basis of being able to have an effective response to 
an incoming missile with the ground defense based system? 
Anyone who wants to respond to that.
    Mr. Wynne. I would say under our current guidelines, sir, 
specific percentages have to be worked out over a longer period 
of time. We do not have the reliability and statistics to 
really add a variability. Of course, our operational 
procedures, as General Cartwright's is, is to launch twice for 
one. We actually test one on one, but our operational 
procedures test twice.
    We are building a reasonable confidence level and perhaps 
in a more classified section you can get what our reasonable 
confidence level is. Had the two failed tests been achieved, we 
would be talking to you far more confidently.
    Reverting to something that happened to me personally, I 
lost three commercial Atlas rockets in the space of 3 years. We 
still launched about 15 rockets over that period. I went 
through tense agony getting a quality program installed in my 
system. They have since launched about 80 without failure. So 
that was a successful intervention, if you will, and putting in 
place a quality system.
    I am very confident that General Obering has heard my 
message very, very clearly and is now focused on that. The fact 
of our budget defense was not up to, I would say, Senator 
Sessions' standards maybe has refocused our efforts on getting 
more successes in the future.
    Senator Ben Nelson. Well, I will leave you with this sort 
of question. You do not have to answer it. Is anyone willing to 
say that in this testing that very often we are going to learn 
more from our failures than we do our successes? Obviously, you 
have to analyze what went wrong, but sometimes you do not spend 
as much time on what went right. Is that a fair statement, that 
success and failure depend on how you evaluate what it is that 
you get from the experience?
    Mr. Wynne. There is no doubt, Senator, that success can 
mask future failures.
    Senator Ben Nelson. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Sessions. Thank you, Senator Nelson. I think you 
make a good point, but I suppose it is fair to say that we did 
not, as a result of the failures get to test as far through the 
system as you would like to have tested. Therefore, those 
portions of the system were not proven to be failures. They 
just did not have the opportunity to prove to be successful. Is 
that right?
    Mr. Wynne. That is correct.
    Senator Ben Nelson. That is quite a spin. [Laughter.]
    Senator Sessions. Well, I think that is where we are. With 
regard to 13C, there was a very low tolerance for ambiguity 
there, and you discovered that it could have been, what? 100 
times more lenient? We still could have had a successful 
launch. That software has been adjusted and you think that 
problem has been eliminated. Is that right, General Obering?
    General Obering. Yes, sir. We discovered it. It was not 
quite 100 times, but we had more significant margin than we 
needed. So we have adjusted that, yes, sir.
    Senator Sessions. Then with regard to the 14, I was there 
at Kwajelein and looked down that silo where the arm actually 
came back, and I do not know if this will be the final report, 
but information was provided to me that the pad that arm came 
to rest against was thicker than previous pads, and as a 
result, the arm did not kick the switch.
    General Obering. Yes, sir.
    Senator Sessions. If that part was incorrectly supplied by 
some contractor and that cost us considerable sums of money and 
it did not meet the specifications, it was somewhat different 
than the parts they had been supplying, are you prepared to 
take punitive action and to make clear that we expect 
contractual performance to meet the high standards also?
    General Obering. Sir, we already have. We have an award fee 
structure in our contracts in which there are substantial 
amounts of money, tens of millions of dollars, that are riding 
on these tests. Those measures have been taken. That money has 
been lost to those contractors, and they know that.
    Senator Sessions. Well, I think that is good. I just think 
you have to hold people accountable. It did seem to me a 
maddening kind of error, the kind of error, I guess, that could 
happen in something as complex with as many thousands of parts 
that must all come together. But I know it was maddening to you 
also.
    General Obering, you talked about the testing and your 
evaluation that is ongoing. First of all, tell me what you had 
planned in terms of testing for this calendar year and this 
fiscal year and whether or not you expect to complete the next 
tests before the end of fiscal year 2005.
    General Obering. Yes, sir. We had planned after IFT-14, had 
that been successful, we would have launched the target out of 
Kodiak that I mentioned to you. We would engage with an 
interceptor out of--initially we were going to engage with an 
interceptor out of Kwajelein with a track from Aegis. Then we 
were going to proceed into the next test where we launched the 
target out of Kodiak and then engaged with an interceptor out 
of Vandenberg, an operational site, and we were going to have 
both of those intercept tests completed by the end of this 
calendar year. That was the original plan.
    We still plan to fly two more radar characterization 
flights where we fly across the face of some of these 
operational radars, Cobra Dane and Beale, to make sure we 
understand that they are operating the way that they should be.
    Senator Sessions. For a system and a launch to be effective 
and knock down an incoming missile attack in the United States, 
there has to be tremendously sophisticated communication 
between advance radar systems and the actual launch site. Is 
that correct? You have to test that in the course of this too.
    General Obering. Yes, sir, and we have been successful with 
that.
    Senator Sessions. So you feel good so far about the ability 
to read and transmit the radar signals to your launch site and 
be able to launch a missile at an appropriate time.
    General Obering. Yes, sir. In fact, the major focus of a 
lot of our integrated ground test is where we connect all of 
that up. We actually ring that out and we input the data and 
process that in our ground testing. We also did it with our 
flight testing in terms of communications capabilities. In part 
of the shakedown period that General Cartwright alluded to, we 
have had some of these communication links up with some of our 
forward deployed ships. They have been very stable and very 
reliable, and I am very happy about that.
    Senator Sessions. I do not know that I have ever explicitly 
asked this, but we have had the SM-3--the Navy--they have four?
    General Obering. Five of six successes.
    Senator Sessions. Five of six hit-to-kill successes.
    General Obering. Yes, sir.
    Senator Sessions. We have had hit-to-kill successes with 
the GBI. The PAC-3 is a hit-to-kill technology. THAAD will be a 
hit-to-kill technology. That consistently proves itself 
technologically achievable. A lot of people thought it would 
never happen. I must admit I was pleased to see it happen 
because it seems like such an incredibly technologically 
difficult thing to do. But it has proven to be successful.
    My question to you is are there any larger technological 
problems in making that hit-to-kill technologically work from a 
ground-based interceptor on a strategic missile attack than for 
the SM-3, from a lower missile? I mean, is it basically the 
same technology? Is there any real difference except you have 
to get your missile up to a higher altitude to make the 
intercept?
    General Obering. Yes, sir. That is one of the aspects of 
it. It is the same basic technology. The speeds are different. 
There is a much higher speed associated with an ICBM than with 
the shorter or the medium or intermediate range missiles.
    But again, we feel comfortable, to answer your question 
directly, that we have satisfied all the major technical 
challenges associated with the programs. Now, it is a matter of 
making sure we can do it reliably and on demand.
    Senator Sessions. Mr. Duma, just briefly. Would you agree 
that testing has demonstrated the hit-to-kill technology and 
that it is now incumbent on us to do operationally realistic 
testing to make sure the entire system works effectively in a 
realistic situation? Is that our next challenge, to increase 
our confidence that this system will work as a whole?
    Mr. Duma. Partially, Senator. Certainly we have to get into 
the operational realistic testing, but the technology is there.
    But just to give you an example of the growth that we need 
to go through, the SM-3 missile, for instance, has had a good 
success rate, but in this coming year, we are increasing the 
difficulty that they have to encounter by having a separating 
target from the target vehicle. It has not done that yet. So 
while the hit-to-kill technology is there, we now want to 
challenge that to a greater degree with a separating target 
vehicle from the launched missile. That is why we have this 
road pattern in the testing, to try to get more operationally 
realistic, to give General Cartwright something that he can 
handle other than just the basic threat.
    Senator Sessions. Thank you.
    Senator Levin. We are delighted our full committee ranking 
member is with us. Senator Levin, I recognize you at this time.
    Senator Levin. Thank you, Mr. Chairman. I would yield to 
Senator Nelson, if that is okay, first.
    Senator Sessions. Fine.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Of course, we all are hoping and praying that these tests 
are going to be successful because this is an important system.
    I guess I approach this discussion kind of old-fashioned. I 
came up in the idea that what you do is you research and then 
you develop before you deploy, especially before you deploy in 
an operational system. It seems to me that in some cases we 
have so-called operationally deployed before we have done all 
of the RDT&E that is necessary to get to where we are ready for 
operations.
    We had this, for example, in the space shuttle. After four 
flights, they said it was operational. Of course, it was not 
operational. Every one was still an experimental kind of thing. 
Yet, that was a risk that we were willing to take.
    So too, what you all are telling us, that basically this is 
a risk that you are willing to take. Our question, as people 
who have to look out for the resources of the American 
citizens, is are we spending it in the right way as we are 
trying to get to the ultimate goal that all of us are trying to 
get to.
    Now, for example, General Obering, has the kill vehicle 
that is in the ground on top of the booster ever been tested 
with that booster?
    General Obering. In terms of flight tested, sir, no. In 
terms of obviously the ground test and check-out, yes, sir. A 
prototype of the kill vehicle that is in the ground has been 
tested with the booster.
    Senator Bill Nelson. I understand, but I remember what you 
said that the prototype that flew off the kill vehicle was 67 
percent of the components. That means that in this kill vehicle 
that is in the ground, 33 percent is new.
    General Obering. Yes, sir.
    Senator Bill Nelson. You also said that 62 percent of the 
software. So that means that in this kill vehicle that is there 
on top of the booster in the ground, 38 percent of it is new. 
So we do not know that this kill vehicle on top of that 
existing booster--what is your confidence in that?
    General Obering. Well, sir, first of all, the reason why we 
were trying to fly IFT-13C and IFT-14 was to prove out that 
capability. Again, the improvements that we have made to the 
kill vehicle had to do primarily with producibility and 
manufacturability because we were, again, going with the 
prototypes earlier. I am confident that the kill vehicle will 
work, sir, but we have yet to prove that.
    Senator Bill Nelson. Are you confident when this target 
separates from the booster, that it is going to work as well?
    General Obering. Now, you are talking about the Aegis 
program there, not the GMD program. So that is a different kill 
vehicle. Yes, sir. In fact, one of the key milestones there was 
to demonstrate a much higher performing what we call a divert 
attitude control system to accomplish that. That was done 
successfully just this last week.
    Senator Bill Nelson. If there is any confusion there, I am 
not talking about the Aegis. I am talking about the other one, 
the ground-based interceptor.
    General Obering. Yes, sir. In fact, the targets that we 
have flown against, even with the prototype vehicle were a 
separating warhead. That is what the long-range interceptor 
does.
    Senator Bill Nelson. Mr. Duma, we had a couple of similar 
sounding phrases here, and if you could clear it up for us, I 
would appreciate it. Can you explain the difference between 
operationally realistic developmental testing and realistic 
operational testing?
    Mr. Duma. If you are talking about developmental testing, 
the primary purpose of that is to determine the functionality 
of the system. That is generally under the complete control of 
the program manager and the development team. When you are 
talking about realistic operational testing, in our traditional 
title X role, that testing is conducted with operators on the 
system and by an independent operational test agency. The 
Services, for example, each have their own independent 
operational test agency which conducts those tests.
    The MDA operates under a different set of rules, as Mr. 
Wynne addressed earlier. So we are in the mode of providing 
advice to add operational realism to those developmental tests. 
The system is in development. It is an RDT&E system. That is 
clear. We are trying to get as much operational realism out of 
each test as we can so that we can get some confidence that the 
equipment, the people, and the procedures that exist will, in 
fact, function in an emergency if we had to use it.
    Senator Bill Nelson. Is it correct that your organization 
is responsible for realistic operational testing and not 
responsible for operationally realistic developmental testing?
    Mr. Duma. I am responsible for operational testing in the 
DOD. Adding operational realism to developmental testing is a 
unique role for my office associated with the MDA.
    Senator Bill Nelson. If I may, I am going to do an 
interview right next door and I will be back.
    Senator Sessions. Very good.
    Senator Levin.
    Senator Levin. Thank you again, Mr. Chairman.
    The line between developmental testing and operational 
testing has perhaps been blurred a bit because you are giving 
advice to the program managers to try to make that as realistic 
as possible. But they are still responsible for developmental 
testing. Is that correct?
    Mr. Duma. Yes, sir.
    Senator Levin. Has this program gone beyond developmental 
testing yet?
    Mr. Duma. No, Senator.
    Senator Levin. Approximately how many more tests, if you 
can put it that way, would have to be successful before it gets 
to realistic operational testing?
    Mr. Duma. In the current rules under which we operate for 
the MDA, there is no operational testing, as you might 
understand it, from our traditional title X responsibility.
    Senator Levin. It may never get to operational testing 
under the traditional system.
    Mr. Duma. That is correct. Remember, when the MDA was first 
created, there was a plan to transition systems from 
development in the MDA to the Services at which time an 
operational test agency would be identified and title X 
operational testing would occur to be done by the Services. 
Over the years, as the system has developed, that is no longer 
the plan. There are no transition plans to move this into the 
service for a procurement or operation.
    General Obering. Senator, if I may add some light to this, 
if I could.
    Senator Levin. Let me ask a question first of Secretary 
Wynne and then I will come back to you if this does not clarify 
it. Secretary Wynne and I have had correspondence.
    First of all, congratulations on your appointment, 
Secretary Wynne.
    Mr. Wynne. Thank you, Senator.
    Senator Levin. I know it was a long time in coming and it 
is well-deserved.
    Last June, Secretary Wynne wrote me the following: I will 
ensure that the Department conducts operational testing as 
required by statute. The Department is committed to adequate 
testing, even at this early stage of the BMDS program. 
Therefore, a focused operational test and evaluation, 
consistent with the capability demonstrated during combined 
developmental and operational testing, will be conducted on 
each future block configuration of the BMDS. The Director of 
OT&E will approve the operational test planning, evaluate test 
results, and provide a characterization of operational 
effectiveness, suitability, and survivability.
    Now, does that statement of yours in that letter still 
stand?
    Mr. Wynne. Yes, sir. There was a section 234 of the 
National Defense Authorization Act for Fiscal Year 2005 which 
colors some of this, but I tried to live to the spirit of the 
interchanges you and I had by asking the DOT&E's staff and MDA 
to partner on the test and evaluation master plan and the 
specifics of increasing the operational experience of each of 
these test spirals. I think they are a long way along that 
line. It is, I would say, a watershed change from where we have 
been, and I credit Mr. Duma and General Obering in articulating 
that.
    Senator Levin. Do we still need operational testing?
    Mr. Wynne. Sir, we need effective, focused operational 
experience and testing is one of the ways to achieve that. I 
would say to you that the closer and closer we get to having a 
full-up test, the better. I note that the demand for end-to-end 
would, in the world of the Atlas, have actually had a missile 
shot all the way to a target. We never really did that, but we 
are doing something very similar to what we tested on Atlas in 
the early days of setting out that vehicle by stipulating 
parameters by which the vehicle would fly to and testing 
against that set of parameters. Putting the operational crew 
onto the consoles, which are getting more and more hours, and 
allowing them to essentially train in parallel has allowed more 
operator testing than we had ever previously expected.
    Senator Levin. If I phrase the question, though, very 
simply, do we still need realistic operational testing, are you 
able to give a yes or no to that?
    Mr. Wynne. Sir, that is the intent of the partnership 
between Operational Test and MDA, to actually move as close as 
we can to achieve that. As I have mentioned to you, with each 
spiral of capability that we get out there, I am hoping to not 
only check out the components as close as I can get to an 
operational test, but as close as I can get to a realistic 
test.
    Senator Levin. So that we may never get to realistic 
operational testing despite those efforts to get close to it, 
in other words, it does not necessarily mean we will ever 
achieve it. Is that accurate?
    Mr. Wynne. We have asked the Operational Test people to 
establish criteria. We are behaving to the operational 
criteria. We are working and having Missile Defense achieve 
those operational criteria. I think, sir, if we accomplish all 
of these goals, we will have, de facto, accomplished an 
operational realistic test.
    Senator Levin. Do we have those criteria? Have they been 
made available to the committee?
    Mr. Wynne. That part I do not know.
    General Obering. I believe there was a draft that has been 
made available, and Mr. Duma and I have signed off on that 
draft that delineate what those criteria are.
    Senator Levin. If you could just give us the final signed-
off draft to make sure that what we have is what you signed off 
on, General, we would greatly appreciate that.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Levin. Could I just take one more question?
    Senator Sessions. Go ahead.
    Senator Levin. Senator Nelson, would that be all right with 
you?
    Senator Ben Nelson. I have to go anyway.
    Senator Levin. We have not yet demonstrated through 
testing, as I understand it, that we have an operationally-
effective and reliable system. It has not yet been 
demonstrated. Is that a fair statement, General Cartwright or 
General Obering, either one?
    General Cartwright. I would say, sir, that is a fair 
statement.
    Senator Levin. About what test would we have to get to, if 
things go well, before we could reach that conclusion? How many 
more tests would we have to have, assuming things go reasonably 
well, that would get us to that point?
    General Obering. Sir, if I may, that was the point I was 
going to make earlier. We are in a different mode, and I mean 
that in a very positive sense. In the classic model, the 
developer develops a system, they turn it over to the tester to 
test, and they turn it over to the warfighter, and the 
developer is never to be seen again, for the most part. You go 
through that one-time testing and they clear it out the door 
and off it goes. We are not in that mode.
    We are in a continual spiral development and therefore 
continual spiral test cycles that we want to engage with DOT&E, 
with the operational test agents as well, as we go through the 
development. So to answer your question, we continually build 
out the system and continually improve it, we will continually 
go through these cycles, and we will continue to apply the 
operational criteria that we have agreed upon as we go through 
that.
    So it applies not only to the long-range midcourse system. 
It also applies to Aegis. It applies when you bring in the sea-
based X-band radar. It applies when we continue to add layers 
such as boost-phase defenses. We are in a constant engagement 
with the operational test community.
    Senator Levin. We are moving in a spiral way, but 
nonetheless, we have not gotten to the point where we know that 
we have an operationally-effective system, and whether we go 
linearly or spirally, that is what we need to get to.
    General Obering. Sir, we have deployed systems in the past 
in combat zones that have not been proven to be operationally 
reliable----
    Senator Levin. I am very much aware of that, but we usually 
do not manufacture all of those systems before we put them in a 
combat zone.
    General Obering. No, sir, and in fact, that is why we are 
going to continually spiral test and develop this one.
    Senator Levin. But we are also at the point where we may be 
producing and manufacturing all of these missiles before we 
complete the spiral development. Is that not correct, at the 
rate we are going?
    General Obering. Sir, like I said, we are going to produce 
them as part of the spiral development program.
    Mr. Wynne. I would say to you, sir, that as a result of the 
fiscal restrictions, General Obering has actually trimmed back 
as much as he can to get to a warm line, the missile 
production. I think he has acted prudently without incurring a 
penalty, yet making sure that there is not an impact 
economically to the fact that the testing has been delayed.
    Further, I would tell you that as we go through the test 
program, we have already converted two of the missiles, even 
though they were not successfully flown out of the thing, to 
essentially ground test articles, which is really going to 
enhance the ground testing and, in fact, the operational crew 
testing of the system. So I would tell you that over the course 
of several years, as we do these spirals, in each case we are 
probably going to be consuming these rockets as quickly as we 
are producing them.
    Senator Levin. Mr. Duma, you are independent. Is that 
right? OT&E is independent?
    Mr. Duma. Yes, Senator, that is correct.
    Senator Levin. Has that independence been retained during 
this spiraling experiment?
    Mr. Duma. It has. Our role as an advisor in the development 
phase is somewhat unique for us. However, I think we have had 
an impact. For instance, in the document that you just 
discussed about having a draft and that General Obering and I 
recently signed, the difference there is that we, as the 
operational test community, that is, my organization and the 
operational test agencies, in this case led by the Army Test 
and Evaluation Command, are preparing the evaluation plan and 
the test plan for certain tests that have that opportunity to 
be as operationally realistic and as end-to-end as can be. That 
document that you are talking about--we have done that for one 
of the tests in this fiscal year 2005. That is a developmental 
test to which we have applied operational realism. I believe I 
have that same agreement with General Obering to do that for 
subsequent tests for each block before that capability is 
fielded for General Cartwright.
    Senator Levin. But not before it is produced?
    Mr. Duma. Well, the test program is going to consume those 
test articles. Just in the next 2-year period for the GMD 
system, there are nine flight tests scheduled, six of which are 
intercepts. So if that goes as planned, we will consume six 
ground-based interceptors in that portion of the test program.
    Senator Levin. Where would that get us to? Number what? 
Number 35, number 40, number 30? Where does the use of those 
six missiles get us to in terms of the production of these 
missiles?
    General Obering. Well, sir, we have requested the funds to 
have 21 through 30 in the 2006-2007 time frame and a long lead 
for 31 through 40.
    Senator Levin. Is that where those six are?
    General Obering. We have test missiles as part of our 
development program at about 3 a year, 4 a year as well.
    Senator Levin. But are those six that were referred to part 
of 31 to 40?
    General Obering. Sir, we would like to take the 
interceptors and we would like to test those, as I think my 
predecessor talked about, where we can take the interceptors 
and rotate them through the test program, very similar to the 
ICBM testing that we do.
    Senator Levin. Mr. Chairman, I appreciate the extra time. 
Thank you.
    Senator Sessions. Thank you, Senator Levin. I know you have 
studied this issue for many years and asked some questions that 
are important to us all.
    I do not think it is just a choice between testing and 
deployment. It seems like to me we are doing the only thing 
that realistically is practical to do today. We have a threat. 
We need to be building the radar systems. We need to be 
building the launch pad systems. We need to be building the 
interceptor systems. We need to be proving the technology. Just 
to sit and prove to an absolute certainty that the hit-to-kill 
technology can work and then wait to develop the next phase and 
the next phase and the next phase and then finally, sometime in 
the far distant future, test them all together, to me is 
guaranteeing a delay beyond which our Nation should take, 
considering the risk we are facing. Is that the fundamental 
principle, General Cartwright?
    General Cartwright. I tend to agree with you, Senator. We 
have a realistic threat here. We have an imperative, and we are 
trying to get the best we can out of the system by 
operationally realistic testing mixed with the developmental, 
getting operators on the system as early as possible, having an 
emergency----
    Senator Sessions. We have personnel actually working on 
these radar systems, computer systems, and launch systems right 
now. So as you continue this technology, they will be ready 
immediately to utilize it. Is that correct?
    General Cartwright. That is correct.
    Senator Sessions. Well, I think that is important.
    Is there a legal definition somewhere of developmental and 
operational testing, Mr. Duma, or is it just accepted lingo in 
defense procurement?
    Mr. Duma. There actually is a legal definition of 
operational testing in the title X statute that created my 
office back in the mid-1980s.
    Senator Sessions. So you have been asked all of these 
questions about operational and development and testing and 
realistic, operationally realistic development testing, and so 
forth. Your answers have been, insofar as possible, consistent 
with those definitions in that statute, as you have tried to 
answer those questions here?
    Mr. Duma. Yes, Senator. The definition talks about field 
testing in an operationally realistic environment using the 
soldiers, airmen, seamen to operate the system.
    Senator Sessions. Well, let us take an artillery piece. 
Somebody develops the artillery piece and the manufacturer, I 
am sure, does developmental testing while they are designing 
the piece. Then in a classic artillery piece, you take it out 
and the soldiers actually fire it in a realistic situation at 
targets. Is that correct?
    Mr. Duma. It is actually even more robust than that, 
Senator. Not just firing it, but actually conducting a battle 
scenario where they have missions to accomplish where firing is 
just one element of that. They have the command and control, 
the tasking from commander's intent, and things like that that 
they have to execute, move, shoot, et cetera. So it is a true 
wartime scenario or battle scenario that we put them through in 
operational testing.
    Senator Sessions. The only way you can do that in a 
national missile defense system is really have someone, at 
surprise times, launch a bunch of missiles directed at the 
United States, which is not a very practical thing for us. We 
have to construct testing in a way that does not endanger our 
country or our citizens, and yet, at the same time, get 
realistic testing accomplished.
    Mr. Duma. Operational testing we try to make as realistic 
as possible. There are always test limitations that we have to 
deal with if for no other reason than safety because it would 
be untenable to place our personnel at risk during a test. Risk 
is an inherent factor of warfare but not for testing.
    Senator Sessions. It is just harder to do in this kind of 
system, I do not think there is any doubt.
    Mr. Wynne, when we did this proposal to go forward and 
deploy as soon as technologically feasible a national missile 
system that we passed in 1999--Congress did--we decided to go 
with the spiral development. Is that correct? Did we do 
something legal there or did we just direct you to proceed in 
that fashion?
    Mr. Wynne. Sir, the key phrases were deploying and 
technologically feasible. Now, technologically feasible is I 
think all of those tests that General Obering put together as 
far as knowing that we have checked the square on hit-to-kill, 
that we have checked the square on the guidance equations, we 
have checked the square on checking out the kill vehicle, we 
have checked the square on the missile, and we have seen all of 
those maybe separately, as Senator Nelson pointed out, but 
collectively works out. That is technology feasibility.
    Deployment of that technologically feasible set is exactly 
where we are. So I think, sir, we are approaching the mission 
fulfillment, if you will, of what Congress asked us to do.
    Now, there is another set of responsibilities which we owe 
to the warfighter, which is to increasingly grow the 
reliability of, first, the rudimentary system that General 
Cartwright talked about, and then as we get more and more and 
better sensors on board, to effectively test those sensors and 
that layered defense in an effective manner to increase the 
confidence of not only the soldiers, sailors, and airmen that 
are operating this system, but to ourselves and to the American 
people, and then where we would really like to make the most 
effect, of course, is on anybody who is contemplating a launch 
towards us believing that that launch is fruitless.
    Senator Sessions. I believe that is exactly correct. I 
believe that we need to continue to develop this system so that 
any enemy would realize that they are going to be incapable of 
making a missile system that could penetrate our defense. 
Therefore, they would be wasting money to do it. Not only that, 
I think if we do not have that and we face a nation that has a 
missile capable of hitting the United States, it puts the 
President in an awfully weakened position if this person, this 
nation threatens us in a way because he cannot have confidence 
that the American people would be protected.
    General Cartwright, I guess that is your bailiwick. I guess 
that is what you deal with on a daily basis as you look at the 
strategic defense of America. Would you comment on that?
    General Cartwright. I think to take it back again to the 
opening statement, what we are compelled with right now is that 
the offense alone is not enough. We have to have a combined 
offense-defense capability to change the mind set of the enemy 
so that he or she cannot believe that just because they get a 
sneak first shot, that that is going to be determining.
    Senator Sessions. The stress, General Obering, will 
continue on you to not only make the system that we have work, 
but to enhance it ad infinitum, I suppose, to deal with 
potential targets that may be difficult or disguised or evasive 
in some ways. Is that correct?
    General Obering. Yes, sir, and that is a great point that 
you are bringing up, which is what we are asking for in 2006, 
in terms of our budget, the results of that work will not 
manifest itself for several years. It is incumbent that we 
realize that, that we are playing about 2 years ahead, for the 
most part, in terms of developing our capabilities, and we have 
to try to judge where we need to be that far in advance. It is 
important we continue that momentum as we look out into an 
uncertain world.
    Senator Sessions. Would you comment on using your plans to 
use this testbed to continue to do GMD testing while 
maintaining some degree of operational alert status? How do you 
envision managing this tension between having an operational 
alert status and testing at the same time?
    General Obering. The first thing there, sir, as you said, 
we have been working very, very closely with General Cartwright 
and the STRATCOM folks, as well as Admiral Keating in Northern 
Command, as well as Pacific Command (PACOM), in setting up the 
shakedown period. So we have been developing and working out 
the tactics and the procedures for being able to transition 
from a development state, as we call it, to an operational 
state and back. We feel increasingly confident day to day that 
we are working that out.
    On the materiel side, a lot of the money that we are 
looking at is how do we better develop concurrent tests and 
operational capability so that we do not have, as General 
Cartwright said, single strings through some of our testbed 
such that we can do the duality of continuous operations 
eventually and continuous improvement at the same time.
    Senator Sessions. Well, it is a challenge. We can make 
errors. I think with Mr. Duma watching and Mr. Wynne and some 
of our Members of this Senate are helpful in monitoring how you 
are progressing, and we will be looking closely. But I think it 
is the only way to go. I think we have to proceed in this way. 
I think it will mean that you will be asked to come back more 
often and you will have to continue to explain how we are going 
because if we get off track and make some errors, it could end 
up costing more money than we ought to spend.
    Senator Nelson.
    Senator Bill Nelson. You all are relying totally on R&D 
funding. At what point do you expect to move away from R&D 
funding?
    General Obering. Well, sir, we would like to continue that 
as we continue the spiral development mode into the future, and 
as we continue to add layers to the system and improve the 
robustness because of the flexibility that gives us with 
respect to the development.
    Senator Bill Nelson. You are planning to go to one 
contractor for the boosters.
    General Obering. Yes, sir, we are.
    Senator Bill Nelson. Why?
    General Obering. As I said, part of our budget reduction 
that we had to meet the top line, I had to look out to say 
where could I accept more risk, sir.
    There were two reasons why we had the dual contractor.
    One was we did not, at the time that we initiated that 
second contract effort, have confidence in the configuration of 
one booster in terms of its performance. So that was one of the 
reasons.
    The other reason was when you deal in energetics, as you 
are well aware of, you want to have more than one supplier for 
the booster motors. Because of the accident that was suffered 
in the one booster program, we had to move that motor supplier 
to the same supplier basically that we have for the Orbital 
Booster Vehicle (OBV) program.
    Also as I said, we have flown the booster successfully 
three times. It flew exactly as predicted and the performance 
was exactly as predicted. That is another key point. A lot of 
it that is overlooked in our flight test, in addition to just 
press, is the fact that we use those to anchor our models and 
our simulations, because we want to be able to get to where we 
have comfortably got predictable performance. So since we did 
have the success in that, I determined that we could accept 
more risk in that area, and that is why we went to this.
    Now, we have another booster that is coming down the----
    Senator Sessions. Does it save money to go to one supplier?
    General Obering. Yes, sir, it does, considerable.
    Senator Bill Nelson. Well, of course, that is also a 
question that another part of the Air Force was asking with 
regard to assured access to space on the EELVs, and they 
concluded that you have to have two.
    General Obering. Yes, sir, and that is what I was getting 
ready to say. We have another booster, an interceptor program 
that is on line, and that is the KEI. That is with a totally 
different, a very much different configuration, much more 
capable with respect to acceleration. It is a mobile, 
containerized missile that could be moved worldwide, a 
different contractor, a different set of suppliers there. This 
is a temporary state which we will find ourselves in as we go 
through this.
    Senator Bill Nelson. Has that system been tested?
    General Obering. No, sir. We have static tests this year, 
and we will begin the flight test of that in the 2008 time 
frame.
    Senator Bill Nelson. Well, how about overall production? 
Can one manufacturer produce reliably the boosters at the 
numbers that are planned for two manufacturers?
    General Obering. Yes, sir, they can. That was part of the 
cost, by the way, in which the result of the accident that 
occurred 2 years ago, where we had to basically go to the one 
supplier. Part of the cost of accelerating boosters with the 
Orbital Boost configuration was due to that.
    Senator Bill Nelson. Are we in the range of spending about 
$10 billion a year to develop these systems?
    General Obering. Sir, we have, as I said, a $7.8 billion 
request this year, and we have been trying to manage within the 
top line of between $7.5 billion to $8 billion for development 
and $1.5 billion to $2 billion for fielding. So yes, sir, in 
general.
    Senator Bill Nelson. Well, if we are looking at operating 
this system over the next 30 years, are we talking about $10 
billion a year for 30 years?
    General Obering. No, sir. That gets into, obviously, what 
it takes to sustain the system, the contractor logistic 
support. That is considerably smaller than that. What you have 
done is you have addressed or rolled in the development, as 
well as fielding, as well as the operational support costs.
    But if I could put it in perspective, Senator, if you go 
back and look at every dollar we have spent that has been 
authorized by Congress since 1983 when we started the missile 
defense program, it is about $95 billion. The cost of September 
11, one attack, not a weapon of mass destruction, according to 
the GAO was about $83 billion. So we would recoup the entire 
cost of this system since its inception if we can prevent one 
attack, and that is especially in light of a weapon of mass 
destruction, which was not used in the September 11 attack. So, 
yes, sir, it is a lot of money. It is still less than 3 percent 
of our defense budget, but we think that the return on that 
investment is considerable.
    Senator Bill Nelson. Well, that is the choice we have to 
make because the enemy does not necessarily launch off of an 
ICBM toward us. He may be coming across the Arizona-Mexico 
border.
    General Obering. Yes, sir, that is correct. Unfortunately, 
we do not have the choice to say either this or that. We have 
to cover both of those situations. You are correct, sir.
    Senator Bill Nelson. Let me ask something down in the weeds 
here. In the budget justification that is not included in the 
original budget submission, there is a new funding line that 
ostensibly would begin in 2008 and indicates an intention to 
add about $7.6 billion to the overall funding level through 
fiscal year 2011. But as I look at the budget, the funding is 
not actually in the budget. It is money that you all are 
planning to spend. Thus, you hope that it is in future budgets. 
So it has not been through the process of forcing hard budget 
choices and then all the other calculations that we have to 
make with regard to the deficit and so forth.
    Some of the tables in the justification book show negative 
dollar levels of more than $3.5 billion to make the plan's 
spending totals balance with the actual budget request. I would 
like you all to give some clarification to this.
    So, General, can you explain whether this additional $7.6 
billion that MDA plans to spend in those years of 2008 to 2011 
is in the actual budget or is it planning to spend the money 
that has not been budgeted, and therefore it is not counted 
against the Federal deficit?
    General Obering. Yes, sir, I can address that. That is part 
of the fielding money that I talked about earlier, the $1.5 
billion to $2 billion that the Department has provided. We have 
been given roughly that amount of money I believe since the 
2004 time frame initially, 2004, 2005, and 2006 and 2007. We 
were told to plan on that for 8, 9, 10, and 11, but it has not 
been allocated to us. It is part of the spiral funding approach 
that the Department is taking.
    Senator Bill Nelson. Well, Mr. Secretary, let me ask you. 
Is this the sort of budget that you consider a standard 
practice and it is it an acceptable practice for the 
Department?
    Mr. Wynne. Senator, that is not quite my lane to respond to 
in that I am not one of the budget makers. However, let me just 
address it as far as I know.
    That money would come from the service O&M budgets as a 
transfer item into the MDA. There is a huge debate over who 
would budget for that money that is really at the Comptroller, 
Deputy Secretary and SECDEF level. I think they asked to put it 
somewhere in the planning documents so that it would not be 
forgotten.
    That was one thing that I tried to push as well. I do not 
want it to be forgotten that once we get this system up and 
started, that as it transitions into a service, which is what 
we planned for PAC-3, as you recall, and we are trying to plan 
for THAAD, even if Missile Defense keeps it to operate, through 
the good offices of General Cartwright, somebody has to pay for 
the logistics, the sustainment, the weather-related problems 
that might go on, and somebody has to pay the Navy to sail the 
ships to go on out and be, if you will, sensors. So all of that 
has to be taken care of. What I was fearful of is, though we 
all have great respect for the MDA and the fact that it is a 
separate agency, gone but not forgotten is the classic budget 
exercise. So that is kind of what it is and how I would relate 
it to you.
    Senator Bill Nelson. Thank you, General.
    Senator Sessions. Thank you.
    Do any of you gentlemen have anything else to add, you feel 
like you need to clarify or make any comments?
    Mr. Wynne. I would just like to thank you, Senator 
Sessions, for holding this. Thank you, Senator Nelson. Your 
words ring true as far as getting us as close as we can to have 
something here. Thank you, sir.
    Senator Sessions. Well, it is a pleasure to be with you. I 
think an incredible achievement has occurred. We have gone from 
a vision of a hit-to-kill technology that many doubted would 
occur to make that a reality. We have rockets that are capable 
of launching that hit-to-kill technology. We have radars that 
give us warning. The question is whether we can make them all 
work together at the same time and be effective. I believe that 
is basically achieved now, but we need, as Mr. Duma said, 
continual testing, continual stress, continual determination to 
improve and make the system better to handle more complex 
targets, more difficult targets, targets coming when we are not 
expecting them. Those kind of things are important. But I just 
think there is little doubt that you have gotten us to a point 
where we can know that we are going to get there.
    I thank each of you to your service to your country. We 
believe it is important to our Nation's national security and 
the ability of this Nation to be a lead player in the world 
events of today. Thank you.
    We are adjourned.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Jeff Sessions
                             boost vehicle
    1. Senator Sessions. General Obering, when you appeared before our 
committee recently, you indicated you wanted to stop producing the 
Boost Vehicle (BV+) because the same contractor (ATK) was now providing 
rocket motors for both the BV+ and the Orbital Boost Vehicle (OBV), 
which removed any risk reduction. It seems now that we have put all of 
our eggs into one basket rather than try to keep two boosters and two 
rocket motor suppliers active until we have confidence in the OBV, 
especially considering the devastating effects of the recent CSD 
explosion. Can you explain how this is a prudent decision?
    General Obering. Our booster confidence has improved dramatically 
since the dual booster strategy was introduced. There are several 
advantages to selecting a single booster. First, the challenges of 
planning and integration, associated with manufacturing multiple 
booster vehicles are reduced. Second, we can avoid having to fund 
enough boosters to keep two assembly lines open and viable. Third, the 
costs attributable to restart and lost learning and trained personnel, 
are less severe if a manufacturing break is imposed. Lastly, a single 
booster strategy is inherently cheaper to operate and maintain.
    The Missile Defense Agency (MDA) established the Ground-Based 
Interceptor (GBI) dual booster vehicle strategy as part of the Ground-
based Midcourse Defense (GMD) program to mitigate the risk of relying 
on a single booster vendor, and to take advantage of a complementary 
booster performance mix. In late fiscal year 2003, two catastrophic 
accidents at the fuel mixing facility of the vendor that manufactures 
the Lockheed Martin Booster Vehicle Plus, ``BV+'', second and third 
stage rocket motors, validated the dual booster strategy. The impact to 
the program was only a 3-month delay in fielding of GBIs 6-8.
    The Orbital Sciences Corporation booster has been flown 
successfully in three missions: Taurus Lite (a near operationally 
configured booster), Booster Verification Flight 6 and Integrated 
Flight Test 13B (both operationally configured boosters with 
Exoatmospheric Kill Vehicle emulators). The Lockheed-Martin BV+ flew 
successfully as an operationally configured booster with an 
Exoatmospheric Kill Vehicle emulator in Booster Verification Flight 5. 
These tests demonstrated that the technology and design of both 
boosters are viable.
    I recognize, however, that there are challenges and risks if the 
dual booster vehicle strategy is terminated. Lockheed Martin, or its 
suppliers, would not be available as near-term alternatives to the 
Orbital Sciences Corporation, if a manufacturing failure occurs. 
Lockheed Martin has much more experience and infrastructure developing, 
manufacturing, and sustaining ballistic missiles, a capability that 
would be lost if the dual booster strategy were eliminated. 
Additionally, recent flight test failures have left unverified the 
Orbital booster's performance as part of an operationally configured 
Ground Based Interceptor.
    While it is still our intention to terminate the Booster Vehicle 
Plus program for the reasons stated earlier, MDA is looking at several 
options as to the timing of that decision to minimize the risks. 
Regardless, MDA will maintain the dual booster strategy until after 
another successful flight test of an OBV-configured GBI. The options 
being considered are: purchasing no additional BV+ boosters beyond the 
current contract, partially terminating the BV+ booster effort after 
taking delivery of a limited number of boosters, and canceling the BV+ 
booster altogether in favor of the Orbital Sciences Corporation Boost 
Vehicle.
    The favored option at the present time is to complete the current 
contract and deliver eight Booster Vehicle Plus (three for flight and 
ground test and five to be deployed at Fort Greely, AK). This option 
provides the taxpayer with the best return on investment provides the 
warfighter with a complementary booster capability, and strikes a 
balance between the benefits and challenges discussed above.

    2. Senator Sessions. General Obering, are all of the motors and 
booster stages actually produced at the same geographical location or 
are they spread out across the country? What is the risk associated 
with these locations and how is it being mitigated?
    General Obering. Alliant Techsystems, Inc., is the vendor for the 
rocket motors for both the OBV and the Lockheed Martin Boost Vehicle-
Plus. The OBV rocket motors (1st, 2nd, and 3rd stages) and the Boost 
Vehicle-Plus 1st stage rocket motor are cast at the vendor's Magna, 
Utah facility. However, this facility includes geographically separated 
redundancy in both its mixing and casting facilities capable of 
handling both of the ongoing booster activities. The Boost Vehicle-Plus 
2nd and 3rd stage rocket motors are cast at the vendor's Elkton, 
Maryland facilities. Risk is also minimized by the availability of 
additional Alliant Techsystems Inc. mixing and casting facilities at 
Magna and Promontory, Utah that could be modified to support either 
booster.
    Orbital Booster stages are manufactured and integrated into a 
booster stack at the Orbital Sciences Corporation facility at 
Vandenberg Air Force Base, California. The Payload Avionics Module (the 
front end of the interceptor which includes the Exoatmospheric Kill 
Vehicle) and the Booster Stack undergo final assembly, test, and 
checkout at the Missile Assembly Buildings at Fort Greely, Alaska or 
Vandenberg Air Force Base, California.
    Boost Vehicle-Plus booster stages are manufactured and integrated 
into a booster stack at the Lockheed Martin Courtland, Alabama 
facility. The Payload Avionics Module and the Booster Stack undergo 
final assembly, test and checkout at the Redstone Arsenal, Integration, 
Assembly, Test, and Checkout facility in Alabama.
    The geographical separation of these facilities reduces risk to the 
program in the event of an accident at one of the sites. The 
manufacturing sites have been selected by our industry partners because 
they possess the requisite skills sets, facilities and equipment to 
deliver interceptor assets safely, on time and on cost. The MDA works 
closely with our industry partners to ensure that manufacturing 
quantitiesare adequate to sustain the existing manufacturing lines, 
skilled workers, and 2nd and 3rd tier suppliers.

    3. Senator Sessions. General Obering, I find it strange that we 
have invested quite a lot of money in perfecting the BV and we are now 
casting it aside to make the untested, high-risk Kinetic Energy 
Interceptor (KEI) booster the alternate for OBV. Can OBV be tweaked to 
handle that mission and would it be high-risk?
    General Obering. The Orbital Boost Vehicle booster cannot be 
modified to handle the KEI's boost-phase mission requirements. The 
boost phase mission requires the high acceleration and short bum times 
that have been designed into the KEI's motor set. It is not possible to 
modify the OBV's motors for the boost mission as their bum time is 
three times longer than the requirement.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                       budget for missile defense
    4. Senator Inhofe. Secretary Wynne and Mr. Duma, this year's budget 
request for MDA is $7.8 billion. This is $1 billion less than last 
year. Further testing is planned on the GMD system for compliance with 
the National Defense Authorization Act for Fiscal Year 2005, section 24 
which requires that you conduct tests using operationally realistic 
criteria by October 2005. Understanding that not all $7.8 billion 
requested by MDA is spent on GMD, I am concerned that you are not going 
to have the appropriate level of funding to carry out this testing and 
continue production as planned. Further, Program Budget Directive 753 
has directed a budget cut of an additional $5 billion through fiscal 
year 2011, which means that further down the road, we are going to 
encounter additional challenges. Please comment on this cut and its 
impact on the program overall and on the ability to conduct testing. Is 
more funding needed to stay on the production and testing schedule?
    Mr. Wynne. The fiscal year 2006 President's budget request provides 
sufficient funding for testing and production, as these were priorities 
during its formulation. The Department evaluates its capabilities and 
makes adjustments in programs based on analysis of evolving challenges 
and capability needs. Program Budget Decision (PBD)-753 reduced MDA 
funding by $1 billion in fiscal year 2006 and $0.8 billion/year in 
fiscal year 2007-2011 for a total reduction of $5 billion. The 
resulting $7.8 billion fiscal year 2006 budget request reserves $1.4 
billion for fielding and $6.4 billion for testing and other RDT&E; 35 
percent of the overall request is reserved for testing.
    Mr. Duma. General Obering is managing the budget for all the 
Ballistic Missile Defense program activities. He is strongly committed 
to a robust, event driven testing program. The MDA, the Service 
Operational Test Agencies, and DOT&E are working together to plan and 
execute a realistic operational test that satisfies the requirements in 
section 234, as soon as the program is technically and operationally 
ready to conduct the test. General Obering is committed to planning and 
executing an adequate, long-term ``block'' testing program before 
fielding or producing a Ballistic Missile Defense (BMD) System 
``block'' configuration. Given his commitment to resource this testing 
out of his core budget, additional funding is not needed for testing.

                   testing of missile defense systems
    5. Senator Inhofe. General Obering, I want to commend you for the 
work thus far on the testing associated with missile defense. The GBI 
prototype successfully engaged four of five targets in 2000-2001 and 
the current GBI booster flew successfully three times in 2003-2004. You 
have put in place an aggressive, operationally realistic test plan that 
schedules two flight tests in 2005 and four intercepts in 2006. Further 
you have established an independent review team to analyze recent test 
failures and whose data can be used by Congress to determine if any 
systematic problems exist. What do we need to stay on course with the 
GMD testing schedule that has been planned by MDA?
    General Obering. In addition to the Independent Review Team that 
you mentioned, I have also established the position of Director, 
Mission Readiness, and have asked Rear Admiral Kathleen Paige, United 
States Navy, to assume this responsibility. As Director of the Mission 
Readiness Task Force, Rear Admiral Paige will initially address 
processes and procedures to enhance the verification of the operational 
readiness of the GMD Weapon System. As a key part of this effort, Rear 
Admiral Paige will focus at least the next 6 months on GMD and its 
flight test program. This mission readiness effort will include 
proposing a plan for the next several flight tests, including 
objectives and schedules. In order to stay on course, this initial 
flight test plan will be part of a larger plan including ground 
testing, which addresses processes and procedures to enhance the 
verification of operational readiness of the GMD weapons system. It is 
imperative that we continue to allow Rear Admiral Paige's team to 
complete their assessment and provide a recommended way ahead for the 
GMD test program.

    6. Senator Inhofe. General Obering, if the results of the tests 
currently planned determine additional flight intercepts are needed, do 
you have the ability to add in additional tests before the end of 2006 
and remain on schedule with production?
    General Obering. The interceptor manufacturing schedule must 
support both the emerging test schedule and the emplacement of 
operational missiles. Since the lead time on an interceptor is 24 
months, to add additional tests by the end of 2006 requires that 
operational missiles be diverted to test events and then subsequently 
replaced with new test assets diverted to operational use. 
Additionally, the current schedule for emplacing operational missiles 
may not be achieved.
    GMD is executing a rigorous and systematic test program to 
demonstrate that hit-to-kill technology is mature and to gain 
confidence in system performance against increasingly complex threat 
representative targets and scenarios. The flight test events are 
carefully and systematically designed to measure technical performance 
and maturity of new hardware / software technology and demonstrate a 
desired engagement sequence group.
    Evaluating the results of each flight is required before proceeding 
to the next test event. Time to analyze the test data and prepare for 
the next event usually takes 3 to 4 months. Based on available 
resources, prudent analysis, personnel tempo and depending upon the as-
yet unreleased recommendations by the Mission Readiness Task Force, the 
flight test schedule can support up to four flight tests in fiscal year 
2006 and four more in fiscal year 2007. Adding additional flight tests 
will be difficult within time and resource limitations, however, 
additional ground testing is also under consideration.

                     threat drives missile defense
    7. Senator Inhofe. General Cartwright and General Obering, some 
believe that we can continue to push the budget and schedule for 
missile defense production to the right more and more each year and 
that there is no reason that we need to push as aggressively for this 
system. We can't afford a production break for military and cost 
reasons. I think everyone understands that a break in building these 
systems only means it will cost more in the future; estimates as high 
$300 million have been quoted for break in production. However, I am 
not sure that everyone understands that we need to maintain production 
to keep pace with the threat. Without getting into any classified 
information, please tell, from a military perspective, about the 
threats posed that make GBIs a critical program for America's missile 
defense and national security. It is my understanding that North 
Korea's Taepo-Dong 2 is capable of reaching the U.S. with a nuclear 
warhead and Iran is only about 10 years away from ICBM development.
    General Cartwright. North Korea is developing the Taepo Dong 2 (TD-
2) missile, which may have the capability to strike the continental 
United States. The integration of a nuclear payload with the TD-2 will 
probably take several years, however, that timeline could be 
accelerated. In addition to developing ballistic missile and nuclear 
capabilities, North Korea has also shown an interest in proliferating 
their missile technology.
    Iran is a Middle Eastern leader in ballistic missile forces with an 
ambitious development program. Iran's progress in the development of 
longer-range ballistic missiles is, in part, due to assistance from 
North Korea and other countries. Additionally, Iran's nuclear programs 
increase the possibility of future nuclear warhead development.
    General Obering. Yes, your statement is correct. As Vice Admiral 
Jacoby described in his prepared testimony on February 16, the Taepo 
Dong-2 intercontinental ballistic missile could deliver a nuclear 
warhead to parts of the United States in a two stage variant and target 
all of North America with a three stage variant. In addition, the Taepo 
Dong-2, which has never been tested before, may be ready for testing. 
It is assessed that Iran will have the technical capability to develop 
an intercontinental ballistic missile by 2015, though it is not clear 
whether Iran has decided to field such a missile.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
           operational versus test ground-based interceptors
    8. Senator Levin. General Obering, the MDA has provided briefing 
charts to the committee which clearly show a differentiation between 
GBIs intended for operational use and those intended as flight test 
articles. The briefing charts indicate that MDA plans to purchase 50 
operational interceptors (GBIs 1-50), and 28 flight test interceptors 
through fiscal year 2011. Can you confirm that these are MDA's current 
plans, or provide the correct information on how many of each type of 
GBI missile (operational versus test) MDA plans to procure through the 
Future Year Defense Plan (FYDP)?
    General Obering. Yes, the MDA plans to purchase 78 interceptors as 
described above. However, it should be noted that 2 of the 50 
operational interceptors were already re-allocated for test and are not 
available for operational emplacement. I will review the plan once I 
receive recommendations from Rear Admiral Paige and her Mission 
Readiness Task Force Review.

    9. Senator Levin. General Obering, please describe the differences 
between operational missiles and flight test missiles.
    General Obering. Flight test missiles are the same configuration as 
operational missiles with the exception of certain non-tactical 
equipment. This equipment is required for capturing booster performance 
and flight environment data and also for range safety tracking and 
flight termination.

    10. Senator Levin. General Obering, will MDA maintain a distinction 
between each type of interceptor? In other words, will operational GBIs 
be emplaced in operational silos and maintained as operational assets, 
and will flight test articles be used for flight testing, but not for 
operational use?
    General Obering. Our current plan is to maintain a distinction 
between operational assets and flight test articles and to convert 
between the two only on a limited basis. Operational interceptors may 
be removed from operational silos for possible future service life and 
reliability testing. Use of an operational interceptor for flight test 
requires only the addition of non-tactical equipment for transmission 
of booster performance and environment data as well as range safety 
tracking and flight termination. Removal of non-tactical equipment from 
a flight test interceptor would restore it to an operational 
configuration.

    11. Senator Levin. General Obering, will a certain number of 
operational missiles be test launched for reliability and shelf-life 
verification? If so, when will such verification flight tests begin and 
how many operational missiles are planned to be test launched for this 
purpose?
    MDA collects reliability, maintainability, and availability 
information on all BMD System test events. In addition, a Joint 
Reliability and Maintainability Evaluation Team reviews, characterizes 
and scores reliability and maintainability field data on components. 
Reliability, maintainability, and availability data gathered is 
controlled through a centralized database. Reliability analyses are 
performed concurrently with development so that design problem areas 
can be identified and corrective actions can be cycled back into the 
spiral development process.
    MDA does not have a plan in place for shelf-life verification 
testing for Ground Based Midcourse Interceptors (GBIs); MDA is still 
investigating methods for shelf-life verification testing of 
operationally configured GBIs. Accordingly, a certain number of 
operational missiles have not yet been specifically identified for 
reliability and shelf-life verification testing.
    Aegis BMD is using operational SM-3 Block I missiles for the 
current series of test flights. Only two SM-3 Block IA missiles will be 
built specifically as flight test rounds, the remainder of the SM-3 
Block IA flight tests will use operational missiles. Future flight 
tests will use missiles of varying age. Specific missiles have not yet 
been allocated to specific flight tests, so we cannot state the exact 
quantity. MDA collects reliability data on each missile flight test and 
compares it to the reliability predictions for each missile section. 
The overall reliability estimates are then adjusted accordingly. 
Similar to other U.S. Navy developed missiles, Aegis BMD has planned 
for aged rocket motor ground tests of varying aged motors to verify and 
potentially extend the shelf-life of the rocket motors, which are 
notionally the limiting component in missile shelf-life.

    12. Senator Levin. General Obering, how many GBIs are emplaced in 
operational silos now that are not intended for flight testing this 
year?
    General Obering. There are currently eight interceptors emplaced in 
operational silos; six at Fort Greely, Alaska, and two at Vandenberg 
Air Force Base, California. They are not intended for flight testing in 
2005. However, we are collecting environmental and aging data on these 
interceptors.

    13. Senator Levin. General Obering, how many GBIs are planned to be 
placed in operational silos by the end of 2005 that are not intended 
for flight testing in 2006?
    General Obering. There are 10 additional interceptors planned for 
emplacement in operational silos at Fort Greely, Alaska, by the end of 
2005. At this time, they are not intended for flight testing in 2006.

    14. Senator Levin. General Obering, are the missiles currently 
deployed in operational silos equipped with the prototype 
Exoatmospheric Kill Vehicles (EKVs) used in earlier flight tests, or 
with the upgraded operationally configured EKV?
    General Obering. The interceptors currently deployed in operational 
silos are equipped with the upgraded operationally configured 
Exoatmospheric Kill Vehic1es.

                  operational versus flight test silos
    15. Senator Levin. General Obering, the briefing charts provided to 
the Committee indicate that MDA plans to build 40 operational silos at 
Fort Greely and four operational silos at Vandenberg AFB, two of which 
are intended for testing, but capable of operational use. Is it correct 
that the operational silos built and planned at Fort Greely are not 
currently intended as flight test silos?
    General Obering. That is not correct. It is our intention to fly 
out of Fort Greely at some future date. However, we have not completed 
the environmental assessments required for a final decision. 
Additionally, we have not yet completed any formal plans to use silos 
at Fort Greely for flight testing. Prior to such plans being completed 
or a final decision on conducting such flight testing, significant 
additional environmental and range safety analysis would be required.

    16. Senator Levin. General Obering, what is the difference between 
an operational silo and a flight test silo?
    General Obering. The GMD silos at Fort Greely and Vandenberg AFB 
were designed and built for operational use, but can be converted for 
flight test. A silo can be converted for flight test use by the 
addition of support equipment and sensor devices in the silo and 
adjacent infrastructure (the so-called Silo Interface Vault at Fort 
Greely or the Launch Equipment Room at Vandenberg AFB). Two of the 
silos at Vandenberg AFB are already equipped to support either 
operations or flight testing.
    A silo configured for flight test will typically have various heat 
probes, pressure measuring probes, and cameras for the purpose of data 
collection. The silo data is collected using a Data Acquisition System 
mounted inside the Silo Interface Vault or Launch Equipment Room. Real-
time monitoring is achieved through the transmission of the collected 
data over both physical and radio frequency links to other data 
collection systems. The necessary transmitters and receivers, to 
include associated antenna, would also be required for a flight test 
silo.

          plan for using first 20 missiles for flight testing
    17. Senator Levin. Secretary Wynne, in your June 17, 2004 letter to 
me, you wrote that ``we plan to deploy a developmental, prototype 
system as an initial defense against long range missile attack. 
Congress has authorized and appropriated funding for 20 interceptors 
for this deployment. These eventually will be expended in testing, and 
replaced over time with interceptors requested in the fiscal year 2005 
President's budget. The latter interceptors will have improved 
reliability and discrimination capability.'' Please provide the plan 
and schedule for when any of the first 20 deployed interceptors will be 
expended in flight tests, and the plan and schedule for replacing them 
with interceptors 21-30 authorized and appropriated in fiscal year 
2005. Please provide a detailed description of the improvements in GBIs 
21-30 compared to GBIs 1-20, and when those improved versions will be 
flight tested.
    Mr. Wynne. MDA intends to utilize some of the earliest deployed 
interceptors to support future flight test objectives and reliability 
testing. The formal plan for conducting reliability or shelf life 
testing has not been completed. It is likely all of the original 
interceptors will eventually be used for testing. Interceptors 21-30 
will replace those and will be used to increase the number of 
interceptors on alert.
    General Obering has created a Mission Readiness Task Force to 
address issues associated with two recent GBI flight test failures. We 
must resolve those issues before we set future flight tests and 
reliability testing activities.
    Key improvements in GBIs 21-30 include the addition of a Booster 
Global Positioning System Receiver, which will improve interceptor 
accuracy through booster position error improvement. Another 
improvement is the Exoatmospheric Kill Vehicle Electronics Unit 
Replacement, which will replace the obsolete processor, will upgrade 
processor throughput and memory size, and improve software for target 
selection. Increased processor throughput and memory size will 
facilitate future discrimination upgrades. A third improvement includes 
an enhancement in sensor producibility, which will increase yield and 
improve manufacturing timelines.

            confidence in deployed ground-based interceptors
    18. Senator Levin. Mr. Duma, is it correct to say that, for the 
eight GBIs deployed in operational silos by the end of 2004, you do not 
yet have confidence that the system will be operationally effective 
based on successful intercept flight tests of the operationally 
configured booster with the operationally configured EKV?
    Mr. Duma. Yes. The configuration of the eight testbed missiles has 
not been flight tested. The boosters have been flight tested three 
times with mock payloads, and performed as expected. However, the 
operational kill vehicle has not flown on this new booster. Previous 
problems with kill vehicle-booster separation make this a critical 
aspect of the flight test.

    19. Senator Levin. Mr. Duma, is it accurate to say that, for the 18 
GBIs that are planned to be deployed in operational silos by the end of 
2005, you will not have confidence that the system will be 
operationally effective unless there are successful intercept flight 
tests of the operationally configured booster with the operationally 
configured EKV?
    Mr. Duma. That is accurate. Successful intercept flight tests are 
necessary to characterize performance and build confidence in the 
operational capabilities of the deployed system. However, intercept 
testing must be augmented by robust ground testing to establish 
confidence in the performance of the system in the likely defensive 
scenarios. Integrated ground tests, using operational hardware, 
software, and operators in the loop, are also critical for building 
confidence in the system capabilities and for characterizing system 
effectiveness. MDA has a significant ground testing effort ongoing, 
with more planned this year. Some of the ground testing has included 
dedicated operational tests to check out the system with operators in 
the loop. The integrated ground testing will continue to address 
realistic operational issues.

              partnership for test planning and execution
    20. Senator Levin. Mr. Duma, at the hearing there was discussion of 
a new partnership between MDA and the Director of Operational Test and 
Evaluation (DOT&E) for planning and executing the testing program for 
the Ballistic Missile Defense (BMD) System. Your testimony indicated 
that the agreement includes ``focused operational testing for each 
block'' of the BMD system ``prior to deploying that capability.'' You 
also stated that the ``operational test community will develop the 
operational evaluation and test plans consistent with the maturity of 
the system, conduct appropriate analysis, and prepare a formal 
report.'' Can you explain exactly what your role and responsibilities 
are under this new partnership, and what you expect the resulting 
products to be?
    Mr. Duma. My role and responsibilities on the MDA programs have 
significantly increased over this past year. Section 234 of the 
National Defense Authorization Act for Fiscal Year 2005 required an 
operationally realistic test of the deployed Ballistic Missile Defense 
System test bed infrastructure. DOT&E and the operational testing 
community worked with the MDA to prepare the first Integrated Master 
Test Plan, which MDA and DOT&E both approved. We are also preparing a 
detailed test and evaluation plan specifically for the operational 
testing that satisfies section 234.
    Beyond the testing that satisfies section 234, General Obering and 
I have agreed that each BMDS block configuration will be operationally 
tested, consistent with the capability of the system in the block, 
before deploying and producing that system configuration. My staff is 
leading the operational test and evaluation planning efforts for the 
next block level tests. During the detailed test planning for these 
test events, I will work with the Service Operational Test Agencies and 
MDA to incorporate test objectives that measure performance with 
respect to realistic operational mission-level test objectives. I have 
a strong commitment from General Obering to support these efforts, 
which will produce tangible results in two areas. The first area is up-
to-date test plans for operationally realistic testing (developmental 
testing with operational flavor) and realistic operational testing 
(primarily addresses operational realism and objectives for mission 
accomplishment). This will include periodic updates to the Integrated 
Maser Test Plan and detailed event plans with specific operational test 
objectives identified for both developmental and operational tests that 
are consistent with the system's capability. The second area is test 
reports that clearly identify demonstrated BMD System operational 
capabilities and limitations.

    21. Senator Levin. Secretary Wynne and General Obering, do you 
concur with Mr. Duma's characterization of the agreement on future test 
planning and execution?
    Mr. Wynne and General Obering. Yes. This agreement is consistent 
with section 234 of the Ronald Reagan National Defense Authorization 
Act for Fiscal Year 2005. The statute required that the Secretary of 
Defense (SECDEF) prescribe criteria in consultation with DOT&E for 
operationally realistic testing of fieldable prototypes under the 
spiral development program. I understand you have been provided a copy 
of the signed agreement, which explains the criteria for operationally 
realistic testing.

           procurement of unproven ground-based interceptors
    22. Senator Levin. Secretary Wynne, the Department plans to buy 50 
operational GBIs by fiscal year 2011, and has requested long-lead 
funding for operational missiles 31-40 in the fiscal year 2006 budget 
request. Since there have not yet been any successful intercept flight 
tests of the operationally configured interceptor, we don't know if the 
system works. What protection does the Department have that it is not 
buying faulty interceptors?
    Mr. Wynne. I am confident the interceptors we have procured and 
placed in silos are capable of providing a limited defensive capability 
and that we have minimized risk with the integrated testing we have 
completed to date. Testing begins at the component level and progresses 
to complete Missile Defense integrated exercises and ground tests, 
culminating with flight tests. The two recent flight test failures have 
been frustrating as they have prevented testing all of the system's 
capabilities; we did learn from those tests however, and have taken 
corrective actions to ensure we evaluate and strengthen our emphasis on 
quality systems and processes within the program. Future flight testing 
will demonstrate the full capabilities and quality of the Ground-based 
Interceptor and the entire BMD System.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                      integrated master test plan
    23. Senator Bill Nelson. Mr. Duma, what role did DOT&E have in the 
preparation of the Integrated Master Test Plan (IMTP) of November 2004? 
What portions of the IMTP did DOT&E approve?
    Mr. Duma. Together with the Service Operational Test Agencies, 
DOT&E wrote Section 4 of the Integrated Master Test Plan. Statutorily, 
I can have no authority over developmental testing. Thus, my approval 
of the Integrated Master Test Plan is limited to Section 4, Combined 
Developmental and Operational Testing.

                           realism in testing
    24. Senator Bill Nelson. Mr. Duma, MDA plans to conduct 
developmental tests of the BMD System with added elements of 
operational realism. Are the planned developmental tests with added 
realism the same as realistic operational tests?
    Mr. Duma. No, developmental tests with added realism are not the 
same as realistic operational tests. There are several important 
differences. A developmental test is precisely controlled to minimize 
the number of variables introduced into the test so specific test 
objectives can be accurately addressed.
    Traditional operational testing employs production representative 
hardware and software to execute an operational mission against a 
Defense Intelligence Agency (DIA) validated threat. Trained military 
personnel operate and maintain the system in accordance with approved 
tactics, techniques, and procedures. The contractor's participation in 
operational testing is prohibited, or limited to the same role they 
would have with an operationally deployed system, as defined in the 
system concept of operations. Further, the Service Operational Test 
Agency plans and executes the operational tests, analyzes the data, and 
prepares a final report. System maturation during developmental test 
phase allows the operational testing to focus on realistic operation of 
the system, system interfaces, and warfighter performance under 
realistic threat conditions.

    25. Senator Bill Nelson. Mr. Duma, do you consider the flight test 
required by section 234 of the National Defense Authorization Act for 
Fiscal Year 2005 to be a realistic operational test? If not, please 
explain why.
    Mr. Duma. We are working with the MDA to make the flight test that 
satisfies section 234 as operationally realistic as possible. The 
immaturity of the BMD System testbed, the lack of a mid-course sensor 
to provide target discrimination, and the lack of a mobile target 
launch capability limit the test from being fully operationally 
realistic. The deployment of the Sea-Based Radar (SBR) in late 2005 
will greatly improve the capability to conduct realistic operational 
testing on the BMD System. Since the MDA is delaying the test date for 
the section 234 flight test to resolve technical issues with the test 
bed system, it is possible that we can find ways to improve on the 
operational realism of the test.

                   separation of ekv from gbi booster
    26. Senator Bill Nelson. General Obering and Mr. Duma, there has 
not yet been a successful flight test of the operationally configured 
GBI equipped with the operationally configured EKV. The GBI booster has 
considerably greater velocity than the previous prototype booster, and 
the EKV is about 35 percent different from the previous prototype EKV. 
In a flight test in December 2002, the EKV failed to separate from the 
booster. What are the major technical and operational challenges of 
such separation?
    General Obering. The major technical challenges of EKV separation 
are related to the booster shock and vibration stressing of the EKV 
electrical and mechanical components and proper operation of the 
payload-separation laser firing units and ball lock mechanisms.
    The design and qualification of the operational EKV is based upon 
the flight environments induced by the operational, high-velocity 
booster. The operational booster does exhibit greater vibration and 
shock loads than the prototype booster, but the operational EKV was 
tested to this operational environment via ground testing.
    Mr. Duma. Prior flight tests demonstrated problems with EKV 
separation, as well as postseparation seeker performance. Design 
changes have been made to correct these problems. The initial technical 
challenges are to demonstrate that these corrective actions are 
adequate. The operational challenge is to execute separation and 
subsequent seeker functions in a realistic deployment sequence against 
various dynamic threat conditions.

    27. Senator Bill Nelson. General Obering and Mr. Duma, do you have 
any concerns about potential EKV separation problems with the new high 
velocity booster?
    General Obering. We have high confidence in the operational 
performance of the EKV separation system with the operational Orbital 
booster. Successful in-flight separation of an EKV was demonstrated 
during Integrated Flight Test 13B in February 2004. This successful 
flight test verified upgrades precipitated by the December 2002 
separation failure, including an upgraded Laser Firing Unit on the 
EKV's separation subsystem. A comprehensive ground test campaign to 
verify separation functionality for the operational EKV has also been 
completed. This campaign included over 500 successful tests of the 
critical separation device (laser diodes) as well as shock and 
vibration testing of an operating Laser Firing Unit. In addition, each 
Laser Firing Unit intended for an operational or flight test EKV is 
rigorously tested at component assembly and prior to acceptance for 
integration.
    Mr. Duma. The new booster and new kill vehicle have never flown 
together. At the significantly higher booster motor velocity, the 
primary concern is that the kill vehicle properly separates from the 
booster motor and aligns itself so that it can successfully maneuver to 
intercept a target. Kill vehicle separation from the booster has never 
been conducted at these higher velocities. Vibration measurements taken 
on flight tests of the new booster design, with mock payloads, suggest 
that the shock and vibration environment on the new booster is more 
benign than the surrogate booster. MDA has made changes to the kill 
vehicle mounting hardware design to reduce vibration and increase the 
clearance needed to separate from the new booster. Successful kill 
vehicle separations over several flight tests will increase confidence 
that this should not be a major concern.

                      section 234 testing criteria
    28. Senator Bill Nelson. General Obering and Mr. Duma, section 234 
of the National Defense Authorization Act for Fiscal Year 2005 
requires, among other things, that ``each block configuration of the 
BMD System is tested consistent with'' the criteria required in section 
234(a). Can you confirm that you will jointly develop such 
operationally realistic criteria for future tests, as you have for FTG 
04-3, and that future testing of each block of the BMD System will be 
consistent with the future criteria you develop for operationally 
realistic testing?
    General Obering and Mr. Duma. I believe this is exactly the 
agreement that General Obering and I have reached. Within the structure 
of section 234, we will include appropriate operational realism and 
develop operational criteria for each block configuration of the BMD 
System, and will conduct focused operational testing consistent with 
those criteria and the capability of the system. We will continue to 
combine developmental and operational testing, and will conduct focused 
operational testing on each BMD System block configuration before 
fielding. This will include appropriate configuration control on the 
tested system.

                         outyear funding wedge
    29. Senator Bill Nelson. Secretary Wynne, at the hearing you 
explained that the $7.6 billion unbudgeted outyear funding wedge for 
the MDA represented costs that the military departments are expected to 
pay starting in fiscal year 2008. Have the Services been informed that 
they are expected to pay these additional costs, and have they budgeted 
for them?
    Mr. Wynne. The Department allotted approximately $1.5 billion to 
$2.0 billion per year to go to either the Services or BMD System 
deployment. Since fiscal year 2004, MDA has budgeted for deployment, 
including this year's fiscal year 2006 budget request; and they were 
told to continue to budget for it over fiscal year 2008-2011.

    30. Senator Bill Nelson. Secretary Wynne, are these additional 
funds based on agreed plans between MDA and the Services for transition 
of the missile defense system elements from MDA to the Services? If 
not, what is the basis upon which the Services would be expected to pay 
for the additional $7.6 billion?
    Mr. Wynne. The Department, the Services, and MDA are still working 
to finalize current and future element transition plans. To date these 
funds have been used for initial BMDS element deployment and have not 
been expenses the Services have been asked to budget for; the Services 
have only been asked to budget for certain Operations and Support 
costs.

                 dot&e assessment of gmd effectiveness
    31. Senator Bill Nelson. Mr. Duma, your organization issued a 
report in February concerning the capability of the GMD system. 
Although it is a classified report, it contains many unclassified 
portions. From those unclassified parts of the report, it is clear that 
DOT&E and the MDA have different assessments of how likely the GMD 
system is to work effectively. Can you describe, in unclassified terms, 
the major reasons for that difference? For example, does it depend on 
the difference between actual test data--or lack thereof--and estimates 
based on predictive models?
    Mr. Duma. The most significant reason for the disparity between the 
two Ballistic Missile Defense System capability estimates is that the 
DOT&E estimate is based on actual test data available from all credible 
ground and flight test sources, and MDA estimates are based on using 
the same test data, plus data generated from predictive models. 
Predictive models are used to develop the system's design and they 
reflect how the system is designed to work. Once realistic testing has 
been completed over a range of conditions or scenarios to yield data 
that validates these models, they can be used with confidence to 
estimate performance in a wider variety of conditions. However, 
sufficient data is not available at this time to validate these models, 
thus data from the predictive models were not used in the DOT&E 
assessment.

    32. Senator Bill Nelson. General Obering, the DOT&E February report 
includes an unclassified list (on page 17) of nine areas where they 
have concerns about the ability to characterize the capability of the 
BMDS for limited defensive operations. What is MDA doing to resolve 
these concerns?
    General Obering. The MDA is addressing each of the concerns that 
have been highlighted by the DOT&E report. Overall, the testing program 
for the Ballistic Missile Defense System is one that is building on 
successes, and not taking unreasonable risks when anomalies are 
discovered. We are increasing the comprehensiveness of the testing 
program starting with increased component testing and integrated system 
testing, both in laboratories (using hardware-in-the-loop techniques) 
and in field environments (flight test configurations and distributed 
ground testing of fielded components). In addition I will address each 
area of concern.
    The first area of concern for the DOT&E, was System Maturity. To 
address this concern I have implemented an Evolutionary Acquisition 
program to design, build, integrate, test, and field increasingly 
mature capabilities for missile defense in a Block step-increment 
progression. The Evolutionary Acquisition approach is capability-based, 
with each Block providing a suite of reliability and producibility 
improvements coupled with improved performance capabilities. Each 
successive Block builds upon the previous Block, applying lessons 
learned to improve the system. This evolutionary approach incrementally 
provides decision makers the ability to field militarily useful 
capabilities based on their technological readiness, maturity and 
suitability for operational use, and ongoing threat developments. Each 
MDA Block is 2 years in duration.
    Another concern was the lack of system level test data on the 
Limited Defensive Operations configured elements. We do have limited 
test data on the Limited Defensive Operations configured GMD as an 
element of the BMD System that was collected from the Integrated Ground 
Test 2-4 events and System Integration and Checkout 6B. The Integrated 
GMD ground test (GT 04-1) and the Distributed GMD and system-level 
ground test events (GT 04-2 and GT 04-6) will provide more detailed 
system level test data for the Block 2004 configuration by the end of 
2005.
    A third area of concern was the lack of end-to-end flight test 
engagements. To address this concern, I have implemented a Mission 
Readiness Task Force (MRTF). The Mission Readiness Task Force will make 
recommendations to address flight test engagements with the operational 
realism necessary to meet or exceed the Congressional requirement, and 
the timeline over which these tests can reasonably be expected to 
occur. I will determine the timing, objective and schedule of each 
flight test after receiving those recommendations.
    The DOT&E also addressed test realism and the need for it to 
improve in future testing. As we move forward, our flight tests become 
more stressing and more realistic. That was always our plan. We will 
fold in more and more data from operational sensors (Aegis Ballistic 
Missile Defense Long Range Surveillance and Tracking Destroyers, 
Upgraded Early Warning Radar, Sea-Based X-Band Radar, and the Forward-
Based X-Band Radar) and will add the capability of launching test 
missiles from an operational site (Vandenberg Air Force Base). The 
azimuth of the target vehicle (launched from Kodiak Island) and 
increasingly more complex target suites will add to the realism. For 
our ground tests we employ simulation techniques and high-fidelity, 
hardware-in-the-loop system components to make our test cases more 
realistic. We will continue to work closely with the Operational Test 
Agencies and the warfighters. As the system maturity improves and is 
demonstrated in test, we will increase the test realism even further, 
commensurate with risk, in a measured fashion, to help us understand 
the system's capabilities.
    Another area of concern I would like to address is the alleged lack 
of government configuration control documentation. The GMD element of 
the BMD System employs a rigorous configuration, control, and 
documentation process that addresses both development and deployment.
    Configuration of the deployed GMD element is captured in a 
configuration-controlled matrix listing deployed hardware and software. 
All proposed changes are processed through the Engineering Review Board 
chaired by the System Engineer. Recommended changes are reviewed and 
approved by the Program Director for Level 1 ECPs and by myself for 
Level 0 ECPs. I have signed off on the official operational baseline 
for the BMDS. MDA/SE has initiated an Operational Configuration Control 
Board (OCMB) that includes MDA and warfighter representatives and the 
OCMB charter is currently being staffed. The Board's approval will be 
required for changes to the approved baseline for tests and for 
permanent changes for upgrades. In summary, there is a rigorous 
configuration control process for the BMDS and the fielded 
configuration is documented.
    The DOT&E expressed concern over MDA's reliance on non-validated 
models and simulations. To address this concern we have employed a GMD 
program policy that requires a disciplined Verification, Validation, 
and Accreditation effort to obtain accreditation of simulated portions 
of ground test events. For Integrated Ground Tests 1,2,3, 4a, and 4b, 
we validated models and simulations used in the Integrated Ground Tests 
when authoritative real world data was available to compare with the 
simulation's output. Our Integrated Ground Tests were conducted using 
simulations for only a limited number of specific components of the GMD 
element. The Integrated Ground Test configurations are approximately 20 
percent simulation and 80 percent actual GMD hardware and software. 
Where there is no flight test data for final validation of the 
simulation, we make note of the fact that we did not have sufficient 
validation data to say with high confidence that the simulation is 
representative of actual component behavior. Once flight tests are 
completed and data becomes available, the data is applied to 
characterize the behavior and functioning of the simulation. This 
completes the Verification, Validation, and Accreditation effort.
    The lack of reliability and maintainability data has also been a 
concern for us. Since the DOT&E Report, the GMD program established and 
is using the GMD Situation Report to supplement the Prime Contractor 
Computerized Inventory Maintenance Management System to identify both 
scheduled and unscheduled maintenance events and provide 
maintainability data for the Limited Defense Capability Prime Mission 
Equipment and contractually provided facilities. To further resolve 
this concern, we are currently negotiating a change to the MDA GMD 
Prime Contract to provide for the development and implementation of a 
Non-Conformance Tracking System. The tracking system will be used to 
collect and consolidate all failure and maintenance data from the GMD 
Prime Mission Equipment, and government provided facilities. The data 
from the system will be used by both the Prime Contractor and the 
Government to identify root cause for failures and to assist in the 
tracking of corrective actions and failure trends.
    The DOT&E expressed concern that our developmental flight-tests to 
date have flown against precisely characterized target complexes in a 
scripted manner. In response to that concern I would note that some 
degree of scripting is required to address flight safety 
considerations, and to ensure maximum engineering flight test value 
through carefully considered test objectives. Limited scripting also 
helps us learn and verify system attributes, capabilities, and 
limitations through empirical data analysis and verification. This is 
accomplished in a measured, step-wise fashion. As the system matures, a 
more operationally oriented test program (that is, less a priori 
information and more randomness in certain test conditions) can be 
achieved. In future flight tests, as we gain confidence in components 
and as system level developmental test objectives are sufficiently 
demonstrated, less a priori information will be made available.
    Another issue concerned prime contractor personnel responsibility 
for conducting flight test missions. I will say that such is not 
unusual in developmental testing. Again, as developmental test 
objectives are satisfied, more and more military operators are included 
in testing. Military operators did man some of the system consoles 
during Integrated Flight Test l3C. This will continue and increase for 
future flight tests. For ground tests conducted for the operational 
system, we use a ground test hardware-in-the-loop system to accomplish 
required developmental objectives. The hardware-in-the-loop system is 
then turned over to military operators for Operational Testing use. 
This practice will also be continued.
    The DOT&E was concerned that ground testing with the deployed 
hardware and software has just recently begun, and is not part of this 
assessment, and that Limited Defensive Operations hardware and software 
configurations have not yet been flight tested. I want to note that 
Distributed GMD and system-level ground tests (GT 04-2 and GT 04-6) are 
scheduled for the end of the calendar year 2005. These two events 
coupled with the preceding laboratory hardware-in-the-loop integrated 
ground test (GT04-1) will provide a comprehensive test of the fielded 
Block 2004 operational hardware and software. Hardware and software 
configurations from these ground tests will be included for the next 
flight tests. Those tests will add to our knowledge of hardware and 
software components of the BMD System that were tested during IFT-13C 
and IFT-14. The GBI will be flight-tested but I will defer setting a 
definitive schedule until I receive the recommendations of the Mission 
Readiness Task Force.
    Lastly, the DOT&E was concerned that due to the contractor 
personnel maintaining the system, reliability and maintainability data 
are very limited. The DOT&E stated that although these data voids are 
normal for a program in this early stage of development, the desire to 
deploy the system for operational missions increases the significance 
of these data voids and increases the risk associated with deployment. 
The GMD Element is comprised of a combination of legacy systems, 
modified legacy systems, contracted Prime Mission Equipment, and 
government provided facilities. The legacy systems, such as Cobra Dane 
and the Early Warning Radar (Beale), have their own existing 
sustainment programs to collect and archive reliability and 
maintainability data. That data is provided to the MDA. The GMD Prime 
Mission Equipment was designed and developed for contractor logistic 
support. As such, the GMD prime contractor is responsible for the 
reliability and maintainability data for the Prime Mission Equipment 
and the government provided facilities. As I discussed earlier, the GMD 
Element has processes to collect reliability and maintainability data. 
This data is made available to the Joint Reliability and 
Maintainability Evaluation Team (Operational Test agency, Warfighter, 
MDA, and Prime Contractor personnel). Although the data is as yet 
limited, when the previous discussed changes to the Prime Contract are 
made later this year, the GMD Program expects sufficient reliability 
and maintainability data will be available over the next year to be 
able to determine the expected availability of the Element and, if 
necessary, what corrective actions are needed. We believe the course we 
have laid out, will mitigate the risks associated with the decision to 
deploy the developmental system.

  military utility assessment of ground-based midcourse defense (gmd) 
                                 system
    33. Senator Bill Nelson. General Cartwright, you led the military 
utility assessment of the GMD. Did you conclude that the system as it 
is today provides significant military utility and capability, or that 
it needs more time for testing and development to achieve such utility 
and capability?
    General Cartwright. The Military Utility Assessment has been 
forwarded to the Secretary of Defense (SECDEF) who is the releasing 
authority for the document.

                strategic command (stratcom) user input
    34. Senator Bill Nelson. General Cartwright, as the responsible 
combatant commander for integrated missile defense, do you have a 
process whereby you can provide user input to the MDA as to the 
warfighter needs of the different regional and functional commanders, 
including yourself? In other words, are you able to tell MDA what 
capabilities would be most useful to the warfighters, rather than 
simply receiving what the developers can produce? If so, how does that 
process work?
    General Cartwright. Yes, the Warfighter Involvement Process (WIP) 
injects warfighter needs into the MDA. This process is being evolved to 
improve and streamline warfighter advocacy in the BMDS development 
process.
    The WIP is used to collaboratively develop combatant commander 
(COCOM) capability needs for Integrated Missile Defense (IMD). The WIP 
currently has five subordinate Focus Groups to address specific needs 
in Command and Control Battle Management Communications (C2BMC), Active 
Defense, Sensors, Architecture and Engineering and Test and Evaluation. 
The intent of the Focus Groups is to analyze, validate, and baseline 
capability issues to assist in MDA's development effort. As an example, 
the C2BMC Focus Group just recently convened in March to review 99 
desired capabilities (findings from the October/December 2004 planner 
experiment) that resulted in 29 Modification Requests submitted to MDA 
to enhance C2BMC capability.
    My staff, in conjunction with the Joint Theater Air and Missile 
Defense Organization (JTAMDO) is working to expand the existing WIP to 
address the full spectrum of Doctrine, Organization, Training, 
Material, Leadership and Education, Personnel, and Facilities (DOTLMPF) 
issues in support of the IMD mission.

                     cost pressures on mda and bmd
    35. Senator Bill Nelson. Secretary Wynne and General Obering, in 
its recent report on the status of the BMD program in 2004, the 
Government Accountability Office (GAO) concluded that MDA faced cost 
overruns of some $370 million for fiscal year 2004, and that in the 
future ``MDA will likely face increased funding risks,'' both from 
other DOD programs and from the increased funding required for 
procurement and sustainment as more missile defense components are 
fielded over time. What are you doing to keep the missile defense 
program from having such cost overruns and to remain as affordable as 
possible?
    Mr. Wynne. General Obering continuously monitors development and 
production contractual performance and makes internal adjustments as 
needed. I personally review the entire BMDS program once a quarter. To 
minimize technical risk, and in turn cost risk, MDA has adopted a 
knowledge-based acquisition process, where individual elements have to 
achieve a series of technical and programmatic milestones. Lieutenant 
General Obering has the latitude to terminate, delay, or accelerate 
individual efforts providing him options for various phases of defense. 
This allows him to strike the best balance between the defensive 
capabilities to be fielded and available funding.
    General Obering. Some facets of future layered Missile Defense 
remain technologically challenging. To minimize the technical risk, and 
in turn the cost risk, MDA has adopted a knowledge-based acquisition 
process where individual programs have to achieve a series of technical 
and programmatic milestones. Lieutenant General Obering assesses 
program progress and has the latitude to terminate, delay, or 
accelerate individual programs providing him options for various phases 
of defense. This allows him to strike the best balance between the 
defensive capabilities to be fielded and available funding.

         government accountability office report recommendation
    36. Senator Bill Nelson. General Obering, GAO recently issued its 
annual report on the status of the BMD program in 2004, as required by 
law that was written by this Committee. GAO found that MDA has not 
consistently aligned its cost and fielding goals. For example, MDA has 
requested funds for Block 2004 activities that will actually be carried 
out in later blocks, a practice that GAO says obscures the relationship 
between requested funding and delivered capabilities. The DOD concurred 
with the GAO's recommendation that MDA should ``clarify and modify, as 
needed, its block policy to ensure that a block's cost and fielding 
goals are consistently aligned.'' What are you doing, or planning to 
do, to implement GAO's recommendation, and when will your 
implementation of this recommendation be complete?
    General Obering. This year the MDA submitted to Congress the 
baseline documentation as required by law and recommended by the GAO. I 
believe the baseline document addresses the shortcomings of our Block 
reporting structure as highlighted by GAO and provides sufficient data 
against which our annual progress in missile defense development and 
fielding can be measured. Specifically, I believe the baseline document 
more appropriately aligns our cost and fielding goals.

                     arrow missile defense program
    37. Senator Bill Nelson. General Obering, how would you assess the 
success of the Arrow program to date, including the flight test results 
from Point Mugu?
    General Obering. The Arrow Program has been one of our most 
successful Missile Defense programs. It has an outstanding test record 
and is proving to be well suited for its mission as Israel's National 
Missile Defense System. Tests in Israel and in the United States (Point 
Mugu, CA) have shown the system is very effective against short range 
ballistic missile threats such as the various SCUD-class missiles.
    The first test at Point Mugu in July 2004 intercepted a short range 
liquid fueled missile and accomplished all test objectives. The second 
test at Point Mugu in August 2004 was an attempt to intercept a more 
complex short range target with a separating warhead. This test 
completed many of its objectives and confirmed that the system has 
inherent capability to accomplish the mission against a more 
challenging threat. However, an intercept was not achieved due to a 
component failure during the interceptor's second stage of flight. 
Subsequent investigation pointed to damage resulting from high 
vibration levels during the interceptor's transport from Israel to 
Point Mugu as the most likely cause of the component failure.

    38. Senator Bill Nelson. General Obering, given the expanding 
threat of short-range and medium-range ballistic missiles in the Middle 
East, do you think there might be utility in a joint U.S.-Israeli 
effort to address this threat?
    General Obering. The Arrow system, supported by Patriot, has been 
developed and optimized to defend Israel against the medium-range and 
most short-range ballistic missiles. Our joint U.S.-Israeli Arrow 
System Improvement Program continues to assess and improve the 
capability of the Arrow Weapon System to meet the evolving threat in 
the region.
    The proliferation of short range ballistic missiles and large-
caliber rockets is of great concern to both Israel and the United 
States. At present, the Israeli Patriot system has the capability to 
intercept some of these threats, albeit at a relatively high cost. In 
the United States, the MDA and the military services are developing 
other systems that will add to this capability in the future.
    We recognize that developing an effective yet low cost interceptor 
to defend against these short range threats will be a significant 
challenge. Recently, Israel began evaluating the feasibility of two 
concepts for low-cost interceptor systems proposed by Israeli industry.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                      need for operational testing
    39. Senator Reed. Secretary Wynne and General Obering, at the 
hearing, General Cartwright and Mr. Duma both said that the currently 
fielded GMD system is not yet mature and needs realistic operational 
testing, consistent with the maturity of the system. Do you agree with 
their assessment?
    Mr. Wynne and General Obering. We are in the early stages of 
providing an unprecedented defensive capability; and our confidence is 
based on performance of individual elements of the system and of 
testing conducted throughout the development program, supplemented by 
modeling and simulation. We now must drive discipline into our 
processes, improve the overall system reliability so that the system 
works every time, and verify this with realistic operational testing. 
In that sense, I agree the system is not yet mature.

                          flight test failure
    40. Senator Reed. General Obering, you have characterized the 
failure in Integrated Flight Test (IFT)-13C of the GBI to launch as a 
minor ``glitch'' involving one line of software code. Can you explain 
why the problem was not found and corrected prior to IFT-13C in the 
engineering and integration phases of development and testing?
    General Obering. The problem was not found in testing prior to 
Integrated Flight Test -13C because one of the GMD system component 
simulators used in ground testing did not exactly reflect the flight 
hardware configuration. Accordingly, all aspects of the interceptor 
behavior were not captured during ground testing. Specifically for 
Integrated Flight Test -13C, the Inertial Measurement Unit Simulator 
used in pre-mission testing did not operate at the exact clock 
frequency used by the flight hardware. This minor clock difference 
meant that certain non-periodic timing behavior of the integrated 
booster vehicle electronics was not properly captured during ground 
testing. The root cause of the Integrated Flight Test-13C failure-to-
launch was a software threshold set overly conservatively to 10 percent 
of the allowable limit. It was not caught in ground testing because of 
the minor differences in this non-periodic timing behavior between the 
Inertial Measurement Unit flight hardware and the simulator which 
represents it used in ground testing. The software correction made sets 
the threshold at the allowable limit.

    41. Senator Reed. General Obering, how will you ensure that there 
are no other similar software problems in a system that has millions of 
lines of software code, many of which are being revised and changed on 
a regular basis?
    General Obering. The processes used for development, testing, and 
verification of software code are among many areas under review by an 
independent Mission Readiness Task Force that I have formed and asked 
Rear Admiral Paige to lead. The Mission Readiness Task Force is 
reviewing all processes and procedures to ensure needed flight-testing 
corrective actions are taken and that the GMD Program is ready to 
return to flight-testing.
    In addition, we are committed to maintaining configuration control 
of the operational BMD System at all times with the establishment of an 
Operational Configuration Control Board. Under the Operational 
Configuration Control Board, no changes are permitted to the 
operational hardware or software outside of this formal configuration 
control process.
    There is no way to completely guarantee no software errors. 
However, the GMD program has implemented rigorous processes for 
software assurance, peer reviews, end-to-end ground testing using high 
fidelity hardware-in-the-loop system test facilities and actual fielded 
hardware, and Independent Verification and Validation assessments to 
mitigate potential software problems. In addition, fault tolerant 
software design features are built-in to the system wherever possible.
    GMD software development organizations are required to meet the 
Software Engineering Institute's Software Capability Maturity Model 
level three--or higher--which fosters defined, repeatable software 
development processes. The Software Capability Maturity Model is the 
most up to date industry standard recommended for software development 
organizations. The Model describes an evolutionary improvement path to 
a mature, disciplined software development approach. The prime 
contractor and the government provide joint teams to periodically 
verify compliance, following the Software Engineering Institute's 
compliance evaluation process. By following these processes, the 
software development organizations form teams that eliminate faults and 
hold individual developers accountable for their work. Peer reviews 
conducted during the requirements, design, coding, and test procedure 
generation phases of the software development process have proven to be 
an effective means to identify and correct software problems. Other 
errors may be found and corrected during the component unit, 
integration, and system test phases. System level faults can also be 
found by the software development organizations when external 
interfaces can be realistically simulated. It is the strength of these 
processes that determine the quality of the software that is delivered 
to the prime contractor's integration and system test labs.
    The integration of software for various components is done in 
hardware-in-the-loop system test laboratories, where it is further 
tested against all requirements using the standards above. Test 
procedures are well documented and the testing does not proceed to the 
next step until all criteria are met. The software is kept under 
configuration control and if any changes are required in order to 
satisfy a requirement, the software must undergo regression testing to 
confirm all previous results. This rigorous testing and retesting is 
done throughout the integration process in the laboratory. Once the 
system is fully integrated in the laboratory, it is thoroughly tested 
against the established requirements. These system-level tests are 
called Integrated Ground Tests and are used to understand system 
behavior against a wide range of threats and environments.
    Once the software is certified by these laboratory processes, it is 
loaded into the components in the field for a distributed ground or 
flight test. There are well-defined rigorous standards and 
instrumentation for testing conducted during this stage to insure the 
software continues to perform in the same manner as it did in the 
laboratory.
    Finally, concurrent with these Prime Contractor procedures, the 
government conducts Independent Verification and Validation to ensure 
the software meets system requirements. Independent Verification and 
Validation teams evaluate requirements and code development, and 
perform independent testing of component (interceptor, radar, fire 
control) software builds. This process is repeated at the integrated 
GMD system level where all the components are brought together.

      distinguishing ballistic missiles from space launch vehicles
    42. Senator Reed. General Obering, there are currently a number of 
programs underway to produce a boost-phase or ascent-phase missile 
defense capability. If these development efforts succeed in producing 
such a capability, the systems would have to operate on extremely short 
time-lines to succeed. Given the short operational time-lines, how will 
our system distinguish between a space launch vehicle with a satellite 
payload and a threatening ballistic missile with a warhead, so we do 
not shoot down a space launch vehicle?
    General Obering. The battle management process for our boost phase 
intercept systems can potentially take advantage of multiple elements 
of information including the missile launch location, current public 
and intelligence information, and the missile launch trajectory to 
avoid engaging satellite launch vehicles. First, satellite launches are 
normally conducted from well-known launch sites. Second, we would 
expect notification of planned satellite launches in accordance with 
public international practice, or from U.S. intelligence sources. 
Finally, analysis of the trajectory of an ascending space launch 
vehicle, using data from the sensors supporting the boost phase 
intercept systems, can determine whether there are potential targets 
along the projected flight path. In some cases, the launch vehicle's 
heading (launch azimuth) may be well away from any plausible targets, 
and could be excluded from engagement. However, if the vehicle were 
either unannounced or significantly deviated from its planned flight 
path, time of launch, or location, and is determined to be a capable of 
reaching the U.S. our operators may consider it a hostile act.

                     flight tests from fort greely
    43. Senator Reed. General Obering, your predecessor General Kadish 
told this committee last year that he was completing necessary studies 
to support using Fort Greely as a missile test launch site in the 
future. What is the status of that effort to use Fort Greely as a test 
launch site?
    General Obering. The MDA conducted a preliminary study looking at 
the technical feasibility of test launching GBIs from Fort Greely last 
April. Specifically, the MDA performed a quick look feasibility 
analysis of possible flight trajectories from Fort Greely considering 
several factors, including operationally realistic engagements, target 
launch sites, and safety.
    The MDA then conducted an initial range safety assessment often 
preliminary ``most feasible'' GBI trajectories. This preliminary study 
identified three potential flight corridors that if subjected to a more 
refined and rigorous flight safety analysis could pass range safety 
standards for public safety. Results of this additional study could be 
used as inputs to MDA's subsequent environmental studies.
    We are building a Geographical Information System tool to 
facilitate our analysis of mapping data characterizing the Alaska 
region. This Geographical Information System analysis tool will assist 
MDA test planners in developing potential flight test alternatives that 
could be subjected to further safety and environmental analysis if MDA 
considers continuing planning towards a decision for test launches from 
Fort Greely.

    44. Senator Reed. General Obering, does MDA still plan to fire test 
missiles from Fort Greely? If so, what is the earliest point such tests 
would be launched from Fort Greely?
    General Obering. While we have conducted a feasibility analysis and 
are building a Geographic Information System tool to support our 
planning process, we would not make definitive plans to test launch 
GBIs from Fort Greely until after the necessary environmental- and 
safety-related studies are completed, which will take between 13 and 24 
months depending on the complexity of the analyses. In addition, we 
would need to develop the mandatory data collection architecture and 
range safety procedures to safely support GBI's launches from Fort 
Greely, which could take an additional 12 months, for a total of 2 to 3 
years. The earliest such tests could be conducted would be 2 to 3 years 
after the initiation of the National Environmental Policy Act process.

                   bmd mission goal and affordability
    45. Senator Reed. Secretary Wynne, the stated goal of the BMDS is 
to defeat ballistic missiles of all ranges in all phases of flight in 
defense of our homeland, our deployed forces overseas, our allies, and 
our friends. We are spending nearly $10 billion per year to develop 
missile defense systems, and have barely begun to field relatively 
immature systems. What is the order of magnitude you believe it would 
cost to deploy and operate a missile defense system over the next 30 
years that can defeat all short-, medium-, intermediate-, and long-
range ballistic missiles in their boost, midcourse, and terminal phases 
of flight virtually around the globe on a 24-hour, 365-day basis--if it 
is technically possible?
    Mr. Wynne. Today the U.S. has an initial capability to destroy 
missiles heading toward the U.S. where previously we had none. The BMDS 
now in-place cost roughly $12 billion, which is a small fraction of the 
cost one weapon of mass destruction could inflict on the Nation. The 
spiral development program we have in place will deliver additional 
capabilities in increments. The configuration of these increments, and 
thus the 30-year cost, will be affected by future circumstances, 
including changes in the threat.

    46. Senator Reed. Secretary Wynne, do you have any concerns about 
the affordability of such a system, especially given the need to 
provide adequate resources for our worldwide effort to defeat 
international terrorism?
    Mr. Wynne. Affordability must be judged in light of the stakes 
involved. The GAO Audit 02-700R estimated damage costs for the 
terrorist attacks of September 11, 2001, alone, at $83 billion. A 
single WMD-tipped ballistic missile would cause far greater damage and 
costs to the Nation. September 11 showed us that our adversaries are 
willing to attack by any means available. If we abandon a missile 
defense capability for this Nation, we may be seen as inviting 
terrorists to pursue this form of attack.

    47. Senator Reed. Secretary Wynne, is it possible that, if the 
ballistic missile threat does not become severe, we could decide upon a 
less robust and less costly missile defense system?
    Mr. Wynne. There are currently more than 20 countries with 
ballistic missile technology; and, even after implementing the next few 
blocks of BMD System capability, we will just be catching up with the 
current threat. If, however, the presence of our system dissuades 
further proliferation of ballistic missiles, it may be appropriate to 
scale back future growth.

 airborne laser (abl) program versus kinetic energy interceptor (kei) 
                                funding
    48. Senator Reed. General Obering, your prepared testimony 
indicates it will be at least 3 years before we even know whether the 
Airborne Laser program (ABL) or the KEI program can provide a useful 
boost-phase missile defense capability. In the meantime, the budget 
request indicates that we plan to spend over $9 billion on these two 
systems over the next 6 years. If either program shows that it cannot 
affordably provide a significant military capability, or won't work, 
will you terminate the program, or take whatever steps are appropriate 
to prevent unnecessary spending on a failing program?
    General Obering. Yes. The authority to make terminations and other 
program tradeoffs within the single BMD program has been delegated to 
me by the Deputy Secretary of Defense in the MDA charter. In the event 
I terminated a part of the BMDS program, I would redirect funds and 
usable technology from the cancelled program to other, more promising 
efforts elsewhere in the BMDS. I would, of course, consult with the 
Under Secretary (AT&L) and, in the process, I would comply with 
reprogramming requirements and otherwise keep the defense committees 
informed.

    49. Senator Reed. General Obering, are you examining ways of 
learning the technical feasibility and utility of either technology in 
a less costly manner?
    General Obering. We have proven the feasibility of the enabling 
technologies for the ABL/KEI at the subcomponent, assembly, and item 
levels. ABL recently had successful ``first light'' and ``first 
flight'' tests; the KEI design requires no new inventions or technology 
breakthroughs. What we have not done yet is integrate the key ABL/KEI 
capabilities and tested them at the full-scale performance levels 
needed to assess boost phase intercept military utility. This full 
scale design, development, integration, and testing is necessary to 
support a decision to move forward with the acquisition of either the 
ABL/KEI. This is why we established the fiscal year 2008 knowledge 
points for both the ABL/KEI programs. Our plan is to closely monitor 
incremental progress made in each program between now and fiscal year 
2008. If we run into execution issues prior to fiscal year 2008 we will 
make the appropriate decisions and budget adjustments. If ABL and KEI 
are successful through 2008, we may proceed with both because of the 
complementary capabilities they offer the BMD System. We believe this 
is the most efficient acquisition approach for the country in this 
critical capability area.

    50. Senator Reed. General Obering, is it your intention to proceed 
with only one of these programs, depending on which one shows the 
greatest promise--assuming either or both would work? Or would you plan 
on fielding both systems? If the latter, what would be the estimated 
total cost to build and operate both systems?
    General Obering. ABL is our primary boost phase program, and KEI is 
a backup in the boost/ascent phase. The KEI booster also will have 
significant capability as a midcourse interceptor, particularly for 
some of the advanced payloads we are developing, for example the 
Multiple Kill Vehicle payload. The Department will make a decision on 
whether to pursue one, both, or neither of these programs in the fiscal 
year 2008 time frame, after each program has passed through major 
capability demonstrations--or knowledge points.
    If we pursue both programs, we could field one land-based KEI fire 
unit (10 interceptors) in the 2012-2014 timeframe and the two ABL test 
bed aircraft in the 2014-2016 timeframe. In the fiscal year 2006 
President's budget, MDA has included about $4.3 billion for ABL and 
$4.9 billion for KEI in fiscal year 2006-2011. These costs are 
associated with the development programs and do not include funds to 
field or operate these systems. Pending successful capability 
demonstrations, as both of these systems continue to mature MDA intends 
to work with the Department and the Services to determine appropriate 
fielding opportunities and refine the costs beyond the FYDP that would 
be required to build and operate these systems.

                             space test bed
    51. Senator Reed. General Obering, the budget request documents 
indicate that you plan to begin a space test bed project in fiscal year 
2008 that is intended to produce space-based interceptors on 50-100 
satellites, and include ``multiple space-based intercept tests in Block 
2012-2014 and a constellation production decision in Block 2014.'' 
Placing interceptors in space would be a controversial and expensive 
step. Congress eliminated the funding last year for space-based 
interceptor work. We are already fielding the Patriot PAC-3 system and 
the GMD system. We are starting to produce standard missiles for the 
Navy's Aegis BMD system, and pursuing the ABL and KEI systems, as well 
as THAAD--all at a cost of more than $50 billion over the next 6 years. 
We are facing a very limited long-range ballistic missile threat. I 
understand that the budget request indicates some $670 million in the 
FYDP just to start the space test bed. What would a space-based 
interceptor (SBI) system cost to build and operate, including the full 
constellation of satellites and related equipment?
    General Obering. We intend to use the space test bed to explore the 
advantages, and the costs, of engaging ballistic missile threats from 
space. We cannot reliably estimate costs until we learn more. As 
mentioned in our budget documentation, a constellation of 50-100 
satellites would provide a thin boost/ascent capability against ICBMs 
(and a midcourse capability against medium to intercontinental range 
ballistic missiles), regardless of the origin of the threat and the 
size of the threat country. We have not made a decision to produce such 
a constellation. The space test bed effort will examine concepts for, 
and the size and cost of, a space-based interceptor constellation.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
                         missile defense policy
    52. Senator Clinton. Mr. Duma, in mid-February, I had an exchange 
with Secretary Rumsfeld on the administration's Missile Defense Policy. 
I pointed out that the last time there was a successful intercept test 
of the National Missile Defense System was October 2002 and that was 
using immature, surrogate components in a highly choreographed and 
unrealistic test.
    Now, President Bush decided, in December 2002, to begin fielding 
the system by the end of 2004, before any operational tests were 
planned or conducted. Since the President's decision, there have only 
been failed intercept flight tests of the system. The new interceptor 
has not even left the silo during the tests. Would you agree that 
realistic operational tests could give us confidence in whether the 
system works effectively, and that if the system does not work 
effectively, we should not be spending billions of dollars on it?
    Mr. Duma. I agree that realistic operational testing is essential 
to characterizing the capabilities of the BMD System. Until we have 
challenged the system in a realistic testing environment, I do not 
believe we can confidently assess its effectiveness, suitability, 
survivability, and lethality. Characterizing performance is a critical 
step to support prioritizing the Department's resources. The 
appropriate investment strategy for Ballistic Missile Defense is for 
Congress and the administration to decide.

    53. Senator Clinton. Secretary Wynne, in your testimony, you state 
that ``we have indeed fielded an inherent capability that can be used 
for limited defense of the United States against long-range threats 
from North Korea.'' Given that the last time we had a successful test 
was October 2002 and that was using immature, surrogate components in a 
highly choreographed and unrealistic test, how can you describe the 
U.S. as having ``an inherent capability?''
    Mr. Wynne. Our confidence in the capabilities we are placing in 
service is based on an assessment of the performance of individual 
elements of the system and of the overall system during testing 
conducted throughout the development program, supplemented by modeling 
and simulation. We are in the early stages of providing an 
unprecedented defensive capability. Our recent GBI failures have not 
shaken our confidence in the fundamental system. This is a complex 
system with a number of components that have to work together, and MDA 
is implementing a thorough quality control program that is focused on 
the small details that will improve the overall system reliability. I 
am confident future testing will demonstrate the full capabilities and 
quality of the BMDS.

    54. Senator Clinton. Secretary Wynne, General Cartwright, Mr. Duma, 
and General Obering, during an exchange with Secretary Rumsfeld at an 
Armed Services Committee hearing in February, I said to him: ``I know 
that the decision was made by the President to deploy, to begin 
fielding the system, by the end of 2004. So it's basically the position 
of the administration that we're deploying regardless of whether we 
have any successful tests, for whatever reason--whether it was computer 
errors in getting the silo open or other more serious errors--we're 
still committed to deploying a system that has not proven it can work. 
As I understand the theory behind that, that just by deploying a 
system, it serves a deterrent value. It strikes me a little odd that we 
would deploy a system that hasn't succeeded and expect that to serve a 
deterrent value.''
    Secretary Rumsfeld replied, ``I agree with that point, that there's 
no deterrent if something is known to not work.''
    Do you agree with Secretary Rumsfeld that a missile defense system 
that hasn't succeeded will not have a deterrent value?
    Mr. Wynne. I agree with the Secretary's statement that ``there's no 
deterrent if something is known to not work.'' However, we believe the 
BMDS does work and provides a limited missile defensive capability. The 
BMDS testing to date shows the system is fundamentally sound and has an 
inherent operational capability. The two recent test failures have been 
frustrating as they have prevented testing all of the system's 
capabilities. Lieutenant General Obering has recently implemented an 
extensive quality control program. I approved this program, and I have 
asked him to emphasize it. I am confident the overall system will work; 
now I want to see it work consistently.
    General Cartwright. In the case of the BMD System, we have a system 
that has demonstrated a rudimentary capability through extensive 
testing. While some recent testing has not been successful, the MDA and 
the warfighter community have gained valuable knowledge in the 
evolution of this new mission and we will use the results to further 
refine capabilities. Recent failures have been fixed. Scheduled testing 
in 2005 will provide redundancy and depth to command and control 
sensors and weapons.
    Mr. Duma and General Obering. I agree that a system which is known 
not to work has no deterrent value.

    55. Senator Clinton. General Obering, in your prepared testimony, 
you state that ``with the initial fielding last year of the GMD and 
Aegis surveillance and track capabilities of this integrated system, we 
are establishing a limited defensive capability against a long range 
North Korean missile threat. Is the system in place able to target 
missiles in each phase of launch?
    General Obering. Yes, the system in place is able to track and 
destroy long range missiles in each phase of flight. The Defense 
Support Satellite (DSP) system provides the initial warning to the BMD 
System that a missile has been launched, and will track the missile up 
through its burnout phase. The Aegis BMD ships, by utilizing their on-
board radars, track the missile while it is still burning through 
burnout and then through the initial ballistic trajectory, i.e. 
unpowered flight. Finally, based upon the information received from 
these two sensors and the Cobra Dane radar at Shemya, Alaska; the BMD 
System interceptor is launched to intercept the threat missile in the 
midcourse phase of flight. For shorter range missiles, the Patriot PAC-
3 is our battle tested defense for missiles in the terminal phase. With 
the development, testing and fielding of each subsequent block of the 
system, we will create a layered BMD System and increase our ability to 
respond to all phases of the ballistic missile threat.

    56. Senator Clinton. General Obering and Mr. Duma, MDA documents 
acknowledge that during the midcourse phase, there is a greater 
opportunity to deploy countermeasures against a defensive system. These 
countermeasures include readily available technology such as separating 
reentry vehicles, radar absorbing material, booster fragmentation, low 
power jammers, chaff, and even simple balloon decoys. Has there been 
any testing of the ability of the missile defense system to respond to 
these countermeasures? What has been the result?
    General Obering. [Deleted.]
    General Obering. Yes, by using data from our early sensor flight 
tests and data from other U.S. flight tests, we have conducted several 
ground hardware in the loop tests and high fidelity simulations which 
``flew'' both simple and moderately complex countermeasures using the 
actual processors and discrimination algorithms from the kill vehicles, 
battle management, and radars. the GMD system, using a prototype EKV, 
has also been successfully tested against threat-representative 
separating reentry vehicles accompanied by various debris and some 
countermeasure objects. We also have conducted non-intercept flight 
tests known as risk reduction flights, which have successfully tested 
the radar discrimination algorithms against a range of countermeasures.
    A more detailed explanation involves classified information, which 
we have provided under separate cover.
    Mr. Duma. [Deleted.]

    57. Senator Clinton. General Obering and Mr. Duma, ostensibly, the 
decision to deploy a missile defense system by 2004 and 2005 is to 
defend the U.S. against a possible missile attack by North Korea. Will 
the system in place this year be able to defend against North Korean 
missiles if they are equipped with countermeasures?
    General Obering. The BMD System currently available for emergency 
operations provides a defensive capability against ballistic missile 
attacks from North Korea. The EKV provides the discrimination 
capability for the GMD Element to defend the United States and it 
demonstrated an initial capability to discriminate between a threat 
warhead and simple countermeasures. The SBX will begin to contribute in 
late 2005 to the GMD element by providing additional capability for 
discriminating the threat warhead from simple countermeasures. These 
additional SBX capabilities will be used to help direct the EKV to the 
threat warhead. In short, if the countermeasures are simple, then the 
current system in place will be able to discriminate between the threat 
warhead and other objects in the threat cluster. Of course, additional 
and more robust discrimination capabilities will be integrated in 
future Block upgrades of the BMD System.
    Mr. Duma. Intelligence estimates suggest the North Korean threat 
has very limited countermeasure capability at this time. MDA has 
achieved intercepts during developmental testing, against some limited 
countermeasures. The two most recent flight test attempts were intended 
to demonstrate capability against other simple countermeasure, but 
difficulties with the missile pre-flight check and the ground support 
equipment prevented the interceptor from launching. MDA is building the 
test bed infrastructure to support testing under more realistic 
operational conditions, including countermeasures.

    58. Senator Clinton. General Obering and Mr. Duma, do we know if 
the North Koreans are researching countermeasures technology for their 
missile program?
    General Obering. The answer is classified, and we have provided it 
under separate cover.
    General Obering. [Deleted.]
    Mr. Duma. [Deleted.]

    59. Senator Clinton. General Cartwright and General Obering, the 
boost phase missile defense approach is the one that seems the least 
affected by possible countermeasures. Given that the location of North 
Korea and Iran--the most likely threats of a ballistic missile threat--
are such that a boost phase intercept system is technically feasible, 
how are boost phase interceptors incorporated into your missile defense 
plan?
    General Cartwright. Currently, there are no operational active 
defense boost phase systems to support global missile defense. Systems 
in development by the MDA and the Navy have an emergency capability to 
counter short range ballistic missiles and medium range ballistic 
missiles in late boost and early mid-course. This system is 
incorporated into current plans only as a BMDS Emergency Activation 
Capability. Other boost phase active defense capabilities, such as ABL, 
are projected for later spiral blocks but are not currently considered 
in the existing missile defense plans. New boost phase intercept 
capabilities will be incorporated into BMDS Emergency Activation Plans 
and other operational plans as these new system capabilities become 
available for employment by the warfighter.
    General Obering. We plan to have boost phase interceptors ready for 
introduction into the BMD System in Block 12 or Block 14. We are 
currently restructuring the KEIs program to account for reduction of 
our BMD System Interceptors Program Element by $5 billion over fiscal 
years 2006 through 2009 (as compared to President's Budget 2005). The 
results of the restructure, to be completed by the end of calendar year 
2005, will tell us in which of these two blocks boost phase 
interceptors will be available.
    Boost-phase interceptors will initially deploy on land-mobile 
tractor trailers, enabling a boost defense layer against landlocked 
states like Iran. We will design our interceptors for easy adaptation 
to deploy on ships. Sea-mobile interceptors can defend against states 
like North Korea where it may not be possible to use land-mobile 
interceptors. The MDA, working with the Navy, will decide in the next 
year on the appropriate platform and schedule for deploying sea-mobile 
boost phase interceptors.
    In the near term, our KEIs program is focusing on the essential 
development and test efforts required to demonstrate critical boost 
defense capability and support a fiscal year 2008 knowledge-based 
decision point on continuing the program.

    [Whereupon, at 4:47 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
